<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-838]
[From the U.S. Government Publishing Office]



                                                      S. Hrg. 112-838
 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013

=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5855/S. 3216

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF HOMELAND SECURITY 
 FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2013, AND FOR OTHER PURPOSES

                               __________

                    Department of Homeland Security
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
72-317                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             SUSAN COLLINS, Maine
DIANNE FEINSTEIN, California         LISA MURKOWSKI, Alaska
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
TIM JOHNSON, South Dakota            MARK KIRK, Illinois
MARY L. LANDRIEU, Louisiana          DANIEL COATS, Indiana
JACK REED, Rhode Island              ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      JERRY MORAN, Kansas
BEN NELSON, Nebraska                 JOHN HOEVEN, North Dakota
MARK PRYOR, Arkansas                 RON JOHNSON, Wisconsin
JON TESTER, Montana
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
FRANK R. LAUTENBERG, New Jersey      DANIEL COATS, Indiana
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
JON TESTER, Montana                  JERRY MORAN, Kansas

                           Professional Staff

                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                              Nora Martin
                      Courtney Stevens (Minority)

                            C O N T E N T S

                              ----------                              

                        Thursday, March 8, 2012

                                                                   Page

Department of Homeland Security..................................     1

                         Wednesday, May 9, 2012

Department of Homeland Security: U.S. Coast Guard................    83
Nondepartmental Witnesses........................................   123


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 8, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Lautenberg, Tester, Coats, 
Cochran, Murkowski, and Moran.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning, everyone. Let me call the 
subcommittee to order for homeland security review of the 
budget. We welcome Secretary Napolitano.
    As is our custom, I will start with an opening statement 
and turn to my ranking member, Senator Coats, and then 
recognize Senator Lautenberg, who will be joining us in a 
minute. Then we will hear from the Secretary and open it up to 
questions and comments from our members.
    Madam Secretary, it has been a busy week for all of us, 
particularly for you, who conducted for us in a classified 
session just yesterday afternoon a cyber exercise, and we 
appreciate your focus and attention on that very important 
mission of your Department and a very present threat to our 
Nation.
    We welcome you. You lead a Department of 230,000 men and 
women who are on the front lines every day protecting our 
citizens. Last week, we were reminded of the real danger they 
face every day when we lost four Coast Guard personnel in a 
training helicopter mission over Mobile Bay.
    In fact, ladies and gentlemen, as our subcommittee meets 
this morning, a memorial service is being held in Mobile, 
Alabama, to honor the crew members who were lost in this tragic 
accident. They are Lieutenant Commander Dale Taylor, Lieutenant 
Junior Grade John Cameron, Chief Petty Officer Fernando Jorge, 
and Petty Officer Andrew Knight.
    We send our condolences, Madam Secretary, to their 
families, to their loved ones, and to the Coast Guard personnel 
who served with them.
    We commend the Department of Homeland Security (DHS) 
employees for their dedication and their service, and I commend 
you for your continued leadership. Having been a former 
Governor of Arizona, you are well aware of the threats along 
our southern border and have been an expert in executing some 
of those provisions. But you have developed quite an expertise 
across the border.
    We welcome you to our subcommittee today.
    To my friend from Indiana, Dan Coats, I want to say we 
stand with you in supporting the communities and individuals, 
families, and businesses that were disaster victims and 
survivors. We want to work with you, Senator Coats, the 
volunteers, and all of our first responders to do everything we 
can to help in Indiana and Ohio.
    I know that the Federal Emergency Management Agency (FEMA) 
that showed up to help you was a lot better than the FEMA that 
showed up many years ago along the gulf coast, and we should 
all be proud of the work that we have done to make that happen. 
I am sure we still have other things that need to be done, but 
it is a much better FEMA. And I hope you will find them to be a 
reliable partner with your local governments.
    My goal in this bill--and hopefully, it is shared by all of 
you--is to produce a bipartisan, fiscally responsible Homeland 
Security appropriations bill that provides this Department with 
the resources it needs to prepare for, respond to, and recover 
from all threats, both manmade and natural.
    It is critical that we provide the Department with the 
resources it needs to effectively execute its many core 
missions, which are preventing terrorism, securing our borders, 
enforcing all of our immigration laws, securing our cyberspace, 
which is a very complex and difficult and on the front-line 
objective right now. Not only preventing cyber attacks, but 
being ready to respond to them. Not only protecting the 
Government networks, but finding a way to build a strong 
partnership with our private infrastructure, which is not 
easy--complicated, but necessary to be done. Protecting our 
currency, securing our ports and waterways, and enhancing 
commerce with our ever-expanding trade laws.
    So this Department is being given not just more missions, 
but expanding missions in many areas. As the global commerce 
expands, as we get more and more commerce coming in through our 
waterways, our Coast Guard is being called on in any number of 
new ways. The oil spill in the gulf is just one example.
    So I want my members to understand that we can sometimes do 
more with less. We are going to try to be as efficient and as 
effective as we can. But I ask you to look at the mission of 
this Department and to make sure that we are giving them the 
resources to do their job, and we are not pulling the wool over 
the eyes of our constituents by underfunding them in critical 
ways. So we are going to work very hard with my ranking member 
to make sure that happens.
    In our 2012 bill last year, which was the first year that I 
chaired this subcommittee, we worked together to accomplish 
some important goals. First, we did strengthen the Coast 
Guard's capital program. We funded six fast response cutters, 
long lead time materials for the sixth national security 
cutter, design funding for offshore patrol cutters, and 
additional funding for enhanced oil spill response 
capabilities, and improved funding for Coast Guard families.
    We find the Coast Guard in the 8th district to be a very 
effective Federal agency. I don't know what my other members 
think about the Coast Guard, but we feel very strongly about 
their mission. And as you can see with the spill in the gulf, 
they were working 24-7. We need to make sure they can continue 
to keep our ports open, our waterways and our oceans clean, and 
intercept drug smugglers that are growing seemingly every day.
    For the Transportation Security Administration (TSA), to 
improve air travel experience, which we get many complaints 
about, we included funding for the TSA risk-based trusted 
traveler screening program, known as PreCheck 
(Pre3<SUP>TM</SUP>), which is now operating in 9 airports, will 
expand to 35 by the end of 2012. We also funded 250 advanced 
imaging technology machines to detect threats; to try to be 
more respectful of people's privacy, which is a very big issue; 
and expedite the lines, Madam Secretary, in some of our 
airports.
    We don't have that much difficulty in our New Orleans, 
Louisiana, airports. But I do hear horror stories from some of 
my other members around the country about the long lines, 
particularly on international entry into the country. And I 
want to work with Customs and TSA this year on that.
    We continue to invest in efforts to improve our disaster 
response. We had the Mississippi, Missouri floods. We responded 
to the tornadoes in the South and East, Hurricane Irene last 
year. As you remember, last year was a catastrophic year for 
disasters. We hope this year will be better. We don't know. But 
I appreciate the support for funding for disasters.
    In just one example of how we better supported FEMA, 
because FEMA pre-positioned communications equipment purchased 
after 2005, local officials consistently reported no unmet 
communication requests during Hurricane Irene. So there are 
actual results from the monies that we invest in this bill, 
what people see and feel on the ground, whether it is in 
Indiana, Ohio, or along the gulf coast, as Senator Cochran so 
well knows.
    Last year, we were able to enact through the Budget Control 
Act a responsible funding mechanism for disaster relief. I want 
to particularly thank Senator Cochran for his leadership on 
this issue. I don't think it would have happened without him as 
a senior member of Appropriations, and I want to give him the 
credit for working with me, as well as my ranking member.
    It is important to note that every State has its own unique 
situation in responding to disasters. It is up to the Governors 
to evaluate their situation, decide if they need Federal help, 
and ask. Federal help is not mandatory. I just want to let 
people know. Federal help is not mandatory.
    It only comes if Governors ask. If they need it, we are 
here to help them. In our case in the gulf coast, we could not 
possibly have recovered from Katrina, Rita, Gustav, and Ike 
without substantial Federal help.
    If some States can do that, that is fine. But it is 
voluntary, and if they ask, we will be there to help them.
    We also added funds above the request of the administration 
to develop a more aggressive trade enforcement strategy. The 
President's request this year builds on our efforts last year 
to plus-up that title. We have petroleum products, textiles, 
and the automotive/manufacturing sector that has been 
threatened by unfair trade practices.
    And I hear this from my colleagues. We want to try to be 
responsive in this budget, and so we are going to continue to 
focus on fair trade practices.
    And finally, we increased funding to address cybersecurity 
threat, including funding to meet the goal of educating 1.7 
million students over the next 10 years.
    I want to say to my subcommittee, we don't have 
responsibility over the education budget. We just have 
responsibility over homeland security. But we have to be in 
partnership with the Department of Education to provide support 
for the 1.7 million cyber warriors that we are going to need 
coming out of our middle schools and high schools to actually 
man the cyber stations to protect our Nation.
    So please be thinking about some of those ideas. We have 
got a very exciting education program that has evolved next to 
Barksdale Air Force Base at the Cyber Innovation Center. There 
may be other opportunities around the Nation.
    In the fiscal year 2012 DHS bill, we made difficult cuts. 
We eliminated agencies that were redundant, not meeting our 
missions. Senator Coats has been particularly focused on 
eliminating inefficiencies, and I appreciate his work in that 
regard.
    It is essential that this Department have the muscle, 
however, to defend this country. We all appreciate the bravery 
and skill of our military forces in eliminating Osama bin Laden 
and Anwar al-Awlaki last year. However, we must remain vigilant 
and nimble in responding to these evolving threats.
    The President has proposed a budget for 2013 that, if 
approved, would reduce the Department of Homeland Security 
budget for a third year straight. While I believe in reductions 
and I am pleased that the budget increases include substantial 
increases for cybersecurity, science, and technology, I do have 
reservations about the inadequate funding requests to replace 
Coast Guard ships, planes, Customs air, and maritime aircraft.
    Congress has a responsibility to make sure the next 
generation of Coast Guard and Customs men and women serving on 
the front lines have the equipment they need to process the 
billions of dollars of goods that are coming into this country 
and leaving our country in order to support our economy. This 
isn't mission grab. This is what we do to support the 
transactions between millions of businesses that rely on us to 
keep those avenues of commerce open.
    With regard to the President's proposed reform of the State 
and local responders program, I look forward to hearing from 
stakeholders and working with the Secretary. He has proposed 
$500 million more in funding. I am very grateful for that. We 
are going to have to figure out how to allocate it among the 
many important programs.
    And finally, I want to take this opportunity to acknowledge 
the tremendous work being done by the Director of U.S. 
Citizenship and Immigration Services. I have mentioned him to 
you privately. Director Mayorkas and his staff have been very 
forward leaning with me and many Senators in our work around 
the world on international adoptions. He has really stepped up 
to help make sure that the thousands of Americans that adopt 
internationally are getting a better experience.
    And, they think they are doing God's work, and they are. 
Adopting children who would otherwise die or suffer a very 
lonely life, and I really appreciate his respect for that 
issue.


                           prepared statement


    I want to turn to Senator Coats now, and then I will turn 
to our Vice Chairman Frank Lautenberg for opening statements. 
And I now recognize Senator Coats.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good morning. I call the subcommittee to order.
    Secretary Napolitano, you lead a Department of 230,000 men and 
women who are on the front lines every day protecting our citizens. 
Last week, we were reminded of the danger they face when we lost four 
Coast Guard personnel training in a helicopter over Mobile Bay. A 
memorial service is being held this morning in Mobile, Alabama to honor 
the crewmembers lost in this tragic accident: Lieutenant Commander Dale 
Taylor, Lieutenant Junior Grade John Cameron, Chief Petty Officer 
Fernando Jorge, and Petty Officer Andrew Knight. We send our 
condolences to their families and to the Coast Guard personnel who 
served with them.
    We commend Department of Homeland Security (DHS) employees for 
their dedication and their service and I commend you for your continued 
leadership. We welcome you to the subcommittee today. I look forward to 
working with Senator Dan Coats, our ranking member. I say to my friend 
from Indiana that we stand with him in supporting the disaster victims, 
the volunteers, and the first responders as they rebuild following the 
devastating tornados last week. I also look forward to working with 
Senator Frank Lautenberg, our vice chairman, and all of the members of 
our subcommittee as we prepare to mark up our fiscal year 2013 bill.
    My goal is to produce a bipartisan, fiscally responsible Homeland 
Security appropriations bill for 2013 that provides the Department with 
the resources it needs to prepare for, respond to, and recover from all 
threats, both man-made and natural. It is also critical that we provide 
the Department with the resources that it needs to effectively execute 
its many core missions--preventing terrorism, securing the borders, 
enforcing our immigration laws, safeguarding cyberspace, securing our 
ports and waterways, protecting our currency, and enhancing commerce 
while enforcing our trade laws.
    Securing this Nation is not just a Federal Government 
responsibility. We must also serve as leaders, educators, and reliable 
partners in helping State and local governments, the private and 
nonprofit sectors, and our citizens achieve these goals.
    In our fiscal year 2012 DHS act, we worked together to accomplish 
these goals. For the Coast Guard, we funded six fast response cutters, 
long lead materials for the sixth national security cutter, design 
funding for the offshore patrol cutter, additional funding for 
enhancing oil spill response capabilities, and funding to improve 
housing for Coast Guard families. For the Transportation Security 
Administration (TSA), to improve the air travel experience, we included 
funding for TSA's risk-based trusted traveler screening system known as 
PreCheck (Pre3<SUP>TM</SUP>), which is now operating at nine airports 
and will be expanded to 35 airports by the end of 2012. We also funded 
an additional 250 advanced imaging technology units to detect threats 
to aviation with software that protects people's privacy.
    We continued to invest in efforts to improve FEMA's disaster 
response capabilities. Since Congress enacted the Post-Katrina 
Emergency Management Reform Act in 2006, we have invested considerable 
resources in improving FEMA's disaster response capabilities. It is not 
a coincidence that in the face of a terrible disaster year in 2011, 
with the Mississippi and Missouri River floods, the tornados in the 
South and East, and Hurricane Irene, that FEMA got positive reviews 
from the State and local communities impacted by those storms. FEMA 
catastrophic planning is more integrated, shelter facility data is 
better managed, and the disaster acquisition process is proactive, not 
reactive. In just one example, because FEMA pre-positioned 
communications equipment purchased after 2005, local officials 
consistently reported no unmet communications requests during Hurricane 
Irene, according to recent testimony by Administrator Fugate. Under my 
watch, we will not allow FEMA to lose ground.
    Last year, we were able to enact through the Budget Control Act, a 
responsible funding mechanism for the Disaster Relief Fund and I am 
pleased that the White House is using that authority for fiscal year 
2013. Now those communities that responded so well to disasters in 2011 
will also have the funds they need to recover.
    It is important to note that every State has its own unique 
situation in responding to disasters. It is up to the Governors to 
evaluate their situation and then decide if they need the Federal 
Government's help, or not. There is no mandate that says a Governor 
must seek assistance. No one is required to use FEMA's help.
    The fiscal year 2012 DHS act also added funds above the request and 
required the administration to develop a more aggressive trade 
enforcement strategy. The President's request builds on this effort and 
focuses investigations in key areas such as petroleum products, 
textiles, and the automotive/manufacturing sector. We provided 
significant funding to sustain the rapid increases in funding provided 
in recent years to secure our borders and enforce our immigration laws.
    We also provided increased funding to address the cybersecurity 
threat, including funding to meet the goal of educating 1.7 million 
students over the next 10 years. DHS is teaming up with experts to 
produce the cyber warriors of the future. Some of these experts are at 
the Cyber Innovation Center in Louisiana, and I commend them.
    We also made difficult cuts, eliminating agencies that were 
redundant or not accomplishing their missions, and rescinded funds from 
low-priority programs.
    It is essential that the Department has the muscle it needs to 
defend this country. We all appreciate the bravery and skill of our 
military forces in eliminating Osama bin Laden and Anwar al-Awlaki. 
However, we must remain vigilant and nimble in responding to evolving 
threats. And as the tornados reminded us last week, we must continue to 
develop and sustain our capabilities to respond to natural disasters.
    The President has proposed a budget for fiscal year 2013 that if 
approved, would reduce the Department of Homeland Security budget for 
the third straight year. While I am pleased that the budget includes 
substantial increases for cybersecurity and science and technology, I 
have strong reservations about the inadequate funding requests to 
replace aging Coast Guard ships and planes and Customs air and marine 
aircraft. Congress has a responsibility to make sure that the next 
generation of Coast Guard and Customs men and women serving on the 
front lines has the equipment needed to accomplish their many missions. 
The President's budget does not pass that test. I will work with my 
colleagues to identify resources to restore those cuts.
    With regard to the President's proposed reform of the State and 
local first responder grant programs, I look forward to hearing from 
stakeholders and to working with the Secretary as we develop reform 
legislation.
    I also want to take this opportunity to acknowledge the tremendous 
work being done by the Director of U.S. Citizenship and Immigration 
Services. Director Mayorkas and his staff have been very forward 
leaning in working with me and my staff on the issue of international 
adoptions, especially in Guatemala. He represents your Department well 
on this very important issue and truly cares about its humanitarian 
impact.

                     STATEMENT OF SENATOR DAN COATS

    Senator Coats. Madam Chairman, thank you.
    And Secretary Napolitano, thank you for being with us 
today, and particularly for that arrangement for the cyber 
briefing we had last evening. I thought it was very important. 
A lot of members of the Senate showed up for that--showed a 
keen interest. And you defined it and others defined it in the 
security business as one of the most major threats that the 
Nation faces.
    So we have got a lot of work to do. I appreciate your 
involvement, engagement, and taking the lead on that effort. I 
thought it was a very valuable session last evening.
    I want to just take a couple minutes to reflect a little 
bit on the damage that we had and the lives lost in southern 
Indiana. It doesn't begin to compare with what you went 
through, Madam Chairman and Senator Cochran, and what all those 
along the gulf coast went through. Nevertheless, the first 
responders' response and the mechanisms that kicked into gear 
right after the storm swept through showed that we made very 
significant progress in dealing with these types of 
emergencies.
    We had an unusual tornado in that instead of bouncing down 
and taking out the buildings here and there and so forth, it 
touched down and went for nearly 50 miles. About one-quarter 
mile to one-half mile wide height, and there was literally 
nothing in that path that stayed standing, including trees and 
signs, but more importantly, homes and businesses and schools 
and so forth.
    So that amount of devastation just shows the force of 
nature and makes our challenge of addressing funding for 
unanticipated--but we know there will be coming disasters--
keeping the funds available to respond to that is a real 
challenge.
    The other thing I observed there was the role of the State 
and the local communities. I think the coordination that took 
place would not have happened 5 or 10 years ago. So a lot of 
progress has been made.
    But then what has traditionally happened all throughout the 
history of our country is the fact that the response of the 
people themselves--the volunteers, the Red Cross coming in, 
people, neighbors helping neighbors, and adjoining counties 
coming over and sending aid and as well as security and State 
police and so forth--and then even people from other States 
rallying to the cause in whatever way they can--is really 
emblematic of the American spirit.
    We like to handle as much as we can by ourselves in 
Indiana. The Governor has yet to make a request to declare a 
disaster. He is waiting for the assessment, which is going 
forward as we speak. And we understand that the first 
responsibility comes from our State and our local communities; 
unfortunately, too often in the past, the first question asked 
is, ``What is the Federal Government going to do, and how 
quickly are they going to show up?''
    We have to make sure that we maintain the fact the Federal 
Government is the backup for situations like Katrina, for 
situations which go beyond the ability of State, local, and 
volunteer groups to handle. So we are trying to be conscious of 
that, particularly in these days of fiscal discipline. And I 
hope that that can serve as an example.
    With that, I just look forward to the hearing and 
discussing issues of pertinence. And Madam Chairman, thank you.
    Senator Landrieu. Thank you, Senator.
    Senator Lautenberg.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman.
    Welcome, Secretary Napolitano.
    We know that you do a lot of good work over there. 
Unfortunately, the assignment requires more in resource, and as 
a consequence, the job has some constraints that we would like 
not to see. More than 10 year after the 9/11 attacks, and we 
continue to face evolving threats in our fight against 
terrorism.
    Now, unfortunately, our ability to prevent and respond to 
these threats is weakened by ``cut at any cost'' colleagues in 
the Congress. Last year, the majority in the House slashed 
funding for several critical programs, including State and 
local grants that support first responders and help us prepare 
for emergencies.
    This subcommittee, under Senator Landrieu's chairmanship, 
restored as much funding as possible in the final bill. But if 
the other side had gotten its way, these programs would have 
been decimated. These cuts underscore the need to increase 
funds for grant programs this year to ensure that our families 
are kept safe, and that is why we are pleased to see that this 
year's budget includes an increase for preparedness grants.
    However, we have concerns about the Department's proposal 
to administer these funds. We need more information from the 
Department about how the proposal might affect high-risk areas, 
including our country's ports and public transportation system.
    Now, make no mistake. Any proposal must do more to protect 
areas like the stretch between Port of Newark and the Newark 
Liberty Airport. Law enforcement has identified this area as 
the most, the country's most inviting 2-mile stretch in the 
country for terrorism. Yet last year, the Urban Areas Security 
Initiative (UASI) granted funding for this region--grant 
funding for this region was cut by 42 percent.
    At the same time, we must remain vigilant on security at 
our airports. Now over the past few years, Newark Liberty 
Airport has experienced serious security lapses, and we are 
pleased to see that TSA has made changes at Newark. But 
challenges persist.
    The Department has been investigating the airport's 
operation for almost a year, and we are eager to see the 
results so we can begin putting real reforms into place. The 
bottom line, simply the threat of terrorism is real. We have 
got to focus our limited resources on protecting the most at-
risk targets.
    And to those who are obsessed with cost cutting, you can't 
put a price on a human life, and nothing is more important than 
keeping our communities, our families, and our economy safe. So 
I look forward, Madam Chairman, to hearing from Secretary 
Napolitano about how we can continue making the critical 
investments that we must do in homeland security.
    Thank you.
    Senator Landrieu. Thank you, Senator Lautenberg, for your 
advocacy for these local grant programs.
    You, being from New Jersey, of course, can fully appreciate 
their importance. So we appreciate it.
    Let us turn it over to you, Madam Secretary, for your 
opening statement.

                   STATEMENT OF HON. JANET NAPOLITANO

    Secretary Napolitano. Thank you. Thank you, Chairman 
Landrieu, Ranking Member Coats, Vice Chairman Lautenberg, and 
other members of the subcommittee, for the opportunity to 
discuss President Obama's fiscal year 2013 budget for the 
Department of Homeland Security.
    Before I begin and reiterating the remarks of Chairman 
Landrieu, I would like to take a moment to remember the brave 
men who lost their lives in the recent crash of Coast Guard 
helicopter 6535. This tragic accident reminds us of the danger 
and great personal risk that the courageous men and women of 
our Department and our armed forces confront every day to 
ensure the safety, security, and resilience of our Nation.
    Today, as we speak, at the memorial service in Alabama and 
throughout the country, our thoughts and prayers are with the 
men, the women, and the families of the Coast Guard.
    Now, 10 years after the September 11 attacks, America is 
stronger and more secure, thanks to the strong support of the 
President and the Congress, the work of the men and women of 
the Department of Homeland Security, and local, State, and 
Federal partners across our homeland security enterprise.
    Although we have made significant progress, threats from 
terrorism, including, but not limited to, al Qaeda and al 
Qaeda-related groups, persist and continually evolve, and the 
demands on DHS continue to grow as well. Today's threats are 
not limited to any one individual, group, or ideology and are 
not defined, nor contained by international borders. Terrorist 
tactics can be as simple as a homemade bomb and as 
sophisticated as a biologic threat or a coordinated cyber 
attack.
    We have had success in thwarting numerous terrorist plots, 
including the attempted bombings of the New York City subway 
and Times Square; foiled attacks against air cargo; and other 
attempts across the country. Nonetheless, continued threats 
from abroad and at home demonstrate how we must consistently 
remain vigilant and prepared.
    The President's fiscal year 2013 budget for DHS allows us 
to continue to meet these evolving threats and challenges by 
preserving core front-line operational priorities through the 
redirection of over $850 million in base resources from 
administrative and mission support areas. This continues our 
unprecedented commitment to fiscal discipline, which has led to 
over $3 billion in cost avoidances and reductions over the past 
3 years through our efficiency review and other initiatives.
    Given the fiscal challenges of the Department's State and 
local partners, DHS is also approaching these partnerships in 
new and innovative ways. For 9 years, DHS has been supporting 
State and local efforts across the homeland security enterprise 
to build capabilities, awarding more than $35 billion in 
funding.
    As we look ahead in order to address evolving threats and 
make the most of limited resources, the administration has 
proposed a new vision for homeland security grants through the 
National Preparedness Grant Program to create a robust national 
preparedness capacity based on cross-jurisdictional and readily 
deployable State and local assets. Using a competitive, risk-
based model, this grants program will use a comprehensive 
process to assess gaps, identify and prioritize deployable 
capabilities, and put funding to work quickly, requiring 
grantees to regularly support their progress.
    My written testimony includes a comprehensive list of the 
operational priorities in our budget. I would like today to 
highlight just a few.
    Preventing terrorism and enhancing security was the 
founding mission of DHS. It remains our top priority today. The 
fiscal year 2013 budget safeguards the Nation's transportation 
systems through a layered detection system, focusing on risk-
based screening, enhanced targeting, and information-sharing 
efforts to interdict threats and dangerous people at the 
earliest point possible.
    The budget supports the administration's Global Supply 
Chain Security Strategy across air, land, and sea modes of 
transportation by strengthening efforts to pre-screen and 
evaluate high-risk containers before they are shipped to the 
United States. We also continue our strong support for State 
and local partners through training, fusion centers, and 
intelligence analysis and information sharing on a wide range 
of critical homeland security issues.
    To secure and manage our borders, this budget continues the 
administration's unprecedented focus on border security, 
travel, and trade by supporting our border patrol agents and 
U.S. Customs and Border Protection (CBP) officers on the front 
lines, as well as the continued deployment of proven, effective 
surveillance technology along the highest trafficked areas of 
the Southwest border and continued security improvements along 
the northern border.
    To secure the Nation's maritime borders, the budget invests 
in recapitalization of Coast Guard assets, including the sixth 
national security cutter, fast response cutters, as well as the 
renovation and restoration of shore facilities.
    The budget request also continues the Department's focus on 
smart and effective enforcement of our Nation's immigration 
laws. In fiscal year 2013, we will complete nationwide 
implementation of Secure Communities. Through this initiative 
and our continued collaboration with the Department of Justice, 
it is expected to increase the number of criminal aliens and 
other priority individuals who are indentified and removed from 
this country.
    This budget provides the resources needed to address this 
changing population while continuing to support Alternatives to 
Detention, detention reform, and immigrant integration efforts. 
The budget also focuses on monitoring and compliance, promoting 
adherence to worksite-related laws through criminal 
prosecutions of egregious employers, and expansion of E-Verify.
    To safeguard and secure cyberspace, the budget makes 
significant investments to strengthen cybersecurity, including 
funds to expedite the deployment of EINSTEIN 3 to prevent and 
detect intrusions on Government computer systems. It also 
includes increased Federal network security across the Federal 
Government, and it continues to develop a robust cybersecurity 
workforce to protect and respond to national cybersecurity 
threats.
    In 2011, the Department responded to a record number of 
disasters. To ensure continued resilience to disasters, the 
President's budget focuses on a whole community approach to 
emergency management and includes resources for the Disaster 
Relief Fund, the DRF, which provides a significant portion of 
the Federal response to victims in Presidentially declared 
disasters or emergencies and is funded largely through 
authority provided under the Budget Control Act.
    The budget also continues to provide essential support to 
national and economic security by supporting the Coast Guard's 
operations in the polar regions and by continuing to support 
U.S. Immigration and Customs Enforcement (ICE) and CBP's 
efforts to protect U.S. intellectual property rights and 
collection of Customs revenue.

                           PREPARED STATEMENT

    In conclusion, the fiscal year 2013 budget proposal 
reflects this administration's strong commitment to protecting 
the homeland and the American people through the effective and 
efficient use of DHS resources. As outlined in my testimony 
today, we will continue to preserve front-line priorities 
across the Department by cutting costs, sharing resources 
across components, and strengthening operations wherever 
possible.
    Chairman Landrieu, Ranking Member Coats, members of the 
subcommittee, thank you for the opportunity to testify today. I 
am pleased to answer your questions.
    [The statement follows:]
              Prepared Statement of Hon. Janet Napolitano
    Chairman Landrieu, Vice Chairman Lautenberg, Ranking Member Coats, 
and members of the subcommittee: Let me begin by saying thank you to 
this subcommittee for the strong support you have provided me and the 
Department over the past 3 years. I look forward to continuing to work 
with you in the coming year to protect the homeland and the American 
people.
    I am pleased to appear before the subcommittee today to present 
President Obama's fiscal year 2013 budget request for the Department of 
Homeland Security (DHS).
    Ten years after the September 11th attacks, America is stronger and 
more secure today, thanks to the strong support of the President and 
Congress; the work of the men and women of the Department of Homeland 
Security (DHS) and local, State, and Federal partners across the 
homeland security enterprise.
    While we have made significant progress, threats from terrorism--
including, but not limited to al Qaeda and al Qaeda-related groups--
persist and continually evolve, and the demands on DHS continue to 
grow. Today's threats are not limited to any one individual, group, or 
ideology and are not defined nor contained by international borders. 
Terrorist tactics can be as simple as a homemade bomb and as 
sophisticated as a biological threat or a coordinated cyber attack. We 
have had success in thwarting numerous terrorist plots including the 
attempted bombings of the New York City subway and Times Square, foiled 
attacks against air cargo, and other attempts across the country. 
Nonetheless, the recent threat surrounding the 10th anniversary of the 
September 11th attacks and the continued threat of homegrown terrorism 
demonstrate how we must constantly remain vigilant and prepared.
    To continue to address these evolving threats, DHS employs risk-
based, intelligence-driven operations to prevent terrorist attacks. 
Through a multi-layered detection system focusing on enhanced targeting 
and information sharing, DHS works to interdict threats and dangerous 
people at the earliest point possible. DHS also works closely with its 
Federal, State, and local law enforcement partners on a wide range of 
critical homeland security issues in order to provide those on the 
front lines with the tools they need to address threats in their 
communities.
    Strengthening homeland security also includes a significant 
international dimension. To most effectively carry out DHS's core 
missions--including preventing terrorism, securing our borders, and 
protecting cyberspace--we must partner with countries around the world. 
This work ranges from strengthening cargo, aviation, and supply chain 
security to joint investigations, information sharing, and science and 
technology cooperation. Through international collaboration, we not 
only enhance our ability to prevent terrorism and transnational crime, 
we also leverage the resources of our international partners to more 
efficiently and cost-effectively secure global trade and travel. Today, 
DHS works in more than 75 different countries--the third largest 
foreign footprint of any civilian U.S. Government agency--in order to 
address and respond to evolving threats before they reach our shores.
    Domestically, over the past several years, DHS has deployed 
unprecedented levels of personnel, technology, and resources to the 
Southwest border. At the same time, the Department has made critical 
security improvements along the northern border while strengthening 
efforts to increase the security of the Nation's maritime borders. DHS 
is also focused on smart and effective enforcement of U.S. immigration 
laws while streamlining and facilitating the legal immigration process.
    To strengthen the Nation's cybersecurity posture, DHS leads the 
Federal Government's efforts to secure civilian government computer 
systems and works with industry and State, local, tribal, and 
territorial governments to secure critical infrastructure and 
information systems.
    Additionally, DHS continues to coordinate disaster response efforts 
nationwide. In 2011, the Department responded to a record number of 
disasters, including Hurricane Irene, which impacted 14 States; 
wildfires in the Southwest; severe flooding in the Mississippi and 
Missouri river systems; and devastating tornadoes that hit the Midwest 
and the South. The Department's response to these and other disasters 
shows how far it has come in just a few years. Rather than wait until a 
request for disaster assistance has been received and approved, the 
Federal Emergency Management Agency (FEMA) and agencies across the 
Federal Government work actively with communities to prepare before 
disasters occur and to maintain a constant readiness posture.
                maximizing efficiency and effectiveness
    The fiscal year 2013 budget for DHS is $58.6 billion in total 
budget authority, $48.7 billion in gross discretionary funding, and 
$39.5 billion in net discretionary funding. Net discretionary budget 
authority is 0.5 percent below the fiscal year 2012 enacted level. An 
additional $5.5 billion for the Disaster Relief Fund (DRF) is provided 
under the disaster relief cap adjustment, pursuant to the Budget 
Control Act of 2011 (BCA).
    The Department has implemented a variety of initiatives to cut 
costs, share resources across components, and consolidate and 
streamline operations wherever possible. To preserve core front-line 
priorities in fiscal year 2013, we have redirected over $850 million in 
base resources from administrative and mission support areas, including 
contracts, personnel (through attrition), information technology, 
travel, personnel moves, overtime, directed purchasing, professional 
services, and vehicle management. Through the Department-wide 
efficiency review (ER), which began in 2009, as well as other cost-
saving initiatives, DHS has identified over $3 billion in cost 
avoidances and reductions, and redeployed those funds to mission-
critical initiatives across the Department.
    At the same time, the Department challenged its workforce to 
fundamentally rethink how it does business--from the largest to 
smallest investments. In 2011, DHS conducted its first-ever formal base 
budget review for fiscal year 2013, looking at all aspects of the 
Department's budget to find savings within our current resources and to 
better align those with operational needs. Through its annual ``Think 
Efficiency Campaign,'' DHS solicited employee input on creative cost-
saving measures and will implement six new employee-generated 
initiatives in early 2012.
    Given the fiscal challenges to the Department's State and local 
partners, DHS is also approaching these partnerships in new and 
innovative ways. The administration has proposed a new homeland 
security grants program in fiscal year 2013 designed to develop, 
sustain, and leverage core capabilities across the country in support 
of national preparedness, prevention, and response. The fiscal year 
2013 National Preparedness Grant Program (NPGP) will help create a 
robust national preparedness capacity based on cross-jurisdictional and 
readily deployable State and local assets. Using a competitive, risk-
based model, the NPGP will use a comprehensive process for identifying 
and prioritizing deployable capabilities, limit periods of performance 
to put funding to work quickly, and require grantees to regularly 
report progress in the acquisition and development of these 
capabilities.
    In fiscal year 2011, DHS achieved a milestone that is a pivotal 
step toward increasing transparency and accountability for the 
Department's resources. For the first time since fiscal year 2003, DHS 
earned a qualified audit opinion on its balance sheet--highlighting the 
significant progress we have made in improving our financial management 
in the 8 years since DHS was founded. Through these and other efforts 
across the Department, we will continue to ensure taxpayer dollars are 
managed with integrity, diligence, and accuracy and that the systems 
and processes used for all aspects of financial management demonstrate 
the highest level of accountability and transparency.
    The fiscal year 2013 President's budget supports these significant 
efforts to increase transparency, accountability, and efficiency. 
Following are some key initiatives and proposals included in the budget 
that continue to streamline departmental operations:
  --US-VISIT.--In order to better align the functions of US-VISIT with 
        the operational components, the budget proposes the transfer of 
        US-VISIT functions from the National Protection and Programs 
        Directorate (NPPD) to U.S. Customs and Border Protection (CBP) 
        and U.S. Immigration and Customs Enforcement (ICE). Currently, 
        CBP operates numerous screening and targeting systems, and 
        integrating US-VISIT within CBP will strengthen the 
        Department's overall vetting capability while also realizing 
        efficiencies.
  --Strategic Sourcing.--Through the ER and component initiatives, DHS 
        has used strategic sourcing initiatives to leverage the 
        purchasing power of the entire Department for items such as 
        software licenses, wireless communication devices, furniture, 
        and office supplies. In fiscal year 2013, DHS expects to save 
        more than $264 million through the use of these contracts.
  --Acquisition Management and Reform.--A major management priority in 
        fiscal year 2013 is the continued improvement of the DHS 
        acquisition process. The Under Secretary for Management is 
        leading an effort to improve the overall acquisition process by 
        reforming the early requirements development process and 
        enhancing our ability to manage the implementation and 
        execution of acquisition programs.
  --Strengthening the Efficiency of IT Programs.--The Department is 
        committed to improving performance of IT programs, implementing 
        a ``cloud first'' policy, reducing the number of Federal data 
        centers, and consolidating IT infrastructure. On the basis of 
        these initiatives, the overall fiscal year 2013 budget 
        (including all DHS components) for IT infrastructure is reduced 
        by 10 percent below fiscal year 2012 enacted levels.
  --Common Vetting.--In order to increase the efficiency and 
        effectiveness of its screening efforts and leverage 
        capabilities across the Department, the budget includes funding 
        to continue to enhance the Department's biographic and 
        biometric screening capabilities. As part of this effort, DHS 
        has initiated implementation of an enhanced biographic exit 
        program, which will better aggregate the information within 
        existing data systems, enhance review of potential overstays, 
        increase automated matching, incorporate biometric elements, 
        and provide the foundation for a future biometric exit 
        solution.
  --Common Airframes.--DHS is also examining how to leverage joint 
        requirements for aviation assets between CBP and the U.S. Coast 
        Guard. A senior leadership working group has performed a 
        baseline analysis of the various roles and missions of DHS's 
        aviation assets and is working to increase the effectiveness of 
        departmental aviation assets through continued coordination and 
        collaboration. Complementing this effort, DHS recently began an 
        ER initiative which will increase cross-component collaboration 
        for aviation-related equipment and maintenance by establishing 
        excess equipment sharing, maintenance services, and contract 
        teaming agreements, as well as other opportunities for 
        aviation-related efficiencies.
  --Information Sharing and Safeguarding.--DHS is embarking on a 
        Department-wide effort to increase efficiencies and reduce 
        redundancies through the implementation of key information 
        sharing and safeguarding capabilities such as identity, 
        credentialing, and access management. Significant future cost 
        savings will be realized with the continued consolidation of 
        sensitive but unclassified portals, streamlining of classified 
        networks and the alignment of common operating picture 
        investments. Working through a Department-wide information-
        sharing governance structure, DHS is addressing requirements 
        resulting from post-Wikileaks reforms, and ensuring that 
        information on both classified and unclassified networks is 
        properly protected to preserve privacy and civil liberties.
  --Aviation Passenger Security Fee.--The fiscal year 2013 budget 
        includes the administration's proposal to restructure the 
        aviation passenger security fee (security fee) to achieve total 
        collections of $2.239 billion. The proposal would generate an 
        additional $317 million in new collections in 2013, of which 
        $117 million would be used to further offset the cost of 
        Federal aviation security operations and $200 million would 
        contribute to Federal deficit reduction. Following the security 
        fee restructuring, passengers would pay a fee of $5.00 per one-
        way trip beginning in the fourth quarter of fiscal year 2013, 
        rather than a separate fee for each enplanement under the 
        current construct. The restructuring would provide TSA with the 
        flexibility to meet increasing aviation security costs and 
        better aligns the costs associated with passenger security to 
        the direct beneficiaries. The security fee has not changed or 
        been adjusted for inflation since the TSA was established in 
        2002, even while the overall cost of aviation security has 
        grown by more than 400 percent. The administration's proposal 
        makes progress toward fulfilling the intent of the Aviation and 
        Transportation Security Act to cover the costs of aviation 
        security through fees and not by the general taxpayers.
                           budget priorities
    The fiscal year 2013 President's budget prioritizes the mission 
areas outlined in the Department's 2010 Quadrennial Homeland Security 
Review and the 2010 Bottom-Up Review, the first complete effort 
undertaken by the Department to align its resources with a 
comprehensive strategy to meet the Nation's homeland security needs.
    The budget builds on the progress the Department has made in each 
of its mission areas while also providing essential support to national 
and economic security.
    Mission 1: Preventing Terrorism and Enhancing Security.--Protecting 
the United States from terrorism is the cornerstone of homeland 
security. DHS's counterterrorism responsibilities focus on three goals: 
preventing terrorist attacks; preventing the unauthorized acquisition, 
importation, movement, or use of chemical, biological, radiological, 
and nuclear materials and capabilities within the United States; and 
reducing the vulnerability of critical infrastructure and key 
resources, essential leadership, and major events to terrorist attacks 
and other hazards.
    Mission 2: Securing and Managing Our Borders.--DHS secures the 
Nation's air, land, and sea borders to prevent illegal activity while 
facilitating lawful travel and trade. The Department's border security 
and management efforts focus on three interrelated goals: effectively 
securing U.S. air, land, and sea borders; safeguarding and streamlining 
lawful trade and travel; and disrupting and dismantling transnational 
criminal and terrorist organizations.
    Mission 3: Enforcing and Administering Our Immigration Laws.--DHS 
is focused on smart and effective enforcement of U.S. immigration laws 
while streamlining and facilitating the legal immigration process. The 
Department has fundamentally reformed immigration enforcement, focusing 
on identifying and removing criminal aliens who pose a threat to public 
safety and targeting employers who knowingly and repeatedly break the 
law.
    Mission 4: Safeguarding and Securing Cyberspace.--DHS is the 
Federal Government lead agency for securing civilian government 
computer systems and works with industry and State, local, tribal, and 
territorial governments to secure critical infrastructure and 
information systems. DHS analyzes and mitigates cyber threats and 
vulnerabilities; distributes threat warnings; and coordinates the 
response to cyber incidents to ensure that our computers, networks, and 
cyber systems remain safe.
    Mission 5: Ensuring Resilience to Disasters.--DHS provides the 
coordinated, comprehensive Federal response in the event of a terrorist 
attack, natural disaster, or other large-scale emergency while working 
with Federal, State, local, and private-sector partners to ensure a 
swift and effective recovery effort. The Department's efforts to build 
a ready and resilient Nation include fostering a community-oriented 
approach, bolstering information sharing, improving the capability to 
plan, and providing grants and training to our homeland security and 
law enforcement partners.
    In addition to these missions, DHS leads and supports many 
activities that provide essential support to national and economic 
security, including, but not limited to, maximizing collection of 
customs revenue, maintaining the safety of the marine transportation 
system, preventing the exploitation of children, providing law 
enforcement training, and coordinating the Federal Government's 
response to global intellectual property theft. DHS contributes in many 
ways to these elements of broader U.S. national and economic security 
while fulfilling its homeland security missions.
    The following are highlights of the fiscal year 2013 budget.
              preventing terrorism and enhancing security
    Guarding against terrorism was the founding mission of DHS and 
remains our top priority. The fiscal year 2013 budget safeguards the 
Nation's transportation systems through a layered detection system 
focusing on risk-based screening, enhanced targeting, and information-
sharing efforts to interdict threats and dangerous people at the 
earliest point possible. The budget supports the administration's 
Global Supply Chain Security Strategy across air, land, and sea modes 
of transportation by strengthening efforts to prescreen and evaluate 
high-risk containers before they are shipped to the United States and 
annualizing positions that provide the capacity to address security 
vulnerabilities overseas. Funding is included for Securing the Cities 
to protect our highest risk cities from radiological or nuclear attack 
and continues efforts to support national bio preparedness and response 
efforts. The budget also continues strong support for State and local 
partners through a new consolidated grant program, training, fusion 
centers, and intelligence analysis and information sharing on a wide 
range of critical homeland security issues.
  --Strengthening Risk-Based Aviation Security.--The fiscal year 2013 
        budget supports DHS's effort to employ risk-based, 
        intelligence-driven operations to prevent terrorist attacks and 
        to reduce the vulnerability of the Nation's aviation system to 
        terrorism. These security measures create a multi-layered 
        system to strengthen aviation security from the time a 
        passenger purchases a ticket to arrival at his or her 
        destination. The fiscal year 2013 budget:
    --Supports trusted traveler programs, such as TSA PreCheck 
            (Pre3<SUP>TM</SUP>) and the CBP Global Entry program, which 
            are pre-screening initiatives for travelers who volunteer 
            information about themselves prior to flying in order to 
            potentially expedite screening at domestic checkpoints and 
            through customs.
    --Continues support for passenger screening canine teams included 
            in the fiscal year 2012 enacted budget, an important layer 
            of security to complement passenger checkpoint screening at 
            airports, assist in air cargo screening, and enhance 
            security in the mass transit environment.
    --Funds the continued operation of technology to screen passengers 
            and baggage through 1,250 advanced imaging technology 
            units, which safely screen passengers for metallic and non-
            metallic threats, and 155 new state-of-the-art explosives 
            detection systems to efficiently screen baggage for 
            explosives which will reduce the number of re-scans and 
            physical bag searches.
    --Expands Secure Flight to cover the Large Aircraft and Private 
            Charter Standard Security Program, screening an estimated 
            11 million additional passengers annually. Through Secure 
            Flight, TSA pre-screens 100 percent of all travelers flying 
            within or to the United States against terrorist watchlists 
            before passengers receive their boarding passes.
  --Enhancing International Collaboration.--In our increasingly 
        globalized world, DHS continues to work beyond its borders to 
        protect both national and economic security. The fiscal year 
        2013 budget supports DHS's strategic partnerships with 
        international allies and enhanced targeting and information-
        sharing efforts to interdict threats and dangerous people and 
        cargo at the earliest point possible.
    --Through the Immigration Advisory Program and enhanced in-bound 
            targeting operations, CBP identifies high-risk travelers 
            who are likely to be inadmissible into the United States 
            and makes recommendations to commercial carriers to deny 
            boarding. The fiscal year 2013 budget also supports 
            initiatives to interdict and apprehend criminals and 
            persons of national security interest, and disrupt those 
            who attempt to enter the United States with fraudulent 
            documents.
    --Through the Visa Security Program and with Department of State 
            concurrence, ICE deploys trained special agents overseas to 
            high-risk visa activity posts to identify potential 
            terrorist and criminal threats before they reach the United 
            States. The fiscal year 2013 budget supports efforts to 
            leverage IT solutions and the capabilities of our law 
            enforcement and intelligence community partners to increase 
            ICE's efficiency in screening visa applications in order to 
            identify patterns and potential national security threats.
    --Through pre-clearance agreements, CBP screens passengers 
            internationally prior to takeoff through the same process a 
            traveler would undergo upon arrival at a U.S. port of 
            entry, allowing DHS to extend our borders outward while 
            facilitating a more efficient passenger experience. The 
            fiscal year 2013 budget continues to support CBP's 
            preclearance inspection efforts, which are designed to 
            determine compliance with admissibility of agriculture, 
            customs, and immigration requirements to the United States.
  --Supporting Surface Transportation Security.--The transit sector, 
        because of its open access architecture, has a fundamentally 
        different operational environment than aviation. Accordingly, 
        DHS helps secure surface transportation infrastructure through 
        risk-based security assessments, critical infrastructure 
        hardening, and close partnerships with State and local law 
        enforcement partners. The fiscal year 2013 budget supports 
        DHS's efforts to bolster these efforts.
    --The new fiscal year 2013 National Preparedness Grants Program, 
            described in more detail below, is focused on building 
            national capabilities focused on preventing and responding 
            to threats across the country, including the surface 
            transportation sector, through urban search and rescue 
            teams, canine explosive detection teams, and HAZMAT 
            response as well as target hardening of critical transit 
            infrastructure.
    --Conduct compliance inspections throughout the freight rail and 
            mass transit domains; critical facility security reviews 
            for pipeline facilities; comprehensive mass transit 
            assessments that focus on high-risk transit agencies; and 
            corporate security reviews conducted in multiple modes of 
            transportation on a continuous basis to elevate standards 
            and identify security gaps.
    --Fund 37 visible intermodal prevention and response (VIPR) teams, 
            including 12 multimodal teams. VIPR teams are composed of 
            personnel with expertise in inspection, behavior detection, 
            security screening, and law enforcement for random, 
            unpredictable deployments throughout the transportation 
            sector to prevent potential terrorist and criminal acts.
  --Strengthening Global Supply Chain Security.--The fiscal year 2013 
        budget supports the administration's Global Supply Chain 
        Security Strategy announced in early 2012, which presents a 
        unified vision across air, land, and sea modes of 
        transportation.
    --Supports increased targeting capabilities by updating rules in 
            real time and providing CBP with 24/7 targeting capability.
    --Strengthens the Container Security Initiative, enabling CBP to 
            prescreen and evaluate high-risk containers before they are 
            shipped to the United States.
    --Continues support for positions to improve the coordination of 
            cargo security efforts, accelerate security efforts in 
            response to the vulnerabilities, ensure compliance with 
            screening requirements, and strengthen aviation security 
            operations overseas.
  --Support to State and Local\1\ Law Enforcement (SLLE).--The fiscal 
        year 2013 budget continues support for State and local law 
        enforcement efforts to understand, recognize, prevent, and 
        respond to pre-operational activity and other crimes that are 
        precursors or indicators of terrorist activity through 
        training, technical assistance, exercise support, security 
        clearances, connectivity to Federal systems, technology, and 
        grant funding. Specifically, the budget focuses on:
---------------------------------------------------------------------------
    \1\ ``Local'' law enforcement includes all law enforcement at the 
municipal, tribal, and territorial levels.
---------------------------------------------------------------------------
    --Maturation and enhancement of State and major urban area fusion 
            centers, including training for intelligence analysts and 
            implementation of Fusion Liaison Officer Programs;
    --Implementation of the nationwide Suspicious Activity Reporting 
            (SAR) Initiative, including training for front-line 
            personnel on identifying and reporting suspicious 
            activities;
    --Continued implementation of the ``If You See Something, Say 
            Something<SUP>TM</SUP>'' campaign to raise public awareness 
            of indicators of terrorism and violent crime; and
    --State, local, tribal, and territorial efforts to counter violent 
            extremism, in accordance with the Strategic Implementation 
            Plan to the National Strategy on Empowering Local Partners 
            to Prevent Violent Extremism in the United States.
    The budget also supports efforts to share intelligence and 
information on a wide range of critical homeland security issues. The 
budget continues to build State and local analytic capabilities through 
the National Network of Fusion Centers, with a focus on strengthening 
cross-Department and cross-Government interaction with fusion centers. 
Through the Fusion Center Performance Program, DHS will assess 
capability development and performance improvements of the National 
Network of Fusion Centers through annual assessment and targeted 
exercises. Resources also enable the Office of Intelligence and 
Analysis, in partnership with the Office of Civil Rights and Civil 
Liberties and the Privacy Office to provide privacy, civil rights, and 
civil liberties training for fusion centers and their respective 
liaison officer programs. The Secretary's focus on SLLE includes 
elevating the Office of State and Local Law Enforcement to a stand-
alone office and a direct report.
  --Biological, Radiological, and Nuclear Threat Detection.--Countering 
        biological, nuclear, and radiological threats requires a 
        coordinated, whole-of-government approach. DHS, through its 
        Domestic Nuclear Detection Office (DNDO) and Office of Health 
        Affairs, works in partnership with agencies across Federal, 
        State, and local governments to prevent and deter attacks using 
        nuclear and radiological weapons through nuclear detection and 
        forensics programs and provides medical and scientific 
        expertise to support bio preparedness and response efforts. The 
        fiscal year 2013 budget supports the following efforts:
    --Securing the Cities.--$22 million is requested for Securing the 
            Cities to continue developing the domestic portion of the 
            global nuclear detection architecture, the multi-layered 
            system of detection technologies, programs, and guidelines 
            designed to enhance the Nation's ability to detect and 
            prevent a radiological or nuclear attack in our highest 
            risk cities.
    --Radiological/Nuclear Detection.--Supports the procurement and 
            deployment of radiation portal monitors and human portable 
            radiation detection systems, providing vital detection 
            equipment to CBP and the U.S. Coast Guard to scan for 
            radiological and nuclear threats. Included within the 
            fiscal year 2013 budget is an increase of $20 million to 
            procure mobile rad/nuc detection technology for front-line 
            operators.
    --Technical Nuclear Forensics.--Funds for the DNDO National 
            Technical Nuclear Forensics Center support pre-detonation 
            nuclear forensics, the integration of nuclear forensics 
            capabilities across the interagency and national priorities 
            for deterrence, attribution, and prosecution.
    --BioWatch.--Funds continued deployment of the Gen 1/2 BioWatch 
            detection network, a federally managed, locally operated, 
            nationwide bio-surveillance system designed to detect the 
            intentional release of aerosolized biological agents. 
            Continues development of the next generation technology to 
            expedite response times.
    --National Bio and Agro Defense Facility (NBAF).--The fiscal year 
            2013 budget provides $10 million to complement ongoing 
            research at the Plum Island Animal Disease Center by 
            accelerating research programs focused on African Swine 
            Fever and Classical Swine Fever at Kansas State University. 
            This effort will also identify and prioritize future 
            research needs for the existing Biosecurity Research 
            Institute and the proposed National Bio and AgroDefense 
            Facility. Funding will support identifying high-priority 
            agents from potential terrorist threats and emerging global 
            foreign animal diseases; developing and executing the steps 
            necessary for the facility to receive select agent 
            certification and the waivers necessary to study the high-
            priority agents; and developing public outreach plans to 
            ensure that all stakeholders surrounding the facility 
            understand the value of the proposed work and the 
            safeguards in place. To complement its ongoing research, 
            beginning in 2012, DHS's Science and Technology Directorate 
            (S&T) will convene an expert and stakeholder taskforce, in 
            conjunction with the interagency taskforce, to conduct a 
            comprehensive assessment of whether and for what purpose a 
            biosafety level 4 facility should be stood up, taking into 
            account the current threats from terrorism, foreign 
            animals, and the global migration of zoonotic diseases to 
            the United States. The assessment will review the cost, 
            safety, and any alternatives to the current plan that would 
            reduce costs and ensure safety within the overall funding 
            constraints established by the BCA.
  --Presidential Candidate Nominee Protection and Inauguration 
        Protection.--The fiscal year 2013 budget funds critical Secret 
        Service operations and countermeasures to protect the First 
        Family and visiting dignitaries, including the conclusion of 
        the 2012 presidential campaign (October-November 2012) and 
        presidential inaugural events. The budget also continues 
        support for the replacement of protective equipment, vehicles, 
        training of personnel, and other infrastructure to allow the 
        Secret Service to improve the execution of its protective and 
        investigatory missions.
                   securing and managing our borders
    Protecting our Nation's borders--land, air, and sea--from the 
illegal entry of people, weapons, drugs, and contraband is vital to 
homeland security, as well as economic prosperity. Over the past 
several years, DHS has deployed unprecedented levels of personnel, 
technology, and resources to the Southwest border. At the same time, 
DHS has made critical security improvements along the northern border 
while strengthening efforts to increase the security of the Nation's 
maritime borders.
    The fiscal year 2013 budget continues the administration's 
unprecedented focus on border security, travel, and trade by supporting 
21,370 Border Patrol agents and 21,186 CBP officers at our ports of 
entry as well the continued deployment of proven, effective 
surveillance technology along the highest trafficked areas of the 
Southwest border. To secure the Nation's maritime borders, the budget 
invests in recapitalization of Coast Guard assets and provides 
operational funding for new assets coming on line.
  --Law Enforcement Officers.--The budget annualizes border security 
        personnel funded through the fiscal year 2010 Emergency Border 
        Security Supplemental Act (Public Law 111-230) and the 
        journeyman pay increase, totaling 21,370 CBP Border Patrol 
        agents and 21,186 CBP officers at ports of entry who work 
        around the clock with Federal, State, and local law enforcement 
        to target illicit networks trafficking in people, drugs, 
        illegal weapons, and money and to expedite legal travel and 
        trade.
  --Border Intelligence Fusion Section (BIFS).--The budget supports 
        efforts to integrate resources and fuse information from DHS, 
        the Department of Justice (DOJ), the Department of Defense, and 
        the Intelligence Community at the El Paso Intelligence Center, 
        providing a common operating picture of the Southwest border 
        and Northern Mexico.
  --Technology.--Funding is requested to support the continued 
        deployment of proven, effective surveillance technology along 
        the highest trafficked areas of the Southwest border. Funds 
        will be used to procure and deploy commercially available 
        technology tailored to the operational requirements of the 
        Border Patrol, the distinct terrain, and the population density 
        within Arizona.
  --Infrastructure.--CBP is updating and maintaining its facilities 
        infrastructure to support its dual mission of securing the 
        border and facilitating trade and travel. Currently, CBP's 
        facilities plan calls for the following land border ports of 
        entry (LPOEs) to be completed in fiscal year 2013: Nogales 
        West/Mariposa, Arizona; Guadalupe, Texas; Van Buren, Maine; and 
        phase I of San Ysidro, California. Additionally, design and 
        construction is planned to commence on phase II of San Ysidro, 
        California, and CBP will begin implementing the Tier III 
        Outbound Infrastructure program across 10 Southwest border 
        LPOEs in order to implement a range of outbound infrastructure 
        improvements. This work bolsters CBP's southbound inspection 
        capabilities while facilitating processing efficiency and 
        ensuring port security and officer safety.
  --Northern Border Security.--To implement the United States-Canada 
        Beyond the Border Plan, which articulates a shared vision to 
        work together to address threats at the earliest point possible 
        while facilitating the legitimate movement of people, goods, 
        and services, the budget provides $10 million to support 
        northern border technologies, such as the continuation of 
        procurement/testing and evaluation efforts for low flying 
        aircraft detection, the deployment of maritime detection 
        project, and aircraft video downlink.
  --CBP Air and Marine Procurement.--To support CBP Air and Marine's 
        core competencies of air and marine law enforcement, 
        interdiction, and air and border domain security, funding is 
        requested for the continuation of the P-3 Service Life 
        Extension Program, a UH-60 A-L Black Hawk helicopter 
        recapitalization, a new KA-350 CER multi-role enforcement 
        aircraft, and various marine vessels.
  --U.S. Coast Guard Recapitalization.--The fiscal year 2013 budget 
        fully funds the sixth national security cutter (NSC), allowing 
        the Coast Guard to replace its aged, obsolete high endurance 
        cutter fleet as quickly as possible. The budget supports the 
        procurement of two fast response cutters, funding for a 
        maritime patrol aircraft, four cutter boats, and makes a 
        significant investment in the renovation and restoration of 
        shore facilities. The budget also provides funds to crew, 
        operate, and maintain two maritime patrol aircraft, 30 45-ft 
        response boats-medium, and two fast response cutters acquired 
        with prior-year appropriations.
            enforcing and administering our immigration laws
    DHS is focused on smart and effective enforcement of U.S. 
immigration laws while streamlining and facilitating the legal 
immigration process. Supporting the establishment of clear enforcement 
priorities, recent policy directives, and additional training for the 
field, the budget continues the Department's efforts to prioritize the 
identification and removal of criminal aliens and repeat immigration 
law violators, recent border entrants, and immigration fugitives. 
Nationwide implementation of Secure Communities and other enforcement 
initiatives, coupled with continued collaboration with DOJ to focus 
resources on the detained docket and priority cases on the nondetained 
docket, is expected to continue to increase the number of criminal 
aliens and other priority individuals who are identified and removed. 
The budget provides the resources needed to address this changing 
population, while continuing to support Alternatives to Detention, 
detention reform, and immigrant integration efforts. The budget also 
focuses on monitoring and compliance, promoting adherence to worksite-
related laws through criminal prosecutions of egregious employers, form 
I-9 inspections, and expansion of E-Verify.
  --Secure Communities.--The fiscal year 2013 budget includes funding 
        to complete nationwide deployment in fiscal year 2013 of the 
        Secure Communities program, which uses biometric information 
        and services to identify and remove criminal and other priority 
        aliens found in State prisons and local jails. Secure 
        Communities is an important tool in ICE's efforts to focus its 
        immigration enforcement resources on the highest priority 
        individuals who pose a threat to public safety or national 
        security. While we continue to focus our resources on our key 
        priorities, DHS is committed to ensuring the Secure Communities 
        program respects civil rights and civil liberties. To that end, 
        ICE is working closely with law enforcement agencies and 
        stakeholders across the country to ensure the program operates 
        in the most effective manner possible. We have issued guidance 
        regarding the exercise of prosecutorial discretion in 
        appropriate cases, including cases involving witnesses and 
        victims of crime, and implemented enhanced training for State 
        and local law enforcement regarding civil rights issues related 
        to the program, among other recent improvements.
  --Immigration Detention.--Under this administration, ICE has focused 
        its immigration enforcement efforts on identifying and removing 
        criminal aliens and those who fall into other priority 
        categories including repeat immigration law violators, recent 
        border entrants, and immigration fugitives. As ICE continues to 
        focus on criminal and other priority cases, the agency 
        anticipates reducing the time removable aliens spend in 
        detention custody. Consistent with its stated enforcement 
        priorities and recent policy guidance, ICE will continue to 
        focus detention and removal resources on those individuals who 
        have criminal convictions or fall under other priority 
        categories. For low-risk individuals, ICE will work to enhance 
        the effectiveness of Alternatives to Detention (ATD), which 
        provides a lower per day cost than detention. To ensure the 
        most cost-effective use of Federal resources, the budget 
        includes flexibility to transfer funding between immigration 
        detention and the ATD program, commensurate with the level of 
        risk a detainee presents.
  --287(g) Program.--In light of the nationwide activation of the 
        Secure Communities program, the budget reduces the 287(g) 
        program by $17 million. The Secure Communities screening 
        process is more consistent, efficient and cost-effective in 
        identifying and removing criminal and other priority aliens. To 
        implement this reduction in 2013, ICE will begin by 
        discontinuing the least productive 287(g) task force agreements 
        in those jurisdictions where Secure Communities is already in 
        place and will also suspend consideration of any requests for 
        new 287(g) task forces.
  --Detention Reform.--ICE will continue building on current and 
        ongoing detention reform efforts in 2013. ICE will implement 
        its new Risk Classification Assessment nationwide to improve 
        transparency and uniformity in detention custody and 
        classification decisions and to promote identification of 
        vulnerable populations. In addition, ICE will continue 
        implementation of the new Transfer Directive, which is designed 
        to minimize long-distance transfers of detainees within ICE's 
        detention system, especially for those detainees with family 
        members in the area, local attorneys, or pending immigration 
        proceedings. ICE will also continue implementation of revised 
        national detention standards designed to maximize access to 
        counsel, visitation, and quality medical and mental healthcare 
        in additional facilities.
  --Worksite Enforcement.--Requested funds will continue the 
        Department's focus on worksite enforcement, promoting 
        compliance with worksite-related laws through criminal 
        prosecutions of egregious employer violators, form I-9 
        inspections, civil fines, and debarment, as well as education 
        and compliance tools.
  --E-Verify.--$112 million is provided to sustain funding for the E-
        Verify program operations and enhancements to help U.S. 
        employers maintain a legal workforce. The fiscal year 2013 
        budget includes funding to support the expansion of the E-
        Verify Self Check program, a voluntary, free, fast, and secure 
        online service that allows individuals in the United States to 
        check their employment eligibility status before formally 
        seeking employment. Consistent with funding the continued 
        operation of E-Verify for the benefit of U.S. employers, the 
        budget also extends E-Verify authorization for an additional 
        year.
  --Immigrant Integration.--The fiscal year 2013 budget includes $11 
        million to continue support for U.S. Citizenship and 
        Immigration Services (USCIS) immigrant integration efforts 
        through funding of citizenship and integration program 
        activities including competitive grants to local immigrant-
        serving organizations to strengthen citizenship preparation 
        programs for permanent residents.
  --Systematic Alien Verification for Entitlements (SAVE).--The fiscal 
        year 2013 budget includes $20 million in appropriated funding 
        to continue support for USCIS SAVE operations and enhancements 
        to assist local, State, and Federal agencies in determining 
        individuals' eligibility for public benefits on the basis of 
        their immigration status. The funding will supplement the 
        collections derived from the SAVE query charges.
  --USCIS Business Transformation.--The fiscal year 2013 budget 
        continues the multi-year effort to transform USCIS from a 
        paper-based filing system to a customer-focused electronic 
        filing system. This effort is funded through the Immigration 
        Examinations Fee account.
                  safeguarding and securing cyberspace
    DHS leads the Federal Government's efforts to secure civilian 
government computer systems and works with industry and State, local, 
tribal, and territorial governments to secure critical infrastructure 
and information systems. The fiscal year 2013 budget makes significant 
investments in cybersecurity to expedite the deployment of EINSTEIN 3 
to prevent and detect intrusions on Government computer systems; 
increases Federal network security of large and small agencies; and 
continues to develop a robust cybersecurity workforce to protect 
against and respond to national cybersecurity threats and hazards. The 
budget also focuses on combating cyber crimes, targeting large-scale 
producers and distributors of child pornography and preventing attacks 
against U.S. critical infrastructure through Financial Crimes Task 
Forces.
  --Federal Network Security.--$236 million is included for Federal 
        Network Security, which manages activities designed to enable 
        Federal agencies to secure their IT networks. This funding 
        supports Federal Executive branch civilian departments and 
        agencies in implementing capabilities to improve their 
        cybersecurity posture in accordance with the Federal 
        Information Security Management Act, while enabling improved 
        continuous monitoring of network activity and other 
        capabilities to address evolving cyber threats.
  --National Cybersecurity Protection System (NCPS).--$345 million is 
        included for Network Security Deployment, which manages the 
        NCPS operationally known as EINSTEIN. NCPS is an integrated 
        intrusion detection, analytics, information-sharing, and 
        intrusion prevention system that supports DHS responsibilities 
        within the Comprehensive National Cybersecurity Initiative 
        mission. In fiscal year 2013, the program will continue to 
        focus on intrusion prevention while taking steps to improve its 
        situational awareness of evolving cyber threats to Federal 
        networks and systems through a Managed Security Services (MSS) 
        solution. Under the MSS solution, each Internet service 
        provider will use its own intrusion prevention services that 
        conform to DHS-approved security, assurance, and communication 
        requirements.
  --US-Computer Emergency Readiness Team (US-CERT Operations).--$93 
        million is included for US-CERT Operations. As the operational 
        arm of the National Cyber Security Division, US-CERT leads and 
        coordinates efforts to improve the Nation's cybersecurity 
        posture, promote cyber information sharing, and manage cyber 
        risks to the Nation. US-CERT encompasses the activities that 
        provide immediate customer support and incident response, 
        including 24-hour support in the National Cybersecurity and 
        Communications Integration Center. As more Federal network 
        traffic is covered by NCPS, additional US-CERT analysts are 
        required to ensure cyber threats are detected and the Federal 
        response is effective.
  --Multi-State Information Sharing and Analysis Center.--Funding is 
        included to expand the Multi-State Information Sharing and 
        Analysis Center to 25 States to provide the capacity to cover 
        all States by fiscal year 2015.
  --Cybersecurity Workforce.--The fiscal year 2013 budget includes 
        $12.9 million to provide high-quality, cost-effective virtual 
        cybersecurity education and training to develop and grow a 
        robust cybersecurity workforce that is able to protect against 
        and respond to national cybersecurity threats and hazards.
  --Cybersecurity Research and Development.--The fiscal year 2013 
        budget includes $64.5 million for S&T's research and 
        development focused on strengthening the Nation's cybersecurity 
        capabilities.
  --Cyber Investigations.--The fiscal year 2013 budget continues to 
        support cyber investigations conducted through the Secret 
        Service and ICE. In fiscal year 2013, ICE will continue to 
        investigate and provide computer forensics support for 
        investigations into domestic and international criminal 
        activities, including benefits fraud, arms and strategic 
        technology, money laundering, counterfeit pharmaceuticals, 
        child pornography, and human trafficking, occurring on or 
        through the Internet. The Secret Service's Financial Crimes 
        Task Forces will continue to focus on the prevention of cyber 
        attacks against U.S. financial payment systems and critical 
        infrastructure.
                    ensuring resilience to disasters
    The Department's efforts to build a ready and resilient Nation 
focus on a whole community approach to emergency management by engaging 
partners at all levels to ensure that we work together to build, 
sustain, and improve our capability to prepare for, protect against, 
respond to, recover from, and mitigate all hazards. In the event of a 
terrorist attack, natural disaster, or other large-scale emergency DHS 
provides the coordinated, comprehensive Federal response while working 
with Federal, State, local, and private-sector partners to ensure a 
swift and effective recovery effort.
    To ensure that FEMA is able to support these efforts, the DRF, 
which provides a significant portion of the total Federal response to 
victims in Presidentially declared disasters or emergencies, is funded 
largely through an authority provided under the BCA. To support the 
objectives of the National Preparedness Goal and to leverage limited 
grant funding in the current fiscal environment, the administration 
proposes a new homeland security grants program in fiscal year 2013 to 
create a robust national response capacity based on cross-
jurisdictional and readily deployable State and local assets. The 
fiscal year 2013 budget also funds FEMA's continued development of 
catastrophic plans, which include regional plans for response to 
biological events and earthquakes.
    State and Local Grants.--The fiscal year 2013 budget includes $2.9 
billion for State and local grants, over $500 million more than 
appropriated by Congress in fiscal year 2012. This funding will sustain 
resources for fire and emergency management grants while consolidating 
all other punts into the new, streamlined National Preparedness Grant 
Program (NPGP). The fiscal year 2013 NPGP will:
  --Focus on the development and sustainment of core national emergency 
        management and Homeland Security capabilities.
  --Utilize gap analyses to determine asset and resource deficiencies 
        and inform the development of new capabilities through a 
        competitive process.
  --Build a robust national response capacity based on cross-
        jurisdictional and readily deployable State and local assets.
    Using a competitive, risk-based model, the NPGP will use a 
comprehensive process for identifying and prioritizing deployable 
capabilities; limit periods of performance to put funding to work 
quickly; and require grantees to regularly report progress in the 
acquisition and development of these capabilities.
  --Assistance to Firefighters Grants.--The fiscal year 2013 budget 
        provides $670 million for Assistance to Firefighter Grants. 
        Included in the amount is $335 million for Staffing for 
        Adequate Fire and Emergency Response (SAFER) grants to retain 
        and hire firefighters and first responders--totaling more than 
        1,700 firefighter positions nationwide--and $335 million for 
        equipment, training, vehicles, and related materials. Whereas 
        in prior years, a management and administration allowance has 
        been carved out of the topline, the fiscal year 2013 budget 
        proposes to fund it elsewhere, effectively increasing the 
        funding available for actual awards by more than $28 million. 
        The administration proposed $1 billion as supplemental SAFER 
        appropriations in fiscal year 2012 as part of the American Jobs 
        Act. This proposal included the authority for the Secretary to 
        waive certain restrictions on the award and expenditure of 
        SAFER grants to assist State and local firefighting agencies in 
        the current economic environment and prevent unnecessary job 
        losses. If economic conditions warrant, the administration will 
        once again work with Congress in fiscal year 2013 to seek 
        authority to waive these restrictions.
  --Emergency Management Performance Grants (EMPG).--The fiscal year 
        2013 budget includes $350 million to support emergency managers 
        and emergency management offices in every State across the 
        country. Just as with the Assistance to Firefighter Grants, a 
        management and administration allowance has historically been 
        carved out of the topline. The fiscal year 2013 budget proposes 
        to fund management and administration elsewhere, effectively 
        increasing the funding available for actual awards by 
        approximately $10.5 million. EMPG supports State and local 
        governments in developing and sustaining the core capabilities 
        identified in the National Preparedness Goal and achieving 
        measurable results in key functional areas of emergency 
        management.
  --Disaster Relief Fund (DRF).--A total of $6.1 billion is provided 
        for the DRF. Of this amount, $608 million is included in the 
        Department's base budget with the remainder provided through 
        the disaster relief cap adjustment, pursuant to the BCA. The 
        DRF provides a significant portion of the total Federal 
        response to victims in Presidentially declared disasters or 
        emergencies.
  --National Flood Insurance Program (NFIP).--The NFIP is funded 
        entirely by policy fees and provides funding to reduce the risk 
        of flood damage to existing buildings and infrastructure by 
        providing flood-related grants to States, communities, and 
        tribal nations. The fiscal year 2013 budget includes $120 
        million for three interrelated mitigation grant programs to 
        increase America's resiliency to floods.
  --Training/Exercises.--The fiscal year 2013 budget includes $183.5 
        million for training and exercise activities to support 
        Federal, State, and local officials and first responders. In 
        fiscal year 2013, the Department expects to train more than 
        100,000 first responders and will begin the first full 2-year 
        exercise cycle under the revised National Exercise Program 
        (NEP). The NEP will leverage more than a dozen exercises across 
        the country and will build progressively to a capstone exercise 
        in calendar year 2014.
  --Emergency Management Oversight.--The fiscal year 2013 request 
        includes $24 million in base resources for the Office of the 
        Inspector General to continue its Emergency Management 
        Oversight operations.
     providing essential support to national and economic security
    DHS provides essential support to many areas of national and 
economic security. In addition to supporting Coast Guard's current 
operations in the polar regions, the budget initiates acquisition of a 
new polar icebreaker to address Coast Guard emerging missions in the 
Arctic. The budget also continues to support ICE's and CBP's 
enforcement and investigative efforts to protect U.S. intellectual 
property rights and collect customs revenue.
  --Polar Icebreaking Program.--The budget provides $8 million to 
        initiate acquisition of a new polar icebreaker to ensure the 
        Nation is able to maintain a surface presence in the Arctic 
        region well into the future and $54 million to fund operation 
        and maintenance of Coast Guard's existing polar icebreakers, 
        CGC Healy and CGC Polar Star (Polar Star to be reactivated in 
        2013).
  --Arctic Mission Support.--New funding is requested for 
        recapitalization and expansion of helicopter hangar facilities 
        in Cold Bay and recapitalization of aviation refueling 
        facilities at Sitkinak, both in Alaska. These investments will 
        sustain DHS's ability to establish effective presence in the 
        Bering Sea and Aleutian Chain, the ``Gateway to the Arctic.''
  --Collect Customs Revenue.--Funds are requested to support CBP's role 
        as a revenue collector for the U.S. Treasury--customs revenue 
        remains the second largest source of revenue for the Federal 
        Government. These resources support effective internal controls 
        that protect the duties and taxes (over $37 billion in 2011) 
        collected by CBP.
  --Protect Trade and Intellectual Property Rights Enforcement.--The 
        fiscal year 2013 budget includes funds to support ICE's and 
        CBP's enforcement programs to prevent trade in counterfeit and 
        pirated goods, enforce exclusion orders on patent-infringing 
        goods and goods in violation of intellectual property rights 
        (IPR), and investigate the smuggling and distribution of 
        counterfeit goods and products that pose risks to public safety 
        and security. The budget also provides $10 million to CBP for 
        IPR supply/distribution chain management which will transform 
        IPR risk assessment, increase efficiency, and support U.S. 
        economic competitiveness. This CBP private-sector partnership 
        program aims to improve IPR targeting by enabling CBP to 
        identify and release shipments of authentic goods without 
        inspection. Additional funds will expand CBP's Industry 
        Integration Centers to address issues within critical trade 
        sectors by increasing uniformity of practices across ports of 
        entry, facilitating the timely resolution of trade compliance 
        issues nationwide, improving enforcement efforts, and further 
        strengthening critical agency knowledge on key industry 
        practices.
                               conclusion
    The fiscal year 2013 budget proposal reflects this administration's 
strong commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, we will continue to preserve front-line 
priorities across the Department by cutting costs, sharing resources 
across components, and streamlining operations wherever possible.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
Department's fiscal year 2013 budget request and other homeland 
security issues.

                  CYBERSECURITY: INTERAGENCY AGREEMENT

    Senator Landrieu. Thank you very much, Madam Secretary.
    Let me begin with a question on cybersecurity because that 
really is on the front line and in the forefront of our minds, 
given the exercise yesterday and the growing awareness that 
Congress really must act on this.
    Tell us why is it essential for the Senate to act on this? 
The Lieberman-Collins bill outlines one path forward. I 
understand that that bill was built on a memorandum of 
understanding that was signed in 2010 between you and Secretary 
Gates. And this subcommittee will have the responsibility to 
fund a lot of what the authorization committee decides to do.
    So could you take just a minute and explain why it is 
important for the Senate to act and how the Lieberman-Collins 
bill reflects the general agreement between you and the 
Secretary of Defense?
    Secretary Napolitano. Senator, we find that cybersecurity 
is perhaps the fastest growing area of threat that we confront, 
and we also think we have a small window of opportunity to act 
now to prevent growing damage in the future.
    Last year, our Department, through something called the 
U.S. Computer Emergency Readiness Team (US-CERT), which is in 
the National Protection and Programs Directorate (NPPD), one of 
the divisions of our Department, responded to 106,000 cyber 
incidents. We issued 5,200 actionable alerts. We did 72 
industrial control system assessments.
    This work is only growing. The budget contains within it 
monies to allow us to deploy EINSTEIN 3, which helps protect 
Federal-civilian networks and also allows and helps create a 
fund for the agencies of the Federal Government and expands our 
personnel in the cyber arena.
    The bill to which you refer was partially constructed on a 
memo of agreement I signed with Secretary Gates, where we both 
agreed that we shouldn't duplicate the National Security Agency 
(NSA) and that the NSA needed to be accessible both in the 
military context and in the civilian context. And so, what it 
provides is the ability to basically cross-assign employees 
from DHS to the NSA and vice versa and for us, with the rules 
regarding civil liberties and privacy, to be able to use the 
technology and the information that the NSA gathers.
    We need that bill, and we need an approach that requires 
the core critical infrastructure of this country to unanimously 
reach at least a base level of security. Their effect on the 
public, should they be subject to cyber attack, could be 
extraordinary.
    And the bill has a very light approach to how that is done. 
We will do it in conjunction with the private sector. But in 
our judgment, it is required to improve information sharing, 
create a base level of security throughout the Nation's private 
cyber networks, and to maximize our potential to prevent or 
minimize an attack.

                        CRITICAL INFRASTRUCTURE

    Senator Landrieu. And let me ask you this. We always talk 
about critical infrastructure, and I think the two that come 
immediately to mind for me and for many is the oil and gas 
infrastructure, the utility infrastructure. But are there one 
or two other major infrastructure, private--banking, that would 
be a third, finance infrastructure.
    Are there any others that we should be focused on as well 
that are complicated to figure out how this partnership would 
be developed between that particular industry and the 
Government?
    Secretary Napolitano. Right. The way the bill is 
structured, not all what we would call critical infrastructure 
is, indeed, covered. It requires us to do a risk assessment, 
and only covered critical infrastructure would be asked to 
raise their level to a base standard.
    Senator Landrieu. Clearly, major refineries, major 
pipelines, utilities.
    Secretary Napolitano. Indeed. And so, the second step would 
be for us to work with those core critical infrastructure 
entities to develop common standards for a baseline of security 
and information sharing that we could use to detect and prevent 
a cyber attack.

                             PAY AND HIRING

    Senator Landrieu. I want to ask you just to consider the 
role that the National Guard--I know it is not under the 
Department of Homeland Security, but I am going to send you and 
the Department of Defense (DOD) a letter. When you think about 
hiring the warriors that are necessary to fight this cyber war, 
some of these skills in the marketplace, I mean, people are 
paid hundreds of thousands of dollars in these high-skilled 
fields.
    It is going to be hard for us to hire people at hundreds of 
thousands of dollars. What occurs to me is that the National 
Guard, along with the Departments of Defense and Homeland 
Security, by having basically part-time civilians could play a 
significant role in this. And I will broach that with you at a 
later date.
    Let me ask one more question----
    Secretary Napolitano. But if I might, Chairman?
    Senator Landrieu. Yes.
    Secretary Napolitano. Senator, one of the provisions of the 
bill, of the Lieberman-Collins bill would allow the Department 
of Homeland Security to be exempted from some of the civil 
service limitations on pay and hiring to make us more 
competitive in the workforce.
    Senator Landrieu. Because that is going to be the real----
    Secretary Napolitano. I think the NSA and the DOD already 
have that. We would like the same thing.

                                 GRANTS

    Senator Landrieu. That is going to be a real challenge, and 
we will talk about that.
    Let me ask one final question. Then we will go to the 
others, and I will come back for a second round. Let us talk 
about the FEMA Homeland Security Grant Program reform just a 
bit more because this is going to be a big part of our 
discussions this year. Tell us in just a minute or two a little 
bit more detail.
    The President has proposed adding $500 million, but 
basically collapsing the four major programs into one. One of 
the concerns that I have reading and reviewing it is that the 
money looks like it gets distributed to the States on a 
formula, part population and part risk. But as you know, our 
disaster response systems work from the smallest level of 
government up.
    Local government is the first one potentially to know, like 
the police officer on Times Square that saw the smoke coming 
out of the automobile. It wasn't the Federal Bureau of 
Investigation (FBI) on the ground. It wasn't your good staff on 
the ground. It was a local police officer.
    So what I want to make sure is that whatever we do, we are 
really recognizing the importance of local government in charge 
of disasters. The State then steps in, and then the Federal 
Government. So could you just give a comment? Do you recognize 
that that is the way that these threats are sometimes 
recognized at the local level and that we are going to spend 
our money helping and supporting that effort?
    Secretary Napolitano. Yes. And we do that through a number 
of ways, through the Suspicious Activity Reporting (SAR) 
Initiatives, SAR that we support; through the support of the 
fusion centers, which share intel and analysis throughout the 
country. We recognize through training and other initiatives 
that you are exactly right, that that front-line officer is 
often the eyes and ears that help us prevent an attack.
    The reason we are proposing a new vision for grants is that 
we are now in kind of grants phase II. I mean, the Congress has 
already distributed $35 billion across the country. We can see 
from the disaster response we had last spring and even just 
last weekend that States and localities now have a capacity and 
capability they didn't have 5 or 10 years ago.
    We think it is appropriate to put more money into grants. I 
think the Congress cut it too deeply last year. But to 
consolidate grant programs so that we can distribute the money 
on the basis of risk and analysis, looking at gaps across 
localities, across regions, making sure that we have a security 
safety net across the country.
    Senator Landrieu. I think that makes a lot of sense.
    Senator Coats.
    Senator Coats. I would just like to follow up on that 
because this is obviously a significant part of the budget, and 
it is probably the most politically directed part of the budget 
that we have to deal with. And I guess my question goes to how 
are you going to go forward in terms of identifying those 
critical core segments, which, frankly, need a disproportionate 
share of the money because they are more critical, and they are 
more core.
    I think what I heard you say is, is that the expenditures 
to date, the $35 billion distributed across the country 
regardless of the size of community and so forth, that you are 
saying that base capabilities are essentially funded to this 
point, and, therefore, we have the luxury now of focusing more 
of these grants toward the critical areas?
    Secretary Napolitano. Over the past years since the 
creation of the Department, the Congress has invested $35 
billion, which not just through FEMA, but throughout the 
country has enabled us to do training, to help with hiring, to 
buy equipment, to sustain the maintenance of equipment so that 
now we have capabilities across the country that we didn't have 
a few years ago.
    However, we continue to face continuing disasters, 
emergencies of different types. So we need to be able to 
sustain that safety net. We think the $500 million in 
additional grant funding the President requested is necessary 
to do that, and we also think, however, that we don't need a 
dozen different grant programs now.
    We can consolidate them, which is an administrative 
savings, both for us and for the grantees, and really look at 
risk gaps, where we need capabilities, where we don't. By way 
of example, not every community needs a search and rescue team. 
But you certainly need search and rescue teams in a region that 
can get to a place very quickly.
    Not every community needs the same type of hazmat team, but 
you certainly need to be able to make sure that every region of 
the country, every part can be covered. So what we would like 
to do in our vision is to consolidate, streamline, and focus on 
risk.
    There will still be a small base level of grants that will 
be distributed according to a population-driven formula. But 
beyond that, we really want to move to a risk-based approach.
    Senator Coats. And I think we need to do that, and I 
commend you for doing so.
    Another question I have is how did you assess that we need 
$500 million? What metrics did you look at in terms of the 
effectiveness of the $35 billion in order to come up with a 
number of the additional $500 million being needed?
    Secretary Napolitano. We looked at a number of things, 
Senator. We looked at unmet needs. We looked at the fact that 
States and localities have had to lay off people and postpone 
maintenance and other things they normally would have done, but 
because of the recession they were not able to do.
    We looked at where we think we have gaps across the 
country. We looked at the costs that are associated with 
keeping a vehicle facility operational over a period of time. 
We looked at manpower costs. So we looked at all of that to 
come up with the $500 million figure.
    Senator Coats. And has there been outside assessment? Has 
the Congressional Budget Office (CBO) or anybody gone back and 
looked at the last 10 years and basically said here is what 
works, here is what hasn't worked as well, and here is what 
doesn't work at all? Recommendations as to how to better 
allocate and distribute the money. Is anything done like that?
    Secretary Napolitano. I don't know whether CBO has. I know 
that from time to time, the Government Accountability Office 
(GAO) has looked at different grant programs.
    Senator Coats. I meant to say GAO.
    Secretary Napolitano. Yes, and so forth. And we have agreed 
with a number of GAO recommendations and implemented them, 
particularly with respect to evaluation and accountability.
    Senator Coats. And I would urge you to keep doing that. We 
are a big country. Every good member of Congress represents a 
particular area and sees that--represents that that is a 
critical core. But some are--we need to triage that. We just 
simply don't have the money, and we need to go to the core 
competitive process.
    So I will be happy to support you in that.
    Secretary Napolitano. Thank you.

                          CYBERSECURITY BILLS

    Senator Coats. The last question I have and just a little 
bit of time remaining is, as you know, there is the Lieberman-
Collins bill, which we have discussed in some detail and talked 
about last evening also. There is another bill in process out 
there. I don't want to call it a competing bill, and members 
are going to have to look at the two.
    Have you had a chance to look at some of the elements of 
that second bill Senator Chambliss and Hutchison and others are 
proposing and look at areas where they might dovetail or where 
we can coordinate with the Lieberman-Collins bill and other 
areas where the one adds more or less? And if you haven't, do 
you intend to do that?
    Secretary Napolitano. I have looked at it. And I think that 
there are some areas where there is a consensus. I think there 
is a consensus on the need for more robust information sharing, 
a consensus on the need for Federal Information Security 
Management Act of 2002 (FISMA) reform.
    There are some things in what I will call the McCain bill, 
for ease of reference, that we think are misplaced and we would 
hope to work through. One is I think it needs and we need a 
stronger incentive for critical core infrastructure to have 
raised the level of overall cybersecurity because the public 
interest needs to be accounted for more fully.
    Another concern I have with it is putting a lot of the 
cybersecurity effort in the Department of Commerce, which 
heretofore really hasn't been involved. It has been DOD and 
DHS, and I believe that that is where we decided to put it 2 
years ago. That is where we are growing it. That is where the 
expertise is. I don't know why we would add another Department.
    And last, some of the reforms such as I mentioned to 
Chairman Landrieu that would allow us to pay a higher salary 
and hire more quickly in the cyber arena I don't think are 
included in the second bill, and I believe we need those.
    Senator Coats. Okay. Thank you.
    My time has expired. Thank you, Madam Chairman.
    Senator Landrieu. Thank you.
    I think we go to Senator Tester? Yes, Senator Tester.
    I am sorry. Senator Lautenberg, go ahead.

                         GRANT PROGRAMS FUNDING

    Senator Lautenberg. If I might, thank you, Madam Secretary.
    It is so interesting here and throughout much of our 
Government to see that new theories in economics and business 
management are developing. Before 9/11, we didn't need all of 
the services that you and all of us are responsible for.
    And so, when I look at this and I say, if I was in the 
retail business and my nearby competitors were cutting prices 
or offering more, I would say, we have got to adjust to that 
competition. If you are on a football field and you are behind 
a couple of touchdowns, you might change your tactics. You 
would likely change your tactics or change your jobs. And no 
suggestion therein, Madam Chairman.
    But the fact is that with all of the threats that we have, 
they are not diminishing. No one is saying there are less 
threats than we had before. Our competition is getting wiser, 
more adept, and we have to step up and meet those challenges 
because this isn't the loss on the scoreboard. This is the loss 
on the home and the community and our country.
    And last year, spending cuts proposed by House members and 
mandated by the debt limit deal led to deep reductions in State 
and local grant programs, helps keep residents safe, safe in 
high-risk States like mine and the metropolitan New York area. 
In order to more with less, your budget wisely calls for an 
increase in preparedness grants.
    What will be the impact on our security if Congress again 
cuts funding for these programs?
    Secretary Napolitano. We rely for homeland security on a 
partnership with States and localities. The Federal Government 
cannot do this job alone, and so States and localities have to 
have the ability to be the first responders, to be the front 
line, to be the eyes and ears on the ground.
    That means they need the equipment, the personnel, and the 
training with which to do that. That is where the grants 
primarily go, and that is why we need to have more funding, as 
the President has requested, in the grant program. We need 
those partners. They are part of the same team that we are on.
    Senator Lautenberg. Yes. Nothing secures more support from 
a State or community than a matching fund, a fund that if 
matched can be substantially more effective. When distributing 
2012 urban area grants, DHS gave special priority to certain 
high-risk areas and didn't cut any funds for one region.
    The Port of New York/New Jersey region is within the most 
at-risk area for a terrorist attack, according to the FBI, and 
terrorists have targeted this area on multiple occasions. Now, 
as DHS looks ahead to the upcoming 2012 port security grant 
process, how does DHS prioritize these areas?
    Secretary Napolitano. When we award the port and security 
grants, Senator, they will be based on an analysis of risk, 
just as we did with the UASI grants. So when I announced the 
UASI grants for 2012, as you note, we kept New York City whole, 
even though that overall grant program had been cut 
substantially. For a few other locations, we cut maybe 10 
percent, 12 percent.
    But in order to accommodate that, some of the lower risk 
areas were cut 40 percent or 50 percent, and then we reduced 
the number of funded UASI locations by about half.
    Senator Lautenberg. Madam Chairman, can we say to the 
public at large don't worry about it? You're going to be safer. 
We have less money to deal with the problems. We know that the 
threats are ever larger, ever more ominous. Weaponry skills at 
doing bad things have improved on their side.
    Can we say to the public at large don't worry about it? You 
are safer, even though we are forced to spend less on it. I 
don't think so, and we have to get that message out there.
    I don't want to scare the public, but I do want it to be 
realistic out there. So when people go to work or people go to 
school or have to take care of a hospital visit, whatever it 
is, that they are not at higher risk because we have less to 
deal with. And it is a message that has to get out there again.
    Thank you very much, Madam Chairman.
    Senator Landrieu. Thank you, Senator.
    And because we go back, we have Senator Moran, Tester, and 
then Cochran. Is that everybody's schedule?
    Senator Moran. Madam Chairman, I yield my time to the 
ranking member of the full committee, the Senator from 
Mississippi.
    Senator Coats. Wise move.
    Senator Landrieu. Wise move.
    See, this is how he gets special help.
    Senator Cochran. Thank you very much.
    I appreciate very much the undertaking of this job by our 
Secretary, Secretary Napolitano, with her background and 
experience. I think you bring to the challenge of this job a 
lot of good experience and knowledge and understanding of what 
the challenges are that we face in homeland security.
    And so, I commend you for the efforts you are making and 
also organizing the briefing that we had on cybersecurity, 
bringing us up to date on the latest dangers that our country 
faces. It really is a sobering and important undertaking that 
she is leading on behalf of our Government. So we wish you well 
in that regard.
    Secretary Napolitano. Thank you, Senator.

                          COAST GUARD VESSELS

    Senator Cochran. For parochial interests, we build ships in 
Mississippi.
    Secretary Napolitano. I have noticed that.
    Senator Cochran. Have a great reputation for excellence of 
construction, and we know that some of the Coast Guard cutters 
and other vessels used by the Coast Guard to good advantage in 
protecting our homeland security are built by our and other 
yards around the country. Do you have enough money requested in 
this budget to meet the needs for modernizing and keeping up to 
date with the needs for ships and boats for the Coast Guard?
    Secretary Napolitano. Yes, we do. Within the constraints of 
the Budget Control Act, where you don't get everything you 
could possibly want, the Commandant and I really looked at what 
does the fleet need to meet the changing roles of the Coast 
Guard? The Commandant's number one priority was funding the 
sixth national security cutter, and that is included in the 
budget.
    With respect to fast response cutters, the Congress 
appropriated money for four 2 years ago, for six last year. We 
request two for this year, which gives us a 3-year pattern of 
four each year, and we believe that fits within our fleet plan.
    With respect to other assets of the Coast Guard, again, we 
look at the air assets and the small boats and some of those 
things, and we think they fit overall within an integrated 
mission plan for the Coast Guard.
    Importantly, the budget requests $8 million to begin 
planning for another polar icebreaker. I believe this is going 
to be an important asset for us to have, particularly with 
increased drilling up in the Arctic regions, and I would ask 
the Congress to favor that request.

                            DISASTER FUNDING

    Senator Cochran. We had some devastating storms in the Deep 
South and flooding in the entire Lower Mississippi River 
Valley. I know the Coast Guard was actively involved in 
assessing damages and trying to protect our commercial 
interests along the river system that we have in the Deep 
South.
    Do you have requests in the budget this year for our 
consideration for any needed improvements or modernization of 
your fleet?
    Secretary Napolitano. As I said, we have in the budget a 
request for the sixth cutter. We have requests in the budget 
for replacing helicopters with a different type of helicopter. 
We have in the budget the assets necessary for that, but also 
for FEMA.
    And part of what you are referring to goes back to the 
grants issue. We want to make sure that we have the monies 
available for State and localities in the case of a disaster 
such as we had last spring.
    Senator Cochran. Yes. Thank you very much for being here 
and your cooperation with our subcommittee.
    Secretary Napolitano. Thank you, sir.
    Senator Landrieu. Thank you.
    Senator Tester.
    Senator Tester. In the sense of true courtesy and 
magnanimity, I would yield to the Senator from Kansas, since he 
was here ahead of me.
    Senator Landrieu. Do you see how well our subcommittee gets 
along? Isn't this great?
    Senator Moran. I thank the gentleman from----
    Senator Tester. Montana.
    Senator Moran [continuing]. Montana. Madam Chairman, thank 
you very much.
    Secretary Napolitano, I join the Senator from Mississippi 
in his kind comments about your job performance and the task 
that you face, and I am always impressed by the level of 
knowledge and expertise that you have with virtually no notes 
in front of you and very few references to the folks who sit 
behind you. And so, I appreciate the value you bring to the job 
you do.
    And one of the significant tasks, the sad fact is that I 
probably have about 5 minutes to visit with you today and maybe 
10 if we have a second round of questions, and so I want to 
focus on a topic of importance to the country, but also to the 
State of Kansas.

                 NATIONAL BIO AND AGRO-DEFENSE FACILITY

    You and I have had conversations in every hearing that I 
have been in that you have been the witness about the National 
Bio and Agro-Defense Facility (NBAF) and about its importance 
of being constructed and completed and meeting our country's 
needs for a safe and secure food and animal environment. As I 
indicated to you previously, the disappointment that the 
President's budget is inadequate--in fact, requests no money 
this year for the continuation of that project.
    We have appropriated now a significant amount of money, in 
the millions of dollars, both the State of Kansas and the 
Federal Government, and already available for you to expend is 
$40 million to advance the cause of building the utility 
features necessary for site construction. My colleague from 
Kansas, Senator Roberts, and I, along with the Senator from 
Missouri, Mrs. McCaskill, wrote you a letter in March asking 
you to proceed, as you are now authorized to do, to release the 
$40 million.
    As a result of the most recent study being completed, you 
are now authorized to release that money so that we can begin 
the necessary arrangements to put the utilities in place. 
Already Kansas has put its money into that task, and we now 
await the promised Federal commitment.
    And the President's budget, while it requests no money, 
indicates the reason it is not requesting money is that you 
want to do a reassessment. You have indicated to me and you 
have indicated publicly that that reassessment has nothing to 
do with the need to build NBAF and nothing to do with the site 
selection. It is a matter of scope, based upon budgetary 
issues.
    And based upon your commitment that it has nothing to do 
with site or with the need to build NBAF, I would again 
encourage you, as the Secretary of Department of Homeland 
Security, to release the $40 million, the Federal component of 
the utility features of the facility, so that the construction 
is not delayed even further.
    Our conversations, in fact, privately and in the last 
hearing in which you and I were together, you indicated that, 
again, the reason was related to lack of resources to proceed. 
The $40 million is there, and any failure for the Department of 
Homeland Security in my view, and I would hope in your view, 
who has testified so many times about the value and importance 
of this facility, a delay in its completion ought not be 
anything that we tolerate.
    And as I indicated to you in our last conversation in the 
hearing that it makes little sense to me that if your 
explanation for why the President's budget requests no money is 
that Congress needs to appropriate more money than they have, 
there is little value in you asking for nothing. That the idea 
that the administration would ask for nothing and use as an 
explanation that we really need more money than Congress has 
appropriated to date is self-defeating.
    We need your help. We need to be able to say to the 
Department of Homeland Security that the administration still 
believes this is an important priority, as you say in words but 
not reflected in the President's budget. And in fact, I heard 
you testify today about the Congress' failure to fund grants 
adequately, but you are still asking for the grant money 
because it is a priority within the Department.
    And so, I am disappointed that the budget document doesn't 
reflect the priorities that you have but would indicate that 
you have an opportunity to make certain that the efforts to 
complete this facility are not further delayed by releasing the 
$40 million that you now have the authority to release and 
would appreciate your response to that request.
    Secretary Napolitano. Thank you, Senator.
    The NBAF issue is the proverbial rock in a hard place. The 
President has asked in prior years for monies for the NBAF that 
the Congress has not appropriated. And indeed, the Congress has 
asked that we do additional studies with respect to risk and 
the like.
    Those studies have now been completed. It shows that there 
is a de minimis risk of any escape of foot and mouth disease 
from a locale in Kansas. I am very strong in my belief that we 
need the NBAF and that it should be in Kansas, which was the 
winning contestant for the locale.
    In light of the Budget Control Act and some of the other 
additional layers that have been asked to be looked at by the 
Congress, we have decided, let us look at scope and costs now 
in light of that, and I have asked the National Academy of 
Sciences, who did the most recent risk assessment, to help us 
with that.
    That will be related to the Central Utility Plant (CUP) 
because if there is some change in scope of the project, that 
will probably have some relationship to what actually has to be 
built for the CUP. But we have $90 million in unexpended funds 
for the NBAF, and we are going to move step by step in that 
direction.
    We could use the help of the Congress in telling us whether 
the Congress is serious about ultimately appropriating the cost 
of the project, which now because of the time it has taken and 
the additional requirements imposed is about 25 percent higher 
than was originally projected.
    Senator Moran. Madam Chairman? The Department intends to 
preserve the $90 million for ultimate construction of the 
facility based upon the assessment as to the size and scope?
    Secretary Napolitano. Yes, we have made no decision what to 
do with that $90 million. It is just being held. We know that 
there is interest in Kansas in proceeding with the CUP. You and 
your colleagues have made that very, very clear.
    I have spoken with the Governor. He has another idea for 
how we ultimately fund the construction of the NBAF, and he has 
promised to get me those materials very quickly. So our ears 
are open. Our desire is keen. The problem, quite frankly, is 
the money.
    Senator Moran. My time has expired. Thank you.
    Senator Landrieu. Thank you.
    Senator Tester.
    Senator Tester. Yes, thank you, Madam Chairman.
    I also want to echo the thoughts of many who have said 
today thank you for the work you do. You have got a difficult 
job, and I think you have done it well.
    Secretary Napolitano. Thank you.

                                 LEVEES

    Senator Tester. I have got a couple of questions that deal, 
first one, with levees. We have talked about this before. I 
think every drainage has levees that there are some issues 
between the Army Corps and FEMA as far as what their standards 
are.
    And I know there have been requests to make sure that you 
guys can use the information that you both have so the 
certification standards are similar. Can you give me an update 
as if this work is in process, has been done, and if you have 
got any agreement from the Army Corps or you agree with the 
Army Corps on what certification standards should be the 
standard so we don't have two different sets of rules?
    Secretary Napolitano. We are working with the Army Corps. 
We are also working with localities on being flexible in terms 
of how we adjudicate the levee issues. And after my visit to 
Montana, and other places around the country, I have come to 
recognize what a hardship some of these levee requirements are.
    On the other hand, we need the protection, and we need some 
way to make sure that we don't continue building in areas that 
are a true danger.
    Senator Tester. I understand. What I am talking about is 
existing levees and red tape on duplication between the Army 
Corps and FEMA, if we could get you both on the same page. And 
I do appreciate you working with local communities. I think 
that is critical.
    Secretary Napolitano. I think we are working through that.

                            PUBLIC LAND LAWS

    Senator Tester. Okay. Thank you very, very much.
    In recent months, Congress has considered several different 
pieces of legislation, proposals that would waive public land 
laws in this country in the name of border security. The most 
egregious of these, in my opinion, is a bill called H.R. 1505 
in the House.
    It would grant you, the Department of Homeland Security, 
unprecedented power to do as it sees fit on public lands within 
100 miles of the northern border. And Montana happens to have 
about 550 or so miles with Canada. And look, I think we have 
had conversations about agencies to agree. I think in the past, 
you have talked about memorandum of understandings that 
currently exist.
    I think a one-size-fits-all in this particular instance--
because we both know the northern border and the southern 
border are two different borders--is it doesn't fit well. And I 
don't think it is about catching bad guys. I think it is about 
allowing governmental agents to build roads and watchtowers and 
buildings in places where other agencies, even tribal units, 
would not have any input. Even the Park Service, Glacier Park 
being a huge economic driver in my State, being one.
    Could you give me an idea on what you feel about H.R. 1505, 
whether it is good policy or bad? And basically, maybe talk 
about the interdepartmental relationships that you have 
currently?
    Secretary Napolitano. In my judgment, H.R. 1505 is 
unnecessary, and it is bad policy. We don't need it for our 
immediate border control needs. We already have an agreement 
with the Department of Interior. If we are doing a chase or 
there are exigent circumstances, we can go onto lands without 
having to seek prior approval or any of that.
    But as you say, we do do construction projects, integrated 
fixed towers, watchtowers, roads, and I think it highly 
appropriate, given the nature of those public lands, that we 
work with the Department of Interior when we do that.
    Senator Tester. I want to thank you for that, and I want to 
thank you for your work, working with other departments, 
breaking down the silos, so to speak, between them. I think it 
is critically important.

           PLUM ISLAND NATIONAL BIO AND AGRO-DEFENSE FACILITY

    Senator Moran would be disappointed if I didn't talk about 
NBAF also. So I will.
    Senator Moran. I thought your willingness to cooperate 
based upon your yielding time to me would suggest you have 
taken a new approach.
    Senator Tester. It is all about making sure the Government 
spends its money wisely and effectively.
    Thank you, Senator Moran.
    Hey, I want to ask a couple of things because this is a 
very serious matter because it deals with disease, disease in 
our livestock, making sure that we are ahead of the game that 
will give our producers every advantage that they have in a 
worldwide market.
    You referenced a previous study talked about--I believe it 
was 70 percent potential for a release over its 50-year 
lifetime. You said that you have done an update to the risk of 
the NBAF in Kansas. It is de minimis, less than 0.1 percent, 
which is perfectly--we are in the ballpark. So on that line, I 
have changed my perspective.
    The problem is, is that it is a billion-dollar expenditure 
to hit that de minimis amount. Has the Department looked at 
other options here? I mean, and it is nothing against Kansas. 
It is just that it is in the heartland, and if we are going to 
have to spend this kind of money to make it de minimis because 
of tornadoes or whatever natural disaster that can occur, has 
the Department--we are ping ponging you a little bit, Madam 
Secretary, and I apologize.
    But has the Department looked at other options, more safe 
options? Is the Plum Island facility still an option?
    Secretary Napolitano. We have looked. And I have looked 
personally. I mean, I spent a day up at Plum Island, met with 
the scientists up there. I have spent some real time going 
through the NBAF plans.
    Here is the problem. Plum Island is not adequate. We can't 
build the size of a facility for large animal research that we 
need to have to really have a level 4 laboratory that meets the 
needs of the country.
    The question for the Congress is if the Congress wants to 
have a level 4 laboratory that can deal with large animal 
zoonotic disease, and we believe that that is an important 
thing to have, then at some point there has to be a commitment 
to fund it.
    Senator Tester. Okay. Just one last thing, if I might, 
Madam Chairman?
    The Senator from Kansas talked about the kind of millions 
that have been invested already. To make it up so that there is 
a de minimis likelihood of a release, what kind of money are we 
talking about in today's dollars to finish this facility?
    Secretary Napolitano. Our estimate is that the total cost 
to build will be between $1 billion and $1.1 billion.
    Senator Tester. And does that include the billion 
additional dollars to make it de minimis?
    Secretary Napolitano. Yes. That is the cost with the 
additional requirements, yes, sir.
    Senator Tester. With the additional requirements, $1.2 
billion.
    Secretary Napolitano. One to $1.1 billion.
    Senator Tester. One to $1.1 billion.
    Secretary Napolitano. Yes.
    Senator Tester. Just want to be clear. Thank you very much.
    Senator Landrieu. Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    Madam Secretary, welcome.
    Secretary Napolitano. Thank you.

                           POLAR ICEBREAKERS

    Senator Murkowski. I want to take you back up north and 
discuss our capabilities in the Arctic, an issue that you and I 
have had an opportunity to talk about, and I want to thank you 
and your office, your staff, for your support of the recent 
Coast Guard mission that helped to escort the Russian fuel 
tanker, the Renda, through the ice to Nome to help not only 
Nome, but the surrounding villages receive fuel supply for the 
winter.
    The good news is they are going to make it through the 
winter, and the better news is that they are not having to pay 
$9 a gallon for their fuel. So that is significant.
    I also need to commend you. You helped us address a Jones 
Act issue in the midst of holiday time, and it was greatly 
appreciated.
    But I think that whole episode up north only served to 
highlight the need that we have for icebreaking capacity in 
this country, the fact that we have only one operational 
icebreaker. This is not just an issue that the Alaska 
delegation raises here. I was addressing the legislature a 
couple of weeks ago. It is a high, high priority.
    And Madam Chairman, I have a letter from one of our 
representatives in the State house relating to the concern that 
Alaskans have for the need for icebreaking capacity, and I 
would like to submit his letter as part of this subcommittee 
record, if I may?
    Senator Landrieu. Without objection.
    [The information follows:]
     Letter From Bob Herron, State Representative, Alaska House of 
                            Representatives
                                                     March 8, 2012.

RE: HJR 34--Expressing to Congress the Immediate Need for Coast Guard 
        Icebreakers and an Arctic Base in Alaska
    The Alaska Northern Waters Task Force's final report was released 
January 30, 2012. HJR 34 formalizes two prominent recommendations of 
the task force and calls for the United States to:
    1. Forward base the U.S. Coast Guard in the Arctic; and
    2. Fund icebreakers and other ice-capable vessels.
    The entire Arctic region is experiencing increased human activity 
related to shipping, oil and gas development, commercial fishing, and 
tourism and this increased activity leads to a commensurate need for 
immediate investment in the United States Arctic to enable the 
responsible development of resources; foster maritime commerce, 
safeguard the well-being of Arctic residents and ecosystems; facilitate 
emergency and disaster preparedness and response; and protect United 
States sovereignty.
    The Coast Guard's mission in the Arctic is broad and it's becoming 
increasingly clear that the Coast Guard lacks the necessary assets to 
adequately complete its mission--without a corresponding increase in 
Arctic investment by the United States, this deficiency will only 
worsen over time. Having a sufficient number of ice-capable vessels 
(including shallow-draft vessels with icebreaking capability) is vital 
for the Coast Guard to fulfill its expanding mission in the Arctic.
    Congress and the administration are mandated by multiple laws and 
policies to maintain icebreaking operations, including:
  --A 1936 Executive Order from President Franklin Roosevelt;
  --The Arctic Research Policy Act of 1984;
  --The Coast Guard Authorization Act of 2010; and
  --The 2011 Arctic Search and Rescue (SAR) agreement.
    Should a tragedy--such as the recent wreck of the cruise ship Costa 
Concordia in Italy--occur in the Arctic, the Coast Guard would be hard 
pressed to respond with sufficient assets in a timely fashion given 
their single polar class icebreaker and their nearest base being in 
Kodiak, over 900 miles away from Alaska's Arctic coast,
    Other countries fully understand the need for more icebreakers in 
the Arctic:
  --Russia has a fleet of eight nuclear powered icebreakers;
  --Canada has committed $38 billion to a 30-year plan to build 
        additional icebreakers and other ice-strengthened ships;
  --Sweden, Finland, South Korea, and Japan have recently added 
        icebreakers to their fleets; and
  --China has a large icebreaking research ship and will have a second 
        vessel operational in 2013.
    Considering it will take from 7 to 10 years to design and construct 
just one new polar class icebreaker, it is time-critical that the 
United States fund and construct additional icebreakers. Delay on this 
action will inevitably lead to undesirable consequences for the United 
States in the Arctic.
    The Coast Guard must have a greater overall presence in the Arctic, 
with the ability to stage assets closer to future shipping, oil and gas 
drilling, and commercial fishing activities.
    Considering all of the above, HJR 34, very appropriately I think, 
calls on Congress and the administration to fund all facilities and 
vessels necessary to enable the Coast Guard to fulfill its Arctic 
missions. This includes at a minimum an Arctic Coast Guard base and a 
sufficient number of ice-capable vessels, including shallow-draft 
vessels with icebreaking capability and polar class icebreakers--the 
latter through refurbishment of current icebreakers or acquisition of 
new ones. Naturally, long-term maintenance funding for all of the above 
should also be forthcoming.

    Senator Murkowski. Thank you.
    And I note that in the President's budget, we have $8 
million that is requested for study and design of a new 
icebreaker. You and I both know that $8 million does not get 
you an icebreaker.
    I recognize that the request is $860 million over the next 
5 years, and how we are able to meet that schedule, given that 
the first year is $8 million, one-tenth, it is something that 
causes me a little bit of concern. But I guess the question for 
you this morning is whether or not the icebreaker acquisition 
has become a higher priority for this administration?
    And I further note that the national security cutter Nos. 7 
and 8 are not on that funding list. Last year, when we had 
discussed this, they were, in fact. So has icebreaking capacity 
and our need to move forward aggressively taken a higher 
priority within this administration?
    Secretary Napolitano. If I might, Senator, let me address 
the icebreaker, and then I will address Nos. 7 and 8.
    Senator Murkowski. Okay. That is fine.
    Secretary Napolitano. But, yes, as I mentioned earlier, 
with the growing oil drilling presence up in the north part, 
north of Alaska and other greater activity up there, we believe 
that the country needs another icebreaker. We have got the 
Polar Star. It is in dry dock now. It will be out in a year.
    We have the Healy, which is a medium-weight icebreaker and 
which helped escort the Renda in. When the Healy comes in for 
maintenance with the Polar Star in dry dock, we actually will 
not have an icebreaking capability. So that reason alone, I 
think, illustrates the need for a third.
    The question for the Congress is somewhat similar to the 
question for the NBAF. When you have a large asset or capital 
expenditure that we know needs to be made, which is a priority, 
how does that get funded and appropriated over the construction 
life that is necessary?
    Finding a billion dollars here and a billion dollars there 
in our budget means you would have to take it out of operations 
and front-line personnel. So this is a real question for the 
Appropriations Committee.

                       NATIONAL SECURITY CUTTERS

    With respect to Nos. 7 and 8, we are--in light of what the 
Department of Defense is doing with respect to its budget 
reductions under the Budget Control Act, we are coordinating 
with the Chief of Naval Operations, looking at what the Navy is 
doing with its assets, and then really correlating what Nos. 7 
and 8 would do, should they be built.
    So we think that, given where we are with the budget and 
the fiscal environment, before moving ahead on Nos. 7 and 8, we 
want to make sure we are coordinated with the Navy.

                  COAST GUARD MISSION IN ARCTIC OCEAN

    Senator Murkowski. Let me ask you this then. Because this 
summer, the Coast Guard is going to launch the largest ever 
deployment in the Arctic Ocean because, as you note, we have 
got much accelerated ship traffic, anticipated oil development 
up there. And the district 17 command has stated that these 
additional Arctic patrols and the personnel will necessarily 
involve diverting assets from elsewhere without a measurable 
budget increase.
    So they are prepared to make this happen this summer, but 
you have got a situation where you pull from one area to divert 
the assets north. They are no longer in their regular operating 
areas.
    And so, I guess the question to you is as we look to the 
evolving Arctic, as we look to the assets that we have up 
there, as we recognize that even if we weren't able to proceed 
this summer with oil exploration, which I certainly hope we 
will be, we are seeing a volume of shipping traffic that is 
unprecedented. Unprecedented, doubling year after year.
    We are seeing tourism. We are seeing cruise ships up north 
in an area that nobody ever anticipated.
    So for us to be able to respond, for the Coast Guard to 
carry out its mission in Arctic waters is--we are going to have 
to reassess to look at the situation, and the question to you 
this morning would be are you prepared to request that we 
provide for these critical assets so that the Coast Guard can 
retain its mission in these areas, fill these mission gaps that 
we are clearly going to have if we have to divert assets from 
one locale to another, and recognizing that some of the assets 
just simply cannot withstand the conditions in the North 
Pacific and in the Arctic?
    Secretary Napolitano. Indeed, and the Commandant is fully 
aware of that. The budget request reflects what we believe we 
need for the coming fiscal year. But we know that long term, 
everything evolves. Everything changes. And we may have to move 
other assets into that area.
    But, yes, the President's budget request does reflect that.
    Senator Murkowski. We will continue working with you, 
pressing forward to make sure that not only people on this 
subcommittee understand, but that the Nation understands. We 
are an Arctic nation, and as such, we have got 
responsibilities. And those responsibilities require us to have 
the equipment and the assets and the infrastructure to move 
forward and maintain that.
    Thank you, Madam Chairman.

                         COAST GUARD PERSONNEL

    Senator Landrieu. Thank you, Senator Murkowski, for being 
such a champion.
    And we are going to go through a very short second round 
and try to end this meeting at 11:30 a.m. or 11:35 a.m. if we 
can, just 3 minutes each.
    Let me follow up on the Coast Guard while Senator Murkowski 
and Senator Cochran are here. In this budget that you have 
presented, Madam Secretary, there is a reduction of 1,000 
personnel for the Coast Guard. Following up on what Senator 
Cochran said and Senator Murkowski, I think we are going to 
have to find a way forward. I am not sure how, but we want to 
work with you to provide some additional assets for the Coast 
Guard.
    Not only is the sector 17 rapidly evolving in Alaska, but I 
was just in New Orleans with our sector, which is 8, and the 
sector, I think it is sector 7 off the coast of Miami, there is 
now drilling going on off the coast of Cuba that is not in 
American waters. But should there be an oil spill, it is going 
to affect the eastern seaboard of the United States.
    So we have got lots, many evolving situations that we could 
not have predicted maybe 10 or 15 years ago, and these budget 
constraints are really constraining a part of the budget that 
at least our States rely on significantly and the whole country 
needs. So we are going to be working with you through this 
Coast Guard challenge.
    I don't know if you want to respond just briefly? I know 
you are constrained, but we have got to figure out a way for 
these icebreakers and these larger ships that are built in 
Mississippi, which we definitely need. The smaller ships are 
built in Louisiana.
    But to try to find some way forward and perhaps using some 
of the new revenues generated from oil and gas might be a smart 
way to invest in the equipment necessary for the safety of the 
oil and gas industry, which isn't under your budget. But we 
might need to think about that because this budget is running 
into very significant barriers when it comes to the Coast 
Guard.
    Secretary Napolitano. If I might? The 1,000 reduction I 
think is wise, and we would suggest that it be taken. It is 
recruiting personnel that we don't need because we fill our 
recruitment in about a quarter or two.
    You increased the intelligence division of the Coast Guard 
200 percent over the last 3 years. We don't need to keep 
increasing that.
    And then there is normal attrition in kind of the 
administrative and clerical support here in the District of 
Columbia that we also think we don't need. So the 1,000 
compared to the overall personnel size of the Coast Guard, I 
think, is a wise and prudent reduction.

            NATIONAL EMERGENCY RESPONSE CAPABILITIES REPORT

    Senator Landrieu. And I appreciate that, and we will look 
at that carefully. But we are not in 100 percent agreement yet, 
but I will be respectful of those views. But the equipment side 
of the Coast Guard is a serious issue, and let me just ask my 
next question, then turn it over.
    Last year, we had a hearing on the national emergency 
response capabilities. We called for an annual assessment. That 
assessment is due this March, March 12. Can we expect that 
report within the next 30 or 60 days? Are you aware of that 
report that you owe us? Because it is very difficult for us to 
assess and place our funding without that report from your 
Department.
    Secretary Napolitano. I believe that report is in the final 
stages of clearance. I hope to get it to you very quickly.
    Senator Landrieu. Okay. Thank you.
    Senator Coats.

                         AVIATION FEE INCREASE

    Senator Coats. Just one question. Like last year's budget, 
the 2013 President's budget assumes that the Congress will 
introduce and pass an aviation fee increase. I don't know how 
much the dynamics have changed versus last year when we weren't 
successful in doing that.
    But I note that the DHS budget assumes this is passed and 
$117 million in additional collections will be available in the 
third quarter of the year. If it is not--and I assume that 
legislative proposal will be submitted on that--but, if it 
doesn't pass this year, what is your thinking relative to that 
$117 million shortfall?
    Secretary Napolitano. I am hopeful that the Congress will 
give it a more favorable response, and we thank the efforts of 
the subcommittee there. As you know, that fee hasn't increased 
since 2002.
    Now, one of the concerns raised by the Congress last year 
is that the fee increase was designed per enplanement so that, 
for example, people who don't live where there is a hub airport 
would always have to pay at least two fees. We took that into 
account this year. It is only per trip.
    And when you compare what the air carriers are charging for 
checking luggage, which has shifted a huge cost over to us in 
terms of what we have to do at the gate, among other things, it 
really does move us in the right direction.
    I would note, last, that I know we all get a lot of GAO 
reports, and I can't read them all. But one I did note was that 
in the recent report on reforms and redundancies in the Federal 
Government, on page 310, it does suggest that the Congress 
needs to revisit the issue of the fee.
    Senator Coats. I am impressed you knew that page number.
    Thank you.
    Senator Landrieu. Senator Cochran.

                  COAST GUARD CAPITAL INVESTMENT PLAN

    Senator Cochran. Madam Chairman, when we talked in the 
first questions about ship building and the need for Coast 
Guard cutters and modernizing and keeping up to date with the 
needs for ships and other assets, it occurs to me that we seem 
to be on a collision course with the Coast Guard about the 
needs for some assets that look to me to be very important.
    It seems that the Office of Management and Budget (OMB) has 
probably tried to tamp down the request or needs for ship 
building against the recommendations of the Coast Guard 
leadership. OMB has forced DHS to eliminate ships from its 
plan, and the Coast Guard has been forced to devise an 
alternate, less preferable way to spend funds on aviation 
assets.
    These are observations of mine, and my question is that 
when you look at the request for the Coast Guard for aircraft 
over the 5-year capital investment plan (CIP), it has nearly 
doubled from $871 million in fiscal year 2012 to $1.7 billion 
in the fiscal year 2013 request. Do you know of any change that 
has occurred in the Coast Guard's strategy or needs that 
necessitated this dramatic increase for aircraft at a time we 
are trying to deal with the challenges of fiscal restraint?
    Secretary Napolitano. I would say, Senator, that the CIP to 
which you refer is constantly being looked at and revised, and 
in fact, we, I think, owe you a revised document very shortly 
that should accommodate or go with the 2013 budget.
    But again, I think a couple of things to be kept in mind. 
Number one, we funded the priorities stated by the Commandant, 
and he has testified that we have funded the priorities that he 
has for the Coast Guard.
    Second, we are all operating under the bill the Congress 
passed, the Budget Control Act, and we need to meet those 
limitations. We all want to reduce the deficit as we move 
forward, and that has required all of us to look for places 
where we might not be able to fund everything, but we can fund 
the essential things.
    And then, last, with respect to DHS, the budget is very 
personnel driven. We need border patrol agents. We need port 
inspection officers. We need TSA officers. We need FEMA 
employees. We need cybersecurity experts.
    So, again, we get caught in this tension between buying 
long-term assets versus the real driver of the costs of the 
Department, which is personnel that are necessary on the front 
lines.
    Senator Cochran. Thank you.
    Senator Landrieu. Thank you.
    Senator Moran.

               POTENTIAL CONSEQUENCES OF DISEASE OUTBREAK

    Senator Moran. Madam Chairman, thank you very much.
    Again, on NBAF, I feel sometimes it is seen as so 
provincial because the site is in Kansas. But we care a lot 
about this from the livestock aspect, the cost to the economy. 
We are an agricultural State. Livestock production is a 
significant component of that agricultural economic activity.
    And so, this matters in an economic sense, and I understand 
in your response to the Senator from Montana's question about 
$1 billion to $1.1 billion in spending. But I do know that that 
may be a very small expenditure compared to the consequence of 
an outbreak of one of these diseases.
    And in fact, the analysis when, in 2010, there was a foot-
and-mouth disease outbreak in South Korea, it was estimated 
that that was a $3 billion cost then for that one outbreak. Can 
you comment on how expensive, what the consequences, economic 
and other otherwise, would be in the absence of the ability to 
do this research and to be able to prevent or respond to an 
either accidental or intentional release of one of these 
dramatic occurrences?
    Secretary Napolitano. I think the impact could be huge. It 
could be interruption of the food supply. It could be reduction 
in our ability to export.
    Depending on the disease and the type and the outbreak, it 
wouldn't surprise me that we would be facing something much 
larger than the cost of building an NBAF.
    Senator Moran. I noticed that Dr. DeHaven at the Department 
of Agriculture said recently that an episode, we would spend 
the amount of money that we would spend in building this 
facility in about 6 hours as a consequence to our economy.
    So while all these efforts to protect our homeland are 
expensive, the consequences of our failure to do so are more 
expensive in the loss of life and the economic damage to our 
economy and our people. Is that true?
    Secretary Napolitano. Yes.
    Senator Moran. And I look forward to working with you to, 
again, continue this conversation about the release of the $40 
million and the land transfer that is now appropriate.
    Thank you.
    Secretary Napolitano. Indeed. Thank you.
    Senator Landrieu. Senator Murkowski.

                         AVIATION FEE STRUCTURE

    Senator Murkowski. Thank you, Madam Chairman, for the 
opportunity for a second question here.
    I appreciate the clarification that you gave on the TSA 
passenger security fees. Of course, this is something that 
raises all kinds of anxiety back home because our costs for air 
travel are so considerable, and 80 percent of our communities 
are not connected by road. So we just have to fly everywhere.
    And so, knowing that there was a potential where you could 
see a stepped-up fee on every leg of every journey was 
something that is not bearable. But if I understand you 
correctly, you are saying that it is a per trip.
    So if I am going from Aniak to Bethel to Anchorage to 
Seattle----
    Secretary Napolitano. It is one fee.
    Senator Murkowski [continuing]. That is one fee. Okay. That 
helps. It is still going to raise some anxiety, but it helps to 
know that.
    I understand further that under the President's budget 
request, it would allow you, as the Secretary, to raise the 
fees through regulation when necessary without coming through 
us. I am assuming that that is correct and----
    Secretary Napolitano. Yes. Yes, because I think the idea 
would be to have a fee structure in place that would rise to a 
capped level. In other words, we would never be able to just 
willy-nilly raise the fee.
    But rather than having to come to Congress every year, 
which is sometimes difficult, it would give us the authority to 
go ahead and adjust the fee, as we do in other areas of the 
Department.
    Senator Murkowski. Right. But it would continue to be a 
maximum of $5 per trip? That would be the limit?
    Secretary Napolitano. No, the plan would be, Senator, to 
raise the fee this year to $5.50, and it would increase $0.50 
each year until fiscal year 2018 when it would remain capped at 
$7.50.
    Senator Murkowski. And I guess the concern that I will 
express on behalf of my constituents that fly everywhere is be 
very cognizant that we have a situation in Alaska where our air 
fares will put everybody else to practically tears when you 
look at the cost of air travel. And any fee, it may look like a 
little bit on a piece of paper, but these fees we all know add 
up and are an incredible impediment to most of my constituents.

                       AIR FREIGHT SECURITY FEES

    On a related topic, I was down in a small community that is 
accessible only by air. They were talking about the TSA freight 
security fees and were giving me the example of how much a 
gallon of milk increases because of the security fees that are 
attached by TSA.
    I am trying to understand a little bit more about how these 
are set, whether they are through TSA or through it is the 
individual air carriers. But I would like to work with your 
office on this in understanding it. Because again, it is adding 
to costs that are already close to prohibitively expensive when 
we are looking at higher gas prices, and I need to have just 
better understanding here.
    Secretary Napolitano. If I might, Senator Murkowski?
    Senator Murkowski. Yes.
    Secretary Napolitano. I am very sensitive to the needs of 
Alaskans in this regard, and why don't I have my staff set up a 
briefing for you on the fees, the fee structure, and what we 
anticipate for the security fee?
    Senator Murkowski. I would appreciate that, and I will 
share that with my constituents.

                          FLOOD PLAINS AND MAP

    Madam Chairman, I know my 3 minutes have expired. I would 
just like to state here that in addition to the passenger fees 
and energy issues, I have people all over my State that are 
just upset, as upset as they can possibly be, about the FEMA 
flood plains and the maps.
    I have got folks from Juneau to Fairbanks to the Mat-Su 
Borough that are saying we don't understand this. We don't know 
whether we have to get a LOMA or a LOMAR. We don't understand 
how we could have gone from a situation where we weren't close 
to any flood plain, and now, apparently, we are in jeopardy and 
we have to hire a civil engineer to basically move through this 
process.
    Based on what I have heard from folks back home, my 
suggestion is you go back to the drawing board on this with 
wholesale reform, but really focus on understandability and 
customer service. I don't know what kind of heat you are 
getting from other quarters of the country, but it sure has 
caused a lot of consternation.
    Secretary Napolitano. We have heard from other--Senator 
Tester's question indicates other areas of the country. And we 
are working under a statutory program and mandate. So our 
flexibility is limited, and the overall goal is to have in the 
country a reasonable set of requirements for when you are in a 
flood plain and when you are not. And that makes a difference 
for insurance and all kinds of purposes.
    Senator Murkowski. And that all sounds reasonable.
    Secretary Napolitano. Yes, exactly right. So we are working 
with communities, and I will go back to FEMA and make sure that 
we are looking specifically at some of the communities that you 
have, and we will work with you on that.
    Senator Landrieu. Can I interject something here? And I 
appreciate, Senator Murkowski, first of all, the bill you refer 
to as statutory is the National Flood Insurance Program, which 
has not been authorized for quite a while over this issue and 
other issues. It keeps getting a temporary extension.
    And one of the reasons we are not able to get a full 
extension is over this issue, and the other thing that is in 
that bill that I strongly object to is an automatic rate 
increase of 15 percent per year for people that may be in a 
flood plain. And it used to be that just Mississippi and 
Louisiana were in the flood plain, and we kept yelling and 
screaming about it. But now everybody is in a flood plain.
    So I want to do a hearing on this, Senator, and I 
appreciate how problematic this is. But it is going to take 
work from our subcommittee and oversight of the core Committee 
to figure this out. But it is a major problem for our country.
    I am going to close with just submitting to the record some 
response on the TSA aviation security fee because while it is 
controversial, the fact is the cost of providing security for 
our Nation through TSA has gone up 400 percent. The fee has not 
kept up with that, and we really need to look to the modest 
increase you have suggested.
    But I will say that I have great sympathy for Alaska, and I 
am going to work with Senator Murkowski to think about some 
exemptions for Alaska that I am going to try to encourage my 
colleagues to accept. They are not just rural. They are in a 
category by themselves.
    And I just think in a big country like ours, one size 
doesn't fit all. We try to do it all the time, and it doesn't 
work. So she knows that she has got my commitment to work with 
her and with the other Senator from Alaska to give them a 
little breathing room on some of this.

                   STRATEGIC PETROLEUM RESERVE OFFICE

    And finally, my final question is the Jones Act. As you 
know, I do not support the President's call to release oil from 
the Strategic Petroleum Reserve Office (SPRO). I don't believe 
the SPRO was designed for that purpose. That is contrary to its 
intention, in my view.
    But worse, last year when the SPRO was released, which had 
no impact on the price of oil at the pump, after it was, the 
Jones Act got waivers, received waivers from your Department 50 
times. And when they get waivers, it means that ships built in 
America, owned by Americans, and crewed by Americans are pushed 
aside, and foreign vessels are allowed to come in.
    So in our bill last year, as you know, I put language in 
that said the Jones Act cannot be waived without your 
consultation with the U.S. marine industry to determine the 
availability of American vessels. The President is 
contemplating. I hope he won't do it. But he is contemplating 
opening the SPRO again.
    Have you been talking with our maritime folks to make sure 
that if he does that, which he has the right to do, although I 
think it is ill-advised, that you are talking with the U.S. 
maritime to see if they have the capability to move this oil 
because it is going to come from refineries in Texas and 
Louisiana to other places along the country?
    Secretary Napolitano. I don't know whether there have been 
any specific discussions with respect to moving oil from SPRO. 
I do know, however, that before we approve a Jones Act waiver, 
there is a survey done.
    We get recommendations. They come in from DOD, the 
Department of Energy, then up to me ultimately. And part of the 
analysis is, are there available marine vessels from the United 
States to carry the cargo?
    Senator Landrieu. Please look at those U.S. vessels first, 
and only if you have to, please, use those foreign vessels. It 
is important to the manufacturing base in our country.
    I thank the Secretary for her testimony.
    Secretary Napolitano. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. Questions for the record should be 
submitted by close of business on Tuesday, March 13.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                             sequestration
    Question. If Congress approves the President's request, the DHS 
budget will fall for the third straight year. This will necessitate 
tough decisions with real consequences for securing the Homeland. These 
cuts would be compounded in significant ways if, in January, the so-
called sequestration, a 7.8-percent across the board cut, is 
implemented. I know that the President has proposed sufficient savings 
that, if enacted, would negate the sequestration, but please give me 
four or five examples of what impact such a sequestration will have on 
your efforts to secure the Homeland.
    Answer. In the Budget Control Act (BCA), both parties in Congress 
and the President agreed to tight spending caps that reduce 
discretionary spending by $1 trillion over 10 years. Discretionary 
spending is reduced from 8.7 percent of GDP in 2011 to 5.0 percent in 
2022. The administration's fiscal year 2013 budget submission reflects 
that agreement, and difficult trade-offs were made to meet these very 
tight caps.
    The BCA further specifies future reductions to discretionary and 
mandatory spending to achieve deficit savings if the Joint Select 
Committee on Deficit Reduction does not reach an agreement. Since these 
reductions are not scheduled to begin to take effect until January 2, 
2013, their exact impact on the Department is not yet known and will be 
dependent upon the fiscal year 2013 appropriations are enacted by 
Congress.
    In order to sustain front-line operations in recent years while 
facing declining budgets, the Department has taken significant 
reductions to administrative and mission support functions over the 
past 3 years. We've been able to achieve over $3 billion in cost 
avoidances and savings.
    Additional cuts of the magnitude outlined in the BCA sequestration 
would directly impact DHS's front-line operations--rolling back 
significant progress in securing our Nation's borders; increasing wait 
times at our Nation's land ports of entry and airports; impacting 
aviation and maritime safety and security; defending critical 
infrastructure from attack; hampering disaster response time; and 
eliminating the cybersecurity infrastructure that has been developed in 
recent years.
    An 8-percent sequester cut, which is roughly the level anticipated 
by the BCA, translates to over $3 billion in reductions to DHS 
activities and requirements. This cut is larger than the combined 
budgets of the Federal Law Enforcement Training Center, the Science and 
Technology Directorate, Domestic Nuclear Detection Office, Analysis and 
Operations, Office of Health Affairs, and the Department's management 
and operations (total combined is $2.7 billion).
            cybersecurity education--cyber innovation center
    Question. In recent testimony on cybersecurity, you emphasized that 
increasing cyber education and awareness of the general public creates 
a more secure environment. As you have seen in Louisiana, the Cyber 
Innovation Center has developed a unique program that sparks students' 
interest in a cybersecurity career at an early age. The program also 
engages school teachers so the number of young people who will benefit 
from cybersecurity awareness is multiplied. Such programs can serve as 
a national model and I thank you for coming to Louisiana and seeing it 
firsthand.
    Unfortunately, the fiscal year 2013 budget proposes a 13-percent 
decrease to the DHS Cybersecurity Education National Initiative. 
According to the request, this proposal will defer the full assessment 
of the national cybersecurity workforce by 2 years. The justification 
for the proposed cut is that funding will support higher priorities 
such as EINSTEIN and the United States Computer Emergency Readiness 
Team. This sounds as if we are relying on tools more than people to 
counter this dynamic threat. The DHS goal is to educate 1.7 million 
students within 10 years.
    Has the goal to educate 1.7 million students changed? Can you 
clarify how this proposed cut would impact the timeframe to meet the 
goal?
    Answer. The Senate Appropriations Committee established a goal for 
the Department of Homeland Security (DHS), in conjunction with the 
Department of Education, Department of Defense, the National Institutes 
of Standards and Technology, and the National Science Foundation, to 
develop a program to educate 1.7 million students within 10 years. 
Through the Integrated Cybersecurity Education Communities (ICEC) 
project, DHS is currently implementing a cyber education model in 
multiple communities across the Nation. The model includes teacher 
professional development, summer camps, and access to cyber-related 
high school curricula.
    The goal to educate 1.7 million students in cybersecurity remains 
in place. DHS developed a roll-out schedule to reach two communities in 
fiscal year 2012 and two additional communities in fiscal year 2013. 
DHS's fiscal year 2012 funding for this project covers a 1-year 
demonstration project designed to allow DHS to observe the model in 
operation, observe the summer camps in operation, and test model 
portability as it is implemented. These projects and models will inform 
the overall Federal Government program.
    The fiscal year 2013 budget provides funding to roll out the 
program to two communities. To reach the goal of educating 1.7 million 
students by fiscal year 2023, which represents a 1-year delay from the 
original goal,
             improving trade processing at our land borders
    Question. During my visit to the Southwest border last summer, I 
was amazed at the lines of vehicles and trucks extending deep into 
Mexico waiting to be inspected at ports in San Diego and Tucson. While 
some funding has been provided on a piecemeal basis to address 
immediate improvements at a few ports, the vast majority of the major 
truck and container trade ports of entry--on the southern and northern 
borders--are woefully outdated. A 2008 Government Accountability Office 
report estimated that $6 billion is required to modernize and expand 
our land ports of entry. Yet there are no funds in your construction 
budget for any new port of entry expansion.
    These delays at the border slow our national economy and cost 
Americans jobs. I recognize that this issue is larger than just this 
subcommittee's jurisdiction, but I am deeply concerned that it is not 
getting the attention it deserves and I intend to focus attention on it 
this year.
    Trade processing is an ongoing responsibility of your Department. 
Do you share my concern about the lack of funding for land ports of 
entry construction and what more can we do about this issue?
    Answer. We appreciate your concern about land ports of entry (LPOE) 
capital construction and modernization projects. A one-time injection 
of $720 million received through the American Recovery and Reinvestment 
Act of 2009 provided much needed capital funding to support the LPOE 
modernization effort. The $420 million appropriated for the CBP-owned 
ports allowed the agency to modernize much of the CBP-owned LPOE 
inventory. However, the $300 million provided for the GSA-owned LPOEs 
represents only a fraction of what is required to recapitalize the GSA-
owned portfolio. GSA-owned and leased inspection facilities comprise 
most of the busiest, larger capacity LPOEs and represent 74 percent of 
all land ports operated by CBP, including 38 along the Southwest 
border. Additionally, the President's fiscal year 2012 budget requested 
$2.2 billion for LPOE modernization as part of the $50 billion targeted 
for transportation and infrastructure investments. The President's 
fiscal year 2013 budget assumes fiscal year 2012 funding of $28 billion 
in Immediate Transportation Investments, as requested in the American 
Jobs Act, of which $2 billion is for LPOE modernization.
    The Immediate Transportation Investments proposal under the 
American Jobs Act includes nearly $1.9 billion in projects to help 
address some of the most critical LPOE modernization priorities. The 
funding would support the modernization and replacement of LPOE 
facilities lacking the infrastructure capacity to fulfill the present 
day security and operational requirements of CBP. A list of the 
potential LPOE projects is provided below, as coordinated by CBP, GSA, 
and the Department of Transportation. CBP continues to explore 
alternative LPOE financing vehicles such as public-private and public-
public opportunities outside of its traditional source of U.S. General 
Services Administration Federal Buildings Fund appropriations.

     LAND PORT OF ENTRY PROJECTS IDENTIFIED FOR POTENTIAL INVESTMENT
------------------------------------------------------------------------
                Project                        Project description
------------------------------------------------------------------------
Alexandria Bay, NY.....................  Replacement and expansion of
                                          the existing inspection
                                          facilities to add capacity
                                          through one additional inbound
                                          privately owned vehicle (POV)
                                          lane and four additional
                                          commercial lanes
Calexico West, CA (Phase I)............  Reconfiguration and
                                          modernization of the existing
                                          port of entry
Calexico West, CA (Phase II)...........  Replace and expand the existing
                                          port facilities to improve
                                          site configuration and traffic
                                          flow to facilitate large
                                          volumes of pedestrian and bus
                                          passengers
Columbus, NM...........................  Renovate and expand existing
                                          inspection facilities to add
                                          capacity
Hidalgo, TX............................  Reconfiguration and
                                          modernization of the existing
                                          port of entry
Laredo Bridge I, TX....................  Reconfiguration and expansion
                                          of the noncommercial and
                                          pedestrian areas
Laredo Bridge II, TX...................  Reconfiguration and expansion
                                          of the bus processing area
New International Trade Crossing, MI...  New International crossing on
                                          the Detroit River
Niagara Falls--Lewiston Bridge, NY.....  Reconfiguration and
                                          modernization of the existing
                                          port of entry
Otay Mesa, CA..........................  Reconfiguration and
                                          modernization of the area port
                                          of entry
Peace Bridge, NY.......................  Reconfiguration and
                                          modernization of the existing
                                          port of entry
Port Huron--Blue Water Bridge, MI......  Replace existing port with
                                          fully modernized facilities
                                          and infrastructure to support
                                          21st century cross border
                                          travel, trade and security
San Luis I, AZ.........................  Reconfiguration and
                                          modernization of the existing
                                          port of entry
San Ysidro, CA (Phase II)..............  Construct northbound pedestrian
                                          administration building;
                                          central detention facility
San Ysidro, CA (Phase III).............  Realign Interstate 5, expand
                                          inbound lanes to 34, construct
                                          outbound secondary inspection,
                                          a repatriation building, and
                                          employee parking
GSA Staffing [all projects]............  Project and Program Management
CBP Staffing [all projects]............  Project and Program Management
------------------------------------------------------------------------

                          land ports of entry
    Question. I understand that the Mayor of McAllen, Texas, received 
$7 million in Texas State funding for expansion of up to six lanes at 
one of the ports of entry. Apparently, at times it takes up to 3 hours 
to enter the United States at this port--so having more entry lanes 
could make a major impact. However, Customs and Border Protection 
rejected the funds because it does not have the manpower--the men and 
women officers--to staff additional inspection lanes. This is just one 
of many examples. I am frustrated that these short-sighted constraints 
result in the Government making penny-wise but pound-foolish choices.
    It seems to me having more CBP officers can expedite the legal 
entry of people and the processing of goods which contribute to the 
Nation's economic well-being. This would result in lower cost products, 
fresher produce, and more jobs here at home. Why does your budget (or--
your current system) prohibit the hiring of additional officers and 
result in turning away outside funding that could be used to address 
critical needs?
    Answer. The fiscal year 2013 President's budget offers a 
legislative proposal to enter into reimbursable fee agreements for the 
provision of CBP services and any other costs incurred by CBP relating 
to such services. Current statutory limitations on CBP's authority to 
receive outside funding, except in narrowly defined instances, have 
prevented CBP from receiving reimbursement from private sector and 
international, State, and local partners. Funds collected pursuant to 
this section would be deposited in the ``U.S. Customs and Border 
Protection--Salaries and Expenses'' account as offsetting collections 
and remain available until expended, without fiscal year limitation, 
and would be used to pay for any expenses incurred by CBP in providing 
CBP services and any other costs incurred by CBP relating to such 
services.
    The proposed legislation would authorize CBP to receive 
reimbursement from corporations, Government agencies, and other 
interested parties for inspection services in the air, land, and sea 
environments at both the domestic and foreign locations. Also, the 
legislation would grant CBP the ability to receive reimbursement at 
international and landing rights airports that already receive 
inspection services. Finally, the legislation would allow CBP to 
collect reimbursable expenses including salaries, benefits, temporary 
duty costs, relocation and, as applicable, housing, infrastructure, 
equipment and training.
                           cbp air and marine
    Question. I am very concerned by your proposed 52-percent cut in 
procurement funding for CBP's Air and Marine program. This is a 
critical program designed to push out our borders and interdict all 
forms of contraband threatening our country. From cocaine coming though 
the gulf to illegal aliens crossing our land border--we need to be able 
to find them and respond. Within Central America, the deteriorating 
security situation threatens citizen safety. Narcotics traffickers 
continue to establish trafficking routes to and through the region. 
Organized crime robs citizens of the confidence they need to earn a 
livelihood, provide for their families, and trust public officials to 
provide solutions. Unlike fixed towers and other types of technology 
planted along parts of the border, these planes, helicopters, and 
unmanned systems are mobile and rapidly deployable. They can respond to 
the threat--whether it is along our northern border, off the California 
coast, or deep into the Caribbean.
    This $72 million cut will result in fewer replacement aircraft 
being purchased and combined aircraft flight hours being cut from 
107,000 hours in fiscal year 2010 to only an estimated 65,000 hours in 
fiscal year 2013.
    Is it the Department's plan to pull away from the drug and other 
interdiction missions in the source and transit zones? How can a 52-
percent cut to procurement and no increase in operations be interpreted 
any other way?
    [Staffing:] Provide the same list of Air and Marine positions to be 
lost under the budget proposal and their locations. On the list of Air 
and Marine positions being eliminated, indicate which positions are 
vacant and which will result from mandatory retirements.
    Answer. The Department of Homeland Security remains fully committed 
to our counterdrug mission. Regarding CBP's Air and Marine program, 
from fiscal year 2006 through fiscal year 2012, Congress provided CBP 
with over $1 billion to accomplish the objectives laid out in our long-
range plan to replace/upgrade CBP's aging fleet of aircraft and marine 
vessels. The fiscal year 2013 President's budget requests an additional 
$67 million to continue the recapitalization effort. This level of 
funding represents nonrecurring costs from last year's procurements. 
Operational impacts will be mitigated by recent equipment upgrades. For 
example, our surveillance aircraft can now conduct both short- and 
long-range surveillance at the same time, allowing us to fly one 
aircraft instead of two. In addition, National Guard support to the 
Border Patrol also recently began transitioning from boots on the 
ground to air support. The transition to air support is a strategic 
move that adds mobile, advanced surveillance and reconnaissance 
capability to the Border Patrol's border security operations.
    Answer. Since the merger of the legacy U.S. Border Patrol (OBP) and 
U.S. Customs Service aviation programs under CBP in 2005, the Customs 
and Border Protection Office of Air and Marine (OAM) has dramatically 
increased efficiency and effectiveness of CBP air operations in support 
of the Department of Homeland Security and its international, Federal, 
State, local, and tribal partners. Most of these efficiencies were 
captured through the acquisition of technologies that then drove or 
facilitated changes in CBP air operations including decreased 
operations cycle time, effective asset procurement/modernization, and 
innovative sensor system integration. These operations developments 
have then resulted in expanded mission functionality, vastly improved 
detection capability, real-time customer support/interface, decreased 
mishaps and system downtime, and consequently provided a significant 
increase in overall CBP aviation mission effectiveness. The CBP Office 
of Air and Marine (OAM) recapitalization plan is nearly complete, with 
more than $1 billion appropriated by Congress from fiscal year 2006 
through fiscal year 2012 to accomplish the objectives laid out in our 
long-range plan to replace/upgrade CBP's aging fleet of aircraft and 
marine vessels. In the fiscal year 2013 request, funding is included to 
continue the P-3 aircraft service life extension effort, continue to 
upgrade Black Hawk helicopters, and to purchase the seventh multi-role 
enforcement aircraft (MEA). With the funds appropriated in fiscal year 
2012, the MEA production line should remain viable through fiscal year 
2013.
    The table shown below details the specific reductions to OAM staff, 
indicating those that resulted from mandatory retirements. As CBP 
retires aged, unsupportable aircraft and marine vessels from service, 
and new or upgraded assets are received, the work force will be 
rebalanced to ensure the most effective alignment of pilots, detection 
specialists, marine agents, and support personnel to operational 
assets. This will be accomplished without negatively impacting OAM's 
ability to provide support to front-line agents and officers.

     U.S. CUSTOMS AND BORDER PROTECTION OFFICE OF AIR AND MARINE FISCAL 2013 STAFF REDUCTIONS AND TRANSFERS
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Fiscal Year 2013 Staff Reductions:
    HQ Mission Support (NSLC)........  MSA.................  GS-0301-9/10.............
    NASOC Jacksonville...............  FE..................  GS-2185-12/3.............
    Corpus Christi...................  MIA.................  GS-1801-12/2.............
    Bellingham.......................  MIA.................  GL-1801-9/2..............
    NASOC Jacksonville...............  DEO.................  GS-1801-12/6.............
    Rochester........................  MIA.................  GL-1801-09/6.............
    Miami............................  AIA.................  GS-1881-13/10............  Mandatory 2012
    Buffalo..........................  MIA.................  GS-1801-11/4.............
    ASOC.............................  IRS.................  GS-0132-13/8.............
    NASOC Corpus Christi.............  AEO.................  GS-1801-09/11/12.........
    Houma............................  MIA.................  GS-1801-11/1.............
    San Angelo.......................  AIA.................  GS-1881-13/7.............
    Tucson...........................  AIA.................  GS-1881-11/12/13.........
    Port Angeles.....................  MIA.................  GS-1801-11/1.............
    Tucson...........................  AMI.................  GS-1801-11/6.............
    Houma............................  MIA.................  GL-1801-9/1..............
    Houston..........................  MSS.................  GS-0301-09/4.............
    Miami............................  AIA.................  GS-1881-13/9.............  Mandatory 2012
    Great Falls......................  AIA.................  GS-1881-13/4.............
    ASOC.............................  IRS.................  GS-0132-13/7.............
    New Orleans......................  AIA.................  GS-1881-13/9.............  Mandatory 2012
    HQ Mission Support (Logistics)...  MPA.................  GS-343-13/4..............
    Houston..........................  AIA.................  GS-1881-13/5.............
    Panama City......................  MIA.................  GL-1801-9/6..............
    HQ Mission Support (NSLC)........  MSS.................  GS-301-7/3...............
    HQ Mission Support (HR)..........  MPA.................  GS-343-12/3..............
    San Angelo.......................  AIA.................  GS-1881-13/2.............
    TSS NATC Oklahoma................  Pilot...............  GS-2181-13/10............
    ASOC.............................  IRS.................  GS-0132-13/9.............
    AMOC.............................  MSS.................  GS-0301-11/4.............
    Marathon.........................  MIA.................  GL-1801-9/1..............
    San Diego........................  AMI.................  WG-8852-11/5.............
    Erie.............................  MIA.................  GS-1801-11/6.............
    ASOC.............................  IRS.................  GS-0132-13/7.............
    San Angelo.......................  AIA.................  GS-1881-13/10............  Mandatory 2012
    Bellingham.......................  MIA.................  GS-1801-11/2.............
    Miami............................  AIA.................  GS-1881-13/6.............
    AMOC.............................  DEO.................  GS-1801-12/6.............
    Albuquerque......................  AEO.................  GS-1801-12/5.............
    Houma............................  MIA.................  GS-1801-9/11/12..........
    Buffalo..........................  MIA.................  GS-1801-11/1.............
    NASOC CB.........................  DEO.................  GS-1801-12...............
    NASOC Corpus Christi.............  DEO.................  GS-1801-12/5.............
    HQ Operations....................  PM..................  GS-340-14................
    HQ Operations....................  PM..................  GS-340-14................
Fiscal Year 2013 Mission Support
 Integration (Three Losses):
    HQ Mission Support (NSL).........  MSS.................  GS-0301-12/1.............
    Miami............................  MSS.................  GS-0303-09/2.............
    San Diego........................  MSS.................  GS-0301-9/1..............
----------------------------------------------------------------------------------------------------------------
Acronyms:
AIA--Air Interdiction Agent
AEO--Aviation Enforcement Officer
AMI--Aviation Maintenance Inspector
DEO--Detection Enforcement Officer
FE--Flight Engineer
IRS--Intelligence Research Specialist
MIA--Marine Interdiction Agent
MSS/MSA--Mission Support Specialist
PM--Program Manager


                        PERMANENT STAFF TRANSFERS
------------------------------------------------------------------------

------------------------------------------------------------------------
Joint Operations Directorate (CBP
 HQ):
    Buffalo (used for salary       MIA............  GS-1801-12/2
     offset).
    Houston......................  AIA............  GS-1881-13/8
    Jacksonville.................  AIA............  GS-1881-13/5
    Miami (used for salary         AEO............  GS-1801-12/4
     offset).
    Rochester (used for salary     MIA............  GL-1801-9/1
     offset).
    San Angelo...................  AIA............  GS-1881-13/10
    San Antonio..................  AIA............  GS-1881-13/10
Joint Field Command (AZ):
    HQ Operations................  AIA............  GS-1801-12/2
    Sacramento...................  AIA............  GS-1881-13/10
AMOC Phase B Transfer to OTIA
 (CBP HQ) (AZ):
    HQ Mission Support...........  PM.............  GS-0340-15/8
    HQ Mission Support...........  PM.............  GS-0340-13
PPBA Programming Staff (HQ--Long
 Term Detail):
    Tucson.......................  SAIO...........  GS-1801-14/2
------------------------------------------------------------------------
Acronyms:
AIA--Air Interdiction Agent
AEO--Aviation Enforcement Officer
AMI--Aviation Maintenance Inspector
DEO--Detection Enforcement Officer
FE--Flight Engineer
IRS--Intelligence Research Specialist
MIA--Marine Interdiction Agent
MSS/MSA--Mission Support Specialist
PM--Program Manager


                                 SUMMARY
------------------------------------------------------------------------
                                                              Number
------------------------------------------------------------------------
Law Enforcement Staff Reductions........................              30
Non-LE Front-Line Staff Reductions......................               7
Support Position Reductions.............................              11
                                                         ---------------
      Total.............................................              48
                                                         ===============
Permanent Position Transfers............................              11
                                                         ===============
      Total Reductions to Budgeted Staff................              59
------------------------------------------------------------------------
Note: Additional staff reductions were needed to meet grade-level
  requirements for some transfers; these are noted by the phrase ``used
  for salary offset.''

         jones act waivers and the strategic petroleum reserve
    Question. The Jones Act requires vessels that transport goods 
between 2 points in the United States to be built, owned, and crewed by 
Americans. Customs and Border Protection waived the Jones Act nearly 50 
times last summer to allow foreign-flagged vessels to transport crude 
oil from the Strategic Petroleum Reserve (SPR) from ports in Louisiana 
and Texas to refineries around the country. The SPR drawdown was 
authorized in response to the crisis in Libya and the increased cost of 
gas during the summertime driving season. I sent a letter to the 
President in August of last year, which was also signed by the chairman 
and ranking member of the House Homeland Security Committee and five 
others, criticizing the administration's decision to sideline U.S. 
mariners and provide Government contracts to foreign fleets when the 
primary purpose of the SPR drawdown was to help the U.S. economy.
    The administration has indicated it may authorize another SPR 
drawdown this year as gas prices are once again on the rise and 
tensions with Iran threaten global fuel supplies. The fiscal year 2012 
omnibus included provisions that prohibit Jones Act waivers for SPR 
shipments unless the Secretaries of Homeland Security and 
Transportation consult with representatives from the U.S. maritime 
industry to determine availability of American vessels and prioritize 
their use. Enforcing the Jones Act is a DHS responsibility, and this 
subcommittee looks to you and your Department to provide leadership on 
this important issue within the administration. Finger-pointing between 
Federal agencies is not acceptable, nor is a repeat of last summer's 
events when the Jones Act was unnecessarily waived dozens of times 
despite the availability of U.S.-flagged vessels.
    Please explain the steps you are taking to comply with the law in 
the event of another SPR drawdown.
    Will you validate the Department of Energy's shipping 
specifications and the Maritime Administration's industry outreach 
efforts to guide your decision in the event that additional waiver 
requests come before you this year?
    Answer. In the event of any future SPR drawdown, DHS intends to 
collaborate closely with our colleagues in the Department of Defense, 
the Department of Energy, and the Maritime Administration (MARAD) in 
the Department of Transportation to ensure that the statutory 
requirements attendant to the processing of waivers of the Jones Act 
are satisfied.
    While not entirely sure as to the context of the term ``validate'' 
in the question posed, DHS will, in concert with the Department of 
Energy and MARAD, endeavor to ensure that as much available U.S.-flag 
shipping as possible will provide the requested transportation services 
of SPR crude oil in accord with Public Law 112-55 and Public Law 112-
74.
                     coast guard polar icebreakers
    Question. The Coast Guard's two heavy polar icebreakers--Polar Star 
and Polar Sea--have exceeded their intended 30-year service lives, and 
neither is currently in operational condition. The third polar 
icebreaker, the Healy, has less icebreaking capabilities and is used 
primarily for scientific missions. Your budget includes $8 million to 
begin initial planning and design of a new heavy polar icebreaker--
which is estimated to cost $860 million.
    Given the desire for natural resource exploration and the 
expectation that more commerce will be transiting through the Arctic in 
the coming years, there is no question that the United States has a 
pressing need to address its diminishing icebreaking capabilities. 
However, my concern is simple math. The Coast Guard has a need to build 
two additional national security cutters at a cost of approximately 
$750 million each and 25 offshore patrol cutters at a total acquisition 
cost of over $8 billion.
    The Coast Guard Commandant testified on March 6 in the House that 
polar icebreaking is a national priority and multiple Government 
agencies would benefit from icebreaking capabilities.
    Please elaborate on the various funding approaches the Coast Guard 
will explore, such as the possibility of a partnership with other 
Government agencies or the private sector.
    Answer. The $8 million requested in the fiscal year 2013 budget 
will initiate the survey and design of a new polar icebreaker and will 
be used to develop required planning documents, as well as to begin the 
engineering and design work necessary to initiate the project. Though 
pre-acquisition plans are still being developed, the Coast Guard looks 
forward to building a new ship as soon as practicable. A funding plan 
reflective of this effort will be developed once initial pre-
acquisition work is complete.
                  oil exploration off the cuban coast
    Question. Given the oil exploration taking place and planned in 
Cuban waters, what efforts are underway or planned at the Department of 
Homeland Security to respond in the event of an oil spill?
    Answer. The Department is committed to protecting U.S. interests, 
particularly U.S. coastlines and natural resources, from potential 
discharges from deepwater drilling in waters of nations adjacent to the 
United States. The Coast Guard is the pre-designated Federal on-scene 
coordinator (FOSC) under the National Contingency Plan (NCP) for the 
coastal zone, and has the authority under the Federal Water Pollution 
Control Act of 1972 (FWPCA), and the Oil Pollution Act of 1990, to 
oversee and direct removal actions for spills within U.S. waters or 
threatening U.S. waters and adjoining shorelines, or that may affect 
U.S. natural resources. The NCP provides a coordinated, efficient, and 
effective whole-of-government response to marine pollution discharges 
to protect the waters, shorelines, natural resources, and welfare of 
the United States.
    The Coast Guard updated its plans to ensure prompt response to a 
spill from drilling activities off the coast of Cuba that could impact 
the United States. Engagement in this preparedness effort is far-
reaching and includes collaboration with Federal, State, local, and 
private-sector entities. As the Coast Guard focuses attention on the 
near-term drilling that is to occur off Cuba, the Department is mindful 
of the potential for future offshore oil exploration in Bahamian waters 
as well. An offshore response plan has been developed to address the 
unique characteristics of an oil spill response in the Florida region. 
The plan creates an offshore response command and provides a command 
and control structure that is accountable to the FOSC to address all 
aspects of offshore pollution response from a foreign source. This plan 
includes the capability to liaise with foreign governments and 
corporations to address communication and coordination issues inherent 
with international response efforts.
    At the local level, the Coast Guard has expanded and enhanced our 
efforts with State and local officials in oil spill response planning. 
Beginning in March 2011, in Florida, the Coast Guard conducted 
extensive outreach to engage officials in updates to area contingency 
plans, including revisions to the geographic response plans and tidal 
inlet protections strategies. Our State and local partners have been 
and will continue to be an important part of the planning effort. They 
have been involved in bi-weekly planning calls and the November 2011 
response exercise. These recent updates and strong partnerships have 
strengthened our readiness to respond to a spill.
    While we are preparing to take response actions necessary to 
protect U.S. interests, a major discharge from drilling off the United 
States in adjacent nations' waters likely will require a broad 
international response. The United States is a party to several 
important multilateral treaties on pollution response that promote this 
type of multilateral cooperation. A multilateral approach is essential 
to ensure common understanding and effective implementation of 
international obligations and standards for oil spill preparedness, 
prevention and response. The Coast Guard is working with the Bureau of 
Safety and Environmental Enforcement to lead the effort to conduct a 
series of multilateral seminars focused on regional prevention, 
preparedness and response for a potential worst case oil discharge in 
the Caribbean. The seminars are designed to build on the existing 
framework of our international agreements and the Caribbean Island Oil 
Pollution Response and Cooperation Plan and enhance regional readiness 
and cooperation related to offshore drilling, with an emphasis on 
better preparing us to protect U.S. interests.
    The Coast Guard, and our Federal interagency partners, engaged with 
the International Maritime Organization (IMO) to participate in a 
multilateral planning forum focused specifically on addressing such a 
spill. Through that initiative, the Coast Guard is engaged in an 
ongoing multilateral engagement with five other Caribbean nations 
(Bahamas, Cuba, Curacao, Jamaica, and Mexico). This conduit allows the 
Caribbean nations to discuss oil spill prevention, preparedness, and 
response issues and to gain an understanding of current and planned 
offshore drilling operations throughout the Caribbean, including Cuba. 
The first IMO-sponsored workshop was held in Mexico in late November 
2011, a second IMO-sponsored workshop was held in the Bahamas from 
December 7-9, 2011, the third IMO-sponsored workshop was in Curacao 
from January 31 to February 2, 2012, and a fourth is planned for April 
11-13, 2012, in Jamaica. The multilateral engagement provided a common 
understanding and effective implementation of international obligations 
and standards for oil spill preparedness, prevention and response.
    In accordance with the NCP, if a spill occurs within Cuban waters 
that is projected to impact U.S. waters, shorelines, or natural 
resources, the Coast Guard would mount an immediate response, in 
partnership with other Federal, State, and local agencies. Such a 
response would combat the spill as far offshore and close to the source 
as possible, using all viable response tactics consistent with domestic 
and international law. The Coast Guard has obtained licenses from the 
Department of the Treasury's Office of Foreign Asset Control and the 
Department of Commerce's Bureau of Industry and Security, which allow 
broad engagement in preparedness and response activities, and positions 
us to direct an immediate response in the event of a catastrophic oil 
spill.
    As was highlighted by the BP Deepwater Horizon oil spill, any major 
spill, regardless of its source, will require unity of effort across 
all levels of government, industry, and the private sector. A spill 
originating in the Caribbean, in another nation's waters, adjacent to 
the United States, undoubtedly will require international cooperation. 
The Coast Guard will continue to participate in IMO-sponsored 
multilateral discussions to ensure coordinated prevention programs, 
contingency planning efforts, and development of robust response 
strategies. DHS and the Coast Guard will continue outreach and 
coordination of Federal, State, and local efforts for potential oil 
spills originating in foreign waters adjacent to the United States.
    national domestic preparedness consortium--competition proposal
    Question. The fiscal year 2013 request proposes to make funding 
awards for training programs for first responders competitive. 
Traditionally, much of the first responder training has been provided 
through the National Domestic Preparedness Consortium (NDPC) which is 
made up of members with unique training skills in weapons of mass 
destruction whether they be biological, nuclear, explosive, or 
chemical. To date, this consortium has successfully trained over 1.7 
million first responders. The consortium provides training that very 
few, if any, other organizations could provide with the same level of 
expertise. Further, their facilities can accommodate the high-risk 
training that is often completed with live agents.
    What specific special skills have first responders gained to date 
through NDPC training courses? How many have been trained in each 
skill?
    For each consortium member how many applications for training were 
received and how many were fulfilled, by fiscal year, since 2008?
    If the training programs were made competitive, how would FEMA 
determine the demand for training needs for first responders in order 
to conduct the competition but also match needs in real time (i.e., 
what process would be used to determine how much and what type of 
biological training is needed? Nuclear, etc.?)?
    What type of capacity has FEMA found in other facilities in the 
Nation that could provide the highly specialized weapons of mass 
destruction training currently provided through the NDPC?
    What would make the competed training more successful?
    Answer. Below is a breakdown of the number of responders trained 
for the skills taught by existing National Domestic Preparedness 
Consortium (NDPC) members:
  --Chemical weapons prevention and response--708,312;
  --Biological weapons prevention and response--261,173;
  --Radiological and nuclear weapons prevention and response--119,392;
  --Explosives incidents prevention and response--397,488;
  --Incident command--407,300;
  --Surface transportation incident response--1,179; and
  --Natural hazards events response--1,717.
    The individual consortium members do not currently track the number 
of applications they receive; however, the following is a breakdown of 
how many have been fulfilled:
  --Center for Domestic Preparedness--418,039;
  --Louisiana State University--65,840;
  --Nevada National Security Site/Nevada test site--67,892;
  --New Mexico Tech--157,472;
  --National Emergency Response and Rescue Center--140,929;
  --National Center for Emergency Response in Surface Transportation--
        1,179; and
  --Natural Hazards Events Response--The University of Hawaii's 
        National Disaster Preparedness Training Center currently has 
        two FEMA-certified courses in its curriculum and will begin to 
        capture student data in the near future.
    As part of the National Training and Education System called for in 
Presidential Policy Directive-8, FEMA will determine demand based on a 
variety of data points, including the Strategic National Risk 
Assessment, capability estimation from regional and State threat and 
hazard identification and risk assessments (THIRA), and training needs 
analysis, as well as corrective actions from real-world events and 
exercises.
    FEMA is aware of several other facilities that have the unique and 
specialized capability to offer weapons of mass destruction training 
currently provided through the NDPC.
    Further, current NDPC members will be encouraged to compete, 
ensuring that existing, unique assets are considered.
    By making the training programs competitive in fiscal year 2013, 
FEMA hopes to encourage greater efficiencies as well as new ideas and 
innovation. FEMA recognizes there are hundreds of institutions ready, 
willing and able to provide education opportunities to homeland 
security and emergency management officials.
                  federal flight deck officer program
    Question. In 2002, Congress passed the ``Arming Pilots Against 
Terrorism Act'' as part of the Homeland Security Act. That act requires 
the Transportation Security Administration to deputize volunteer pilots 
to carry firearms in the cockpit while flying with the goal of 
providing an additional layer of security against terrorists. Your 
budget proposes to cut this program in half from $25.5 million to $12.5 
million.
    Why is there such a significant reduction to this program compared 
to other security layers? How will you prioritize demand for pilot 
training at this reduced funding level?
    Answer. As the Transportation Security Administration (TSA) focuses 
its aviation security activities on programs that mitigate the highest 
amount of risk at the lowest cost, TSA has prioritized funding in the 
same manner. Funds will be redirected from this voluntary program to 
other high-priority, risk-based operational initiatives. Since 2001, 
many enhancements to aviation security have been made, such as 100 
percent screening of all passengers and their carry-on items, the 
installation of reinforced and locking cockpit doors on aircraft that 
operate in U.S. airspace, and increased passenger and flight crew 
awareness to address security risks. Combined, these improvements have 
greatly lowered the risk of unauthorized cockpit access and represent a 
comprehensive and redundant risk mitigation strategy that begins before 
passengers board the aircraft. The program reductions will be 
accomplished through a variety of actions intended to focus on 
volunteers providing the highest potential security benefit, gaining 
efficiencies in training facility consolidation and training contract 
restructuring.
    While some demand does exist for Federal Flight Deck Officer (FFDO) 
training, the TSA does not anticipate any additional initial training 
classes in fiscal year 2013 and beyond.
    There are approximately 700 pilots who are fully vetted and 
eligible to attend FFDO training, less than 1 percent of the commercial 
pilots currently active in the United States. In fiscal year 2012, the 
FFDO program is funded to train 250 new FFDOs. Since October 2011, 101 
new FFDOs have been trained.
                         operation stonegarden
    Question. During your visit to Texas last month, I understand you 
heard from local law enforcement officials about the major benefits 
derived by the border communities receiving Operation Stonegarden 
grants. While drug cartel-related violence continues to plague Mexican 
communities along the border, that violence has not crossed over into 
the United States. Local U.S. border officials state that one of the 
reasons that violence has not spilled over is due to their ongoing 
joint operations and support to the Border Patrol and other Federal law 
enforcement agencies--which they would not otherwise be able to do 
absent Stonegarden funds.
    Your budget proposes to eliminate specific funding for the program. 
In your proposed preparedness block grant, would this successful 
program be maintained?
    Please provide metrics on what Stonegarden grants have purchased 
for fiscal years 2008-2011.
    Answer. Yes, the program would be maintained. The goals of 
Operation Stonegarden (OPSG) are included in the NPGP vision under 
``Core Capabilities.''
Core Capabilities
    Since the focus of the NPGP is to develop and sustain the core 
capabilities identified in the National Preparedness Goal, the program 
will prioritize nationally deployable NIMS-typed capabilities. Such 
capabilities are identified in the National Preparedness Goal and 
include mass search and rescue operations, intelligence and information 
sharing, border security and border protection operations, 
cybersecurity, community resilience, and economic recovery.
    FEMA believes that by consolidating all preparedness grants into 
one program, States and territories will be better able to synchronize 
all funding into a comprehensive program to develop and sustain core 
capabilities across the national preparedness spectrum.
    Regarding metrics, the Operation Stonegarden program (OPSG) is a 
subprogram within the Homeland Security Grant Program portfolio 
specifically focused on border operations. OPSG provides funding to 
enhance cooperation and coordination among Federal, State, local, 
tribal, and territorial law enforcement agencies in a joint mission to 
secure the United States' borders along routes of ingress from 
international borders, to include travel corridors in States bordering 
Mexico and Canada, as well as States and territories with international 
water borders. The project level funding, shown below, is categorized 
utilizing the POETE (planning, organization, equipment, training, and 
exercises) model. OPSG funds two of these categories--organization and 
equipment. Of the available funding, approximately 54 percent of the 
total funds were consumed under the organizational/operational 
category, which is overtime and fringe for law enforcement personnel, 
while the remainder, approximately 46 percent, was reported under the 
equipment, maintenance, sustainment, and fuel category.
    All operations funded under this program are border-centric, 
intelligence-driven, and goal-oriented in the reduction and/or 
elimination of threat, risk, and vulnerability along our Nation's 
borders. Since 2008, some measurable outcomes include but are not 
limited to:
  --Participating agencies (cooperation/coordination)--291;
  --Additional law enforcement workdays (force-multiplier)--65,000;
  --Patrol miles (boots on the ground)--5.7 million;
  --Suspect vehicle stops--221,771;
  --Citations issued--80,747;
  --Seizures (guns, drugs, etc.)--4,380;
  --Legal cases--11,830;
  --Penal code violations--12,737.
                             national guard
    Question. Please provide a description of the current status of the 
National Guard deployment on the Southwest border. How many were 
stationed in each State at the end of calendar year 2011, currently how 
many are there, and how many will be there by the end of March?
    Answer. The response to this question is being provided separately, 
as it is law enforcement sensitive.
                            northern border
    Question. What is the U.S. Border Patrol (USBP) policy on transit 
checks (bus, rail, ferries) along the northern border? While there is 
authority for using checkpoints within 100 miles of the border--what 
specifically is USBP doing? Have such transit checks stopped? If so, 
when and why?
    Answer. In order to ensure that USBP resources are best focused on 
preventing and interdicting illicit cross-border conduct, USBP field 
commanders are now utilizing a risk-based strategy, as informed by 
credible information and intelligence, when determining whether to 
conduct a transit node operation. USBP has longstanding legal authority 
to conduct checkpoint operations within 100 miles of the international 
border.
                   us-visit--proposed reorganization
    Question. As you know, the US-VISIT program captures the biometrics 
of visitors to this country and is intended to make sure we know who is 
entering and exiting the United States. The budget proposes to divide 
the functions of the US-VISIT program between Customs and Border 
Protection and Immigration and Customs Enforcement. However, aside from 
cutting $28 million in overall funding for the program and dividing the 
remaining funds between the two agencies, there is no specific detail 
on the rationale behind this proposal. Some have argued that the 
decision was made to move US-VISIT, with the details to be worked out 
later.
    Please explain the reasoning behind this decision. If we concur 
with this proposal, what assurances can you provide that there will be 
no disruptions in the vital services performed by US-VISIT starting on 
October 1, 2012?
    Answer. The fiscal year 2013 budget proposes the transfer of US-
VISIT functions from the National Protection and Programs Directorate 
(NPPD) to U.S. Customs and Border Protection (CBP) and U.S. Immigration 
and Customs Enforcement (ICE). Currently, CBP operates numerous 
screening and targeting systems, and integrating US-VISIT within CBP 
will strengthen the Department's overall vetting capability while also 
realizing efficiencies.
    Pending enactment, CBP will assume responsibility for the core US-
VISIT operations and management of the biometric and biographic 
information storage and matching and watchlist management services. ICE 
will assume responsibility of the US-VISIT overstay analysis services. 
CBP uses US-VISIT systems to help determine admissibility of foreign 
nationals arriving at all U.S. ports of entry (POEs) and to process 
aliens entering the United States illegally between the POEs. 
Currently, CBP operates numerous screening and targeting systems, 
supporting more than 70,000 users from over 20 Federal agencies that 
are responsible for a wide range of programs that rely on CBP 
information and systems to determine benefits, process travelers, 
inform investigations, support case management, and enhance 
intelligence capabilities. The US-VISIT systems will complement the CBP 
systems by adding the biometric identification and screening 
capabilities, which are also used across and beyond DHS. It will 
streamline interactions with the U.S. Department of State and the 
Federal Bureau of Investigation for both biographic and biometric 
screening.
    Although ICE will assume responsibility for US-VISIT overstay 
analysis, CBP and ICE will collaborate on system support for the 
overstay mission. Transition of the analysis and identification of the 
overstay population in ICE clearly aligns with the ICE mission of 
administrative immigration enforcement. Additionally, functions of 
support to CIS will provide feeder data related to domestic benefit 
fraud schemes for ICE investigations.
    CBP, ICE, and US-VISIT have established a transition team composed 
of senior representatives from each organization. This transition team 
is working to identify and prioritize crucial functional areas and 
determine the optimal strategy for transitioning each function.
    This transition team will identify targets of opportunity for 
operational and cost efficiencies. Priority will be placed on those 
transition initiatives that focus on increases in efficiency and 
effectiveness within mission support and ``corporate'' functions such 
as logistics, human resources, and information technology. Once all of 
the information is collected and arrayed, it will be analyzed with the 
goal of finding efficiencies while maintaining US-VISIT's mission with 
no degradation of services.
    A final transition plan will be made available to all external 
stakeholders by the end of July 2012.
          us-visit--delayed fiscal year 2011 expenditure plan
    Question. The fiscal year 2011 Full-Year Continuing Appropriations 
Act required the submission of an expenditure plan detailing how the 
fiscal year 2011 funds for the US-VISIT program would be used--$50 
million of the total funds appropriated were withheld until that plan 
was submitted. Fiscal year 2011 ended more than 5 months ago--and we 
have yet to receive the plan.
    How can this subcommittee accurately consider a proposal to 
drastically redesign US-VISIT without knowing how previously 
appropriated funds have been or will be used?
    Answer. I understand the subcommittee's concern. The plan is 
currently being revised to report on spending and activities that 
occurred in fiscal year 2011, and will be provided to the subcommittee 
shortly.
                    international screening programs
    Question. Your full statement for the record claims that the budget 
supports and extends a number of pre-screening programs such as the 
visa security and immigration advisory programs. However, none of the 
programs are proposed to be expanded and some have proposed cuts. Since 
the Department was created, one of the goals was to push the border out 
and stop individuals or products which would do us harm well before 
they reached our shores. One can hardly argue that this budget 
continues this record of success.
    How does this budget accomplish the mission of interdicting threats 
at the earliest possible point?
    Answer. In our increasingly globalized world, DHS continues to work 
beyond its borders to protect both national and economic security. The 
fiscal year 2013 budget sustains funding for core programs and 
continues to support DHS's strategic partnerships. These partnerships 
strengthen international allies and enhance targeting and information-
sharing efforts that are utilized to interdict threats and dangerous 
people and cargo at the earliest point possible.
Visa Security Program
    Through the Visa Security Program and with Department of State 
concurrence, ICE deploys trained special agents overseas to high-risk 
visa activity posts to identify potential terrorist and criminal 
threats before they reach the United States. ICE Homeland Security 
Investigations (HSI) has expanded its Visa Security Program (VSP) since 
fiscal year 2010 by adding new locations and expanding existing 
operations in current locations. VSP is currently active at 19 posts 
across 15 countries, and is planning, in fiscal year 2012, to expand 
the VSP in two additional locations. The fiscal year 2013 budget 
supports efforts to leverage IT solutions and the capabilities of our 
law enforcement and intelligence community partners to increase ICE's 
efficiency in screening visa applications in order to identify patterns 
and potential national security threats. This will establish greater 
efficiencies to our Visa Security Program, allowing for research and 
analytic activities to be carried out in the United States and 
investigative and law enforcement liaison work overseas. Also in fiscal 
year 2013, along with the aforementioned efficiencies, ICE will be able 
to reduce base funding to non-mission critical areas by way of 
terminations of one-time cost and attrition of mission support FTE. 
Regardless of the type of reduction, there will be no adverse affects 
to the program's ability to mitigate treats. Quite the opposite, ICE is 
increasing VSP's performance through clarity and standardization of 
operations.
Pre-Departure Programs
    CBP's Immigration Advisory Program (IAP), Visa Hot List (VHL) 
vetting program, pre-departure screening, and developing pre-
adjudicative visa screening program also support the DHS multi-layered 
approach to security.
    Through the Immigration Advisory Program and enhanced in-bound 
targeting operations, CBP identifies high-risk travelers who are likely 
to be inadmissible into the United States and makes recommendations to 
commercial carriers to deny boarding. The IAP currently operates at 11 
locations in nine countries. IAP reductions in fiscal year 2013 are due 
to nonrecurring first year start-up costs related to the IAP in fiscal 
year 2012 that CBP will not incur in fiscal year 2013. CBP also 
reevaluated the overseas footprint for IAP and found that in some 
locations there are cost savings for utilizing temporarily detailed 
(TDY) officers rather than relocating and permanently placing a CBP 
officer for all positions; moving to a footprint of one permanent team 
lead; or augmenting TDY personnel or locally engaged staff, where 
operationally and administratively appropriate. The fiscal year 2013 
budget continues to support initiatives to interdict and apprehend 
criminals and persons of national security interest, and disrupt those 
who attempt to enter the United States with fraudulent documents.
    Through pre-clearance agreements, CBP screens passengers 
internationally prior to takeoff through the same process a traveler 
would undergo upon arrival at a U.S. port of entry, allowing DHS to 
extend our borders outward while facilitating a more efficient 
passenger experience. The fiscal year 2013 budget continues to support 
CBP's preclearance inspection efforts, which are designed to determine 
compliance with admissibility of agriculture, customs, and immigration 
requirements to the United States.
    For non-IAP and pre-clearance locations, CBP's National Targeting 
Center-Passenger (NTC-P) conducts pre-departure screening to identify 
high-risk travelers, and coordinates with its regional carrier liaison 
groups to communicate no board recommendations to carriers where 
appropriate.
    Furthermore, CBP's Visa Hot List vetting program conducts 
continuous vetting of all issued U.S. non-immigrant visas against 
enforcement databases and searches for new records as they are entered 
into TECS. Visa Hot List vetting ensures that changes in a traveler's 
eligibility are identified in near real time allowing NTC-P to 
immediately determine if a person should be denied boarding, if a visa 
revocation should be requested, or if other U.S. Government agencies 
should be notified because the individual is present in the United 
States.
    Additionally, in an effort to further enhance visa security 
measures, ICE and CBP are engaged in a partnership with DOS on 
developing an automated visa screening process that will enable DHS to 
identify derogatory information related to visa applicants prior to the 
adjudication of their visa application. It is anticipated that a pilot 
program designed to test new automated data processing infrastructure 
and compatibility could commence in fiscal year 2013, after which an 
assessment on the viability of the program would be completed. The 
assessment will also identify the funding requirements for additional 
personnel and logistical support.
                       border security technology
    Question. Your budget proposes to cut $193 million in development 
and deployment of border security technology and proposes $92 million 
for integrated fixed towers in Arizona. According to the Department, 
Border Patrol apprehensions have decreased 53 percent since fiscal year 
2008. In the Tucson sector apprehensions dropped 42 percent between 
fiscal years 2010-2011. This is the lowest level of apprehensions in 
Tucson in 17 years. Based on briefings your officials have provided, 
the earliest a request for proposal for deployment of the first fixed 
tower in Arizona will occur is in September--at the end of the current 
fiscal year. And the Department has informed us that $359 million 
remains available in unobligated prior year balances for border 
technology.
    As you know better than most of us, drug traffickers and alien 
smugglers adjust their routes depending on how hard it is to move their 
contraband. Does it make sense to sink expensive infrastructure into 
fixed locations when the threat trend in a particular location 
continues to go down and can quickly move to another location?
    Answer. The question appropriately acknowledges the decrease in 
apprehensions and the dynamic nature of the threat along the Southwest 
border. CBP attributes these trends, in part, to strategic investment 
and deployment of additional personnel, tactical infrastructure and 
technology to high risk, priority regions of the border. The Department 
recently concluded a comprehensive review of surveillance technologies 
that would best complement the personnel and tactical infrastructure in 
Arizona. Where practicable, the Arizona plan utilizes mobile and agent 
centric technologies which can be re-deployed in response to dynamic 
threats. For remote terrain areas, where agent access is limited, fixed 
towers support enforcement through persistent, wide-area surveillance. 
This infrastructure will help CBP establish better awareness and 
enhance our enforcement posture in these difficult areas. Moreover, 
CBP's fielding of over 40 mobile surveillance systems to the Southwest 
border enables the Border Patrol to augment the fixed surveillance 
systems to cover ``blind spots'' created by terrain or foliage in 
monitored areas, as well as to relocate surveillance capabilities to 
areas where the illicit activity (threat) may move to avoid the fixed 
surveillance systems.
    Technology and infrastructure also help us to sustain our success. 
The presence of technology persists as a strong deterrent against the 
return of illicit traffic to areas where we have reduced that traffic. 
Therefore, infrastructure investment often makes sense even as we see 
improving trends in apprehensions.
    This approach is supported by what CBP sees today in Arizona as a 
result of recently deployed SBInet Block 1 fixed tower systems. For 
example, in the Border Patrol's Ajo area of responsibility--an 
expansive remote area previously known for relatively high levels of 
trafficking and smuggling--the new Block 1 system illuminated 
significant activity levels, the Border Patrol responded effectively, 
and consequently, the quantity of apprehensions and contraband seizures 
increased significantly upon deployment. The traffic has since 
decreased as the fixed surveillance provided a persistent deterrence. 
The Border Patrol, too, was able to shift personnel and resources to 
other traffic areas while continuing to rely on the Block 1 
surveillance and monitoring of the Ajo area. To date, we have not seen 
the significant traffic return to the Ajo area.
    As we continue to plan and evaluate Southwest border regions beyond 
Arizona, we will follow a similar risk-based approach to determine if, 
and where, fixed surveillance systems make the most sense. We will look 
closely at evolving illicit traffic patterns, regional vulnerabilities, 
and existing capabilities already in a region.
    The question also asks about unobligated funding balances from 
prior years available for border technology. Nearly all of these 
unobligated funds are set-aside for pending contract awards based on 
approved, previously enacted appropriations requests. For example, $98 
million is awaiting award of the remote video surveillance system 
contract award later this year. Approximately $35 million is awaiting 
contract award of the comprehensive tactical infrastructure maintenance 
and repair (CTIMR) for the Southwest border. Approximately $49 million 
is awaiting contract award for the next phase of tactical 
communications modernization tasks in El Paso, Rio Grand Valley, and 
Houlton border patrol sectors. And, there are also numerous smaller 
contracts and incremental funding actions planned over the next several 
months that will spend the prior year unobligated balances by year's 
end.
                           secure communities
    Question. The Secure Communities program initially was proposed and 
funded by the Appropriations Committees in fiscal year 2008. 
Immigration and Customs Enforcement has successfully rolled out the 
Secure Communities program to 72 percent of the Nation and is on target 
to be fully deployed nationwide in fiscal year 2013. Secure Communities 
has been deployed to 15 parishes in my State of Louisiana. I support 
this program which primarily targets criminal aliens for detention and 
removal. We need to ensure that our immigration laws are enforced and 
that individuals who are here illegally and who pose a threat to the 
community are detained and removed. I understand, however, there are 
certain locations around the country which refuse to cooperate or 
participate in Secure Communities.
    What steps are you taking to ensure that you meet your goal of 100 
percent coverage in 2013?
    Answer. As of March 20, 2012, Secure Communities is operating in 
2,504 jurisdictions, 45 States, and one territory. U.S. Immigration and 
Customs Enforcement (ICE) will continue to activate Secure Communities 
in other areas nationwide in an orderly manner. ICE expects to complete 
nationwide deployment of Secure Communities during fiscal year 2013.
               continued cuts to critical cbp operations
    Question. Your budget appears to be focused on maintaining front-
line operations--especially people. This is important and I strongly 
support it. However, the people on the front lines are only as good and 
effective as the systems they have supporting them. For example, at 
Customs and Border Protection, the budget proposes a total of $342 
million in so-called ``efficiencies'' and other cuts, including nearly 
$50 million in additional cuts to information technology infrastructure 
and systems support. Between fiscal years 2009-2012, $363 million has 
been cut from CBP's IT systems. CBP relies on these systems to, among 
other things, target potential terrorists before they reach our shores, 
perform database checks on all proposed travelers to this country, and 
screen cargo manifests for all good entering the United States via air, 
land, or sea. And other Government agencies, such as TSA's Secure 
Flight, are increasingly relying on CBP's capabilities to assist them 
in performing their security and other functions. It appears that the 
Department is eating its seed corn. It is making short term fiscal 
decisions which will have long-term costs and consequences.
    Given the cuts to the CBP information technology infrastructure, 
will CBP be able to effectively perform its mission of securing the 
borders of the United States while simultaneously facilitating the flow 
of legitimate trade and travel?
    What is the potential for another catastrophic failure like the 
power outage that occurred at LAX in August 2007 which stranded 
thousands of travelers on planes because they could not be processed 
through customs and immigration, and what are you doing to properly 
balance the requirements for people, technology, and infrastructure 
given your tight budgets?
    Answer. The fiscal year 2013 budget provides sufficient funding for 
CBP's information technology systems to ensure that the agency will be 
able to effectively perform its mission of securing the borders while 
facilitating the legitimate flow of trade and travel. The budget 
requests $31.0 million in program changes to address resource 
requirements for maintenance, enhancements, and improvements to the 
Automated Targeting System (ATS), which will maintain current service 
levels and ensure sustained operations and performance of ATS and its 
sub-systems. The budget also requests $5.0 million for the TECS 
Modernization Program, an effort to take advantage of the most current 
standards and technologies to support port of entry processing and 
vetting services for DHS and other Government agencies.
    CBP is also working to minimize operational risk by simplifying and 
modernizing its disparate data system platforms and to migrate legacy 
mainframe applications to the new environment. This will be 
accomplished through a phased approach over multiple fiscal years. Once 
fully implemented, this effort is expected to reduce out-year 
operations and maintenance costs, increase systems availability, reduce 
report run time, and improve failover/disaster recovery capabilities; 
thereby minimizing operational risk.
    We are committed to directing our resources to our highest mission 
priorities. This includes protecting and directing resources to areas 
that present the highest risk, and that includes protecting the 
security of our IT infrastructure. CBP is currently conducting an in-
depth assessment of our IT infrastructure, which will analyze IT 
spending, compare it with other agencies and industry and will 
culminate in prioritized recommendations for sustaining IT 
infrastructure to meet mission requirements.
                             detention beds
    Question. According to the justification documents submitted to the 
subcommittee for your budget request, ``ICE estimates there are 1.9 
million removable criminal aliens in the United States today.'' These 
are criminal aliens who pose a threat to our communities and are deemed 
removable, not the larger estimate of 11 million illegal aliens. In 
your testimony, you claim that your Department only has resources to 
remove approximately 400,000 aliens a year. Over the years, this 
subcommittee has provided ICE with more funding than has been requested 
to enforce immigration laws--including removing criminal aliens. In the 
appropriations law for this fiscal year, ICE has been given funds to 
fill 34,000 detention beds every day. However, since December--when the 
appropriations bill became law and the funds became available--ICE has 
not filled 1,000 of those 34,000 beds.
    I support your efforts for smart enforcement of our immigration 
laws. But given that your Department says there are 1.9 million 
removable criminal aliens, why are you not filling 1,000 detention beds 
that the Congress has given you the resources to fill?
    Answer. The Department functioned under a continuing resolution 
(CR) during the first quarter of fiscal year 2012, which extended 
fiscal year 2011 terms and conditions. Under the CR, ICE was mandated 
to maintain a level of not less than 33,400 detention beds, and during 
this time ICE supported 33,523 beds. Upon enactment of Public Law 112-
74 on December 23, 2011, the requirement was increased to 34,000 
detention beds and it took time to ramp up to the higher number. As of 
March 28, 2012, ICE had reached an occupancy of 34,975 beds, and we are 
fully committed to maintaining at least 34,000 beds for the remainder 
of fiscal year 2012.
             cybersecurity increase for the federal network
    Question. The fiscal year 2013 budget contains a request for $202 
million in new spending authority to ``directly support Federal 
departments and agencies in implementing capabilities that will improve 
their cybersecurity posture.''
    It is understood the funding is to be used for continuous 
monitoring so that threats inside the Federal network can be detected 
in real time. Please provide a breakdown of the $200 million 
demonstrating what projects will be completed, for which Federal 
agencies. In what timeframe will the funds be obligated?
    Answer. Funding will support cybersecurity improvements in the 
departments and agencies highest risk networks and nodes, including the 
acquisition and installation of security hardware and software on IT 
systems; implementation of continuous monitoring to provide a real-time 
common operating picture of cybersecurity threats; and measures to 
ensure that identified threats are resolved quickly and any damage is 
contained and minimized.
    Specifically, the $202 million will support:
  --A Federal Enterprise-wide dashboard purchase with daily updates of 
        agencies' progress and their risks displayed in a prioritized 
        manner;
  --Diagnostic sensors in Federal agencies with data feeds to the 
        dashboard which focus on Federal priority areas;
  --Diagnostic tools and integration for daily threat and impact on the 
        .gov domain; and
  --A DHS security data warehouse structure, reports, integration with 
        CyberScope.
                           e-verify extension
    Question. This subcommittee tries to avoid carrying authorization 
items, because we believe the authorizing committees are the 
appropriate place for these proposals to be considered and acted upon. 
But sometimes authorizing items are added to our bill. For instance, 
during floor debate on the fiscal year 2010 Homeland Appropriations 
bill, amendments were adopted authorizing the extension of four 
separate immigration programs for 3 years--through the end of this 
fiscal year. This included the E-Verify and EB-5 regional center 
programs. However, your budget proposes to only extend the 
authorization of the E-Verify program for an additional year. The EB-5 
program is a very successful program which provides visas for 
entrepreneurs who create jobs in this country. There are three EB-5 
centers in my State of Louisiana, and the author of the original 
legislation creating the program is a member of this subcommittee.
    Why did the administration not propose extending the EB-5 program?
    Answer. E-Verify authorization is a necessary conforming amendment 
to a specific request in the President's fiscal year 2013 budget for 
appropriated funding of that program. The three other programs 
requiring congressional reauthorization (Conrad 30, EB-5 Regional 
Center, and non-minister religious worker immigrant visa program) are 
funded through fees paid by the applicants participating in each of 
these programs. We fully support these programs and look forward to 
working with Congress to ensure they are, indeed, re-authorized.
                    tsa advanced imaging technology
    Question. Describe what specific investments TSA and/or the Science 
and Technology Directorate are making to improve the capabilities of 
the next generation of advanced imaging technology machines in order to 
improve aviation security.
    Answer. On February 21, 2012, the Transportation Security 
Administration (TSA) issued a request for proposal (RFP) for a follow-
on advanced imaging technology solicitation (AIT-2) focused on the 
procurement of enhanced full and reduced sized AIT systems. The 
procurement specifications contained within the RFP for AIT-2 raises 
performance requirements in a number of areas to include reduction in 
processing time, increased detection performance, and reduction in 
size. The award date for full production AIT-2 systems is scheduled for 
March 2013 with all qualified systems from the AIT-2 solicitation 
configured with automated threat reduction (ATR) technology to enhance 
privacy protections.
    In collaboration with TSA, the Department of Homeland Security 
Science and Technology (S&T) Directorate is also pursuing the 
development of an advanced AIT system with improved image resolution to 
allow for the detection of smaller threat items than currently possible 
with existing commercial systems. The S&T Directorate is also pursuing 
development of next generation AIT systems that will allow a walk-
through passenger screening process for anomaly detection, unlike the 
existing systems which require the passenger to remain stationary.
    Finally, the original equipment manufacturers (OEM) with currently 
fielded advanced imaging technology (AIT) systems remain under contract 
with TSA to develop solution upgrades that include an ATR capability 
and improvements in detection capabilities.
                      fema predisaster mitigation
    Question. What percent of predisaster mitigation grants in fiscal 
year 2008-2011 were awarded to locations that had Presidentially 
declared disasters in the year preceding the award?
    Answer. Please see below for percentages:
  --Fiscal year 2008: 68 percent of predisaster mitigation (PDM)-
        awarded projects went to States that had a disaster relief (DR) 
        declaration in the previous fiscal year (116 of 170 approved 
        projects);
  --Fiscal year 2009: 48 percent of PDM-awarded projects went to States 
        that had a DR declaration in the previous fiscal year (74 of 
        154 approved projects);
  --Fiscal year 2010: 56 percent of PDM-awarded projects went to States 
        that had a DR declaration in the previous fiscal year (109 of 
        193 approved projects); and
  --Fiscal year 2011: 70 percent of PDM-awarded projects went to States 
        that had a DR declaration in the previous fiscal year (78 of 
        111 approved projects).
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
                 urban area security initiative grants
    Question. The fiscal year 2012 UASI allocation did not cut any 
funding for the New York region and cut funding to three regions by 
only 13 percent compared to the fiscal year 2011 allocation. The 
remaining tier I regions received cuts based largely on their risk 
scores beginning with the San Francisco-San Jose-Bay area region at a 
38-percent cut, and the cuts increased slightly as risk scores 
decreased through the tier II regions. The Newark-Edison area was cut 
by 42 percent. Given that the top four risk areas received 
disproportionately smaller cuts, or no cut at all, why didn't the 
remaining high-risk regions in tier I also receive special 
consideration to ensure the smallest cuts possible?
    Answer. Fiscal year 2012 UASI allocations were informed by a 
comprehensive risk methodology based on threat, vulnerability, and 
consequences. Ultimately, the highest risk cities in our country 
continue to face the most significant threats, and the fiscal year 2012 
homeland security grants focus the limited resources that were 
appropriated to mitigating and responding to these evolving threats. 
Current intelligence reflects that al Qaeda, its affiliates and its 
allies remain focused on carrying out attacks in major U.S. cities 
including New York City, Chicago, Los Angeles, and Washington, DC, and 
against our aviation and surface transportation infrastructure. From an 
infrastructure protection perspective, these four major cities contain 
50 percent of the identified critical infrastructure most likely 
targeted by international terrorists and a third of all assets, 
systems, and infrastructure clusters.
    Question. The fiscal year 2012 UASI allocation did not cut any 
funds relative to the previous year for the New York region because of 
its high threat level. The New York/New Jersey port region includes New 
York and the region between Newark Liberty International Airport and 
Port Elizabeth, the area considered by the FBI to be the most dangerous 
in America for a terrorist attack. The fiscal year 2012 Port Security 
grant process is now competitive but risk will be a factor as DHS makes 
awards later this year. When allocating fiscal year 2012 Port Security 
grants, will DHS give similar consideration to the highest risk areas 
as it did when distributing fiscal year 2012 UASI funds?
    Answer. Yes, the Port Security Grant Program (PSGP) will prioritize 
port areas that have the highest risk. For fiscal year 2012, PSGP 
divided the port areas into four groups. The seven ports with the 
highest risk are part of Group I and will compete for 60 percent of the 
available funding.
                       airport security breaches
    Question. Last year, there were an unusually high number of 
breaches at Newark Liberty Airport. At my request, DHS is in the 
process of completing an investigation of the breaches. What steps will 
you take to ensure that any issues identified in the investigation are 
fully resolved?
    Answer. The Transportation Security Administration (TSA) is 
committed to continuing to strengthen and improve security at Newark 
Liberty International Airport (EWR) by ensuring all EWR staff receive 
proper training, updating data breach containment plans, and conducting 
regular security breach drills.
    The national security breach drill requirement includes three 
drills of varying complexity per year. TSA EWR's breach drills exceed 
the national requirement by requiring each passenger checkpoint to 
conduct two drills with varying complexity every other day involving 
TSA, stakeholders, and/or law enforcement officers (LEOs). 
Additionally, TSA EWR is engaging the airport operator, LEOs, and other 
stakeholders in breach drill containment and resolution exercises.
    In addition, TSA EWR's Back to Basics campaign and Commitment to 
Excellence are programs implemented by the TSA EWR Federal Security 
Director (FSD) to continue to strengthen security and customer service:
  --TSA EWR's Back to Basics campaign included a focus on lead 
        transportation security officer (LTSO), supervisory 
        transportation security officer (STSO), and transportation 
        security manager (TSM) communications, engagement and 
        accountability. Results and actions include:
    --66-percent reduction in access incidents over the past 11\1/2\ 
            months;
    --Dedicated training lanes in passenger and checked baggage 
            screening;
    --Breach drills conducted above required standards; and
    --Improved internal communications between TSA management and the 
            front-line workforce.
  --The TSA EWR Commitment to Excellence report was written by TSMs and 
        STSOs at EWR. The report identified systemic issues and 
        recommended solutions in security operations, staffing, 
        training support, administrative support, discipline, 
        management and workforce communications, and airport community 
        relations.
    SA is also enhancing its performance management and oversight of 
FSDs and airport field operations through an internal restructuring of 
TSA field leadership into a new regional director (RD) structure. RDs 
will monitor specific FSD performance metrics, which will allow TSA 
RDs, FSDs, and TSA headquarters leadership to assess airport 
performance, correct vulnerabilities, and ensure identified issues are 
resolved.
                     state and local grant funding
    Question. How will DHS's distribution of 2012 grant funding reflect 
the risk to rail and transit?
    Answer. DHS will focus its available transit security grant dollars 
on the highest risk systems through a competitive process and will 
prioritize funding for operational activities and capital asset 
remediation. DHS has identified critical infrastructure assets of 
national concern through the Top Transit Asset List (TTAL). Critical 
infrastructure assets are those that are vital to the functionality and 
continuity of a major transit system such that their incapacitation or 
destruction would have a debilitating effect on security, national 
economic security, public health or safety, or any combination thereof. 
With the creation of the TTAL, DHS now can target funding to the 
remediation of those assets on the list in an informed and risk-based 
approach.
                             cbp wait times
    Question. According to reports at Newark Liberty, arriving 
passengers are experiencing long wait times at Customs due to 
inadequate staffing. With the busy summer travel season approaching, 
there are concerns that wait times will continue to grow. Will you 
commit to working with me to provide adequate staffing levels at 
Newark?
    Answer. CBP is working to ensure the optimal staffing is provided 
to the locations of highest need and risk. CBP seeks to process 
arriving passengers as quickly as possible consistent with national 
security and the enforcement of customs, immigration and agricultural 
regulations. Nationally, CBP processed 73.4 percent of international 
travelers within 30 minutes during the first quarter of fiscal year 
2012, and the rate for Newark was 76 percent. The average wait time 
(AWT) for CBP at Newark was 21.2 minutes in the first quarter of fiscal 
year 2012, which was lower than the national AWT of 21.7 minutes. 
Newark's AWT has consistently been at or below the national average for 
the past 13 quarters.
                       global positioning system
    Question. Recent reports have highlighted the risk to the Global 
Positioning System (GPS) for interference, jamming or spoofing by 
terrorists and criminals. What is DHS doing to address the 
vulnerability to GPS?
    Answer. The Positioning, Navigation, and Timing (PNT) Advisory 
Board, of which DHS is a member, is currently conducting efforts to 
baseline the performance of commercial GPS jammers. DHS's S&T has 
facilitated these efforts by helping the PNT establish cooperative 
research and development agreements (CRADAs) with industry. During the 
summer of 2012, the PNT plans to evaluate the capabilities of 
commercially available jammers and systems that can detect them at the 
White Sands Missile Range in New Mexico. This is an important step to 
fully understanding the extent of the problem before developing or 
deploying countermeasures. DHS coordinates with other departments, 
including the Department of Transportation and Department of Defense, 
through the PNT Advisory Board.
                               smuggling
    Question. Last week, CBP caught an inbound passenger at Dulles 
airport attempting to smuggle in over 18,000 Vietnamese cigarettes. 
Christopher Hess, CBP Port Director for Washington, DC, said in a news 
release that this appeared to be a smuggling operation with the intent 
of reselling the cigarettes. These foreign cigarettes pose a serious 
health threat and violate Federal taxation, importation, and copyright 
laws. In addition to screening passengers' luggage at the airports, 
what is CBP doing to ensure that foreign cigarettes are not being 
smuggled into the United States? Are all inbound mail parcels from 
foreign nations being x-rayed and screened for contraband cigarettes?
    Answer. CBP takes the smuggling of foreign cigarettes very 
seriously. CBP's Office of International Trade has developed rule sets 
to identify violations of trade laws within the cargo environment that 
endanger public health, restrict the competitiveness of the United 
States in the global market, and conceivably damage the United States 
economy. In addition to CBP's layered enforcement strategy, CBP 
partners with ICE and Alcohol and Tobacco Tax and Trade Bureau, through 
the Fraud Investigation Strike Team (FIST) program, which is designed 
as a measure to identify or disrupt fraud associated with CBP's 
importation, in-bond, and entry processes. In regards to mail 
shipments, CBP x-rays 100 percent of all mail shipment entering the 
United States from abroad utilizing this layered approach and targeted 
rule sets as identified above.
                         centers of excellence
    Question. The National Center for Secure and Resilient Maritime 
Commerce (CSR) at the Stevens Institute of Technology is a DHS Center 
of Excellence and its contract is up for renewal in June 2013. What 
steps will the Department take to re-compete this contract to allow the 
Center to continue its important work?
    Answer. DHS continues to leverage the expertise found at our 
Nation's universities to strengthen efforts in homeland security-
related science and engineering throughout the academic community. The 
Department's Centers of Excellence conduct research and offer 
educational programs, which produce technologies and analyses valuable 
to the Department and its partners. With the expectation that DHS will 
continue to need a Maritime Domain Awareness Center of Excellence 
(COE), as mandated in the 2006 Safe Port Act (Public Law 109-347), the 
Science and Technology Directorate (S&T) will initiate a re-competition 
for this COE beginning in summer 2012.
    S&T has a rigorous evaluation and rating process for proposals 
received by the funding opportunity deadline. The initial steps are to 
assemble a cross-DHS team to write a new funding solicitation with 
updated maritime and port security priority research topics and 
questions. Then, a panel of outside subject matter experts reviews the 
proposals to ensure the proposed research is of the highest quality. 
Next, a team of internal reviewers evaluates the proposals to ensure 
the research will help S&T and its customers fulfill its mission of 
protecting the Nation well into the future. Finally, senior S&T staff 
and subject matter experts make site visits to the top-rated 
institutions to finalize their recommendations to the Under Secretary 
for Science and Technology.
    At the end of the proposal review, S&T will select one lead 
institution, which will be required to form a coalition of 
complementary partner institutions to complete the Center's research 
portfolio. As a result, S&T expects there to be a number of potential 
roles and contributions for a variety of institutions at a Center.
    S&T anticipates the funding announcement to be posted in the fourth 
quarter of fiscal year 2012 with an award in the latter part of fiscal 
year 2013.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Inouye
                      compact of free association
    Question. The conference report accompanying the Consolidated 
Appropriations Act for fiscal year 2012 (Public Law 112-74), directs 
the Department to follow Senate Report 112-74, which required the 
Department to report to Congress about plans to implement all legally 
allowable grounds of inadmissibility under the compact, among other 
items. Would you please provide an update on the interagency process, a 
status of the report, and what progress is being made to address this 
matter?
    Answer. Consistent with the direction in the conference report, the 
Department is preparing a report for the Congress on those aspects of 
these issues that fall under the Department's responsibilities. The 
report is near completion and I expect its delivery to Congress soon. 
Regarding the interagency process, the Department respectfully defers 
to the Department of Interior, which has been leading this broader 
effort.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                     northern border staffing (cbp)
    Question. While CBP has increased overall staffing levels along the 
northern border since 2001, it appears that the vast majority of these 
new positions are with the Border Patrol, not with CBP officers and 
agriculture specialists at the ports-of-entry.
    I remain concerned about the low staffing levels at Vermont's 
ports-of-entry, where I have received troubling reports involving 
overall safety practices, security procedures, and the morale and 
welfare of CBP officers.
    On top of these issues, Autoroute 35, a new highway under 
construction between Montreal and the United States-Canada border at 
Highgate Springs, will bring up to 30 percent more traffic to Vermont's 
border crossings starting next year.
    Please describe the fiscal year 2013 budget request for CBP port-
of-entry staffing along the northern border. How does this request 
compare to funding in fiscal year 2011 and fiscal year 2012?
    Answer. CBP does not segregate its budget requests by geographic 
location. The fiscal year 2013 President's budget funds CBP officers at 
21,186 which was enhanced in fiscal year 2012 with additional positions 
for staffing new and expanded ports of entry. The fiscal year 2013 
budget seeks to maintain the staffing for CBP officers nationwide. 
Particular attention is provided to yearly staffing allocations to 
ensure that the highest operational needs are covered including 
staffing needed for increased volume.
    Question. Please provide both targeted and real port-of-entry 
staffing levels over the past 10 years at each of the ports-of-entry in 
Vermont.
    Answer. Data is not available prior to the establishment of CBP. 
The table below provides the actual onboard staffing for all OFO 
employees in Vermont ports of entry (POE) for end of year fiscal year 
2004-current.

                       TOTAL VERMONT STAFFING FOR ALL EMPLOYEES IN VERMONT PORTS OF ENTRY
----------------------------------------------------------------------------------------------------------------
                                                               End of year                                Fiscal
                                ------------------------------------------------------------------------   year
                                                                                                           2012
                                   2004     2005   2006  9/ 2007  9/ 2008  9/ 2009  9/ 2010  9/ 2011  9/ current
                                 10/2/04  10/1/05   30/06    29/07    27/08    26/09    25/10    24/11   2/25/12
----------------------------------------------------------------------------------------------------------------
Total..........................      290      301      296      290      334      329      309      309      299
----------------------------------------------------------------------------------------------------------------

    Question. When is the next strategic resource assessment planned 
for ports-of-entry in Vermont?
    Answer. CBP is currently restructuring its strategic resource 
assessment process. Once that process is complete, it will be possible 
to determine a schedule of activities.
    Question. With the Canadians opening Autoroute 35 soon, what 
planning efforts are underway to address the staffing and 
infrastructure needs at Vermont's ports-of-entry?
    Answer. At this time, Autoroute 35 is under construction and not 
scheduled to be open to traffic until 2017. CBP will continue to 
monitor the developments of Autoroute 35 and will evaluate anticipated 
staffing and infrastructure needs as construction of the new highway 
continues to advance.
                 disaster assistance to vermont (fema)
    Question. Vermont and other the other States still reeling in the 
aftermath of Hurricane Irene last August appreciate all of FEMA's 
efforts to help the rebuilding process.
    Since Vermont is a very small State, our State and local 
governments are stretched to their limits now in trying to cover the 
enormous response and recovery costs, and Federal assistance is 
critical. Can you please provide an update on the Disaster Relief Fund? 
Do you anticipate having to reinstitute immediate needs funding this 
year?
    Ultimately, the final cost-share arrangement between FEMA and 
Vermont is very important in terms of the State's overall capability to 
respond effectively to this disaster. As we continue to approach the 
threshold for a 90-10 split, can you please provide an update on 
overall FEMA expenditures in Vermont?
    Answer. FEMA closely monitors the use of the DRF budget and 
projected balances. At this time, it would be premature to predict the 
need for immediate needs funding (INF) during fiscal year 2012. FEMA 
will, as in the past, communicate with all key stakeholders if the 
administration implements INF restrictions based on the balance of the 
DRF relative to FEMA's ability to address a significant, no-notice 
disaster.
    As of March 16, 2012, FEMA had obligated $88.5 million for Tropical 
Storm Irene expenses in Vermont, of which $61.7 million would qualify 
for a cost-share adjustment. The remainder of $26.8 million is 
administrative costs, which are not applied to the cost-share 
calculation.
                   marriage-based immigration (uscis)
    Question. On February 9, 2012, I wrote to you along with the 
Vermont congressional delegation to encourage you to reconsider the 
Department of Homeland Security's policy regarding marriage-based 
immigration petitions for same-sex spouses, including the specific case 
of a Vermont couple, Frances Herbert and Takako Ueda, who are lawfully 
married under Vermont statute.
    Given the administration's decision to no longer defend the 
constitutionality of the Defense Against Marriage Act and the pending 
challenges to this controversial law in several courts, I previously 
recommended that you hold all such petitions in abeyance until the law 
is settled. The agency denied the spousal-based petition of Ms. Herbert 
and Ms. Ueda rather than holding it in abeyance, even though a denial 
of abeyance will force an otherwise law-abiding immigrant to fall out 
of lawful status.
    Particularly in States such as Vermont, where same-sex marriages 
are legally recognized, we believe that family based cases such as Ms. 
Herbert's and Ms. Ueda's are deserving of full consideration of 
prosecutorial discretion. We believe that USCIS has the legal authority 
to hold such cases in abeyance, and ask that you reconsider the agency 
position. Will you do so?
    Answer. At the direction of the President, the Executive branch, 
including DHS is continuing to enforce section 3 of the Defense of 
Marriage Act (DOMA) until the law is repealed by Congress or the 
judicial branch renders a definitive verdict on the law's 
constitutionality. Thus, the Department is unable to adopt a 
categorical policy of holding in abeyance applications for immigration 
benefits affected by DOMA. As in other contexts, USCIS reviews requests 
for abeyance or deferred action on a case-by-case basis for urgent 
humanitarian considerations or other compelling and unique factors. For 
privacy reasons, USCIS cannot comment on individual cases or 
applications.
                        federal employee issues
    Question. Over the course of the past year, Congress has considered 
numerous personnel-related proposals that would affect the pay and 
benefits your Department can provide. These include an extension of the 
Federal basic-pay pay freeze, changes to the Federal Employees 
Retirement System requiring higher contributions by new hires, 
extension of the probationary period for new hires, and a ``hiring 
freeze by attrition'' that would allow the Government to replace every 
two or three employees who leave Government service with one new hire. 
These proposals, if enacted, would likely have a deleterious effect on 
Federal employment and employee morale generally.
    Given the importance of DHS personnel to our Nation's security, has 
your Department examined the potential effects that any of the 
abovementioned policy changes would have on its ability to recruit and 
retain the best possible workforce? If so, what were the results of 
that examination?
    Answer. DHS continues to monitor the congressional proposals 
concerning pay/benefits for the Federal workforce. We have not analyzed 
the impact of these proposals on our future ability to recruit and 
retain a high-performing workforce.
    Question. In general, how would DHS's critical homeland security 
missions be affected if it was only able to replace every three law 
enforcement officers in the field who leave Government service with one 
new officer? Are there programs or operations that would have to be 
canceled or consolidated if DHS's law enforcement workforce was cut by 
10 percent as some have proposed?
    Answer. Cuts of this magnitude would directly impact DHS's front-
line operations, rolling back significant progress in securing our 
Nation's borders; increasing wait times at our Nation's land ports of 
entry and airports; impacting aviation and maritime safety and 
security; and protecting our Nation's critical infrastructure. The cuts 
would include the reduction of:
  --Over 2,000 Border Patrol agents--a decrease to below fiscal year 
        2009 levels;
  --More than 2,100 CBP officers--a cut to below fiscal year 2008 on-
        board levels, increasing wait times at our Nation's land ports 
        of entry;
  --Approximately 700 Secret Service personnel--a cut to below fiscal 
        year 2005 force levels from current on-board levels which 
        affects the work of special agents, uniformed division 
        officers, and protective detail personnel; and
  --Nearly 670 ICE investigators, which would significantly reduce 
        homeland security investigations.
    Question. Since 2009, the Federal Government has operated under a 
pay freeze for rates of basic pay under the General Schedule. What 
impact, if any, has this policy had on the Department's recruitment and 
retention efforts?
    Answer. In recent years, DHS has developed ways to more closely 
align and integrate its recruitment and outreach strategies between 
headquarters, components, and field offices. This enables the 
Department to manage recruiting and outreach operations more 
effectively in order to achieve efficiencies. At this time, DHS is not 
experiencing difficulties in recruiting individuals to apply for our 
positions. Moreover, after 2007 DHS realized a significant increase in 
retention rates, and has continued to realize a steady increase in 
subsequent years. The Department had approximately an 83-percent 
retention rate in 2007, and has been above 90 percent since.
    Given the current fiscal climate, DHS is focused on recruiting 
highly qualified candidates with a diverse set of experiences, 
abilities, and attributes, as well as retaining a high performing 
workforce. As a result, DHS is working with OPM to collect applicant 
flow data to ensure a diverse pipeline of candidates. In addition, DHS 
is finalizing its first Diversity and Inclusion Strategic Plan for 
fiscal years 2012-2015. The plan provides the framework for recruiting 
a diverse workforce, creating an inclusive workplace, and ensuring 
management accountability. It also serves as a dynamic road map to 
guide our efforts in making DHS a leader in creating and sustaining a 
high-performing workforce and the premier employer for anyone committed 
to serving and protecting our Nation.
    Question. Can you provide us with an analysis comparing DHS's 
recruitment and retention efforts between 2003-2008 and 2009-2012?
    Answer. On December 21, 2010, Secretary Napolitano issued the 
Department of Homeland Security Workforce Strategy for fiscal years 
2011-2016. As a result, OCHCO led the development of the DHS 
Coordinated Recruiting and Outreach Strategy for fiscal years 2012-
2017. This underscores the importance of recruiting a highly qualified 
and diverse workforce while improving the performance and efficiency of 
DHS operations. It is designed to guide outreach and recruitment 
efforts across DHS; enabling the systematic development of operational 
strategies with action plans that meet our overall objectives, which 
include reducing duplication of effort, leveraging all outreach and 
recruiting resources, integrating recruiting and outreach plans across 
the DHS enterprise, decreasing agency outreach and recruiting costs, 
and presenting a unified DHS image. This strategy is being implemented 
through a pilot phase beginning in April 2012 through May 2013 in which 
DHS will cross-train recruiters to be able to share information about 
all DHS employment opportunities, allowing components to leverage 
resources and provide a unified DHS image to the public. Prior to 2009, 
recruitment across the Department was often fragmented and stove-piped. 
DHS' current coordinated recruitment and outreach efforts have brought 
more clarity to the recruitment process and furthered the One-DHS 
brand.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                           budget priorities
    Question. The three largest increases proposed in the President's 
budget from fiscal year 2012 are for State and local grants (+$500 
million), Cyber (+$325.8 million), and Science and Technology (+$163.4 
million). While the three most significant decreases are in Coast Guard 
(-$337.7 million), U.S. Immigration and Customs Enforcement (-$218 
million), and the Transportation Security Administration (-$173 
million). Why are these increases a priority for the Department when 
they come at the expense of reductions in front-line operations?
    Answer. The discretionary budget caps set by the Budget Control Act 
require difficult decisions, and every component in DHS will be 
impacted in some way by the current fiscal environment. We have focused 
on preserving critical front-line operations through administrative 
cuts which were made as part of a deliberate process to minimize 
operational impacts on the front line within our components. To 
preserve core front-line priorities in fiscal year 2013, we have 
redirected over $850 million in base resources from administrative and 
mission support areas, including contracts, personnel (through 
attrition), information technology, travel, personnel moves, overtime, 
directed purchasing, professional services, and vehicle management.
    The reductions referenced above largely fall into these categories 
as well as from nonrecurring expenses in fiscal year 2012. With respect 
to the Coast Guard, the request for the operating expenses 
appropriation that largely funds front-line operations is $36 million 
higher than the fiscal year 2012 enacted budget. The major reductions 
relative to the fiscal year 2012 enacted budget include unnecessary 
funding for Coast Guard's Medicare-Eligible Health Care Fund 
contribution (-$92 million); one-time funding in 2012 for USCG research 
and development (-$8 million) and -$272 million in the Coast Guard's 
Acquisition, Construction and Improvements (ACI) appropriation. The 
request for the zero-based ACI account varies from year to year 
depending on project priorities and schedules. In 2013, the budget 
directs ACI resources toward the Commandant's highest priorities, 
including fully funding the sixth NSC.
    The fiscal year 2013 budget reduces TSA funding for Explosive 
Detection Systems (EDS) because of the extraordinary investment in EDS 
provided by the American Recovery and Reinvestment Act and prior 
appropriations. TSA is focusing on recapitalizing existing EDS systems 
to sustain our current capabilities; front-line operations are not 
reduced or scaled back. Additionally, a fiscal year 2012 legislative 
change allows Aviation Security Capital Fund fee revenues to be used 
for the procurement and installation of EDS equipment as necessary and 
will maintain adequate funding for TSA's checked baggage screening.
    With regards to a decrease in ICE's budget, we've taken a hard look 
at where we can realize additional efficiencies, eliminate redundant 
functions and stretch our dollars further. We also look to programs 
that may vary in costs year to year based on their implementation 
requirements (i.e., Secure Communities). While the ICE budget is below 
the fiscal year 2012 enacted budget level, it does not sacrifice front-
line operational capability; instead creating a more efficient and 
effective organization. The vast majority of the savings are due to 
significant cost-saving measures and efficiencies that allow ICE to 
strengthen core front-line operations. In total, the request includes 
more than $200 million in costs savings from administrative 
efficiencies, such as vehicles, overtime, travel, professional service 
contract reductions, as well as a reduction to mission support 
staffing, allowing the agency to preserve essential agency operations.
    Regarding the areas that were prioritized for increases in fiscal 
year 2013, consistent with prior year requests, the administration 
continues to focus on support for State and local first responders, 
cutting-edge research and development, and cybersecurity.
Grants
    The fiscal year 2013 budget requests $1.5 billion to build and 
sustain State and local capabilities, enhance terrorism prevention and 
protection capabilities and protect critical infrastructure and key 
resources. This funding will sustain resources for fire and emergency 
management grants while consolidating 16 other grants into the new, 
streamlined National Preparedness Grant Program (NPGP)--designed to 
develop, sustain, and leverage core capabilities across the country in 
support of national preparedness, prevention and response.
    The administration believes the additional funding is critical to 
overall maintenance and sustainment efforts of capabilities built over 
the 10 years. In fiscal year 2012, the allocations to State and local 
grantees were reduced by as much as 60 percent due to budget cuts. Yet, 
the most recent self-assessments of State/territory capabilities show 
that on average, grant recipients rate their capability levels between 
42 percent and 78 percent for different core capabilities, indicating 
that additional funding for filling capability gaps is still a 
requirement. Additional reductions going forward will make it difficult 
over the long term to maintain the capabilities grantees have built 
that support disaster preparedness, response and terrorism protection/
prevention.
Cyber
    DHS leads the Federal Government's efforts to secure civilian 
Government computer systems and works with industry and State, local, 
tribal, and territorial governments to secure critical infrastructure 
and information systems. The fiscal year 2013 budget makes significant 
investments in cybersecurity to expedite the deployment of EINSTEIN 3 
to prevent and detect intrusions on Government computer systems; 
increases Federal network security of large and small agencies; and 
continues to develop a robust cybersecurity workforce to protect 
against and respond to national cybersecurity threats and hazards. The 
increased funding will further reduce risk in the Federal cyber domain 
by: addressing vulnerabilities in civilian Federal network 
cybersecurity; supporting continuous monitoring of Federal agencies; 
and improving the common operating picture of threats to the civilian 
Federal cyber network. This initiative will directly support Federal 
civilian departments and agencies in developing capabilities that will 
improve their cybersecurity posture to thwart advanced, persistent 
cyber threats.
Science and Technology
    The fiscal year 2013 budget includes funding for critical research 
and development (R&D) programs to improve homeland security through 
state-of-the-art solutions and technology. The proposed R&D funding 
level in fiscal year 2013 is commensurate with that in fiscal year 2011 
and will enable S&T to support the needs of front-line operational 
components, while conducting R&D work in priority areas such as: 
explosives (aviation security); bio-threat security; cybersecurity; and 
first responders.
                st. elizabeths dhs headquarters project
    Question. All prior plans for the DHS headquarters project at St. 
Elizabeths show that the General Services Administration (GSA) is to 
bear the costs of access roads and utilities for the project, including 
the Malcolm X/Route 295 interchange required to support phase 2 DHS 
population. In the interim, this interchange would primarily benefit 
Bolling Air Force Base and the local population in Anacostia. The 
President's fiscal year 2013 budget now requests $89 million in DHS 
funding for this highway interchange. Why has the funding for the 
Malcolm X/295 interchange funding, originally intended to be borne by 
the GSA, been shifted to DHS and why is it included in the fiscal year 
2013 DHS request since it was originally designated to support phase 2 
DHS population at St. Elizabeths?
    Answer. This funding will provide for critical transportation 
infrastructure necessary to support the U.S. Coast Guard (USCG) and 
additional future occupancies on the St. Elizabeths campus. DHS is the 
sole St. Elizabeths occupant, so the funding is being requested by DHS. 
The interchange project will additionally benefit Joint Base Anacostia-
Bolling and improve traffic flow for the community in surrounding 
neighborhoods, and is expected to provide approximately 2,900 jobs. The 
project is being developed collaboratively with other Federal, DC, and 
local community partners, but DHS will be the primary beneficiary of 
the interchange. Funding for this project is included in the fiscal 
year 2013 request to ensure adequate traffic support for the USCG and 
future phase 2 occupancies.
                     financial management controls
    Question. After years of being on the high-risk list maintained by 
the Government Accountability Office, the Department of Homeland 
Security received its first qualified opinion on its fiscal year 2011 
balance sheet and statement of custodial activities. This is allowing 
DHS to move to a full scope audit in fiscal year 2012. What else can 
the Department do to improve its audit results and what are the most 
significant obstacles to further improvement?
    Answer. Obtaining a qualified opinion is a pivotal step to 
increasing transparency and accountability and accurately accounting 
for the Department's resources and is a significant milestone that 
highlights how we have significantly improved financial management at 
DHS. This year's audit results provide clear evidence of continued 
management improvements at DHS and we are committed to continuing to 
strengthen and mature financial management across the Department to 
ensure strong stewardship of the resources entrusted to us and to 
improving the systems and processes used for all aspects of financial 
management to demonstrate the highest level of accountability and 
transparency. We continue to work closely with components to mitigate 
risk of new material weaknesses or audit qualifications. In particular, 
we are implementing a risk-based focus to managing the audit and 
internal controls to ensure we address areas that have the highest 
impact first, developing and executing remediation plans to ensure 
improvement, establishing risk management progress reviews, and sharing 
best practices among components to speed progress by all.
    One of the most significant obstacles to further improvement is in 
the area of financial systems. DHS is challenged with disparate systems 
and is too reliant on manual processes, limiting our ability to 
efficiently gather enterprise-level information necessary audit and 
internal control successes.
    The DHS focus for financial management systems effort is to:
  --Prioritize system sustainment and upgrade activities;
  --Improve Department financial management incrementally by 
        implementing core financial functions and adding additional 
        commodities over time in smaller bursts through agile 
        development and deployment;
  --Increase data accuracy, transparency, and portability; and
  --Increase business intelligence capabilities.
    DHS is continuing to work to remediate remaining internal control 
weaknesses. In fiscal year 2012, working with the auditors, DHS is 
identifying areas where efficiencies can be obtained by integrating 
management's internal control assessments with the audit. As internal 
control weaknesses are remediated and controls are determined to be 
effective, this will allow the auditors to place more reliance on 
controls and reduce transaction testing for the audit.
                        management efficiencies
    Question. Madam Secretary, the fiscal year 2012 budget request 
identified over $800 million in administrative savings and management 
efficiencies. The fiscal year 2013 request identifies another $850 
million in savings in management efficiencies. Everyone needs to be 
looking at ways to run things leaner and more efficiently in this tight 
fiscal time. How are you ensuring and monitoring that these savings are 
being achieved in fiscal year 2012 and further identified for fiscal 
year 2013 to make certain that these don't result in backdoor program 
reductions?
    Answer. Since the beginning of this administration, the Department 
of Homeland Security (DHS) has made an unprecedented commitment to 
efficiency and has implemented a variety of initiatives to cut costs, 
share resources across components, and consolidate and streamline 
operations wherever possible in order to best support our front-line 
operations and build a culture of fiscal discipline and accountability 
at DHS.
    With the launch of Secretary Napolitano's Department-wide 
Efficiency Review (ER) in March 2009, DHS has been proactive in 
promoting efficiency throughout the Department. We have changed the way 
DHS does business, identifying over $3 billion in cost avoidances by 
streamlining operations and fostering a culture of greater 
transparency, accountability and fiscal discipline. To date, ER has 
launched 44 initiatives and identified savings achieved through other 
Department-wide initiatives, such as the Office of Management and 
Budget (OMB) Acquisition Savings Initiative, which has resulted in $1.3 
billion in savings from October 2009 thru June 2011. To preserve core 
front-line priorities in fiscal year 2013, we have redirected over $850 
million in base resources from administrative and mission support 
areas, including contracts, personnel (through attrition), information 
technology, travel, personnel moves, overtime, directed purchasing, 
professional services, and vehicle management.
    The DHS ER requires components to report on their cost avoidances 
and progress achieved for the ER initiatives on a quarterly basis 
through a Web-based reporting tool (ERQR). The ERQR is used to collect 
both quantitative data (through reporting on standardized metrics) and 
qualitative data (through narrative descriptions for components to 
report other progress and results).
    Relating to administrative savings and management efficiencies, 
components are responsible for identifying their progress in meeting 
efficiency targets. The DHS Office of the Chief Financial Officer 
(OCFO) periodically reviews component progress.
                national guard support for border patrol
    Question. At the end of calendar year 2011, the administration 
announced that between January 1, 2012, and March 31, 2012, it will 
start to transition the support provided by the National Guard to the 
Border Patrol on the Southwest border from ``boots on the ground'' to 
``boots in the air.'' At the same time, the fiscal year 2013 budget 
proposes fewer resources for CBP Air and Marine which supplies air 
support to Border Patrol today. From fiscal year 2010 to fiscal year 
2012 there has been a decrease of almost 14,000 hours of air support 
provided by Air and Marine to the Border Patrol along the Southwest 
border. Given that the National Guard is projected to provide the 
Border Patrol only 1,200 hours of air support under ``boots in the 
air''--where will the remaining 12,800 hours of air support by found so 
that Border Patrol can at least be provided with air support equal to 
fiscal year 2010?
    Has the transition from ``boots on the ground'' to ``boots in the 
air'' been completed?
    What level of National Guard personnel will perform the air support 
mission? How does that compare to the number of National Guard on the 
Southwest border today?
    What are the specific number of air craft and pilots that will be 
dedicated to Border Patrol?
    Are the air assets to be used by the National Guard going to be 
dedicated to the Southwest border and the Border Patrol or available 
only on an ``as needed'' basis?
    Where are the National Guard air assets coming from that are going 
to be used on the Southwest border--and what impact will that have on 
the National Guard counterdrug mission or its other missions?
    How long will the National Guard air support last? Through the end 
of the current fiscal year? Into fiscal year 2013 or fiscal year 2014? 
When will the final handoff to the Border Patrol happen?
    Answer. The response to this question is being provided separately, 
as it is law enforcement sensitive.
               drug transit zone mission responsibilities
    Question. Since the mid-1980s, civilian law enforcement agencies 
have assisted each other and the military with drug interdiction in the 
Caribbean basin and the Pacific Ocean--an area known as the ``transit 
zone''--as it is better to stop the drugs in the transit zone than at 
the border or inside a U.S. city. After the creation of the Department 
of Homeland Security, two agencies continued to support interdiction in 
the transit zone--the U.S. Coast Guard, and the U.S. Customs and Border 
Protection (CBP) with its P-3 long-range surveillance aircraft.
    The fiscal year 2013 budget calls into question the Department's 
continued commitment to the transit zone mission--at least within CBP. 
With the reductions to the P-3 extension program it is not clear how 
rigorous the internal process is that will determine the Department's 
future role in transit zone interdiction. Is the Department engaging in 
a thorough interagency review on whether or not to continue its 
involvement in supporting transit zone enforcement?
    Answer. The Department of Homeland Security is fully committed to 
transit zone enforcement. To that end, we are currently engaged in the 
``Blue Force Allocation Mitigation'' process, which will help increase 
our presence and effectiveness in the transit zone. This interagency 
review, conducted in coordination with the Office of National Drug 
Control Policy and the United States Interdiction Coordinator (USIC), 
will improve and offer additional support to transit zone enforcement. 
Additionally, the Department has made numerous improvements to the P-3 
aircraft over the years including the addition of the SEAVUE Maritime 
Surveillance Radar, the MX-20 EO/IR system and OSI (Ocean Surveillance 
Initiative) which allows CBP OAM aircraft to share ship tracks between 
like configured CBP OAM aircraft (i.e., P-3, DHC-8, Guardian unmanned 
aerial vehicle).
                  overseas vetted investigative units
    Question. U.S. Immigration and Customs Enforcement (ICE) has seen 
success with its overseas vetted units. Currently ICE has no stable 
source of funding to ensure that these units can continue to contribute 
to making their own countries safer and protecting the United States. 
Have you considered requesting appropriated funds for these units?
    Answer. In prior years, ICE did not request or receive direct 
funding for transnational criminal investigative unit (TCIUs, formally 
known as ``vetted units'') because we ICE did not have legal authority; 
rather the U.S. Department of State, the U.S. Department of the 
Treasury, and the U.S. Department of Defense provided financial 
resources for the TCIU program on a case-by-case basis. In the fiscal 
year 2012 enacted appropriations, ICE received authority to request and 
spend its own appropriations on TCIUs. ICE will continue to utilize 
funding from State, Treasury, or Defense, while considering future 
requests for long-term dedicated funding now that we have ICE has the 
authority to do so.
                          transfer of us-visit
    Question. The fiscal year 2013 budget proposes to spilt the 
functions and funding of US-VISIT between CBP and ICE. What is your 
vision of how this reorganization of US-VISIT will help to improve the 
entry-exit process in the United States? How will you ensure that all 
of the various customers of US-VISIT--U.S. Citizenship and Immigration 
Services, ICE, State Department--will still have their needs met?
    Answer. The fiscal year 2013 budget proposes the transfer of US-
VISIT functions from the National Protection and Programs Directorate 
(NPPD) to U.S. Customs and Border Protection (CBP) and U.S. Immigration 
and Customs Enforcement (ICE). Currently, CBP operates numerous 
screening and targeting systems, and integrating US-VISIT within CBP 
will strengthen the Department's overall vetting capability while also 
realizing efficiencies.
    Pending enactment, CBP will assume responsibility for the core US-
VISIT operations and management of the biometric and biographic 
information storage and matching and watchlist management services. ICE 
will assume responsibility of the US-VISIT overstay analysis services. 
CBP uses US-VISIT systems to help determine admissibility of foreign 
nationals arriving at all U.S. ports of entry (POEs) and to process 
aliens entering the United States illegally between the POEs. 
Currently, CBP operates numerous screening and targeting systems, 
supporting more than 70,000 users from over 20 Federal agencies that 
are responsible for a wide range of programs that rely on CBP 
information and systems to determine benefits, process travelers, 
inform investigations, support case management, and enhance 
intelligence capabilities. The US-VISIT systems will complement the CBP 
systems by adding the biometric identification and screening 
capabilities, which are also used across and beyond DHS. It will 
streamline interactions with the U.S. Department of State and the 
Federal Bureau of Investigation for both biographic and biometric 
screening.
    Although ICE will assume responsibility for US-VISIT overstay 
analysis, CBP and ICE will collaborate on system support for the 
overstay mission. Transition of the analysis and identification of the 
overstay population in ICE clearly aligns with the ICE mission of 
administrative immigration enforcement.
    CBP, ICE, and US-VISIT have established a transition team composed 
of senior representatives from each organization. This transition team 
is working to identify and prioritize crucial functional areas and 
determine the optimal strategy for transitioning each function.
    This transition team will identify targets of opportunity for 
operational and cost efficiencies. Priority will be placed on those 
transition initiatives that focus on increases in efficiency and 
effectiveness within mission support and ``corporate'' functions such 
as logistics, human resources, and information technology. Once all of 
the information is collected and arrayed, it will be analyzed with the 
goal of finding efficiencies while maintaining US-VISIT's mission with 
no degradation of services.
    A final transition plan will be made available to all external 
stakeholders by the end of July 2012.
                        office of health affairs
    Question. The role of the Department of Homeland Security's Office 
of Health Affairs in biosurveillance vis-a-vis the U.S. Department of 
Health and Human Services and the U.S. Department of Agriculture 
remains unclear. It often appears as though the Department of Homeland 
Security is duplicating the much larger efforts in this arena that 
other departments perform. How do you define the unique mission space 
that is the sole responsibility of the Department of Homeland Security 
in biosurveillance vice HHS and USDA?
    Answer. Effective national biosurveillance must provide both early 
warning and ongoing situational awareness before and during a 
biological event of national concern.\1\ The Office of Health Affairs 
(OHA) through the National Biosurveillance Integration Center (NBIC) 
provides unique biosurveillance capabilities not found in HHS, USDA, or 
anywhere else in the civilian agencies through:
---------------------------------------------------------------------------
    \1\ A ``biological event of national concern'' is defined in Public 
Law 110-53 as ``an act of terrorism involving a biological agent or 
toxin; or a naturally occurring outbreak of an infectious disease that 
may result in a national epidemic.''
---------------------------------------------------------------------------
  --Support for the Secretary's coordination and leadership 
        responsibilities for domestic incidents;
  --Integration of biosurveillance information across multiple sources 
        and domains to establish shared situational awareness among the 
        biosurveillance community;
  --Close coordination with the intelligence community;
  --Access to unique DHS data;
  --Innovative pilots examining new data sources and analytic 
        techniques not currently employed in biosurveillance; and
  --Integration of multiple early warning programs in the same 
        organization--systems-based detection (BioWatch) and 
        surveillance (NBIC, and its support of the interagency National 
        Biosurveillance Integration System, NBIS).
    NBIC's biosurveillance capability supports coordinated disaster 
management. The Secretary of Homeland Security, as designated in HSPD-
5, is the Principal Federal Official for domestic incidents involving 
the coordination of multiple agencies. As such, the Secretary requires 
the ability to maintain situational awareness before a biological 
event, during the event, and throughout the subsequent response. DHS's 
unique mission space includes disaster management responsibilities, and 
no other agency collects and integrates all of the information DHS 
needs to carry out these responsibilities. NBIC's mission and 
activities help prevent duplication in biosurveillance by integrating, 
correlating, and connecting information from disparate sources and 
domains, which reduces the likelihood that resources are applied to 
answering the same question, or pursuing the same information, by 
multiple stakeholders.
    In a biological event of national concern, NBIC coordinates with 
interagency partners to provide the White House and other crisis 
managers in the Federal Government with a consolidated view of the 
event with respect to human, animal, plant, food, and environmental 
information. In the absence of NBIC to integrate the biosurveillance 
information, multiple uncoordinated reports requiring resources for 
likely duplicated effort would be submitted by a number of departments 
and agencies. Difficulties in Federal coordination following the 
Amerithrax attacks in 2001 provide a good example of both the need for 
and the unique role of a coordinating entity before and during an 
event.\2\
---------------------------------------------------------------------------
    \2\ Lack of coordination and management of the Federal response to 
the 2001 Anthrax Attack is highlighted in the Government Accountability 
Office, BioTerrorism: Public Health to Anthrax Incidents of 2001, GAO 
04-152 (Washington, D.C.: GAO, 2003) and the Center for Strategic and 
International Studies and Defense Threat Reduction Agency, Anthrax 
Attacks: Implications for U.S. Bioterrorism and Preparedness, 
Washington, D.C., 2002 (Sponsored by the Defense Threat Reduction 
Agency: Contract Number OTRAM-02-C-0013).
---------------------------------------------------------------------------
    NBIC partners with HHS, USDA and others who provide input to 
national biosurveillance integration. For emerging incidents primarily 
restricted to a single domain, the responsible agencies have developed 
surveillance systems that fulfill their unique mission 
responsibilities. The expert work of HHS, USDA, and other NBIS partners 
provide DHS and other stakeholders with baseline and background 
information required to detect anomalies, as well as domains-specific 
information during events. However, as incidents encompass multiple 
domains including human, animal, plant, food, and environmental 
systems, shared situational awareness must be established to provide 
insights that cannot be gleaned in isolation. Moreover, shared analysis 
increases the likelihood of early identification of events. No single 
entity outside of NBIC, or the NBIS collaboration NBIC facilitates, is 
looking at the overall picture across animal, human, and environmental 
health domains. Through NBIC, DHS provides the platform for this 
collaboration, in which HHS and USDA serve as full and equal members of 
the NBIS.
    NBIS and the intelligence community (IC) partnerships have the 
additional benefit of fostering shared awareness of biosurveillance 
information and assets across the Federal Government. As the 2009 H1N1 
influenza pandemic demonstrated, it is not sufficient to only examine 
human outbreaks of disease to get a clear situational understanding but 
must additionally incorporate surveillance of livestock and wild animal 
populations. A bioterrorism attack would likely have even broader 
ramifications and require integration of a greater number of 
interdisciplinary sources and require coordination across multiple 
domains and agencies to support informed decisions regarding 
consequence mitigation. In addition to domain integration, NBIC also 
coordinates directly with the IC. NBIC staff is physically co-located 
with the CBRN intelligence branch of the DHS Office of Intelligence and 
Analysis, one of the 17 agencies within the U.S. IC. Direct connection 
to the intelligence community confers a unique capability to DHS 
biosurveillance efforts, facilitating integration of threat reporting 
for potential bioterrorism events into NBIC analysis and products.
    DHS provides a unique set of biosurveillance data for NBIC 
integration. Another unique aspect of biosurveillance within DHS is its 
workforce of over 100,000 operational staff in key travel, trade, and 
transmission nodes such as borders, ports, and airports. OHA is 
collaborating internally with the DHS Chief Human Capital Office and 
chief information officer to identify available information that could 
serve as a potential resource for early warning.
    NBIC is pursuing innovation. NBIC is in the process of developing 
and fielding a number of innovative pilots designed with more 
prospective approaches than traditional health surveillance. The pilots 
include the application of recent advances in analytic methods to 
previously under-utilized data such as social media and Emergency 
Medical System (EMS) data, as well as DHS data and information, so 
biological events can be detected earlier. As full members of NBIS, 
HHS, USDA, and our other interagency partners are helping to develop 
the pilots, and will be recipients of all results from the pilots.
    OHA provides the integration of multiple early warning programs in 
the same organization. Unlike many other potential hazardous events 
that are overt, biological events that threaten the Nation may not be 
apparent until well into the event, as exposed individuals begin 
seeking treatment. Bioterrorism attacks in food or water, naturally 
occurring disease events, and bioterrorism aerosol releases that do not 
encounter a BioWatch collector can only be detected through diligent 
surveillance of public, animal, and environmental health. DHS is the 
only civilian agency to integrate detection and surveillance programs 
into the same organization; BioWatch and NBIC merge environmental 
detection with biosurveillance information from interagency partners, 
the intelligence community, and other sources, to provide a layered, 
early-warning defense architecture for the Nation. The earlier the 
Nation is aware of an event, the more lives can be saved, illnesses 
prevented, and economic damage mitigated.
                       fema disaster relief fund
    Question. For the last several years the President has submitted 
budget requests that knowingly underfunded the Disaster Relief Fund--
with the expectation that Congress would provide emergency 
appropriations to cover the shortfall. This year the President has 
requested $6.1 billion for the Disaster Relief Fund--$608 million in 
direct appropriations and $5.481 billion under the disaster cap 
adjustment as provided for under the Budget Control Act of 2011. Madam 
Secretary, can you confirm for us that the total fiscal year 2013 
request for the Disaster Relief Fund of $6.1 billion is adequate for 
the known liabilities and potential noncatastrophic disasters for 
fiscal year 2013?
    Answer. The fiscal year 2013 President's budget amount for the 
Disaster Relief Fund supports known liabilities and potential 
noncatastrophic disasters for fiscal year 2013. The fiscal year 2013 
Disaster Relief Fund request is based on a new way to estimate 
projected need that enhances our existing budget practices through 
increased financial transparency, better projections, and a real-time 
budgeting in accordance with the Budget Control Act of 2011.
      state and local grants: national preparedness grant program
    Question. The fiscal year 2013 request includes a proposal for 
Congress to provide funds for one grant program that would be 
competitively awarded. The new National Preparedness Grant Program 
would take the place of the current State Homeland Security Grant 
program, the Urban Area Security Initiative program, the Transit Grant 
program, and the Port Security Grant program. Can you expand for us on 
the description in the budget on how you see the National Preparedness 
Grant Program working?
    What is the minimum level of Federal grant dollars needed to 
sustain the State and local capabilities that have been built using 
Federal homeland security grant dollars?
    How did you arrive at the $500 million as the additional amount 
needed to cover sustainment costs? Please provide a breakdown of the 
$500 million requested increase, how much is based on unmet State and 
local needs, State and local reducing emergency personnel, State and 
local communities delaying maintenance, etc.?
    How much of the $500 million requested increase will be directed 
toward filling capability gaps? How was that amount arrived at--as the 
necessary funding for filling capability gaps?
    Answer. FEMA is currently working with the stakeholder community to 
solicit input and feedback on the NPGP proposal. The NPGP broadly 
focuses on the development and sustainment of the core capabilities 
identified in the national preparedness goal in order to build a 
national preparedness capacity based on cross-jurisdictional and 
readily deployable State and local assets. As outlined in the fiscal 
year 2013 budget proposal, we expect to allocate funds under the NPGP 
across three broad-purpose areas:
  --Building and sustaining core capabilities;
  --Enhancing terrorism prevention and protection capabilities; and
  --Critical infrastructure and key resource protection.
    As envisioned, minimum allocations will be available to States and 
urban areas for the purpose of developing and sustaining core 
capabilities. Other funds will be distributed to States and urban areas 
on a competitive basis. Funds distributed on a competitive basis will 
be validated through the FEMA regional and State threat and hazard 
identification and risk assessment (THIRA).
    The President's fiscal year 2013 budget requests $1.5 billion to 
build and sustain State and local capabilities, enhance terrorism 
prevention and protection capabilities and protect critical 
infrastructure and key resources, which is $500 million over the fiscal 
year 2012 enacted appropriation. The administration believes the 
additional funding is critical to overall maintenance and sustainment 
efforts of capabilities built with the $35 billion in grant funding 
previously awarded. The allocations to our grantees were reduced by as 
much as 60 percent in fiscal year 2012 due to reduced funding levels. 
Such reductions will make it difficult over the long term to maintain 
the capabilities grantees have built that support disaster 
preparedness, response and terrorism protection/prevention.
    Recent analysis of fiscal year 2011 Homeland Security Grant Program 
investment justifications indicated that 64 percent of those 
investments were proposed for sustaining existing capabilities and that 
the remaining 36 percent of those investments is proposed for building 
new capabilities. This data demonstrates the shift to and need for 
sufficient funding to sustain capabilities that have already been built 
with grant funding. It is expected that sustainment funding will be 
utilized for post purchase lifecycle costs including maintenance 
contracts, equipment updates and replacement, refresher training and 
exercise activities and well as the updating and enhancement of 
emergency operations plans. The most recent self-assessments of State/
territory capabilities show that on average, grant recipients rate 
their capability levels between 42 percent and 78 percent for the 
different core capabilities, indicating that additional funding for 
filling capability gaps is still a requirement. It is expected that 
additional capability gaps will be identified in the THIRA process that 
will be conducted during 2012.
              immigrant integration and citizenship grants
    Question. Section 551 of the Department of Homeland Security 
Appropriations Act, 2012, requires that $10 million of the funds 
deposited into the Immigration Examinations Fee account be available 
for Immigrant Integration and Citizenship grants. Is the $10 million in 
fees required by law to fund these grants being made available? If not, 
why?
    Answer. Section 551 allows for up to $10 million for the purpose of 
providing an immigrant integration grants program. USCIS considers this 
$10 million as the maximum amount authorized for this purpose in fiscal 
year 2012. Within the parameters of this, USCIS will allocate $4.96 
million to continue the program in fiscal year 2012. This amount 
recognizes the importance of the grant program to USCIS' civic 
integration mission without requiring USCIS to raise user fees.
                             cybersecurity
    Question. From fiscal year 2011 to fiscal year 2012, DHS' cyber 
budget increased over $80 million, or 22 percent. What did that $80 
million buy us?
    The President's fiscal year 2013 budget requests $769 million, an 
increase of nearly $326 million, or 74 percent, over fiscal year 2012. 
If enacted, what would that buy us?
    The largest portion of the increase proposed for DHS cyber 
activities for fiscal year 2013 is $202 million for cybersecurity 
capability improvements to support continuous monitoring at high-
priority Federal agencies. What is the importance of this initiative 
and what exactly will be accomplished with this funding? Which are the 
high-priority Federal agencies and will this be a one-time or multi-
year investment? What are the outyear costs?
    If the Cybersecurity Act of 2012, is signed into law, what is the 
estimate for the necessary funding to implement that legislation in 
fiscal year 2014, fiscal year 2015, and fiscal year 2016? How many more 
people will DHS need to hire to implement that bill if it becomes law?
    According to a survey commissioned by Bloomberg Government, private 
industries said they would be able to improve cyber defenses in the 
next 12 to 18 months so that, on average, they can stop 84 percent of 
cyber attacks, up from the current level of 69 percent. To reach that 
level of security, the 172 companies surveyed reported they would have 
to collectively spend almost double what they are currently spending on 
cybersecurity ($10.2 billion versus $5.3 billion). According to the 
same survey, securing systems to prevent 95 percent of cyber attacks, 
considered by security experts as the highest attainable level, would 
cost the 172 companies $46.6 billion, or 774 percent more than current 
spending. What level of security will the Federal Government require of 
private companies under the proposed Cybersecurity Act of 2012?
    According to the same survey, companies spend the largest share of 
their cybersecurity budget on governance and control activities, which 
include regulatory compliance. What can Congress do to alleviate this 
burden so that private companies focus more on protection and less on 
Government compliance?
    Answer. The increase in DHS's cybersecurity budget from fiscal year 
2011 to fiscal year 2012 supports increased intrusion detection and 
initial intrusion prevention capabilities for Federal agencies. The 
additional funds will:
  --Increase the Department's analytic capacity and its onsite and 
        remote incident response capabilities;
  --Improve DHS's ability to support Federal agencies, State and local 
        governments, and private-sector critical infrastructure as they 
        mature their cybersecurity postures; and
  --Enhance supply chain and software assurance practices, educational 
        initiatives, outreach and awareness activities, and 
        cybersecurity exercises supporting public and private-sector 
        operational capacity.
    The following are examples of the Department's fiscal year 2012 
achievements through the second fiscal quarter:
  --Provided onsite and remote incident response support to the public 
        and private sectors through the Industrial Control Systems 
        Cyber Emergency Response Team (ICS-CERT) to respond to and 
        analyze cyber threats and control systems incidents, conduct 
        vulnerability and malware analysis, and provide onsite support 
        for forensic investigations and analysis;
  --US-CERT increased actionable, bi-directional information sharing 
        with critical infrastructure owners and operators through the 
        Cyber Information Sharing and Collaboration Program (CISCP), 
        which is increasing the quality and quantity of information 
        sharing with critical infrastructure through a scalable and 
        secure analysis and collaboration environment;
  --Managed a growing number of EINSTEIN 2 alerts and incidents, 
        operating a growing network of EINSTEIN 2 sensors, and 
        providing situational awareness of malicious activity across 
        Federal networks;
  --Performed nine cybersecurity compliance validation (CCV) 
        assessments of all Trusted Internet Connection Access Provider 
        and Chief Financial Officer Act agencies to objectively and 
        quantifiably measure Federal agency implementation of Office of 
        Management and Budget Cybersecurity Memoranda, the Federal 
        Information Security Management Act, and the Trusted Internet 
        Connection Initiative;
  --Performed two risk and vulnerability assessments of all trusted 
        Internet connection access providers and CFO act agencies to 
        determine the cybersecurity posture of the Federal Government 
        and enable prioritized risk remediation in a manner maximizing 
        return on investment;
  --Executed the Nationwide Cyber Security Review (NCSR), which 
        assessed cybersecurity posture across State and local 
        governments; and
  --Conducted components of Cyber Storm IV and National Level Exercise 
        2012.
    The following are examples of the Department's fiscal year 2012 
planned activities through the third and fourth fiscal quarters:
  --Achieve initial operational capability for EINSTEIN 3 Accelerated 
        (E3A), the latest evolution of the National Cybersecurity 
        Protection System;
  --Support the Multi-State Information Sharing and Analysis Center's 
        (MS-ISAC) Managed Security Services (MSS) activity, which 
        enables risk-based and cost-effective security by leveraging a 
        centralized capability to detect, prevent, and respond to cyber 
        incidents on State government networks through network 
        intrusion detection/prevention monitoring and vulnerability 
        scanning services;
  --Complete deployment of a security information and event management 
        analytical capability and increased data feeds to provide a 
        more complete view of network activity;
  --Finish building and employing mobile digital media analysis (DMA) 
        kits to support US-CERT partners and constituents with off-site 
        analytics; and
  --Enhance analysis efforts by maintaining a robust DMA laboratory 
        that permits in-depth forensic analysis of images and 
        individual files and artifacts that would include unclassified 
        and classified storage mediums.
    In regard to the proposed increase of nearly $326 million, as its 
cybersecurity mission continues to evolve, DHS has increased funding of 
key programs to keep pace with emerging threats through innovative 
technologies and services. The President's fiscal year 2013 budget 
request makes significant investments to expedite the deployment of 
intrusion prevention technologies on Government computer systems, 
increase Federal network security of large and small agencies, and 
continue to develop a robust cybersecurity workforce to protect against 
and respond to national cybersecurity threats and hazards. The increase 
cuts across multiple programs within the National Cyber Security 
Division. The largest increases are for US-CERT operations, the 
National Cybersecurity Protection System, and Federal Network Security.
National Cybersecurity Protection System
    The National Cybersecurity Protection System (NCPS), developed by 
DHS as the Nation's focal point for cyber activity and analysis, 
fulfills a key requirement of the National Cybersecurity Protection 
Plan (NCPP) to work collaboratively with public, private, and 
international entities to protect infrastructure, enhance situational 
awareness, and implement analysis, warning and risk-management 
programs. EINSTEIN, a part of NCPS helps block malicious actors from 
accessing Federal executive branch civilian agencies while working 
closely with those agencies to bolster their defensive capabilities.
    E3A represents the latest evolution of protection for Federal 
civilian agencies, as it provides active network defense capabilities 
and the ability to prevent and limit malicious activities from 
penetrating Federal networks and systems. E3A will draw on commercial 
and Government information to conduct intrusion prevention and threat-
based decisionmaking on network traffic entering or leaving Federal 
civilian networks. E3A will protect Federal departments and agencies 
from sophisticated threats that are launched through techniques such as 
Botnets and spear phishing attacks. Through the usage of best-in-class 
commercial signatures paired with the sensitive and classified 
Government information, E3A will be able to block those attacks through 
e-mail and domain name service (DNS) intrusion prevention capabilities.
    By the end of fiscal year 2013, DHS will deploy an initial level of 
intrusion prevention capability across the majority of Federal agency 
traffic. To accomplish this, DHS will contract with at least four tier 
1 Networx Internet service providers (ISPs) beginning in fiscal year 
2012 and continuing in fiscal year 2013. Additionally, the fiscal year 
2013 budget request will also fund the continued segregation of dot-gov 
traffic and building a core infrastructure to allow for analytics and 
information sharing between DHS and the ISPs.
Federal Network Security
    An increase of $202 million will enable NCSD to continuously 
monitor Federal agencies' networks for vulnerabilities. The EINSTEIN 
system is important from the perspective of better understanding and, 
when possible, preventing the flow of malicious traffic to and from 
Federal networks; a continuous monitoring capability will have 
visibility inside agency networks. Instead of analyzing traffic, this 
capability analyzes attributes of those networks, including hardware 
and software assets, configuration settings, and patch management. 
Whereas Federal Information Security Management Act assessment and 
reporting generally occur every 1 to 3 years, continuous monitoring 
will support assessments every 24 to 72 hours. With this information, 
NCSD can guide agencies to take preventive and protective actions by 
mitigating vulnerabilities that malicious actors would otherwise 
exploit. Continuous monitoring data will be available to agencies along 
with their intrusion detection and prevention data. This will enable 
NCSD to drive the Federal Enterprise toward a more mature cybersecurity 
posture while also empowering individual agencies to target their 
limited resources at reducing vulnerabilities based on more complete 
information and in a risk-informed manner.
US-CERT Operations
    Additional personnel requested in fiscal year 2013 will ensure that 
US-CERT's analytic capability keep pace with the increased information 
flowing to US-CERT from Federal, State, and local governments, the 
private sector, and international stakeholders. The Department projects 
that as additional agencies obtain EINSTEIN 2 service, US-CERT will be 
required to process an increasing amount of data. As E3A is deployed, 
the volume of intrusion and malware information will increase 
significantly. US-CERT must be in a position to analyze that data while 
generating, implementing, and monitoring an array of new E3A signatures 
and countermeasures.
    US-CERT will begin staffing DHS's site at Corry Station in 
Pensacola, Florida. This site will use a configuration largely 
mirroring the capabilities of the main facility in the Washington, DC-
metro area. The facility is specifically designed to accommodate US-
CERT analytical staff, malware lab capabilities, software and hardware 
testing labs, video conferencing ability, 24x7 help desk support, and 
security operations center and network operations center support 
personnel. US-CERT staff will be co-located with the National 
Cybersecurity and Communications Integration Center (NCCIC) and NSD 
24x7 network administration support personnel, and the National 
Coordinating Center radio room and space. Staffing Corry Station will 
meet critical continuity of operations objectives, facilitate continued 
monitoring of the Federal networks, provide expanded capability to 
analyze malware, and support cross-sector information sharing in the 
event of a major disaster affecting US-CERT's operations based in the 
Washington, DC area.
    In regard to the importance of cybersecurity capability 
improvements, the Federal Government has made great strides in 
identifying malicious traffic that enters and exits its networks. In 
the fourth quarter, NCSD will field an intrusion prevention capability 
alongside the EINSTEIN intrusion detection system. While intrusion 
detection and prevention is necessary, it is not sufficient to protect 
the Federal Enterprise. Other initiatives include enhanced security 
capabilities at agencies' perimeters, increased use of personal 
identity verification cards for multifactor authentication to Federal 
networks, and continuous monitoring of Federal networks.
    A defense-in-depth strategy for Federal agencies requires security 
improvements not just at agency perimeters, but also within them. 
Through continuous monitoring and ongoing EINSTEIN capability 
deployments, NCSD will maintain awareness of the Federal Enterprise's 
cybersecurity posture as well as the malicious activity targeting 
agency networks. Using their individualized continuous monitoring 
capabilities, agencies will be able to quickly mitigate vulnerabilities 
in a targeted manner using a risk-based assessment of priorities. In 
essence, NCSD and its Federal agency stakeholders will be better able 
to reduce exploitable weaknesses before malicious actors can take 
advantage of them. When combined with risk scoring (included in this 
request), this process has been shown capable of helping local network 
administrators to quickly make it significantly harder for attackers to 
succeed, and to maintain that security capability. It will allow DHS to 
carry out its responsibility for protecting the .gov by monitoring 
cyber posture and assisting agencies in hardening their networks.
    In regard to ``high-priority'' Federal agencies, DHS expects to 
cover all civilian Federal agency networks with moderate or high impact 
data with five capabilities.\3\ Networks will be prioritized based on a 
risk-based process that considers an assessment of current agency 
continuous monitoring capabilities, threats, attack patterns, and risk 
attributes.
---------------------------------------------------------------------------
    \3\ The five initial capabilities focus on network management and 
include finding and removing unauthorized (a) hardware, (b) software, 
(c) configuration settings as well as removing (d) vulnerabilities due 
to missing patches and (e) ensuring a strong boundary defense. The 
process ensures that the worst problems are addressed first.
---------------------------------------------------------------------------
    This initiative is a multi-year investment.
    As for out-year costs, DHS is currently preparing its fiscal year 
2014 budget request, which will support operations and maintenance 
costs and are estimated to be 20 to 30 percent of the initial 
investment, as well as additional continuous diagnostics and mitigation 
capabilities for networks, including account management for people and 
services, event management, and lifecycle management.
    While it is premature to speculate on the cost of the proposed 
Cybersecurity Act of 2012 legislation, the bill's regulatory provision 
would drive better security practices while minimizing the burden on 
the private sector. The proposal leverages existing industry best 
practices ensuring that companies that already have robust 
cybersecurity practices would not be significantly impacted. The 
Department is committed to managing this program in an open, 
collaborative manner so that critical infrastructure has an opportunity 
to contribute to the regulations as they are developed and can provide 
meaningful input as to how their businesses would be impacted.
    However, it's important to remember that there is a cost to the 
economy if we do not act. U.S. companies and individuals are losing 
money and intellectual property every day. And there could be an even 
greater economic cost if a successful cyber incident significantly 
interrupts critical services such as electricity or telecommunications 
or causes a lack of confidence in our financial systems.
    In regard to staffing, DHS continues to grow its cybersecurity 
capabilities and workforce and has requested staffing increases in 
fiscal year 2013 to meet the demands of our mission. Section 2105 
largely codifies and clarifies activities that DHS is already engaging 
in and therefore have already been included in budget submissions. 
However, should the Department be given new responsibilities through 
legislation that are not already accounted for, we will provide the 
staffing levels needed to carry out the legislation when enacted into 
law.
    Question. According to a survey commissioned by Bloomberg 
Government, private industries said they would be able to improve cyber 
defenses in the next 12 to 18 months so that, on average, they can stop 
84 percent of cyber attacks, up from the current level of 69 percent. 
To reach that level of security, the 172 companies surveyed reported 
they would have to collectively spend almost double what they are 
currently spending on cybersecurity ($10.2 billion versus $5.3 
billion). According to the same survey, securing systems to prevent 95 
percent of cyber attacks, considered by security experts as the highest 
attainable level, would cost the 172 companies $46.6 billion, or 774 
percent more than current spending. What level of security will the 
Federal Government require of private companies under the proposed 
Cybersecurity Act of 2012?
    Concerning the level of security the Federal Government will 
require of private companies under the proposed Cybersecurity Act, the 
Department of Homeland Security (DHS) has always maintained the 
position that private-sector innovation is essential to solving the 
cybersecurity challenge. As such, both the administration's May 2011 
legislative proposal and section 2105 call for securing critical 
infrastructure through the development and implementation of high-level 
performance requirements as opposed to mandating specific technical 
solutions. The bill would ensure the Nation's most critical 
infrastructure owners and operators adopt the cybersecurity practices 
and technologies that work best on their networks. Moreover, by working 
with industry to set common performance levels, DHS will encourage the 
private sector to develop new solutions in those areas. DHS will 
initiate a process to update the performance requirements (which will 
be detailed in the public rulemaking) in a timely and technology-
neutral, high-level manner. However, it's important to remember that 
there is a cost to the economy if we do not act. U.S. companies and 
individuals are losing money and intellectual property every day. And 
there could be an even greater economic cost if a successful cyber 
incident significantly interrupts critical services such as electricity 
or telecommunications or causes a lack of confidence in our financial 
systems.
    In response to the question of what Congress can do, the Department 
of Homeland Security works closely with critical infrastructure and 
private industry owners and operators to assist in assessing cyber 
risks and offering voluntary technical assistance. Sound legislation 
that enhances this public-private partnership would be flexible enough 
to focus on increasing performance outcomes for the most critical of 
covered infrastructure while promoting real and innovative security 
solutions. The Cybersecurity Act of 2012, which is similar to the 
administration's May 2011 legislative proposal, seeks to enhance the 
public-private partnership by establishing risk-based performance 
standards for core-covered critical infrastructure while working to 
alleviate a possible burden of extra regulatory compliance. 
Specifically, section 104 requires the Secretary of Homeland Security 
to establish a process for receiving cybersecurity performance 
requirements from industry owners and operators to determine if 
existing regulations appropriately address identified cyber risks. If 
there are regulations already in place that meet this determination, 
the President may exempt certain covered critical infrastructure from 
the requirements.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                        national security cutter
    Question. In light of the Coast Guard's historical homeport 
designation of Hawaii for two of its high endurance cutters (CGCs Rush 
and Jarvis) and the administration's shift in Defense Strategy toward 
the Asia-Pacific region, can the Congress expect that two or more of 
the NSCs' homeports will be in Hawaii?
    Answer. The Commandant's current plan is to homeport NSCs Nos. 1-3 
and 6 in Alameda, California and NSCs Nos. 4 and 5 in Charleston, South 
Carolina.
    Question. Madam Secretary, your recently submitted budget no longer 
reflects funding for national security cutters Nos. 7 and 8 in future 
years. Can you explain whether this budgetary change reflects a 
particular change in the real-world threat environment faced by the 
Coast Guard over the last year?
    Answer. Recapitalization of the Coast Guard's fleet is a top 
departmental priority and the fiscal year 2013 budget fully funds NSC 
No. 6. The Coast Guard's fiscal year 2013-17 out-year CIP portrays 
acquisition priorities for the next 5 years assuming the limits of 
budgetary growth set by the Budget Control Act of 2011. It does not 
reflect the impact of the Department of Defense's Strategy, which may 
affect operational planning at DHS and the Coast Guard. DHS will work 
very closely with the Department of Defense and other partners to 
determine impacts to operational planning on the National Fleet Plan as 
threats evolve, and evaluate acquisition priorities of all homeland 
security and national security policies to ensure we are building 
complementary, nonredundant capabilities.
    Question. Based on analysis of the fiscal year 2012 Capital 
Improvement Plan and the fiscal year 2013 CIP, a balance of $1.785 
billion for the national security cutter program has been removed from 
fiscal years 2013 and 2017. Should we assume that DHS intends to spend 
this total remaining balance in fiscal year 2018 based on the fact that 
the fiscal year 2013 CIP shows the same total program cost as the 
fiscal year 2012 CIP and the same completion date of the NSC project as 
2018?
    Answer. No, the 2013-2017 CIP is a planning document based on 
budgetary projections at the time of the 2013 budget transmittal. The 
Coast Guard's fiscal year 2013-17 out-year CIP supersedes the 2012-2016 
CIP and portrays acquisition priorities for the next 5 years assuming 
the limits of budgetary growth set by the Budget Control Act of 2011. 
Specific to the NSC program, over the next year, DHS will review 
acquisition priories in light of the new Department of Defense Strategy 
and other relevant information to ensure the Nation is building 
complementary, nonredundant capabilities.
    Question. Has the Coast Guard's requirement for eight total 
national security cutters changed since last year?
    Answer. The Coast Guard has not changed its Program of Record for 
the NSC. The Program of Record is continuously reviewed as part of 
DHS's management and oversight of major acquisition programs. DHS will 
work very closely with the Department of Defense and other partners in 
light of the new Department of Defense's Strategy to ensure we are 
building complementary, nonredundant capabilities. This review will be 
informed by various fleet analyses completed to date by the Coast Guard 
and DHS.
    Question. Madam Secretary, during last year's testimony to this 
subcommittee regarding the consequences of delaying national security 
cutter acquisitions, Coast Guard Commandant Robert Papp stated, ``When 
we pay later, the price is greater.'' Do we know how much the cost of 
ships Nos. 7 and 8 will increase if we wait until after 2017 to buy 
them?
    Answer. Our priority is NSC No. 6 in fiscal year 2013 and we're 
focused on following the path set with NSCs Nos. 4 and 5 which are on 
schedule and within budget. As DHS continues its oversight of Coast 
Guard's major cutter acquisition programs in 2012, we are evaluating 
the most cost-effective way to ensure recapitalization achieves Coast 
Guard's long-term performance requirements.
    Question. Would buying long lead time materials for national 
security cutter No. 7 in fiscal year 2013 reduce costs to the taxpayer 
for this ship relative to waiting until after fiscal year 2013?
    Answer. Our priority is NSC No. 6 in fiscal year 2013 and we're 
focused on following the path set with NSCs Nos. 4 and 5 which are on 
schedule and within budget. Funding for long lead time materials for 
NSC No. 7 is not requested in the budget.
                       aircraft recapitalization
    Question. Madam Secretary, I noticed that the administration's 
proposed investment in Coast Guard aircraft over the 5-year Capital 
Investment Plan nearly doubled from $871 million in the fiscal year 
2012 request to $1.7 billion in the fiscal year 2013 request. Was there 
some change in the Coast Guard's real-world operational strategy that 
necessitated this dramatic increase for aircraft in these times of such 
fiscal restraint?
    Answer. No. The overall recapitalization plan for aviation assets 
remains the same. The increased funding levels are intended to leverage 
currently available production capacity for both the HC-144A maritime 
patrol aircraft (MPA) and HC-130J long-range surveillance aircraft, 
align the progress of the MPA project back toward the initial program 
of record timeline, and expedite the recapitalization of the aging HC-
130H aircraft. This will allow the Coast Guard to save costs and close 
the aviation patrol hour gaps.
                            decommissioning
    Question. Madam Secretary, the Coast Guard recently announced plans 
to decommission two high endurance cutters, three patrol boats, and 
termination of the High Tempo-High Maintenance Patrol Boat Program. If 
this happens, will the Coast Guard face challenges with regard to 
meeting its statutory operational requirements?
    Answer. As a multi-mission force, Coast Guard achieves its 
statutory requirements by allocating resources according to an 
effective prioritization scheme. The Coast Guard is already preparing 
for the program changes and commissioning and decommissioning of assets 
proposed in the fiscal year 2013 budget request in order to continue to 
invest in critical recapitalization initiatives. For instance, the 
Coast Guard will have 10 fast response cutter (FRC) crews on budget at 
the end of fiscal year 2013 to ensure personnel are fully trained and 
ready to accept and operate the FRCs as they are delivered to the 
fleet. Near term impacts will be mitigated as new and more capable 
assets become operational; five FRCs and three national security 
cutters are expected to be fully operational by the end of fiscal year 
2013. Each FRC will provide 20 percent more capacity in terms of 
operational hours than the 110-foot patrol boats that they are 
replacing.
    Moreover, the 110-foot Patrol Boat Mission Effectiveness Project, 
which will complete the final hull in summer 2012, has stabilized 
patrol boat reliability for the remaining in-service hulls, until 
transition to the FRC fleet is completed. As we decommission ships, we 
closely evaluate which are costing the most, and are the least 
reliable. These are the ships that we remove from service first, 
keeping those in the best condition in service.
                        national security cutter
    Question. Madam Secretary, with Coast Guard's announcement on 
February 23, 2012, that national security cutter No. 1, Bertholf will 
deploy to the Arctic this year, does this mean that national security 
cutters will continue to deploy there?
    Answer. The national security cutter will continue the missions of 
the high endurance cutters (HECs) as these legacy cutters are 
decommissioned. The HECs have historically performed key Coast Guard 
missions in the Arctic during the ice-free portion of the summer. NSCs 
will bring reliable service, enhanced operating capability, and more 
effective presence to this region.
                        unmanned aerial vehicles
    Question. Madam Secretary, do you still intend to acquire vertical 
takeoff unmanned aerial vehicles (UAVs) for deployment off of the Coast 
Guard's national security cutter fleet? How will the range and 
capabilities of the fleet by augmented by these assets?
    Answer. The Coast Guard's cutter-based unmanned aircraft systems 
(UAS) project is in the ``need'' phase of the major systems acquisition 
process, awaiting progression to acquisition decision event 1. The 
Coast Guard is considering a nonmajor acquisition small UAS (sUAS) in 
order to outfit the national security cutter (NSC) with an interim, 
cost-effective UAS capability.
    When UAS is added to a baseline NSC (i.e., an NSC without any other 
air or surface intelligence gathering assets), accredited modeling and 
simulations estimate a 225 percent increase in surveillance coverage 
within an 80-mile radius of the cutter, and predicts a 90 percent 
increase in the number of prosecutions (i.e., interdiction of a suspect 
vessel carrying contraband). When UAS is added to an NSC outfitted with 
one helicopter, there is a 70-percent increase in surveillance coverage 
(i.e., detection/locating a suspect vessel) over what can be provided 
by a helo alone.
    The UAS allows NSC boarding teams to covertly view suspect vessels 
before boarding them, and allows the tactical commander to maintain 
over-watch while boarding operations are in progress. Furthermore, UAS 
can provide the NSC fleet with a persistent airborne surveillance 
capability that could be employed in conditions that would be hazardous 
to crews of manned aircraft, including operating in chemical/
biological/radiological/nuclear environments.
                  coast guard research and development
    Question. Congress included $8 million in fiscal year 2012 
appropriations for ``procurement of shipboard integration equipment and 
to support an advanced concept technology demonstration'' for cutter-
based vertical takeoff unmanned aircraft systems. Congress also 
included funding for these purposes in prior appropriations bills. What 
has the Coast Guard recently accomplished with regard to these 
activities? What does it plan to accomplish in fiscal year 2012? Is the 
Coast Guard actively observing the deployment of Navy MQ-8B or MQ-8C in 
overseas operations?
    Answer. The Coast Guard, utilizing research, development, test and 
evaluation funds, is procuring Fire Scout ground control segment (GCS) 
long lead time components, including ground control station, tactical 
control data link, and UAV common automatic recovery system in fiscal 
year 2012. Additionally, contracts are being developed and refined to 
secure required Navy technical assistance for Fire Scout shipboard 
analysis, equipment maintenance, and installation aboard a national 
security cutter (NSC). Completion of these elements will facilitate an 
at-sea technical demonstration once a Fire Scout air vehicle becomes 
available for Coast Guard use. The Coast Guard projects the GCS 
equipment will be delivered and installed on an NSC in fiscal year 
2014.
    The Coast Guard Research and Develop Center is also executing a 
research and development project to conduct a technical demonstration 
of the Scan Eagle small unmanned aircraft systems (sUAS) aboard CGC 
Stratton. Shipboard engineering and aviation certification processes 
are underway to support a mid-June 2012 system installation with a 
follow-on flight and systems capability demonstration in June-July 
2012.
    The Coast Guard is not currently observing MQ-8B deployments, and 
the MQ-8C is still under development. However, Coast Guard unmanned 
aircraft system (UAS) personnel did observe MQ-8B deployments aboard 
USS McInerney and USS Freedom in 2009 and 2010. The Coast Guard 
maintains a liaison officer at the Navy and Marine Corps Tactical 
Multi-Mission UAS Program Office (PMA-266) whose duties include 
monitoring all MQ-8B/C developmental and operational activities.
                             cybersecurity
    Question. Madam Secretary, I have read estimates that private 
industry spends tens, perhaps hundreds of billions of dollars on 
cybersecurity each year. By contrast, your Department's fiscal year 
2013 budget request for cybersecurity is $769 million. Do you believe 
increased appropriations will be necessary in future years to carry out 
the comprehensive Lieberman-Collins cybersecurity legislation before 
the Senate that has been endorsed by the administration?
    Answer. It is premature to speculate on the cost of proposed 
legislation. DHS will provide a cost estimate to carry out the 
legislation when enacted into law.
    However, it's important to remember that there is a cost to the 
economy if we do not act. U.S. companies and individuals are losing 
money and intellectual property every day. And there could be an even 
greater economic cost if a successful cyber incident significantly 
interrupts critical services such as electricity or telecommunications 
or causes a lack of confidence in our financial systems.
                            levees and dams
    Question. Madam Secretary, what challenges would your Department 
face if asked to include all areas protected by levees and dams within 
the special flood hazard areas? How long would it take you to implement 
such a change in statute? Would an increased workforce to carry out 
such a directive call for additional appropriations in the future?
    Answer. The implementation of a requirement to include all areas 
protected by levees and dams would have an impact on the National Flood 
Insurance Program (NFIP). In keeping with the best interests of the 
general public, the new insurance rating practices would need to be 
established in these areas to reflect properly the level of risk. Prior 
to implementing any revised insurance rates, we would need to complete 
a full map inventory update for all NFIP maps that map levees and dams. 
This would be necessary to allow us to reflect the additional flood 
zone information that would be needed to implement the new rating 
practices. Once the full map inventory is updated, the new approach 
could be activated nationally to ensure fairness across all impacted 
jurisdictions.
    While we have years of experience analyzing and mapping areas 
behind levees, and currently are undertaking an initiative to revise 
how we analyze and map areas behind nonaccredited levees, we do not 
have similar experience nor initiatives underway for those areas 
protected by dams. To implement a mapping initiative for areas 
protected by dams, we would have to commence an initiative to engage 
academia, the private sector, States, and local communities on how to 
establish the appropriate procedures to analyze and map those areas 
protected by dams.
    In order to support the new mapping and insurance practices, we 
would have to promulgate regulations to enable the use of the new zones 
and other supporting flood hazard information.
    With these types of changes, we would also face new outreach and 
technical assistance challenges with assisting communities in 
determining what these new zones mean for them and how to manage their 
flood risk using this new information.
    The timeframe for implementation is very difficult to project. The 
implementation would depend on funding resources and require the 
completion of rulemaking before anything would go into effect.
    While, this directive would require additional staff capacity, 
without further clarity on the intent of the provision, we cannot 
project the specific workforce necessary to accomplish this directive.
                           nuclear detection
    Question. It is my understanding that a system potentially capable 
of detecting shielded and unshielded special nuclear material (SNM) 
using muon tomography and gamma radiation was tested by National 
Security Technologies in August 2011. Is the Domestic Nuclear Detection 
Office (DNDO) aware of the results of these tests?
    Answer. Yes, in August 2011, National Security Technologies 
evaluated a sub-scale prototype of the Multi-Mode Passive Detection 
System (MMPDS) developed by Decision Sciences International Corporation 
(DSIC). DNDO received and reviewed a copy of the test report and 
discussed the test in person with representative from DSIC. Although 
the MMPDS has several operational hurdles, DNDO is encouraged in its 
ability to detect shielded nuclear and radiological threats using 
natural sources of radiation.
    Question. I also understand that this muon tomography system is 
being deployed to Freeport, Bahamas for operational evaluation by the 
system developer this summer. The Senate Report accompanying the fiscal 
year 2012 DHS appropriations act encourages the Department to test 
these technologies. Does the Department plan to participate in this 
testing in Freeport?
    Answer. According to representatives from the Decision Sciences 
International Corporation (DSIC), a full-scale Multi-Mode Passive 
Detection System (MMPDS) is being installed in Freeport, Bahamas for 
test and evaluation during the summer of 2012. The Domestic Nuclear 
Detection Office (DNDO) recently released a competitive solicitation 
for an advanced technology demonstration of a nuclear and radiological 
imaging platform. This ATD will provide the mechanism for DNDO to 
evaluate muon tomography as well competing technology to determine the 
best overall value for the Government. If DSIC submits a proposal to 
this solicitation and if it is selected, DNDO could then perform a 
government evaluation and characterization of a full-scale MMPDS at a 
mutually agreeable location.
    Question. If the Domestic Nuclear Detection Office (DNDO) is 
planning to participate in the Freeport operational tests, will this 
test be sufficient to ``qualify'' or certify the system? If not, what 
would be DNDOs intended process for conducting such tests that might 
lead to qualification?
    Answer. Through the nuclear and radiological imaging platform 
advanced technology demonstration, DNDO will perform a technology 
characterization of all relevant technology. The purpose of a 
technology characterization is to collect sufficient data to fully 
understand the technology, to determine the efficacy of the technology 
compared to alternative approaches, to guide future implementations of 
that technology if merited, and to support a future cost-benefit 
analysis (CBA). A characterization probes the how's and why's of a 
technology's potential and limitations. If warranted by the 
characterization and CBA, DNDO could then perform qualification testing 
of the Multi-Mode Passive Detection System.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. It has been a very good hearing, and I 
thank the members for coming and paying such close attention to 
this important budget.
    Thank you very much. Meeting recessed.
    [Whereupon, at 11:40 a.m., Thursday, March 8, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                         WEDNESDAY, MAY 9, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Lautenberg, Coats, Cochran, and 
Murkowski.

                    DEPARTMENT OF HOMELAND SECURITY

                            U.S. Coast Guard

STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning. It is my pleasure to call 
our subcommittee to order, and it is my distinct honor to 
welcome the Commandant of the United States Coast Guard, 
Admiral Robert Papp, to discuss the Coast Guard's 2013 budget 
request.
    I particularly want to thank you, Admiral, for being here 
today so soon after undergoing a surgery, and I am happy to 
know that things are all working out fine. We wish you a speedy 
recovery. But we really appreciate the effort.
    The Coast Guard, as you know, I have said to you many 
times, both in private and public, will forever be in my heart 
and the hearts of the constituents that I represent in 
Louisiana and that I try to represent along the gulf coast. 
Following Hurricanes Katrina and Rita particularly, we saw the 
Coast Guard in action. The Coast Guard, the best of the Coast 
Guard, we saw them in action.
    We rescued 33,000 of our citizens during the largest search 
and rescue mission in the Coast Guard's history. I like to say 
that you all were complemented by our own Cajun flotilla and 
the entrepreneurs down in Cajun country that jumped in their 
boats to help save the day. It was a very dramatic moment in 
our Nation's history. But because of that, 33,000 people were 
saved, and the work to rebuild that great part of the United 
States is now underway.
    The Coast Guard is one of five branches of the military, is 
responsible for the safety and security of our maritime 
interests in our U.S. ports, waterways, and on the high seas. 
As we gather here today to examine the budget request for the 
Coast Guard, I can't help but think of the famous quote by Yogi 
Berra. ``It is like deja vu all over again.''
    Every year, Presidents submit budgets that are inadequate 
for the Coast Guard, and every year, Congress steps in to 
fortify them. Over the past 6 years, this subcommittee has 
increased the Coast Guard's budget by an average of $124 
million annually above the White House request. We have done 
that to fill operational and recapitalization shortfalls.
    In the 2012 bill, which was the first year that I chaired 
this subcommittee, Senator Coats, Vice Chairman Lautenberg, 
Senator Cochran, and other members of the subcommittee and I 
worked very hard together to accomplish some important goals 
for the Coast Guard.
    First, we strengthened the Coast Guard's capital program. 
We funded six fast response cutters (FRCs), long-lead time 
materials for the sixth national security cutter (NSC), plans 
and designs for new offshore patrol cutters (OPCs), and two 
maritime patrol aircraft.
    Operationally, we added funding for enhanced oil spill 
response capabilities, maintenance of aging assets, and 
improved quality of life for Coast Guard families by increasing 
access to child care services.
    Because I am from Louisiana, I think I have a bird's eye 
view of the work that the Coast Guard does day in and day out. 
I think that Senator Cochran from Mississippi, a strong 
advocate of the Coast Guard, also from his perch as the 
Senator, senior Senator, from Mississippi understands the 
multiple and important missions of the Coast Guard.
    And I do believe that even our Senators, as my colleague 
here, from interior States--although they don't have the oceans 
lapping up at their shores--understand the importance of 
keeping a Coast Guard strong not just for your traditional 
search and rescue, which is sometimes what people perceive, but 
in your new missions and important missions of drug 
interdiction and now with oil spill response, as we hope oil 
and gas production will be increasing, not decreasing, off of 
our State shores and around the world.
    Particularly off the coast of Cuba, which is a whole other 
issue, but interesting to know what our Coast Guard's role 
might be. Not, of course, in Cuban territory, but so close to 
the United States, just 90 miles from the coast of Florida.
    The President's 2013 discretionary budget request for the 
Coast Guard is $8.4 billion, 3.3 percent below enacted level, 
including the reduction of over 1,000 military billets and $200 
million less for capital expenditures. The budget includes $658 
million for the sixth national security cutter. But other 
priorities, like the fast response cutter, aircraft 
procurement, Coast Guard housing, and shore infrastructure, are 
substantially reduced below the 2012 level.
    This budget also signals that funds will not be requested 
for the final two national security cutters, Nos. 7 and 8. I am 
also concerned about the delays in procurement for the fast 
response cutters. The decision to go from acquiring six boats 
per year to two boats eliminates $30 million in savings. I want 
to say that the budget, as presented to us, decreases saving 
opportunities, doesn't increase them, and I am concerned about 
that.
    Finally, the budget proposes to decommission aging cutters 
before replacement assets are available, leaving operational 
gaps in important missions like drug interdiction, which I know 
is a priority for this Congress, both Republicans and 
Democrats. These cuts come at a critical time for the Coast 
Guard.
    Following 9/11, the Coast Guard received several new 
responsibilities that have been carried out with assets, might 
I say, built for the last century. For instance, major Coast 
Guard cutters average over 43 years in age as compared to Navy 
ships of 20 years.
    I understand that difficult tradeoffs need to be made in 
this particularly tight budget climate, but I believe the top 
line given to the Coast Guard in the President's budget is just 
not adequate. I believe this subcommittee has a responsibility 
to make sure the next generation of Coast Guard men and women 
have the tools they need to accomplish their many important 
missions, and I know that this goal is shared by our first and 
only witness today, Admiral Papp.

                           PREPARED STATEMENT

    Now before I move on, I want to acknowledge, of course, my 
vice chairman, Senator Lautenberg. But both Senator Coats and 
Senator Cochran have an important intel briefing. So they may 
have to slip out. But let me turn it to Senator Coats, and then 
when Senator Cochran gets here, if you don't mind, we will go 
to Senator Cochran.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good morning. I call the subcommittee to order.
    Today I welcome the Commandant of the Coast Guard, Admiral Robert 
J. Papp to discuss the Coast Guard's fiscal year 2013 budget request. I 
particularly want to thank you Admiral for being here today so soon 
after undergoing surgery. I wish you a speedy recovery so you can get 
back to doing the job you love and do so well, leading the men and 
women of the Coast Guard.
    The Coast Guard will forever be in my heart and in the hearts of my 
constituents after its heroic efforts following Hurricane Katrina. The 
Coast Guard rescued over 33,000 of our citizens during the largest 
search and rescue mission in Coast Guard history.
    The Coast Guard is one of the five branches of the military and is 
responsible for the safety and security of our maritime interests in 
U.S. ports, waterways, and on the high seas.
    As we gather today to examine the budget request for the Coast 
Guard, I can't help but think of that famous quote by Yogi Berra, 
``It's like deja vu, all over again.'' Every year, Presidents submit 
their budgets that are inadequate for the Coast Guard and every year 
Congress steps in to bail them out.
    Over the past 6 years, this subcommittee has increased the Coast 
Guard's budget by an average of $124 million annually above White House 
request levels to fill operational and recapitalization shortfalls. In 
the fiscal year 2012 bill, which was the first year that I chaired this 
subcommittee, Senator Coats, Vice Chairman Lautenberg, Senator Cochran, 
other members of the subcommittee, and I worked together to accomplish 
some important goals for the Coast Guard. First, we strengthened the 
Coast Guard's capital program. We funded six fast response cutters, 
long lead time materials for the sixth national security cutter, plans 
and designs for new offshore patrol cutters, and two maritime patrol 
aircraft. Operationally, we added funding for enhanced oil spill 
response capabilities, maintenance of aging assets, and improved 
quality of life for Coast Guard families by increasing access to child 
care services.
    The President's fiscal year 2013 discretionary budget request for 
the Coast Guard is $8.4 billion, 3.3 percent below the enacted level, 
including the reduction of 1,000 military billets, and over $200 
million less for capital expenditures. The budget includes $658 million 
for the sixth national security cutter, but other priorities like the 
fast response cutter, aircraft procurement, Coast Guard housing, and 
shore infrastructure are reduced substantially below the fiscal year 
2012 level. The budget also signals that funds will not be requested 
for the final two national security cutters, Nos. 7 and 8. I am also 
concerned about the delays in the procurement of fast response cutters. 
The decision to go from acquiring six boats per year to two boats per 
year eliminates $30 million in savings and delays the delivery of key 
mission capabilities. Finally, the budget proposes to decommission 
aging cutters before replacement assets are available, leaving 
operational gaps in important mission areas like drug interdiction.
    These cuts come at a critical time for the Coast Guard. Following 
9/11, the Coast Guard received several new responsibilities and they 
have been carried out with assets built for the last century. For 
instance, major Coast Guard cutters average over 43 years of age as 
compared to Navy ships that average 20 years of age.
    I understand that difficult trade-offs need to be made in this 
budget climate, but I believe the topline given to the Coast Guard in 
the President's budget request is inadequate. I believe this 
subcommittee has a responsibility to make sure that the next generation 
of Coast Guard men and women has the tools they need to accomplish 
their many missions. I know that this is goal shared by our witness 
today, Admiral Papp.
    I look forward to examining these issues so we can make sound 
decisions about the resources and assets Coast Guard men and women need 
today and in the future.
    Before recognizing Senator Coats for any opening remarks he may 
wish to make, I understand that Senator Cochran needs to depart early, 
so I recognize Senator Cochran.
    I now recognize Senator Coats for any opening remarks he may wish 
to make.

    Senator Landrieu. Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Madam Chairman, thank you very much.
    Admiral, welcome. Good to see you here, and I apologize for 
having to not be here.
    It is clear that post 9/11, the Coast Guard is now playing 
a role in the defense of our homeland security and is part of 
the entire package that we need to put together to keep our 
people safe from threats both from home and abroad, and we 
really appreciate the Coast Guard stepping up to the task here. 
So we do want to make sure that you have the assets necessary 
for you to continue to be a vital part of that whole national 
effort, and so we thank you for your engagement there.
    Now, as someone from Indiana, we don't necessarily have the 
same direct engagement with the Coast Guard as the chairman, 
and I know Senator Murkowski very much appreciates this hearing 
also, given the role of the Coast Guard in her State of Alaska. 
But we do have some connections. Crane Naval Surface Warfare 
Center does some special ops and electronics work that is 
important to the Coast Guard, as well as all of our services, 
and we do have a small station up in Michigan City.
    We do have some water that we look at. Not very much, but a 
little bit of slice of Indiana faces, is on the Great Lakes, 
and so we are privileged to have at least some connection to 
the Coast Guard.
    What is important about this hearing is that we continue to 
deal with budget situations that put constraints on what we 
would like to do, and therefore, we have to pick out those 
priorities and make sure that the essential things that we need 
to do are adequately funded and carried out. And so, I think 
that is really the key here to this hearing.
    We know that as part of the submitted budget by the 
administration, that earmark is below fiscal year 2012 level 
and will require some adjustments on the part of the Coast 
Guard in terms of how these funds are allocated. And so, we 
want to make sure that while we are facing these difficult 
budget realities, we are not compromising the kind of vital and 
necessary effective services that you provide.
    So, again, with apologizes for having to leave, I thank the 
chairman for holding this, and I will get a full down brief on 
it from her.
    Thank you, Admiral.
    Senator Landrieu. Thank you. Senator Coats has been a very 
strong supporter of the Coast Guard. We appreciate it.
    Senator Lautenberg.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Thanks, Madam Chairman.
    And I am always glad to see the Coast Guard. Admiral, you 
represent a terrific unit, and we are proud of you and all of 
your people. I see them up close and often.
    And New Jersey is the home for the most at-risk area in the 
country for a terrorist attack, a stretch that includes the 
port, airport, chemical plants, refineries, and railways. 
Protecting this region is not only protecting lives, it also 
protects the economy.
    The Port of New York and New Jersey, the largest on the 
east coast, supports more than 270,000 jobs and $37 billion in 
business income. Protecting this region not only protects 
lives, it protects the economy.
    The men and women of the Coast Guard are America's eyes and 
ears on the seas, and we are safer because of them. And as you 
know, Admiral, I have marveled at the Coast Guard's ability to 
stretch, pull, push, and get more things done with fewer 
resources. And this is a very untimely thing to see a Coast 
Guard budget, in my view, being shrunken further. I am always 
surprised at the number of functions that we have the Coast 
Guard doing, whether it is as simple as navigational markers, 
fishing management.
    But today, with security as it is, the Coast Guard part of 
homeland security, it is a different ball game. So we ask you 
once again to inform your people that we think very well of 
them, make sure that we are not going to ignore our 
responsibility to the Coast Guard. We need some more funding in 
our society, in our budget, and that is where the problem is.
    But it is so important to support the Coast Guard and, 
again, asking you to do more with less. Unfortunately, 
discretionary spending has become the scapegoat of our deficit 
problems. This misguided ``cut at any cost'' approach has 
forced this year's reduction in the budget request for the 
Coast Guard and could lead to even more dangerous cuts next 
year.
    The brave men and women of the Coast Guard never let us 
down, and it is critical that we give you and your people the 
resources they need to do the missions that they respond so 
effectively to. One important mission for New Jersey is the 
Coast Guard's role in upgrading the Bayonne Bridge. The height 
of the bridge impedes the ability of larger ships to access the 
ports, and the game has changed substantially--with the opening 
of the Panama Canal, larger vessels, and we want those vessels 
to call on American ports.
    This access will become even more critical in 2014 when the 
number of large ships will increase significantly. The Port 
Authority of New York and New Jersey is working with the Coast 
Guard to accommodate these ships by raising the height of the 
bridge.
    So I look forward to hearing from Admiral Papp on the Coast 
Guard's efforts to advance this project and the impact. We are 
going to be asking questions, Admiral, as you would expect, 
what a reduced budget might do with the agency's operations.
    Thank you for your service.
    Senator Landrieu. Thank you.
    And Senator Murkowski, if you had a brief opening 
statement, and then, of course, we will take questions later. 
Thank you for joining us.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. I do. Thank you.
    Thank you, Madam Chairman and to the ranking member, thank 
you for holding this hearing. Incredibly important. I had asked 
that we have a very specific hearing focused just on the Coast 
Guard. And I appreciate, Admiral Papp, your leadership, of 
course, with all of our fine Coast Guard men and women and all 
that you do.
    It has been kind of Coast Guard week for me already, and 
this is only Wednesday. We had an opportunity yesterday to have 
a very impressive presentation by Captain Havlik, who detailed 
the escort that the cutter Healy made last winter in escorting 
the Russian oil tanker Renda north to supply Nome and other 
coastal villages with fuel during a very, very cold winter.
    It was a reminder of the capabilities of our Coast Guard. 
It is a reminder of what it is that we have available to us. 
But it is also a reminder that we have got a lot of work to do, 
and as an Arctic nation, that is becoming more and more clear.
    I am looking at the threat areas map that has been 
presented to each of us at our desks here this morning, and I 
look at the threat areas and am very cognizant of my 
colleague's statement about the threats that New Jersey faces 
as a terrorist threat. But I look at the area around the State 
of Alaska and just the size and scope of what it is that we are 
facing, whether it is an increased presence in the Arctic 
because of resource development, the potential there, whether 
it is the activity that we see coming from the cruise industry 
coming across the top, whether it is the cargo traffic going 
between Alaska and Russia.
    There is so much happening in the Arctic, and I see one 
very small orange dot there that indicates offshore patrol 
cutter. And I look at the area that you are charged with 
oversight, and I know that the challenges are great.
    I know that from a budget perspective we are always 
cognizant of the responsibilities that we have directed toward 
the Coast Guard. And yet the resources, the revenues more often 
than not do not also accompany that.
    I am going to spend most of my time this morning talking 
about the opportunities for us when it comes to icebreaking 
capacity. As an Arctic nation, we are woefully unprepared. You 
have said that we are behind the power curve regarding the 
Arctic. I agree with that. We need the assets. We need those 
resources up north.
    I had an opportunity just yesterday to visit with a 
shipbuilder from Louisiana who has just completed an 
extraordinary vessel with icebreaking capacity, the Aiviq. It 
will be part of Shell's operations up north.
    But I look at the opportunities that we have in front of 
us. We have got difficult budget decisions. We have an 
opportunity to perhaps do something on the private side. And 
while you and I have had a discussion about this, I think we 
recognize that we have got to figure out how we thread this 
needle when it comes to meeting our responsibilities and 
dealing with the budget issues and the concerns.
    I am looking forward to this summer with the Arctic Shield 
deployment, where the Coast Guard will be testing the 
capabilities up there in the Arctic. I think we are all most 
interested to see that presence and see where our gaps truly 
are.
    But Madam Chairman, I thank you again for holding this 
hearing. And Admiral Papp, I thank you for your leadership. 
Once again, the men and women of the Coast Guard continue to do 
us proud, and you are very ably leading those men and women. So 
I thank you.
    Senator Landrieu. Thank you, Senator Murkowski. And I am 
looking forward to joining you and the Coast Guard in Alaska 
this summer to come visit and get a little bit better 
experience about what the magnitude and the dimensions of some 
of your threats there and challenges.
    And let me turn it to Senator Cochran, who also is going to 
have to probably leave, I think, shortly for an intel hearing.
    But before you came in, Senator, I said that you and I have 
two of the best positions really in the country to see the 
great work that the Coast Guard does, and we were grateful for 
them stepping up and saving about 33,000 of our citizens after 
Hurricanes Katrina and Rita, which was one of the bright 
chapters in many bright chapters of the Coast Guard history. 
And thank you for your support always of the Coast Guard.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, thank you very much for your 
leadership in convening this hearing and in managing the 
requests we have for funding that we have to act on and make 
recommendations or Senate consideration.
    It is a pleasure to see Admiral Papp here and to 
congratulate him for his continued excellent leadership as 
Commandant of the Coast Guard. We are impressed when we 
remember the terrible flooding challenges that we have had on 
the Mississippi River and tributaries there, too.
    In the last few years, it seems like we have had more than 
our share of 100-year floods. Somebody doesn't know how to 
count. We have got to change the way we talk about these 
things. But the Coast Guard is there.
    I remember flying with the Commandant on his plane down to 
New Orleans for an inspection, really an overview of the 
flooding that we had had on the Mississippi River and the 
tributaries there, too. But I was quite impressed with the 
dedication to the responsibilities that the Coast Guard has 
under the law, and it gives us another opportunity to thank him 
and his colleagues in the Coast Guard for the fabulous job they 
have done over the years, but particularly in the recent past, 
when we have been challenged as we never have before, 100 years 
or less.
    So we want to be sure we understand the priorities. We 
can't fund probably everything at the level that we would like 
to because of constraints on the budget and the limitations 
that we have imposed by the budget.
    But we want to do what we think is best, in the best 
interests of the country. And with your assistance, we will 
identify those priorities in a thoughtful way and carry out the 
missions not only of the Coast Guard, but protect and save a 
lot of our valuable human resources and property that is very 
valuable to the economic future of our State and Nation.
    Thank you.
    Senator Landrieu. Thank you, Senator.
    Admiral, we are prepared now for your opening statement.

                STATEMENT OF ADMIRAL ROBERT J. PAPP, JR.

    Admiral Papp. Thank you, Chairman Landrieu, Ranking Member 
Coats, Senator Lautenberg, Senator Cochran, and Senator 
Murkowski.
    It is a real honor for me to be here today and to be able 
to testify regarding our fiscal year 2013 budget. And on behalf 
of all the men and women of the Coast Guard, I want to thank 
you for that strong support that you spoke of in your opening 
statement over the last couple of years. It is gratifying to 
see the support from this subcommittee to help us to get the 
job done for this country.
    And as this subcommittee is well aware and you have stated 
already, we are facing very serious challenging fiscal times. 
But we must not forget that America is, first and foremost, a 
maritime nation, and I think the reason why even interior 
States understand the value of the Coast Guard is because 95 
percent of our foreign trade arrives or is shipped by sea.
    The maritime transportation system accounts for nearly $700 
billion of the U.S. gross national product and supplies 51 
million jobs to the U.S. economy. Our economy, our security, 
and our Nation's prosperity depend upon safe and secure 
maritime transportation routes.
    But these same approaches can be used by criminals as well 
or people who choose to do us harm. In the offshore transit 
zones, we face growing transnational crime, drug and human 
trafficking, and piracy. And just over 1 month ago, one of our 
new HC-144 aircraft on its first flight of its first deployment 
to the Caribbean used its state-of-the-art sensors to detect a 
submersible smuggling vessel, a vessel capable of carrying 5 
tons of cocaine inside.
    I went to Colombia recently, and I toured a number of these 
seized vessels. They can carry anywhere between 5 to 7 or 8 
tons of cocaine or other illicit material. Now that aircraft 
vectored in two Coast Guard cutters to interdict the sub. This 
was the fifth sub we have interdicted in the Caribbean since 
July 2001.
    And as you can see from the handout that I have provided, 
drug subs are just one of the offshore threats that we are 
facing. Our natural resources are also threatened by illegal 
fishing, which is increasing pressure on our valuable fish 
stocks. Offshore exploration, driven by an expanding global 
thirst for fossil fuel, is also on the rise. Oil exploration is 
planned in the United States Arctic waters this summer, and 
even closer to our shores, we face the threat of a possible 
transboundary pollution that could be produced by drilling in 
Cuba's outer continental shelf.
    Our Coast Guard is charged with ensuring the safety, 
security, and stewardship of this broad range of maritime 
activity. We protect people on the sea. We protect the Nation 
from threats delivered by the sea, and we protect the sea 
itself. There is no other United States agency that has the 
equivalent authorities, competencies, or capabilities to 
provide the Nation's maritime security and safety on the water 
and in the air and as far offshore as possible and within our 
ports.
    Now this unique mosaic is a foundational characteristic. It 
is what makes the Coast Guard just as effective in dealing with 
major catastrophes like Hurricane Katrina and the Deepwater oil 
spill as it is at performing our day-to-day operations.
    Our layered maritime security strategy focuses on three 
regions--overseas, offshore, and in-shore along the coast. This 
strategy seeks to optimize the use of our assets and 
authorities throughout the maritime continuum.
    To ensure the Coast Guard remains capable of confronting 
future threats, however, we must judiciously invest in ships, 
boats, and aircraft that we need to effectively operate in each 
of these three areas or this layered security that I have 
talked about. In the decade since 9/11, we have focused on 
investing in resources to strengthen our capabilities to 
counter risks in our ports and in the coastal zone, the inner 
layer.
    In the last 10 years, we have replaced almost our entire 
small boat fleet. We have added capable aircraft and more 
personnel to operate them. We have deployed the Rescue 21 
distress communications system. We have unified field 
operations through the creation of sectors to fully integrate 
and leverage our prevention and response activities. We have 
enhanced regulatory inspection and compliance programs, and we 
have built effective deployable specialized forces.
    We have also strengthened partnerships with the many 
agencies that we operate alongside. And although there will 
always be more work to do, these near-shore forces are far more 
prepared to address our risks than in the offshore layer. 
Simply put, what we have done over the last 10 years is we have 
built a strong defense in the inner layer--in our ports and 
along the coast--but the last place that you want to discover 
or confront a threat is near the shore or in your ports. That 
is playing goal-line defense.
    So we need to now focus on building our offshore forces so 
that we can respond in that layer. But the offshore layer is 
also where I am most concerned because that is where our aging 
fleet is, and that is really the most expensive part of this 
layered security that we try to provide.
    Our offshore fleet of cutters is aging. It is antiquated, 
and it is increasingly less effective. Even with the best 
efforts of my crews and the support from this subcommittee, the 
state of our major cutter fleet, most of which is in excess of 
40 years old, is alarming.
    Our 45-year-old average high endurance cutters are 
achieving only about 70 percent of their programmed underway 
hours, and more than 50 percent of the time, they sail with 
major casualties. This is a cause for concern because the key 
to interdicting threats offshore is maintaining a persistent 
presence to rapidly respond, interdict, and address any of 
those threats.
    If we don't have capable and reliable offshore cutters, we 
can't mount a response. We cannot enforce our laws, and we 
cannot adequately protect our national interests. It is that 
simple.
    This is why we must continue to build our new major 
cutters, such as the sixth national security cutter, as quickly 
as possible. I am thankful to Secretary Napolitano and the 
President for supporting the funding for production of No. 6 in 
the fiscal year 2013 budget. Maintaining shipbuilding momentum 
is what allowed us to get national security cutters Nos. 4 and 
5 on contract this past year for nearly the same price.
    We are now reaping the benefits of efficient shipyard 
processes and experienced shipbuilders. Now is the time to keep 
the production going. Now is the time to deliver these ships as 
inexpensively as possible. And now is the time to ensure the 
Coast Guard is capable of interdicting offshore threats for the 
next 30 to 50 years.
    The fiscal year 2013 budget reflects the threshold I need 
to acquire new cutters and aircraft designed to address our 
greatest threats. Right now, we are delivering these new assets 
at minimum production levels. This ensures we keep the most 
critical acquisition projects moving forward while at the same 
time maintaining our front-line operations.
    As this subcommittee clearly recognizes, given your strong 
support for the national security cutter program, we are 
balancing our investment in the future assets against resources 
required to maintain operations today. Doing so requires 
tradeoffs, but that is what leaders do. Leaders have to make 
tough choices in challenging times.
    And leaders also have to look to the future to make sure 
their service and their country is prepared for future threats. 
As we work together to confront these challenges, the men and 
women of the Coast Guard are standing the watch to protect our 
Nation. The budget submitted to you seeks to provide them with 
the tools they require to continue performing our challenging 
maritime missions.

                           PREPARED STATEMENT

    Thank you for the opportunity to testify before you today 
and for your continuing support of our Coast Guard. And I look 
forward to answering your questions.
    [The statement follows:]
           Prepared Statement of Admiral Robert J. Papp, Jr.
    Good morning Madam Chair and distinguished members of the 
subcommittee. Thank you for the continuing support you have shown to 
the men and women of the United States Coast Guard, including the 
funding provided in the fiscal year 2012 Consolidated Appropriations 
Act to recapitalize the aging fleet and sustain front-line operations.
    This year marks our 222nd year of protecting Americans on the sea, 
America from threats delivered by the sea and the sea itself. 
Throughout this period, our unique authorities, capable assets and 
determined personnel have adapted to meet the Nation's evolving 
maritime safety, security, and stewardship needs. We are locally based, 
nationally deployed and globally connected.
    I am here today to discuss the Coast Guard's fiscal year 2013 
budget request. Before discussing the details of the request, I would 
like to take this opportunity to discuss some of the Coast Guard's 
recent operational successes, our value and role in the Department of 
Homeland Security, and in service to the Nation.
    Over the past year, Coast Guard men and women--Active Duty, 
Reserve, civilian, and auxiliarists alike--continued to deliver premier 
service to the public. In the Midwest, Coast Guard disaster assistance 
response teams were among the first responders to residential areas 
impacted by severe flooding. In the Western Caribbean, Coast Guard 
medium endurance cutters and seagoing buoy tenders interdicted and 
supported the multi-agency recovery of self-propelled semi-submersible 
vessels. These ``drug subs'' are designed for one specific purpose--to 
deliver multi-ton loads of pure cocaine bound for our shores, streets, 
and schools. While the use of drug subs is increasingly popular in the 
Eastern Caribbean, these interdictions mark the first time we have 
encountered drug subs in the Western Caribbean. In the Arctic, the 
Coast Guard icebreaker Healy and her crew broke their way through 800 
miles of Bering Sea ice to enable the motor vessel Renda to deliver 1.3 
million gallons of fuel to the 3,600 people of Nome, Alaska after 
extreme weather and ice formation precluded safe delivery of this vital 
commodity.
    Last year, the Coast Guard responded to 20,510 search and rescue 
cases and saved over 3,800 lives; seized over 75 metric tons of cocaine 
and 18 metric tons of marijuana destined for the United States; seized 
40 vessels, detained 191 suspected smugglers; conducted over 10,400 
annual inspections of U.S. flagged vessels; conducted 6,200 marine 
casualty investigations; conducted more than 9,000 Port State Control 
and Security examinations on foreign flagged vessels; and responded to 
3,000 pollution incidents.
    I am pleased to report the Coast Guard recently commissioned the 
lead Sentinel class fast response cutter, the Bernard C. Webber. Just 
over 60 years ago, on February 18, 1952, Boatswain's mate first class 
Webber and his three-man 36-foot motorized lifeboat crew rescued 32 
souls, one by one, from the 503-foot tank vessel Pendleton after it 
broke in two in a nor'easter off Cape Cod featuring 60-foot seas, 70-
knot winds and blinding snow. Petty Officer Webber's seamanship, 
courage, and leadership serve as an enduring reminder of the Coast 
Guard's value to the Nation.
    The fiscal year 2013 budget represents a critical inflection 
point--the ships, boats, and aircraft we are investing in today are 
vital to ensuring the Coast Guard remains ready to respond to maritime 
threats and hazards, well into the future. Indeed, these resources will 
not just shape, but in a large part will define the Coast Guard's next 
50 years of capability. We are also exercising resource and operational 
stewardship while simultaneously preparing for the future. We recently 
completed a review of doctrine, policy, and our operations and mission 
support structure to ensure we are focusing resources and forces where 
they are most needed. This prioritization is reflected in our fiscal 
year 2013 budget submission, which focuses on balancing current 
operations with our need to recapitalize for the future. However, we 
must do so in a manner that sustains our capability to safeguard lives, 
protect the environment and facilitate safe and secure commerce 
throughout our Maritime Transportation System--a system which carries 
95 percent of all U.S. foreign trade and accounts for nearly $700 
billion of the U.S. gross domestic product and 51 million U.S. jobs.
    The Coast Guard's value and role:
  --We protect those on the sea: leading responses to maritime 
        disasters and threats, ensuring a safe and secure Maritime 
        Transportation System, preventing incidents, and rescuing those 
        in distress.
  --We protect America from threats delivered by sea: enforcing laws 
        and treaties, securing our ocean resources, and ensuring the 
        integrity of our maritime domain from illegal activity.
  --We protect the sea itself: regulating hazardous cargo 
        transportation, holding responsible parties accountable for 
        environmental damage and cleanup, and protecting living marine 
        and natural resources.
                        fiscal year 2013 request
    In recognition of the current fiscal environment, the Coast Guard's 
fiscal year 2013 budget strikes the optimal balance between current 
operations and investment in future capability to sustain the Coast 
Guard's ability to execute its missions, and address the most pressing 
operational requirements. This budget request includes investment in 
new assets which are critical to ensure the Coast Guard remains capable 
of carrying out its missions today and well into the future. 
Accordingly, the Coast Guard's fiscal year 2013 budget priorities are 
to:
  --Responsibly rebuild the Coast Guard;
  --Efficiently preserve front-line operations;
  --Strengthen resource and operational stewardship; and
  --Prepare for the future.
    Highlights from our request are included in appendix I.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

The Coast Guard cutter Waesche conducts at-sea refueling operations for 
                 the first time in the ship's history.

Responsibly Rebuild the Coast Guard
    The Coast Guard continues to focus resources on recapitalizing 
cutters, boats, aircraft, and command, control, communications, 
computers, intelligence, surveillance, and reconnaissance systems, 
critical to sustaining the ability to accomplish missions well into the 
future. This budget request fully funds the sixth national security 
cutter, strengthening the Coast Guard's long-term major cutter 
recapitalization effort to replace its aged, obsolete high endurance 
cutter fleet as quickly as possible. The fiscal year 2013 investments 
are critical to replacing and sustaining aging in-service assets, and 
are key to maintaining future capability.
Efficiently Preserve Front-line Operations
    To ensure the Coast Guard remains ready to meet the Nation's safety 
and security requirements, the fiscal year 2013 budget request provides 
a balance between sustaining front-line operational capacity and 
rebuilding the Coast Guard. The fiscal year 2013 budget provides 
funding to operate and maintain Coast Guard assets and sustain 
essential front-line operations. Key investments include funding the 
operation of new assets delivered through acquisition programs and 
investment in military workforce pay and benefits.
Strengthen Resource and Operational Stewardship
    The fiscal year 2013 budget meets essential mission needs while 
simultaneously preparing for new and exigent demands. Through a 
comprehensive internal review of doctrine, policy, operations and 
mission support structure, the Coast Guard has focused resources and 
forces where they are most needed, while recognizing the current fiscal 
challenges. The fiscal year 2013 budget also proposes administrative 
and programmatic reductions to improve efficiency and service delivery, 
while continuing investment in Coast Guard activities that provide the 
highest return on investment.
Prepare for the Future
    The Coast Guard continuously identifies and prepares for emerging 
maritime threats facing the Service and the Nation. The fiscal year 
2013 budget request recognizes the criticality of the Arctic as a 
strategic national priority, given increasing presence and interest by 
other nations, the preponderance of natural resources available in this 
region, and increasing maritime commercial and recreational activity.
                               conclusion
    The role of the Coast Guard has never been more important. As we 
have done for well over two centuries, we remain ``Always Ready'' to 
meet the Nation's ever-broadening maritime needs, supported by the 
fiscal year 2013 request. I request your full support for the funding 
requested for the Coast Guard in the President's fiscal year 2013 
budget. Again, thank you for the opportunity to testify before you 
today. I am pleased to answer your questions.
              appendix i--fiscal year 2013 budget request
Responsibly Rebuild the Coast Guard
            Surface Assets--$879.5 Million (0 FTE)
    The budget provides $879.5 million for surface asset 
recapitalization and sustainment initiatives, including:
  --National Security Cutter (NSC).--Provides production funding for 
        the sixth NSC; NSCs will replace the aging fleet of high 
        endurance cutters, first commissioned in 1967. The acquisition 
        of NSC No. 6 is vital for performing DHS missions in the far 
        off-shore regions, including the harsh operating environment of 
        the Pacific Ocean and Bering Sea, as well as providing for 
        robust homeland security contingency response.
  --Fast Response Cutter (FRC).--Provides production funding to procure 
        fast response cutters (FRC) 19-20. These assets replace the 
        aging fleet of 110-foot patrol boats, and provide the coastal 
        capability to conduct search and rescue operations, enforce 
        border security, interdict drugs, uphold immigration laws, 
        prevent terrorism, and ensure resiliency to disasters. Hulls 
        Nos. 17-20 will be procured in fiscal year 2013 using fiscal 
        year 2012 and fiscal year 2013 funds, maintaining FRC 
        production at the current rate.
  --Offshore Patrol Cutter (OPC).--Continues initial acquisition work 
        and design of the OPC. The OPC will replace the medium 
        endurance cutter class to conduct missions on the high seas and 
        coastal approaches.
  --Medium Endurance Cutter (MEC).--Completes the Mission Effectiveness 
        Program for the 270-foot MECs at the Coast Guard Yard.
  --Survey and Design.--Initiates survey and design work for a mid-life 
        availability on the 175-foot Coastal Buoy Tender class.
            Air Assets--$74.5 Million (0 FTE)
    The budget provides $74.5 million for the following air asset 
recapitalization or enhancement initiatives, including:
  --HC-144.--Funds production of the 18th HC-144A Maritime Patrol 
        Aircraft. The HC-144A fleet will provide enhanced maritime 
        surveillance and medium airlift capability over the legacy HU-
        25 aircraft that they replace. The HU-25s will all be removed 
        from service by the end of their planned service life, in 
        fiscal year 2014.
  --HH-65.--Funds sustainment of key components requiring 
        recapitalization.
            Asset Recapitalization; Other--$76.5 Million (0 FTE)
    The budget provides $76.5 million for the following equipment and 
services:
  --Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance (C4ISR).--Deploys standardized 
        C4ISR capability to newly fielded NSCs, C-130s and MPAs, and 
        develops C4ISR capability for other new assets.
  --CG-Logistics Information Management System.--Continues development 
        and prototype deployment to Coast Guard operational assets and 
        support facilities.
  --Nationwide Automatic Identification System (NAIS).--Continues 
        recapitalizing the existing interim NAIS system in 58 ports and 
        11 coastal areas by replacing it with the permanent solution 
        design and technology via the core system upgrade.
            Shore Units and Aids to Navigation (ATON)--$69.4 Million (0 
                    FTE)
    The budget provides $69.4 million to recapitalize shore 
infrastructure for safe, functional, and modern shore facilities that 
effectively support Coast Guard assets and personnel:
  --Station New York Boat Ramp.--Constructs a boat ramp for launching 
        small boats at Station New York, New York, for both the Station 
        and Maritime Safety and Security Team New York.
  --Air Station Barbers Point.--Constructs an aircraft rinse rack 
        facility to properly and effectively rinse C-130 aircraft at 
        Air Station Barbers Point.
  --Major Acquisition Systems Infrastructure.--Commences construction 
        of piers and support facilities for three FRC homeports; 
        construction of an MPA training facility at Aviation Technical 
        Training Center in Elizabeth City, North Carolina; construction 
        of MPA maintenance facility hangar at the Aviation Logistics 
        Center at Elizabeth City, North Carolina.
  --ATON Infrastructure.--Completes improvements to short-range aids 
        and infrastructure to improve the safety of maritime 
        transportation.
            Personnel and Management--$117.4 Million (842 FTE)
    The budget provides $117.4 million to provide pay and benefits for 
the Coast Guard's acquisition workforce.
Efficiently Preserve Front-Line Operations
            Pay and Allowances--$88.9 Million (0 FTE)
    The budget provides $88.9 million to fund the civilian pay raise 
and maintain parity of military pay, allowances, and healthcare with 
the DOD. As a branch of the Armed Forces of the United States, the 
Coast Guard is subject to the provisions of the National Defense 
Authorization Act, which includes pay and personnel benefits for the 
military workforce.
            Annualization of Fiscal Year 2012--$54.2 Million (260 FTE)
    The budget provides $54.2 million to continue critical fiscal year 
2012 initiatives.
            Operating and Maintenance Funds for New Assets--$47.6 
                    Million (139 FTE)
    The budget provides a total of $47.6 million to fund operations and 
maintenance of shore facilities and cutters, boats, aircraft, and 
associated C4ISR subsystems delivered through acquisition efforts. 
Funding is requested for the following assets and systems:
  --Shore Facilities.--Funding for the operation and maintenance of 
        shore facility projects scheduled for completion prior to 
        fiscal year 2013.
  --Response Boat-Medium.--Funding for operation and maintenance of 30 
        boats.
  --Interagency Operations Center (IOC).--Funding for the operation and 
        maintenance of the Watch Keeper system.
  --Rescue 21 (R21).--Funding for the operation and maintenance of the 
        R21 System in Sector Sault Ste. Marie and Sector Lake Michigan.
  --FRC.--Operating and maintenance funding for FRCs Nos. 8-9 and 
        funding for crews Nos. 9-10. These assets will be homeported in 
        Key West, Florida. Funding is also requested for shore-side 
        maintenance personnel needed to support FRCs.
  --HC-144A MPA.--Operating and maintenance funding for aircraft Nos. 
        14-15 and personnel funding to operate and support aircraft 
        Nos. 15-16.
  --Air Station Cape Cod Transition.--Funding to complete a change in 
        aircraft type allowance, and programmed utilization rates.
  --Training Systems for Engineering Personnel.--Funding to support NSC 
        and FRC training requirements at Training Center Yorktown.
  --HC-130H Flight Simulator Training.--Funding to support aircraft 
        simulator training for HC-130H pilots, flight engineers, and 
        navigators.
            St. Elizabeths Headquarters Consolidation--$24.5 Million (0 
                    FTE)
    Provides funding to support the Coast Guard's relocation to the DHS 
consolidated headquarters at the St. Elizabeths Campus in Washington, 
DC. Funding supports the systematic move of equipment, employees, and 
work functions to the new headquarters location, beginning in the third 
quarter of fiscal year 2013.
Strengthen Resource and Operational Stewardship
            Asset Decommissionings
    In fiscal year 2013, in addition to the planned decommissioning of 
legacy assets, the Coast Guard will make targeted operational 
reductions to prioritize front-line operational capacity and invest in 
critical recapitalization initiatives.
            High Endurance Cutter (HEC) Decommissionings---$16.8 
                    Million (-241 FTE)
    The Coast Guard will decommission the fourth and fifth of the 
original fleet of 12 HECs. With the average cutter age at 43 years, the 
HEC fleet has become increasingly difficult to maintain and sustain 
operationally. The decommissioning of two HECs is critical to support 
ongoing major cutter recapitalization efforts. National security 
cutters, including the sixth NSC which is fully funded by this budget 
request, replace the aging HEC fleet.
            110-ft Island Class Patrol Boat Decommissionings---$2.0 
                    Million (-35 FTE)
    The Coast Guard will decommission three 110-ft patrol boats in 
fiscal year 2013. The 110-ft patrol boats are being replaced by the 
FRC.
            High Tempo High Maintenance Patrol Boat Operations---$33.5 
                    Million (-206 FTE)
    The Coast Guard will terminate the high tempo high maintenance 
(HTHM) operations program that facilitates augmented operation of eight 
in-service 110-foot patrol boats. Termination of this program coincides 
with commissioning of new FRCs which will mitigate this lost capacity.
            Close Seasonal Air Facilities---$5.2 Million (-34 FTE)
    The Coast Guard will improve the efficiency of domestic air 
operations by closing Seasonal Air Facilities and realigning rotary 
wing capacity to provide three medium-range H-60 helicopters to the 
Great Lakes region to replace the H-65s currently in service. Due to 
limited demand for services and improved endurance from the H-60, the 
Coast Guard will discontinue operations at two seasonal Coast Guard Air 
Facilities at Muskegon, Michigan, and Waukegan, Illinois.
            HU-25 Aircraft Retirements---$5.5 Million (-20 FTE)
    The Coast Guard will retire the three remaining HU-25 aircraft 
assigned to Coast Guard Air Station (CGAS) Cape Cod to allow for the 
transition to HC-144A aircraft. In fiscal year 2013, the Coast Guard 
will deliver and place in full-operational status three HC-144A 
aircraft at CGAS Cape Cod.
            Management Efficiencies
    The budget proposes administrative and programmatic efficiencies to 
improve service delivery, while continuing investment in Coast Guard 
activities that provide the highest return on investment.
            DHS Enterprise-Wide Efficiencies---$56.3 Million (-24 FTE)
    The Coast Guard will seek efficiencies and cost reductions in the 
areas of IT infrastructure, Government vehicles, professional services 
contracts, non-operational travel, GSA leases, permanent change of duty 
station relocation costs for military personnel, and logistics services 
by consolidating/centralizing functions in geographically concentrated 
areas.
            Programmatic Reductions
    In fiscal year 2013, the Coast Guard will make targeted reductions 
in base program areas. These base adjustments recognize changes in 
requirements for selected activities and redirect resources toward 
higher priorities, including critical recapitalization projects and 
essential front-line operations.
            Headquarters Personnel and Support Reduction---$12.7 
                    Million (-131 FTE)
    The Coast Guard will eliminate 222 headquarters positions through 
attrition and implementation of a civilian hiring freeze in the 
Washington, DC area. This reduction preserves the Coast Guard's 
critical capabilities to conduct front-line operations; mission 
support; and development and implementation of national policies and 
regulations.
            Recruiting Program Reduction---$9.8 Million (-39 FTE)
    The Coast Guard will make reductions to the recruiting program and 
selective reenlistment bonuses, which are not needed based on the 
current employment outlook.
            Other Targeted Program Reductions---$6.2 Million (-62 FTE)
    The Coast Guard will make targeted reductions to the intelligence 
workforce, organizational performance consultants, and non-reimbursable 
detached duty billets.
            Targeted Operational Reductions---$3.7 Million (-32 FTE)
    Based on an internal review and assessment of operational risk, the 
Coast Guard proposes to make targeted operational reductions by 
reorganizing the international Mobile Training Team, consolidating PWCS 
airborne use of force (AUF) capability at Elizabeth City, North 
Carolina; and San Diego, California, and eliminating the Vintage Vessel 
National Center of Expertise.
Prepare for the Future
            Polar Icebreaker--$8.0 Million \1\ (0 FTE)
    Initiates survey and design of a new polar icebreaker to ensure the 
Nation is able to maintain a surface presence in the Arctic well into 
the future.
            Alaska Shore Facilities--$6.1 Million \1\ (0 FTE)
---------------------------------------------------------------------------
    \1\ Note: Funding amounts within this section are included in 
totals listed within the Responsibly Rebuild the Coast Guard section.
---------------------------------------------------------------------------
    Provides funding to recapitalize and expand helicopter hangar 
facilities in Cold Bay, Alaska, and recapitalize aviation re-fueling 
facilities at Sitkinak, Alaska. These investments will sustain the 
Coast Guard's ability to establish effective presence in the Bering Sea 
and Aleutian Chain--the ``gateway'' to the Arctic.

    Senator Landrieu. Thank you, Admiral.
    Senator, do you have a question? Okay, perfect.
    Senator Coats and Senator Cochran will submit questions for 
the record, and they have had to leave for an intel briefing.

                   FAST RESPONSE CUTTERS: PRODUCTION

    We will do 5 minutes each of rounds. Let me begin with the 
fast response cutters.
    Of course, I am familiar with these because they are built 
in Louisiana, and I am proud to say in Lockport, Louisiana. I 
was there in April with others to commission the first fast 
response cutter, the Bernard C. Webber. Now these cutters are 
going to provide 2,500 annual operation hours, which will allow 
the Coast Guard to close a 25-percent shortfall in patrol boat 
hours.
    In 2012, we fully funded the Department's request for six 
fast response cutters. The Department sold this subcommittee on 
the fact that building six maximizes the production line and 
actually saves taxpayers $30 million when you get the 
efficiency of building a line and keeping the production going. 
It also obviously accelerates the delivery of these ships that 
are important in your priority.
    Last year's budget request indicated that another six were 
necessary, but the budget before us includes funding for only 
two. Yesterday, the House Appropriations Committee released 
their draft, and it includes funds for four. If our Senate bill 
would include funds for four or more, will you be in a position 
to award a contract for six, continuing the savings and the 
efficiencies that we tried to create last year, Admiral?
    Admiral Papp. Yes, Chairman, absolutely. It is 
regrettable--and I understand the confidence and the support 
that you gave the Coast Guard by putting six patrol boats in 
last year's budget. Unfortunately, in trying to fit within the 
top line this year, acquisition funding was reduced by 20 
percent.
    I was forced into a position of having to maintain the 
minimum production levels in all our acquisition projects just 
to keep the lines going so that we don't have to restart lines 
later on at great cost. So I admit that it is a little bit of a 
shell game. What I did was I fit in as many things as I could 
and ended up with two FRCs in the fiscal year 2013 budget. And 
I was hopeful that we would get permission to be able to use 
the 2012 money to keep the production line going at at least 
four per year.
    But given the scenario that you have suggested here from 
the House mark, absolutely. If there are four FRCs in the 2013 
budget, that will allow me to execute six this year. And that 
is absolutely the way ships should be produced.
    You give the shipbuilder a constant stream of funding or a 
predictable stream of funding. They can keep their employees 
on. They can buy long-lead time parts. It is the most efficient 
way to run a shipyard. Much the same way as we need to run the 
national security cutter program as well at Huntington Ingalls. 
They need to have predictability and a steady funding stream, 
so that we can get the best efficiencies and get the best price 
for the taxpayer as we build these ships.

       NATIONAL SECURITY CUTTERS: POSSIBLE SHARED FLEET WITH NAVY

    Senator Landrieu. Thank you, and that leads into my exact 
second question with the national security cutter, which is 
built across the road in Mississippi. It is the most capable 
ship of the Coast Guard's recapitalization surface fleet. Each 
NSC is 418 feet long with an operational range of 12,000 
nautical miles. It can remain at sea for over 2 months. The 
budget request includes funding for the sixth, but no funding 
is projected for out-years for the final two.
    I know in the past that you have testified that Nos. 7 and 
8 are necessary to meet your requirements. When Secretary 
Napolitano testified before the subcommittee in March, she 
said, ``Before moving ahead on Nos. 7 and 8, we want to make 
sure we are coordinated with the Navy.'' Her point was to make 
sure the Coast Guard and the Navy fleets are not duplicative 
and complement each other.
    Have you talked with the Chief of Naval Operations about 
your respective fleet plans? Did your conversation provide more 
clarity on the need for Nos. 7 and 8? And what are the impacts 
to our Nation if Nos. 7 and 8 are not built?
    Admiral Papp. The answer to your immediate question, 
Chairman, yes, I have spoken with Admiral Greenert. We meet 
regularly. We see each other usually about twice per week. But 
we held a specific meeting to discuss shipbuilding in 
particular to make sure that both of our services are giving 
the American citizens the best return on their investment.
    And last week, even though I was still recovering, our 
staffs got together, and they compared our shipbuilding 
programs as well. And what we have determined is that the Navy 
is building ships that the Navy needs. The Coast Guard is 
building ships that the Coast Guard needs.
    And while these fleets are complementary, for best service 
to the American people, we need to be able to be interoperable, 
share some systems. So that if the worst case happens, Coast 
Guard cutters can be used to support the Navy, and likewise 
under domestic or security situations, Navy assets can help 
supplement the Coast Guard. So what we do is we build 
complementary vessels. But I can assure you they are 
nonredundant.
    If you ask the Chief of Naval Operations, I am sure he will 
tell you he doesn't have enough ships to do all the thing he 
needs to do. And I will tell you that I don't have enough ships 
to do all the things I need to do.
    As regards Nos. 7 and 8, I actually see a ray of optimism 
there. The fact of the matter is it remains the program of 
record, eight national security cutters, and Secretary 
Napolitano has confirmed that. And in fact, Nos. 7 and 8 are 
listed in the 5-year plan, and it is regrettable there are 
zeroes under there. I would like that to be different.
    But having said that, when I look at the cumulative figures 
that have been projected by the administration and our 5-year 
plan, it really brings us closer to the level of funding that I 
think is adequate to recapitalize the Coast Guard. In fiscal 
year 2014, it calls for almost $1.5 billion.
    I have gone on record saying that I think the Coast Guard 
needs closer to $2 billion per year to recapitalize, do proper 
recapitalization. And over that 5-year period, we build up to 
$1.7 billion. So a ray of hope for me is that we are getting 
closer to what we need to recapitalize the service.
    As regards the figures within the columns for each one of 
those years, I think we all know that, year to year, that is a 
negotiation process. It is a projection, but every year it 
seems to change.
    So what the Secretary has done is she has said we need to 
compare with the Navy. We need to make sure that we are not 
building something that is redundant, that is an unfair burden 
on the taxpayers because the Navy can do it or vice versa. And 
I think that we have determined in my discussions with the 
Chief of Naval Operations that we are not.
    Senator Landrieu. Okay. I really appreciate that 
clarification.
    I am going to turn it over to Senator Lautenberg in a 
minute. But because the three of us serve on the Appropriations 
Committee, I wanted to say this because I think my colleagues 
are well aware of this.
    I think the American people will continue to be surprised 
that the United States of America does not have a capital 
budget. I think the American people are just learning about how 
our budgets either operate or don't operate. I think they would 
be really shocked and somewhat disappointed that we don't have 
a capital budget.
    I represented the State of Louisiana for many years. I 
served as a legislator and appropriator and a State treasurer. 
Senator Lautenberg has experience. Obviously, Senator Murkowski 
served as a leader in your house, did you not, Senator?
    I mean, we had an operating budget. We had a capital 
budget. And so, for long-lead time things that we built, that 
took years to build, we would put in our capital budgets, 
managed our debt, maintained it, had an operational balanced 
budget.
    When I look at what I am going to have to fund as the chair 
of this subcommittee in homeland security in terms of really 
big-ticket items--like finding the funding for your icebreaker 
that costs, what, $1 billion plus? Eight hundred to $900 
million. We have got to build an icebreaker. We have to build 
that icebreaker.
    We also have to finish the headquarters complex. Now that 
could be some people might think yes or no. But you have got a 
new department that is very important. They need to have a 
building to operate. That has been put on hold.
    So these big capital projects. And then I have got several 
members of my subcommittee clamoring to build a $1 billion bio, 
what is it, agriculture bio in Kansas. And they want me to fund 
this out of our operating budget for homeland security?
    I don't know, Senator. I mean, it is not for the 
discussion. But you all can appreciate specifically--and I 
think we are going to have to do some more things for Alaska, 
given the activity that is going on in Alaska, which has not 
been there for the last 50 or 100 or ever, I mean, since they 
came into statehood.
    I could do a whole hearing on offshore Alaska and take up 
hours discussing it, which I might do, Senator Murkowski. So we 
can explain to people what is actually happening up your way.
    But anyway, this is a great challenge for our subcommittee. 
I am open to suggestions, and I thank you for trying to be as 
efficient as you can be. But at some point, Senator Lautenberg, 
we are going to have to bring this to the attention of our 
chairman.
    But let me turn it over to Senator Lautenberg now.

                         BAYONNE BRIDGE PROJECT

    Senator Lautenberg. Thanks very much, Senator Landrieu. 
Spoken like a true leader.
    I had a long business career before I got here. And capital 
budgets, you have an opportunity to amortize your investment 
over the life of the article, and so it reduces the need for 
cash on a constant basis and is more in keeping with the 
standard accounting procedures and giving us some latitude.
    I look at the things that you are asked to do in the Coast 
Guard, and there is never a place almost that your people and 
your organization can't be of help, whether it is moving into a 
combat zone, whether it is helping in the case of landings or 
knowledge or what have you.
    And the world is changing around us. Even though some here 
don't believe that global warming is happening, the fact of the 
matter is that it is happening, and it is happening in a way 
that will create more demand for Coast Guard presence.
    And I know that Senator Murkowski is very conscious of what 
is happening up near Alaska with the ships of other countries 
now getting into places that were not available to them before. 
So you have to be a bit of a magician, Admiral, and we are 
going to try to help you get the goods.
    As mentioned, the Bayonne Bridge in New Jersey is there, 
will be there to accommodate larger ships coming through the 
Panama Canal 2014, and it is essential to our region's economy 
and to our Nation's economy. And while we want a thorough 
environmental review, Admiral, we want it done as quickly as 
possible.
    As a leader of the review process, can you commit to 
working with us, with me to expedite consideration of this 
project?
    Admiral Papp. Senator Lautenberg, I certainly do. We are 
committed to working that project as quickly as possible. We 
are already at work with the Port Authority and the local 
agencies. I, myself, understand the value of that project, 
having cut my teeth as a young officer working in Kill Van Kull 
and Newark Bay underneath that same Bayonne Bridge that needs 
to be replaced.
    And I remember how tight it was there for ships even, I 
hate to say, 25 to 30 years ago when I was working there to get 
through that area. So that bridge, we wondered at that time, it 
probably should have been replaced then. So it is certainly in 
need of replacement now in order to keep the Port of Newark 
viable up there.
    So we understand the importance, and I commit to you to 
track this and work with my people up in that area to make sure 
that we are moving this along as quickly as possible.
    Senator Lautenberg. Thank you. More than 3 million vehicles 
cross the Bayonne Bridge every year. They connect two roads in 
the National Highway System. The Coast Guard is the lead agency 
on the Federal review, but the Department of Transportation 
(DOT) also is a key player. What steps are taken to involve DOT 
in this review process, Admiral?
    Admiral Papp. We work with the Department of Transportation 
very closely. Being our legacy department, we still have many 
contacts, and we have liaisons over there.
    And currently, we are working on a very important project 
out on the Columbia River right now. And Secretary LaHood and I 
met with the Oregon and Washington State delegations to make 
sure that we are keeping that project going along. So we have 
contact at the highest levels and at the working level of the 
DOT to make sure that these high-priority projects get the 
proper attention.

                      FULFILLING CRITICAL MISSIONS

    Senator Lautenberg. This budget has its shortcomings. We 
take whatever we can get, but doesn't mean we have to be happy 
along the way. You are having a difficult time, you said, 
meeting all the Coast Guard's missions under the current 
budget.
    Now how will the Coast Guard fulfill its critical missions 
if automatic spending cuts further reduce your budget next 
year?
    Admiral Papp. Senator, I simply do not know. I mean, I can 
give you a lot of hyperbole right now talking about massive 
cuts, massive decommissionings of ships, and all of that is 
true. I don't have the details. Quite frankly, it is a 
nightmare scenario for us.
    It would cause us to have to reduce our force 
significantly. I am not talking about 1,000 people like in this 
budget. It would be multiple thousands of people from the Coast 
Guard and likely front-line operational units that would have 
to be decommissioned, perhaps training centers.
    It would be going back to some of the things that we were 
confronting in the late 1990s as our budget was whittled down 
over time.

                           DRUG INTERDICTION

    Senator Lautenberg. Madam Chairman, we have to fight our 
way to not let that happen. And I am sure, Senator Murkowski, 
you agree. We are both water-contacted States. Not quite as 
much as you, but little New Jersey has got a lot of coastline 
for the size of the land mass.
    The new things that occur outside of your bailiwick that 
fall to further responsibilities for you. You mentioned these 
drug subs and people out there trying to create ways to get 
past the Coast Guard's purview and the rest of our law 
enforcement organizations. And according to the military, 
limited resources allow for only one-third of the drug 
shipments that the United States knows about to be intercepted.
    Now you said recently the Coast Guard will likely have to 
reduce its drug interdiction role in Latin America with limited 
resources. Now we pay for these deficiencies, one way or 
another. We pay for it in advance and prepare ourselves to stop 
these things before they become problems in both pain and 
suffering in so many ways.
    Costs continue to be there, whether it is incarceration or 
trials or whatever. And if we can cut the supply short before 
it gets here, we are a lot better off. If the Coast Guard's 
role is reduced, what is going to be the impact on our ability 
to prevent drugs from entering?
    Admiral Papp. Sir, this is one of those scenarios that 
doesn't make sense to me. I talked about the drug sub that we 
interdicted just this last month. There was another one just a 
couple of weeks ahead of that where we got 2 tons of cocaine, 
which we actually seized. We estimate in this sub, because they 
scuttled it, but ordinarily those that we have captured carry 
around 5 tons of cocaine.
    We interdict or stop, the Coast Guard, in the transit zone 
between South America and where it enters Central America 
annually roughly about 100 tons of pure cocaine. There is about 
700 tons that are produced in South America. There is a market 
for about 400 tons in the United States. We interdict about 100 
tons.
    The entire law enforcement establishment of the United 
States in the lower 48--Federal, State, and local--only seize 
40 tons each year. So if we can take it out of the transit zone 
before it reaches Central America, where it destabilizes 
countries and creates violence, and that violence is 
approaching our southwest borders, I think we are much better 
off.
    But the only way we can do that is by having substantial 
offshore cutters that we can deploy down to the deep Caribbean 
and to the Eastern Pacific to sit off Colombia and the other 
surrounding countries to interdict those vessels as they try to 
make their way up to Central America. Ninety percent of the 
cocaine produced goes by maritime routes.
    We know at least through South America; it has to transit 
the maritime to get into Central America. And as you say, out 
of all the intelligence that we have queued, we are only able 
to prosecute about 30 percent of that intelligence.
    Senator Lautenberg. Thanks very much, Admiral. Keep the 
ports tight and ready, and we will try to give you the 
equipment and you bring the spirit. Thank you very much.
    Admiral Papp. Thank you, Senator.
    Senator Landrieu. Senator Murkowski.

                              ICEBREAKERS

    Senator Murkowski. Thank you, Madam Chairman.
    And you remind us all, and I think this bears repeating, 
that what we are seeing in the Arctic right now is absolutely 
unprecedented, unprecedented in our Nation's history, in the 
history of the globe. Because what we are seeing is we are 
seeing more water up there. And as Admiral Allen said before 
you, Admiral Papp, I don't know whether it is climate change or 
what it is, but all I know is that the Coast Guard has more 
water that we are in charge of.
    So what we have done with our Coast Guard is the mission 
has expanded because we are seeing a change in the Arctic. We 
are seeing more water that the Coast Guard is now charged with, 
and yet what we haven't done as a Congress is step up to that 
responsibility, acknowledge that as an Arctic nation, we need 
to have an icebreaker. We haven't stepped forward with the 
resources necessary or the manpower or the assets.
    And so, we have got to recognize our role here and provide 
the requisite support for our Coast Guard. As I mentioned in my 
opening comments, Admiral, you have stated that the United 
States is behind the power curve regarding the Arctic. There 
was a Naval War College Gaming Department report that found 
that the Navy is also woefully unprepared and ill-equipped for 
activities in the Arctic.
    So we have got a situation here, whether it is potential 
for resource development that we are hopeful we will move 
forward this summer, or whether it is the increased traffic 
that we are seeing with just commercial activities and 
container ships moving minerals from Russia, moving through the 
straits there, or whether it is cruise ship activity, there is 
greatly stepped up activity in the north.
    So, Admiral, I would ask you to dream just a little bit for 
me. And I know that you are hesitant to say truly what you 
need. But as an Arctic nation, we don't have icebreaking 
capacity right now. The Polar Sea is being decommissioned. The 
Polar Star is being refurbished. She will be back in the waters 
in 1.5 years, but she has got a limited life expectancy, I 
understand, of just about another 10 years.
    We have got the Healy that is our research medium-strength 
cutter, but we don't have any icebreakers. What do we need as 
an Arctic nation to meet the responsibilities that we have?
    Admiral Papp. Senator, part of the problem is, you and I 
understand that we are an Arctic nation. It is hard to get the 
rest of the Nation's attention on----
    Senator Murkowski. So if you and I were in charge?
    Admiral Papp. First of all is educating people. This chart 
that I put down in front of you, the Chief of Naval Operations 
had an equivalent chart as well, and he showed where all his 
threats are. And one of the things that I found interesting is 
he had a little symbol for chokepoints. In other words, in the 
Straits of Malacca, in the Straits of Gibraltar, and other 
places, he had these symbols that indicate that they were 
chokepoints. And those are very important to freedom of the 
seas for the United States.
    And when I looked across his chart, I said you missed two 
key areas. And he said what do you mean? I said the Bering 
Strait and Unimak Pass. For our Nation's prosperity, those are 
two key chokepoints, but the Chief of Naval Operations for the 
United States didn't even recognize that because there are no 
threats for him to deal with up there at present.
    Senator Murkowski. And if we could just tell our colleagues 
here that with there, the Bering Straits, as I understand, is 
about 52, 57 miles, or something like that?
    Admiral Papp. That is about it between us and Russia, yes, 
ma'am.
    Senator Murkowski. Pretty close.
    Admiral Papp. And Unimak Pass, which is even less than 
that, between two islands is on the great circle route between 
the Asian Pacific and our west coast ports, and there are 
literally thousands of ships that transit through there, 
carrying fuel and other things that put us at risk for 
environmental disasters, sinkings, and other things.
    So these are key issues for the U.S. Coast Guard.
    Senator Murkowski. So how many ships, how many icebreakers 
do we need?
    Admiral Papp. Icebreakers, we have done a study. Our high-
latitude study said that, optimally, we should have three heavy 
icebreakers and three medium icebreakers. But that is also 
because we have responsibilities in Antarctica right now as 
well.
    With our present laydown of icebreakers, we are at an at-
risk position. In fact, I lucked out this particular year or we 
lucked out because the National Science Foundation lost their 
lease for the Swedish icebreaker that they were contracting to 
break out McMurdo in Antarctica this year, and they came to me 
and asked if I would change Healy's operational schedule and 
deploy Healy down to Antarctica.
    And my response was, no, I wanted to keep Healy close 
because we are at an at-risk position. And then, lo and behold, 
we had Nome freeze in, and we had to do that emergency fuel 
delivery----
    Senator Murkowski. We appreciate your foresight in not 
sending Healy down south.
    Admiral Papp. I am delighted that I don't have to sit here 
today and explain to you why Healy was in Antarctica when Nome 
was starving for fuel. But the truth of the matter is we simply 
lucked out.
    Senator Murkowski. Let me just finish up then because my 
time has expired here. We have got $8 million now in the budget 
requested for the study and the design of the new icebreaker. I 
have indicated to my colleague that it is somewhere between 
$800 million and $900 million, an 8-year build-out for an 
icebreaker.
    Can you give me a little bit of detail in terms of what is 
next in the acquisition process, what we can realistically 
expect in terms of a timeframe for a new icebreaker to be 
launched?
    Admiral Papp. Yes, ma'am. I would say the $8 million is a 
good start. Survey and design. We need to survey the 
interagency. This is not just a Coast Guard icebreaker. It is a 
United States icebreaker and a very valuable asset to this 
country.
    So we need to make sure that the Department of Defense is 
served, the National Science Foundation is served, the 
Department of the Interior is served. We need to reach out 
across the interagency to make sure we are making 
accommodations for everybody. We didn't necessarily do that in 
the past.
    Although Polar Star and Polar Sea were the best icebreakers 
in the world 30 years ago, they weren't really conducive for 
some of the things that the National Science Foundation has to 
do and other agencies. We built great icebreakers, but they 
weren't necessarily great scientific vessels.
    So if we are going to invest this much of our taxpayers' 
money, we really need the time to go across the interagency. 
Nobody really comes together until you have some money in hand. 
We now have the money in hand. People will come. We will 
consult with the interagency and come up with the design that 
best serves the United States.
    Given that deliberative process and our current acquisition 
rules, I would say that 10 years is probably a reasonable time 
period to figure before we have that ship delivered and able to 
start operations. That is why we have invested in Polar Star, 
to return her to service, so that we can gap that period for at 
least 10 years until we get the new icebreaker in the water.
    Senator Murkowski. I appreciate your statement there, 
Admiral, and I recognize the difficulties. I think we do want 
to make sure that we have got good design that does fit well 
with the needs that are out there.
    But I think we are doing a better job in terms of reminding 
people that we do have responsibilities as an Arctic nation, 
and that we are unprepared. And what can we do to expedite the 
process? What can we do to perhaps look to different 
alternatives?
    And that is why I mentioned in my opening comments, maybe 
it is time that we look to some of the other alternatives that 
might be out there in the private sector. I know that leasing 
is something that the Coast Guard has said you have got some 
real reservations about. But given what we are dealing with 
with budget issues and dealing with the time period that we are 
all talking about here, it causes me to wonder.
    Because I don't want us to be sitting 5 years from now not 
being able to meet the needs and wishing that we had done 
something either interim or had tried to expedite the process. 
I think we are all very concerned that we have got some real 
gaps currently, and how we deal with that is going to be very, 
very critical.
    Admiral Papp. Yes, ma'am. And I didn't want to leave you 
with the thought that I am not open to other ideas. I am. It 
has been suggested on the House side as well, and we will look 
at the leasing opportunities and assess how that works.
    I have just watched Shell Oil go out and get one built very 
quickly. It may not be the type of icebreaker that we would 
want. But on the other hand, you can get it done quickly. And 
if we can get it done quickly for less money, we are always 
open to something like that. So we will investigate that 
possibility.
    Senator Murkowski. Appreciate that. I will have more 
questions in the next round.
    Thank you, Madam Chair.
    Senator Landrieu. Thank you, Senator.

                     INNOVATIVE FINANCING SOLUTIONS

    And that really leads into the question that I wanted to 
ask about options for meeting the challenge that we have. We 
have already made it clear that the need is there. The budget, 
as we have been budgeting, is not going to meet that need.
    So I am either going to do two things. We are either going 
to create a capital budget for this subcommittee, or we are 
going to look for some innovative financing solutions. And I 
would like you to talk for 1 minute about innovative financing 
solutions that either the Coast Guard has considered or you 
have observed the Navy.
    And you don't have to go into too much detail, but give us 
some idea that there might be a way or two out of the situation 
that we are in. Take 1 minute or 2 to describe what you are 
hearing or what you are observing, what you consider, and if 
you have the current authority to do that. And if not, do you 
need this subcommittee or another committee to provide you with 
the authority you need?
    Admiral Papp. Thank you, Chairman.
    Going back to your last round of questioning and the 
statement you made about the capital investment plan and your 
comments now, a point that I would like to make is you 
frequently use the word ``leadership.'' And I think that is a 
key element to all of this that you are talking about.
    Leaders have to be concerned about year-to-year, but if you 
are a true leader and not a manager, you are looking out. You 
have vision. You have a plan. You take your service or your 
agency, you have an objective 10, 20, 30, or 40 years down the 
road that you are building toward because you have to have that 
vision to take into consideration the potential threats that 
your country is going to face along the line.
    The challenge for leaders in this town is we are consumed 
by people whose vision only goes from year-to-year. And we 
spend about 75 percent of our time dealing with people who do 
not have vision, that only focus on year-to-year challenges and 
how to fit within a top line, and it consumes us.
    If we had some way to have stable, predictable, consistent 
funding for our projects, you gain the efficiencies of being 
able to transfer that to industry, which looks for stable, 
consistent, predictable funding for the projects and their 
workforces and their capital plans all along the line.
    Part of the challenge that I face is in order to comply 
with A-11 requirements, we have in the past had to try to fit 
entire costs of one ship into one budget year. And when the 
total cost, long-lead production and post-production cost for, 
let us say, a national security cutter gets up in the vicinity 
of about $700 million, and I am only getting $1.2 billion or 
$1.4 billion in acquisition money, that is half our acquisition 
budget right there.
    Senator Landrieu. So what is an alternative? I mean, just 
roughly. I mean, some other countries must be experiencing some 
of these challenges. The private sector experiences some 
similar challenges.
    So what are some options that you hear about? Is a leasing 
arrangement possible? And if so, are you authorized to consider 
it, or do you need new authorizations?
    Admiral Papp. I will have to get back to you for the record 
on that. We are looking at that because the question has come 
up so often, and I think we are----
    Senator Landrieu. I appreciate you taking a look at it.
    Admiral Papp. We are all a little reluctant. I mean, I have 
leased cars in the past. And I spend a lot of money, and at the 
end of 3 years, I don't have a car.
    So the Coast Guard's practice, because of our funding 
levels for two centuries now, is we generally get a lot more 
out of our assets than any other agency. There is no other navy 
in the world, certainly not the U.S. Navy, that would keep 
ships like ours around 40, 45 years. They are generally 
decommissioned at about 25 years.
    So we have this mindset of taking care of things for long 
periods of time. Maybe there is a better way of doing it. 
Getting for short term and then turning around and getting 
newer things. But we will----
    Senator Landrieu. Okay. I just want you to know that this 
subcommittee is not interested in managing on the margins. Our 
subcommittee is interested in helping you build the Coast Guard 
we need for the country. And in that, I need you to provide us 
with some options and some information.
    [The information follows:]

    For purposes of executing the duties and functions of the Coast 
Guard, the Secretary of the Department of Homeland Security, under 14 
U.S.C. 92, may within the limits of available appropriations ``design 
or cause to be designed, cause to be constructed, accept as gift, or 
otherwise acquire vessels. . . .'' The Federal Acquisition Regulation 
defines ``acquisition'' as ``acquiring by contract with appropriated 
funds supplies or services. . . . by and through purchase or lease.  . 
. .'' The Federal Acquisition Regulation further provides that leasing 
is appropriate if entering into a lease is advantageous to the 
Government. These basic authorities establish that the Secretary has 
the ability to acquire a vessel for the Coast Guard, through a lease 
arrangement. Whether a lease is advantageous must be evaluated based on 
a host of factors, including the likelihood of sufficient budget 
authority and funding to support the lease, and the comparative costs 
between leasing and outright purchase.
    While there are ways to mitigate risks and costs associated with 
leasing, the reality for the Coast Guard is that given the need for a 
domestic producer to design and construct a specific vessel unique to 
Coast Guard multi-mission requirements, the risks are enormous for the 
shipbuilder. The shipbuilder will seek to shift those risks and costs 
to the Coast Guard. That dynamic is likely to undermine many of the 
advantages the Coast Guard would seek to exploit by pursuing a lease.
    The Coast Guard has traditionally acquired its capital assets 
through procurement. This approach is undertaken primarily due to the 
length of time the Coast Guard maintains these assets in service. For 
example, the majority of the Coast Guard's major cutters have been in 
service for more than 40 years, which from a business case perspective, 
generally makes acquisition more cost effective than leasing.

    Senator Landrieu. I think Senator Murkowski and I are in a 
great position in the leadership positions that we hold, both 
on Appropriations and Energy, et cetera, to think outside of 
the box and to make some things happen. I have no intention of 
serving as chairman of the Homeland Security Committee and 
operating around the margins.
    I will not be constrained by the current nonsense that I 
hear about the budget of the United States. And so, while I 
realize that resources are limited, ideas are not limited. And 
dreams are not limited, and new approaches aren't limited. And 
so, we are going to explore them because I intend to build and 
support the Coast Guard the country needs.
    We can't close our eyes to the things happening around the 
world. I mean, what the Senator described in Alaska, whether 
people acknowledge it or not has no bearing on whether it is 
true. I mean, it is true, period. Their acknowledgment of it or 
their education of it matters nothing to me because we know 
what we have to do.
    And when I look at the budget that I have, I honestly have 
to say I can't do it, and I am not prepared to not do it. So I 
have really got a big challenge here, and I need you to help 
me.

                   HOUSING AND CHILD CARE FACILITIES

    Let me just move to one more question and then I am going 
to submit the rest for writing. But I am very interested in 
this issue. First Lady Michelle Obama and Dr. Biden have spent 
a lot of their time on something that I think is very 
important, and that is really meeting our commitment to the men 
and women in the military by caring for their families.
    Everybody I have ever met that served in any service has 
said to me over and over again, and I am sure, Senator, to you. 
``Please, Senator, don't worry about me. I want you to take 
care of my spouse. I want you to take care of my children.''
    So I have taken that to heart, and we have tried to focus 
some efforts as appropriators on housing, on daycare, on good 
education systems for our men and women in uniform. I am sure 
that the men and women of the Coast Guard tell you the same 
thing.
    So, in our budget last year, we plussed up a little bit 
what we could on our daycare and our education. But unlike the 
Army and the Navy, of which I serve on the Milcon subcommittee, 
which are in cities and near urban areas, the Coast Guard finds 
itself in very rural areas, just by the nature of your mission.
    I mean, you are on the coast. Sometimes there are big 
cities there, but sometimes, often--and I am sure this is true 
in Alaska--it is very rural. So what are we doing to help our 
Coast Guard families? Could we suggest some things, some new 
opportunities for financing, and how tough is the situation 
that you are facing?
    And if you could sort of describe the general housing that 
your Coast Guard people and families are living in. Is it very 
good? Is it mediocre? Is it very poor? If you could help us 
understand what we might be able to do because we want to make 
sure our families are safe and that we really do honor their 
service by providing them a safe and adequate place to live.
    Admiral Papp. Thank you, ma'am.
    I think, as you know, my wife Linda and I have taken this 
to heart. Two of our highest-priority projects that we have 
been working in all the extra time that we have in our visits 
as we travel around the country is housing for our people and 
getting proper child care facilities for our people as well.
    That is why we so deeply appreciated the plus-up that we 
received last year, and we have put that to good use. We have 
lowered cost for our junior families to be able to put their 
children in child care centers. We have brought on new 
instructors. We have trained people so that they can do at-home 
daycare as well. We have also had the opportunity to take on a 
couple of housing projects that we desperately need.
    But I would categorize housing for our people, because that 
is a specific question, I would say mediocre to poor for the 
most part, particularly when you compare it to what the 
Department of Defense has. And I will qualify that by saying 
that we have been able to take advantage of, in numerous areas 
now, the authorities that the Department of Defense has for 
public-private ventures.
    I was just out in the 14th Coast Guard district, Hawaii, 
recently to do some official visits out there. We transferred 
property. It used to be the Coast Guard Red Hill housing area. 
We transferred that property to the Army, and the Army took it 
over as the manager. The Army used its authorities, and it 
built brand-new houses. And I toured a couple of those.
    Senator Landrieu. Aren't they amazing?
    Admiral Papp. I am proud to say our Coast Guard people live 
in those houses. I, myself, live in a public-private venture 
house. Now we sold the Commandant's home that we had for 40 
years, and we went public-private venture with the Air Force 
over at Bolling. So I know the benefits of that process.
    The challenge for the Coast Guard is we will never have 
enough money in our budget to be able to score against 
contracts. Plus, it is hard to get contractors to come in 
because we are so widely dispersed. They really need a large 
focused area. That is why we are using the Department of 
Defense, and I think that is the best route for us right now.
    We are doing it in Puerto Rico. We are doing it in the 
Alameda area, San Francisco area and, as I said, out in Hawaii, 
and it is working very well for us.
    To take care of that mediocre to poor housing, we have 
taken some of our money, and we have done a complete survey of 
all our housing across the Coast Guard. We will probably divest 
ourselves of some of that poor housing in order to take the 
limited resources that we have and improve the mediocre up to 
good.
    And we are well into that project. We have created a 
project line at one of our civil engineering units that is 
focused solely on our Coast Guard housing, and we are moving 
out smartly to make sure that we do better for our people.
    In Alaska, for instance in Juneau, we found that there were 
people waiting 6 months for housing up there in some cases. And 
we have now instituted Government leases, and we have relieved 
that challenge that we face. So it is a multivariable problem 
for us that we are confronted with because we are so widely 
dispersed and that we don't have the same authorities as the 
Department of Defense.
    One of the other things that we are very proud of as well 
is we have taken our limited money, and some of our commanding 
officers out there have initiated self-help projects. Our 
people who live in the housing, with limited funding that we 
have to buy paint and materials, have done self-help projects 
and done significant repairs and improvements to the housing.
    We had hoped to be able to take the proceeds from the sales 
of Coast Guard properties like the Commandant's house. We sold 
the Commandant's house for nearly $2 million. And we thought 
that that was going to go in a revolving fund that we would be 
able to then take out and use for improvements to the housing 
that we already own.
    What I have discovered is the way the law was written or 
the bill was written, it is a little challenging, and it gets 
scored against our other budget. So we have got that money in 
escrow right now, and we are investigating to see what we need 
to do to----
    Senator Landrieu. I am going to help you fix that, and I am 
going to put language in my bill to make sure that when you 
sell surplus property, you get to keep the proceeds to invest 
back into your housing. And I don't know how much pushback I am 
going to get, but I am going to try to do it.
    Senator Murkowski, go ahead.

                       SHORE-SIDE SUPPORT ASSETS

    Senator Murkowski. Thank you, Madam Chairman.
    I appreciate that you brought up the quality of life issues 
and what we are doing for our families. And Admiral, please 
convey my personal thanks to your wife. Linda has taken a true 
leadership role and in doing I think a very considerable reach-
out to the families and to look at issues that I think we 
recognize is the quality of life things that will keep our men 
and women within the Coast Guard. So it is very, very 
important.
    And I would also be remiss if I did not acknowledge the 
very difficult situation that the men and women in Kodiak are 
facing currently. We had a double homicide on the Kodiak air 
base there that is as yet unresolved. And in a small island 
community like Kodiak, it is, I think, quite nerve-wracking for 
the families concerned about their security.
    I know the Federal agencies are working hard and with the 
great help of the Coast Guard to try to resolve this. But when 
we talk about the health and safety, I think we are always 
concerned when there is something of this nature. So my 
thoughts and prayers go out to all those that are working so 
hard to resolve this.
    I have spent most of my focus this morning on the issue of 
icebreakers, but I think we recognize that we are also going to 
require some shore-side support facilities, both for surface 
and afloat assets. Contained within your budget here is support 
for the shore-side facility, $6.1 million to recapitalize and 
expand the hangar facilities there in Cold Bay and also the 
refueling facilities there at Sitkinak. Very important.
    But I think it is important for people to understand that 
when we are talking about servicing, using our helicopters 
going from Kodiak to respond up to Barrow, it would be the 
equivalent, if you will, of basing yourself in Miami and flying 
across to San Diego to respond. This is what we are talking 
about.
    And so, not only are our helicopter assets limited, but 
where do you stop to fuel up? How do you get from point A to 
point B when the weather is difficult? So having these 
additional facilities, I think, is going to be key and will be 
part of what we have to move forward in the Arctic.
    We have got community leaders, as you know, in spots along 
the Northwest that are all advocating for improved 
infrastructure, whether it is Nome or Kotzebue, Port Clarence, 
the other locations that are willing to help meet the needs of 
this changing Arctic, focus on the deepwater port, and the 
study that we are all awaiting.
    And I guess the question to you this morning, Admiral, on 
that is what is the Coast Guard's involvement at this point in 
time in the planning for these locations? Are you working with 
the Corps of Engineers on this? Where are we with regards to 
the deepwater port, as well as some of the onshore 
infrastructure, the shore-side assets that we are talking 
about?
    Admiral Papp. Right. As far as the deepwater port project 
goes, certainly that is of interest to me because we are going 
to be increasingly sending our ships, our aircraft, our people 
up there, and we need a means of support for them as well. I 
will admit to you that I don't have the details of where we are 
as of today.
    Admiral Ostebo and his folks up in Juneau and Anchorage 
have been monitoring and working with the Corps of Engineers 
and the State to look at recommendations and make 
determinations as to where we should go up there.
    Senator Murkowski. Who is the lead agency on that? Is it 
the Corps of Engineers? Is it Coast Guard? Do you know?
    Admiral Papp. My belief--it would be the Corps of 
Engineers--is inevitably, whatever you have to do, there is 
going to be structures that are placed in the water, perhaps 
some dredging that has to occur. And all of that is a challenge 
up there for any one of those ports.
    Senator Murkowski. And it may just be that I need to visit 
with Admiral Ostebo myself and just get a better understanding 
in terms of where we are. Because I have streams of folks 
coming in, wanting to know where we are, whether or not--
wherever it is Nome, Kotzebue, Port Clarence, wherever, what 
the situation is on the ground. And I would like to have a 
little better understanding.
    At a minimum, I think what I would like is to know what the 
requirements are for the deepwater port, the pier service 
location because it may be if we know what the requirements are 
ahead of time, you will have communities say, we can't meet 
that or we can meet that. So that they know whether or not 
there is more that they might be able to offer up. Are you 
aware of whether or not we have pinned any of that down yet?
    Admiral Papp. No, we haven't. And quite frankly, what I 
have been focused on is what are the infrastructure needs that 
the Coast Guard will need up there operating?
    Senator Murkowski. Right.
    Admiral Papp. We haven't projected any shore-side 
construction. I mean, at a minimum right now, there is a need 
for hangar space in Barrow.
    Senator Murkowski. Right.
    Admiral Papp. And we are not talking deepwater port when we 
talk that. But in terms of conducting Coast Guard operations, 
at some point in time, we are going to need a communications 
infrastructure across the North Slope. We are probably going to 
need expanded landing strip capability, tarmacs, a hangar, 
places to put people, all of which don't exist in Barrow right 
now, but that is the optimal spot for it.
    The challenge I face is I have probably about, right now as 
we speak, a $2 billion shore backlog of repairs and 
improvements needed for shore infrastructure, and we haven't 
even begun to consider what we might need on the North Slope up 
there. In this year's budget, I think we try to get about $200 
million a year in the budget to try chipping away at that 
backlog.
    Last year, we got close to $200 million. We are down to 
about $70 million because of tough tradeoffs we had to make in 
the budget this year. So, suffice it to say, we aren't making a 
lot of progress against that backlog, and it is very difficult 
to take on new projects for infrastructure as well.
    That is why it is so important for this national security 
cutter. For the foreseeable future--I would say the next 5 
years--we are going to be safe and secure up there during the 
months that Shell and the other companies are up there 
drilling, and the influx of people and ships that will bring. 
Because a national security cutter, quite frankly, is floating 
infrastructure.
    It has a flight deck. It has worldwide communications, 
command, and control. It can sustain itself for 90 or more days 
with fuel, water, and supplies that it brings on. And it is 
like having a sector Anchorage and being able to uproot it and 
sail it up there off the North Slope. So it will serve us well 
for the next 5 years or so as we start putting together plans 
for what we need for infrastructure up there in the Arctic.

                    NUMBER OF FAST RESPONSE CUTTERS

    Senator Murkowski. Yes, the national security cutters are 
incredibly impressive. Let me ask one more question, if I may, 
Madam Chairman, and then I will submit additional questions for 
the record.
    And this relates, too, to the fast response cutters. I 
guess the question would be what the ideal number is. It is my 
understanding that if we don't move forward with what I am 
assuming would be the ideal number out there, that the proposal 
currently, which is Ketchikan receiving two of the FRCs--and I 
understand also Hawaii would receive two additionally--that 
those are then not necessarily off the table, but for the 
foreseeable future we may not be seeing those assets coming 
north. Is that your understanding?
    Admiral Papp. I have high confidence that this project is 
going to continue through to completion. With this budget, we 
will be up to 20 of the fast response cutters of the 58 that we 
planned to build out in the program of record, and it has got 
great support. So I see us continuing.
    Now given the funding levels in any particular year, yes, 
there could be some delays in how they are and when they are 
delivered. We are hopeful that we can keep up the schedule that 
we currently have.
    Under the scenario that was given earlier, we put six back 
into 2012. And if we were to build four or more in 2013, that 
keeps us on track and moving along. It also gives us 
substantial savings as well. When you are building six per year 
down in Lockport, you are saving yourselves probably about, 
saving us and the taxpayers about $30 million a year.
    Senator Murkowski. And keeping that production moving is 
good again for the efficiencies, but there is also a real 
concern that if we do reduce it--you are talking about minimum 
production levels. If we go below those minimums, I think there 
is real concern about how we meet that ideal number, that 
number that I think you and I would agree is necessary to 
provide for the work that needs to be done.
    Admiral Papp. Yes, ma'am.
    Senator Murkowski. Thank you, Madam Chairman.

                     NATIONAL SECURITY CUTTER COST

    Senator Landrieu. Thank you, Senator.
    And I have just two brief questions. We are going to close 
out by 11:30 a.m.
    Following up the long-lead time on the national security 
cutter, our subcommittee included $77 million above the request 
for the Coast Guard to acquire long-lead time materials for 
national security cutter No. 6 in advance of production. We 
have talked about this, but I just want to be clear. How has 
this funding helped minimize the cost for the national security 
cutter?
    And if no funding is provided for NSC No. 7, will there be 
a likely break in production? And for each delay, what are the 
projected cost increases for those cutters?
    Admiral Papp. Yes. First of all, we are deeply appreciative 
that we received that $77 million last year. And in fact, just 
to show the efficiencies of having predictability and a funding 
stream and everything else, my recollection is we actually came 
in $2 million below that for the long-lead materials because 
they were able to gain some efficiencies through their 
purchasing processes, and we executed that.
    Having those materials on hand allows the ship to be 
constructed. Our estimate is between $30 million to $40 million 
in savings, and it gets us the ship delivered a year earlier. 
So if there is any break in subsequent funding for follow-on 
national security cutters, you can expect probably a cost 
increase, an every year delay of probably about 10 percent is 
what we estimate. And a commensurate delay in delivery.
    Senator Landrieu. Okay. Let me just close out with some 
comments about the Panama Canal because I think this is 
something that is also, Senator Murkowski, just game-changing 
for our country. I have some information here that I want to 
submit to the record about these new Panamax cruise ships.
    The length of the new Panamax cruise ship is 1,200 feet. 
The current lock, the length of the current, the old lock is 
1,050 feet. So when the new locks are built, the new locks are 
going to 1,400 feet to accommodate a new length for these huge 
cruise ships of 1,200 feet.
    So for people to understand, the cruise ships that are 
coming through, that want to come through the Panama Canal, 
physically cannot fit through the canal today, and that is why 
it is being expanded. In addition to the tremendous potential 
growth in cruise ships, which the Coast Guard is responsible--
not the Navy--but the Coast Guard is responsible for the safety 
of the souls on these cruise ships, and there are more and more 
souls now that are going to be on the cruise ships in the event 
that something would happen.
    You also, I think, have some obligation for any pollution 
or discharges that are illegal. And it is growing industry of 
which your State, of course, benefits. So does my State. But 
these are the kinds of extraordinary changes that are taking 
place that I don't think our budgets, Senator, are preparing us 
to accommodate.
    This is just one industry. This isn't the cargo. The large, 
large containers of cargo that are going to be unloading three 
times to four times the amount of the containers. So I know we 
have a real challenge before our budget, and I am not going to 
spend the next 5 years, 6 years, or 10 years, as long as I am 
here, nibbling around the margins. Not going to happen.
    So we are going to have to find a way forward that 
accommodates the reality of industry and life and challenges in 
the United States, and we have a big job to do.

                     ADDITIONAL COMMITTEE QUESTIONS

    So I thank you, Admiral, for your testimony. Please submit 
anything else about the Panama Canal for the record, about 
Alaska, about our lease opportunities, about new ways of doing 
things, because we obviously can't continue to put the pencil 
to this budget and wake up in 20 years and think we have done 
our job. Because our job will not have been done well.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                     support for military families
    Question. Last year, First Lady Michelle Obama and Dr. Jill Biden 
launched efforts to strengthen support for military families and set 
four strategic priorities:
  --Enhance the psychological health of the military family;
  --Ensure excellence in military children's education and development;
  --Develop career and educational opportunities for military spouses; 
        and
  --Improve the quality and availability of child care services.
    In fiscal year 2012, we included $9.3 million to help Coast Guard 
families offset the costs for child care. We also included $20 million 
to address a shortage of military housing in areas where there is a 
lack of affordable accommodations.
    Can you describe what the Coast Guard is doing to make additional 
improvements in these areas?
    Answer. The Coast Guard is using the fiscal year 2012 appropriation 
of $20 million to build 15 family units and complete initial site work 
for future phases of housing construction in Columbia River Astoria, 
Oregon and renovate one wing of unaccompanied personnel housing to meet 
current construction code and habitability standards in Cape Cod, 
Massachusetts. These two initiatives will enable the Coast Guard to 
address critical housing shortfalls affecting military family readiness 
and provide for the well-being of our junior enlisted personnel. 
Additionally, the Coast Guard leases residential housing for military 
families in locations that lack adequate affordable housing, and most 
recently entered into leases in Juneau, Alaska for single non-rated 
personnel assigned to afloat units and not entitled to basic allowance 
for housing. The Coast Guard continues to look for situations where we 
can partner with DOD and leverage their housing programs. In the past, 
we have successfully partnered with DOD and their housing areas, such 
as the joint Army-Coast Guard project at Red Hill, Hawaii, and the 
Navy-Coast Guard partnership at Belle Chase, Louisiana.
    The Coast Guard is using the additional $9.3 million to expand our 
Childcare Subsidy Program. The Coast Guard has adjusted income 
categories to align with DOD child care programs and increase the total 
family income cap, offsetting the cost of child care for additional 
Coast Guard families. In addition, the Coast Guard received funding for 
seven training and curriculum specialist (TAC) and five child 
development services specialist (CDSS) positions. Recruitment efforts 
for these positions are currently in progress. The seven TACs will be 
assigned to our Child Development Centers (CDC) to ensure the centers' 
continued accreditation by providing consistent, enhanced curriculum 
for both CDC staff and the children attending the CDCs. The five CDSSs 
will allow the Coast Guard to sustain and expand our Family (In-Home) 
Child Care Program, increasing the availability and accessibility of 
child care for families in Coast Guard-owned and leased housing. The 
CDSSs will also assist both the CDCs and Coast Guard families in 
addressing child educational and developmental issues.
    Question. Has the Coast Guard asked the authorization committees 
for authority to spend receipts deposited in the Coast Guard Housing 
Fund on military housing without the funds being subject to 
appropriation? If so, what is the status of that request? Does the 
Coast Guard have an estimate of potential receipts from the sale of 
surplus property?
    Answer. The Coast Guard has not requested the authority to spend 
Coast Guard Housing Fund moneys without an appropriation.
    The table below depicts the receipts and expected receipts from the 
sale of real properties.

                                          REAL PROPERTY SALES RECEIPTS
----------------------------------------------------------------------------------------------------------------
                                                                        Coast Guard
                Property                          Sale status          sale proceeds           Date sold
----------------------------------------------------------------------------------------------------------------
Kennedy Drive, Chevy Chase, MD..........  Sold......................      $1,700,000  Sep 2011
Snug Hill Lane, Potomac, MD.............  Sold......................         845,000  Aug 2011
Goldsboro, Bethesda, MD.................  Sold......................       1,400,000  Oct 2011
Clyde Hill, Seattle, WA.................  Sold......................         635,000  Feb 2012
Parcel 1, Maui, HI......................  Sold......................     \1\ 270,000  May 2012
Parcel 2, Maui, HI......................  Sold......................     \1\ 271,400  May 2012
Parcel 3, Maui, HI......................  Sold......................     \1\ 278,000  May 2012
Parcel 4, Maui, HI......................  Sold......................     \1\ 231,100  May 2012
Parcel 5, Maui, HI......................  Sold......................     \1\ 274,000  May 2012
Parcel 6, Maui, HI......................  Sold......................     \1\ 285,000  May 2012
Buxton Housing, Cape Hatteras, NC.......  Awarded \2\...............       2,625,000  July 2012 (pending)
                                         -----------------------------------------------------------------------
      Total Receipts....................  ..........................       8,814,500  ..........................
----------------------------------------------------------------------------------------------------------------
\1\ Receipts from sale have not been transferred to the Coast Guard.
\2\ Awarded indicates the selection of a buyer following the end of the auction period.

    Question. Please evaluate existing laws for the Department of 
Defense which provide authority or guidelines for incremental funding 
of major assets and housing and provide to the subcommittee your 
assessment of the value of such authorities or guidelines were they to 
be applied to the Coast Guard.
    Answer.
    Housing.--The Coast Guard is unaware of any instance where Congress 
has granted permanent or project-specific authority to the Department 
of Defense that would allow for the use of appropriated funds, on an 
incremental basis, for the acquisition of real property, the 
improvement of undeveloped land, or the rehabilitation or redevelopment 
of existing improvements.
    Major Assets.--Limitations on the use of funds through the Anti-
Deficiency Act (31 U.S.C. section 1341, 31 U.S.C. section 1342 and 31 
U.S.C. section 1517) serve as the foundation of the full-funding policy 
and preclude incremental funding.
                           arctic operations
    Question. Currently, the Coast Guard has two heavy polar 
icebreakers, the Polar Sea and the Polar Star. The Coast Guard is 
planning to decommission the Polar Sea and the Polar Star is being 
refurbished and will be reactivated in 2013 for another 10 years of 
service. The budget request includes initial funding for a new 
icebreaker, but it will take 8-10 years to complete, assuming funding 
is provided.
    Royal Dutch Shell hopes to begin exploratory drilling operations in 
U.S. Arctic waters this summer.
    Following the Deepwater Horizon spill in 2010, over 47,000 
personnel and 7,000 vessels were deployed in response.
    Can you discuss the Coast Guard's offshore response capabilities in 
the Arctic region today?
    Answer. A spill response by Coast Guard in the Arctic would 
primarily differ compared to a spill in non-Arctic regions because of 
the distance to remote spill locations, lack of pre-staged equipment, 
and lack of supporting shore-based infrastructure. Adverse weather 
conditions such as ice, low visibility, and prolonged darkness also 
reduces the effectiveness of a response effort. However, exploratory 
drilling in the Arctic is at much shallower depths, with significantly 
lower well pressures and therefore smaller worst case discharge as 
compared to deepwater wells in the Gulf of Mexico.
    Unlike smaller commercial entities operating in the Gulf of Mexico, 
drilling projects in the Arctic maritime are currently feasible only 
for highly capitalized companies such as Shell. Such companies are able 
and committed to bringing substantial resources to the region to 
fulfill their regulatory mandate to provide spill response equipment. 
Also, the Department of the Interior and the Coast Guard review prior 
to approval to move/activate drilling equipment into the drilling 
region the following items: whether the rig conforms with international 
safety and security standards; performance of safety equipment (i.e., 
the blowout preventer, emergency generators, lifesaving and 
firefighting equipment); and crew certifications. Cascading additional 
private resources into the region after an incident will be a challenge 
due to distances involved and a lack of supporting infrastructure in 
the Arctic. Cascading Coast Guard oil spill response resources into the 
Arctic would face similar logistical challenges.
    In the event of a spill, the responsible party is accountable for 
controlling the release and mitigating any damage. As a regulatory 
agency and Federal first responder, the Coast Guard has worked closely 
with other Federal, State, tribal, and industry stakeholders to review 
contingency plans so that if an incident does occur, the Coast Guard 
can, with its partners, assist the responsible party to minimize 
adverse impacts to the environment, individuals, and commerce.
    The Coast Guard has conducted extensive oil spill planning at the 
regional response team and local sub-area committee levels to address 
the challenges of responding to an incident in the Arctic region. The 
Alaska Federal/State Preparedness Plan for Response to Oil and 
Hazardous Substance Discharges/Releases is referred to as the Alaska 
Unified Plan. The North Slope and the Northwest Arctic Subarea 
Contingency Plans are 2 of 10 subarea plans that make up the Alaska 
Unified Plan. These plans represent a coordinated and cooperative 
planning effort between members of the Environmental Protection Agency, 
U.S. Coast Guard, Alaska Department of Environmental Conservation, U.S. 
Department of the Interior, and numerous other Federal, State, local, 
and native as well as industry participants. These plans include site-
specific response strategies known as geographic response strategies 
that are tailored to protect sensitive areas threatened by an oil 
spill. The Alaska Unified Plan and its Sub-Area Contingency Plans 
contain extensive guidance on response procedures that have been 
developed for the challenges specific to Alaska and the Arctic 
including response to oil spills in or near ice conditions. The Coast 
Guard, the Alaska regional response team, in coordination with the 
private sector and local community, have actively updated these plans 
to address the challenges presented by offshore drilling within the 
last 6 months.
    This summer, the Coast Guard is planning Operation Arctic Shield 
2012 that will stage ships and aircraft in the vicinity of proposed 
Arctic drilling sites (Chukchi and Beaufort Seas). These assets will be 
prepared to respond to and provide command and control for search and 
rescue, law enforcement, and oil spill response incidents should they 
occur.
    Operation Arctic Shield 2012 will be supported by a mixture of 
Coast Guard flight-deck equipped cutters, sea-going buoy tenders, 
fixed-wing aircraft and helicopters, and shore forces.
    Question. If a spill of significance occurred in the Arctic, how 
long would it take to get response personnel and vessels in place?
    Answer. Shell oil spill response vessels and crews, as well as 
other private sector resources will be pre-positioned near the proposed 
drilling sites available for response to potential oil spills while 
drilling activities are underway.
    The Coast Guard will have ships and aircraft in the vicinity of 
proposed Arctic drilling sites (Chukchi and Beaufort Seas) that, in 
conjunction with our partners and industry, can respond to and provide 
command and control for an oil spill incident.
    Additional response equipment is located throughout Alaska and the 
United States, and can be cascaded into the affected area in the event 
of a spill but will be a challenge due to vast distances and lack of 
supporting infrastructure. Any cleanup operation that occurs beyond 
that period into the Arctic winter months would present significant 
challenges; due to extremely harsh operating environment, including 
adverse weather, cold temperatures, ice, and periods of extended 
darkness.
    Effective preparedness and response is dependent on the equipment, 
capabilities, and logistical infrastructure the private sector (vessel, 
facility, and offshore platform operators) has in place coupled with 
diligent Federal and State oversight and cooperative exercise to ensure 
that systems are in place and manageable during an event.
                             c-27j aircraft
    Question. The U.S. Air Force has targeted over 280 aircraft for 
elimination over the next 5 years, including 21 new C-27Js that are 
essentially brand new planes that haven't been used. The Coast Guard 
has a significant need for similar type planes.
    Could these aircraft be used for Coast Guard missions and are you 
looking at the possibility of acquiring them from the Air Force?
    Answer. The Coast Guard has previously established that the C-27J 
meets the key performance parameters of a medium-range surveillance 
maritime patrol aircraft. However, in its current state, the aircraft 
would require maritime missionization to meet all Coast Guard 
requirements. The Coast Guard is conducting a holistic cost analysis to 
identify the feasibility and specifically what funding would be 
required to operate the aircraft as part of the Coast Guard fleet; the 
Coast Guard has communicated our potential intent to the Air Force.
    Question. What are the potential budgetary savings if the Air Force 
were to transfer these C-27Js to the Coast Guard as compared to buying 
new aircraft?
    Answer. Coast Guard's preliminary business case analysis estimates 
that the transfer of C-27J aircraft to the Coast Guard would result in 
an approximately $900 million capital cost avoidance as compared to the 
Program of Record. The estimated savings considers only the cost of the 
acquisition of those airframes and does not include the net cost to 
missionize the asset, infrastructure costs, or cost to crew, operate, 
and maintain the C-27.
                    semi-submersibles ``drug subs''
    Question. As you know, there is a troubling trend of semi-
submersible vessels being used by smugglers to transport cocaine to the 
United States. The Coast Guard recently intercepted its 31st semi-
submersible in the Western Caribbean. Over the last 6 years the Coast 
Guard has intercepted 26 of these vessels in the eastern Pacific and 
five in Caribbean waters.
    What is the most effective strategy to counter this threat and is 
the Coast Guard properly resourced to address it?
    Answer. Transnational criminal organizations (TCO) use self-
propelled semi-submersible (SPSS) vessels whenever they believe that 
these more costly vessels will have the best chance of successfully 
delivering drugs to their initial landside transit point. The Coast 
Guard employs specific tactics, techniques, and procedures for 
detecting and interdicting SPSS vessels at sea. The Coast Guard 
utilizes various surface and air assets for detection of SPSS vessels 
including maritime patrol aircraft (MPA), cutter-based helicopters, and 
boats and cutters. The Coast Guard also deploys law enforcement 
detachments onboard U.S. and Allied Naval vessels that deploy to the 
drug transit zones and operate under the control of the Coast Guard or 
joint task force. All of these assets possess both day/night optical 
detection equipment, including but not limited, to night vision, 
infrared cameras, and radars. As the Coast Guard recapitalizes its 
aging fleet, we are increasingly effective at implementing these 
tactics.
    The Coast Guard and Joint Interagency Task Force South (JIATF-S) 
partner to conduct the detection and monitoring (JIATF-S led) and 
interdiction and apprehension (Coast Guard led) missions against 
counter-drug threats, including SPSS vessels. The Coast Guard, U.S. 
Navy, and certain Allied Partners deploy surface and air assets to 
JIATF-S, which best positions these assets to detect and interdict 
SPSS.
    The best strategy is to deter TCOs from building and employing SPSS 
vessels. The Drug Trafficking Vessel Interdiction Act of 2008 (Public 
Law 110-407) criminalizing the operation of and embarkation in 
stateless submersible and semi-submersible vessels navigated outside 
the territorial seas of any country with intent to evade detection, 
provides a necessary legislative tool to counter this threat. 
Subjecting the crew of interdicted SPSS to prosecution in U.S. courts 
can lead to new intelligence for identifying SPSS points of origin and 
positioning assets for future interdictions.
                              panama canal
    Question. The Panama Canal is being widened to accommodate larger 
cargo vessels. This expansion is expected to be completed in 2015. Some 
U.S. ports are anticipating larger ships and increased ship traffic 
after the expansion project is completed.
    What is the Coast Guard doing to respond to this development and 
are there any budget implications?
    Answer. The Coast Guard's Port State Control program is not 
anticipating a significant increase in workload as a result of the 
arrival of larger vessels that may result from the widening of the 
Panama Canal. Larger vessels may reduce the number of calls in certain 
ports and increase in others. Workforce adjustments can be made as a 
result of workload changes, if necessary.
    Coast Guard aids to navigation (ATON) may be affected if channels 
are required to be widened to accommodate larger ships. The U.S. Army 
Corps of Engineers would be responsible for providing notification to 
the Coast Guard for any congressionally approved channel improvement 
project that will affect Federal ATON; this notification will provide 
the Coast Guard with time to analyze the current ATON system and assess 
impacts. As these impacts are not yet known, there are currently no 
estimated budget implications.
                       unmanned maritime vehicles
    Question. Do you support increased use of these alternative 
platforms that may provide the potential for cost savings and improved 
performance to the Coast Guard for diverse missions such as improved 
situational awareness, search and rescue, and oil spill detection and 
response?
    Answer. The Coast Guard supports the employment of unmanned 
capabilities as a complement to manned assets. The Coast Guard is 
currently preparing to test a cutter-based unmanned aircraft system 
(UAS) onboard a national security cutter this summer. Unmanned aerial 
maritime vehicles are expected to provide increased surveillance and 
detection capability, and reduce the exposure of Coast Guard personnel 
to hazardous operating environments.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. If you do not achieve your National Security Cutter 
Program of Record, how will this impact Coast Guard operations? Would 
you have to sacrifice execution of some missions as a result?
    Answer. There has been no decision to change the current Program of 
Record. The major cutter acquisition programs (NSC and OPC) are 
currently under review to assess whether alternative mixes of these 
assets would achieve similar overall performance or better. The Coast 
Guard will continue to assign available resources to address the 
greatest risk areas.
    Question. Is it feasible and cost-effective to keep the remaining 
high endurance cutters running?
    Answer. Maintaining the remaining high endurance cutters (HECs) is 
necessary to continue front-line operations, but doing so long-term is 
not effective from a return on investment standpoint. Built between 
1967 and 1972, the HECs are currently operating beyond their economic 
service life and experiencing decreased operational availability and 
increased maintenance costs. Now approaching 50 years of service life, 
the Coast Guard is continuing to spend considerable additional 
maintenance funds in order to keep these cutters operational; thus, the 
priority of the Coast Guard is recapitalizing the major cutter fleet.
    Question. Your fiscal year 2013 budget request reflects plans to 
decommission two high endurance cutters, three patrol boats, and 
termination of the high tempo high maintenance patrol boat program. If 
this happens, will the Coast Guard face challenges with regard to 
meeting its statutory operational requirements? If so, how large and 
how long will the gap in operational capabilities be? What can be done 
to mitigate the effects of these potential gaps?
    Answer. The Coast Guard is decommissioning legacy cutters as new 
and more capable assets become operational; five fast response cutters 
(FRC) and three national security cutters (NSC) are expected to be 
fully operational by the end of fiscal year 2013. Each FRC will provide 
20 percent more capacity in terms of operational hours than the 110-
foot patrol boats that they are replacing.
    In fiscal year 2013 major cutter capacity will drop by 2,498 
programmed hours as older in-service assets are decommissioned and 
newer, more capable cutters are brought on-line. Also patrol cutter 
capacity will drop by 13,750 programmed underway hours, primarily 
reflecting cessation of high tempo high maintenance operations.
    The 110-foot Patrol Boat Mission Effectiveness Project, which will 
complete the final hull in summer 2012, has improved patrol boat 
reliability for remaining in-service hulls, until transition to the FRC 
fleet is completed. The Coast Guard will continue to assign available 
resources to address the greatest risk areas.
    Question. Admiral, with your statement in February 2012 that 
national security cutter No. 1, Bertholf will deploy to the Arctic this 
year, does this mean that other national security cutters will continue 
to deploy there? If so, how will that impact other future missions and 
major cutter availabilities? What is the long-term strategy with 
respect to supporting the myriad of missions the Coast Guard capably 
performs given the current resource constraints that you face?
    Answer. Similar to the legacy high endurance cutters that operate 
in the Arctic, the national security cutter will patrol and provide a 
response and command and control platform during the ice-free portion 
of the summer, with some enhanced operating capability. The Coast Guard 
will continue to utilize the most appropriate assets to balance risk 
across all mission areas.
    The Coast Guard will continue to allocate resources in a manner 
that strikes the optimal balance between sustaining current operations 
and investment in future capabilities required to sustain the ability 
to execute missions and address the most pressing operational 
requirements.
    The Coast Guard strategy includes the four following priorities:
  --Responsibly rebuild the Coast Guard;
  --Efficiently preserve front-line operations;
  --Strengthen resource and operational stewardship; and
  --Prepare for the future.
    Responsibly rebuilding the Coast Guard requires a continued focus 
of resources on recapitalizing cutters, boats, aircraft, and command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance systems as quickly and cost-effectively as possible.
    To preserve front-line operational capacity, the Coast Guard will 
prioritize investments for the operation of new assets delivered 
through acquisition programs.
    Strengthening resources and operational stewardship is achieved 
through a doctrine, policy, operations, and mission support structure 
that focuses resources and forces where they are most needed.
    To prepare for the future, the Coast Guard continuously assesses 
emerging maritime threats facing the Service and the Nation and feeds 
that information to the DHS Future Years Homeland Security planning 
process.
    Question. Please describe the Coast Guard's current acquisitions 
strategy for unmanned aircraft systems. What specific challenges are 
you facing today with regard to testing and integrating possible 
vertical take-off UAS?
    Answer. The Coast Guard's unmanned aircraft systems (UAS) strategy 
is to acquire existing cutter-based and mid-altitude land-based UASs 
while emphasizing commonality with existing Department of Homeland 
Security and Department of Defense programs that are technologically 
mature. To that end, the Coast Guard's UAS project is now in the pre-
acquisition ``need'' phase.
    The Coast Guard established a Joint Program Office with U.S. 
Customs and Border Protection (CBP) to jointly operate the CBP's 
Guardian UAS in maritime missions. The Coast Guard has eight pilots and 
four system sensor operators qualified in and flying Guardian missions.
    The Coast Guard has also established a formal partnership with the 
Navy's vertical takeoff unmanned aerial vehicle (UAV) (Fire Scout) 
program office to collaborate on a cutter-based solution. Utilizing 
fiscal year 2012 Coast Guard research, development, test and evaluation 
funds, the Coast Guard intends to procure and install the ground 
control segment of a Fire Scout system aboard a national security 
cutter (NSC) to facilitate a future at-sea technical demonstration. 
Ultimate completion of the underway demonstration is contingent upon 
Navy Fire Scout air vehicle accessibility for Coast Guard use. Other 
challenges to address include coordinating Navy technical assistance 
for Fire Scout shipboard analysis, equipment maintenance and 
installation aboard an NSC, logistics support of the MQ-8B as the Navy 
begins production of the larger MQ-8C and Fire Scout reliability and 
overall system maturity.
    The Coast Guard is also pursuing a non-major system acquisition of 
a small ScanEagle UAS for the NSC, as an interim, cost-effective UAS 
capability. To support this strategy, the Coast Guard plans to conduct 
technical demonstrations of the ScanEagle aboard an NSC during fiscal 
years 2012 and 2013.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                      port clarence loran station
    Question. A memo to me from Coast Guard CEU Juneau dated February 
7, 2012, states that the Coast Guard ``is proposing to issue a Finding 
Of No Significant Impact (FONSI)'' following an environmental 
assessment of the divestiture of the LORAN-C station Port Clarence, 
Alaska. These actions would result in the relinquishment of the 1962 
land withdrawal for Port Clarence and transfer the property back to 
BLM. Has the FONSI been issued yet?
    Answer. The Loran Station Port Clarence final environmental 
assessment and finding of no significant impact has been approved and 
signed.
    Question. How long do you expect that it will take for the approval 
of the Coast Guard's environmental assessment and the acceptance of the 
notice of release of property by BLM?
    Answer. The Coast Guard plans to submit a notice of intent to 
relinquish letter to the Bureau of Land Management (BLM) in June 2012 
stating that the Port Clarence Loran Station is no longer needed by the 
Coast Guard. BLM will decide whether to accept the land for return to 
the public domain or issue a public land order permanently withdrawing 
the land.

                         CONCLUSION OF HEARINGS

    Senator Landrieu. Thank you, and we will reconvene in a 
couple of weeks on another subject.
    Admiral Papp. Thank you, ma'am.
    Senator Landrieu. The subcommittee stands in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:27 a.m., Wednesday, May 9, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2013 budget 
request for programs within the subcommittee's jurisdiction.]
   Prepared Statement of Airports Council International-North America
    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee, thank you for the opportunity to provide the views of 
airport operators on the Department of Homeland Security's (DHS) travel 
programs. As the president of Airports Council International-North 
America (ACI-NA), I am submitting this testimony today on behalf of the 
local, regional, and State governing bodies that own and operate 
commercial service airports in the United States and Canada. ACI-NA 
member airports enplane more than 95 percent of the domestic and 
virtually all the international airline passenger and cargo traffic in 
North America. More than 350 aviation-related businesses are also 
members of ACI-NA.
    Madam Chairman, we commend you for holding this important hearing. 
Each day, airports work to implement measures to streamline the process 
for our passengers. To this end, airports partner with the 
Transportation Security Administration (TSA), U.S. Customs and Border 
Protection (CBP), and airlines to develop and maintain a comprehensive, 
layered security system that efficiently processes passengers.
           risk-based security and trusted traveler programs
    We must continue to shift from a rigid process of screening for bad 
things to a system that draws upon the vast amount of available data to 
focus the most invasive security processes on travelers who have not 
been previously vetted. A risk-based system is absolutely what is 
needed and TSA should be applauded for its initiative to implement 
several risk-based security initiatives involving pilots, passengers 
and cargo.
    ACI-NA fully supports the TSA PreCheck (Pre3<SUP>TM</SUP>) Known 
Traveler program. From a practical perspective, this risk-based program 
harnesses available data--voluntarily provided by passengers--and 
intelligence information to serve as an indicator to guide the 
application of screening resources. The most invasive screening 
technologies and resources are applied to individuals about whom the 
least is known. It not only reduces traveler frustration by providing a 
certain level of predictability--while including an essential random 
security element--but also streamlines the process today and allows for 
the development of a sustainable system in the future.
    ACI-NA also strongly supports the U.S. Customs and Border 
Protection's (CBP) successful risk-based international trusted traveler 
programs which allows prescreened, pre-approved air passengers to use 
dedicated lanes and kiosks: Global Entry at certain U.S. airports and 
Canadian preclearance airports and NEXUS, which is a joint program 
between CBP and the Canada Border Services Agency for U.S. and Canadian 
citizens and legal permanent residents entering Canada at Canadian 
preclearance airports. These risk-based international trusted traveler 
programs provide the dual benefit of enhancing both security and 
processing efficiency, since travelers do not have to spend time 
filling out paper declaration forms. In addition, participating 
travelers do not have to wait in line or visit CBP officers, thus 
allowing officers to focus on other, less well-known travelers. We 
encourage the subcommittee to support CBP in its effort to deploy 
kiosks to additional airport locations and to increase the number of 
enrollees in these programs, thus enhancing facilitation and security 
for all participating passengers. CBP should fast track its efforts to 
make the registration Web site (Global Online Enrollment System) more 
user-friendly, so that individuals are not discouraged from joining 
these valuable trusted traveler programs.
    According to recent CBP testimony, Global Entry has reduced average 
wait times for enrollees by more than 70 percent. This program will be 
crucial in helping to leverage limited CBP staff resources at airports 
during peak travel times, when passenger demand increases 
significantly, often resulting in long wait times and missed flight 
connections. Efforts to promote the United States as a travel and 
tourism destination including improved visa processing is likely to 
further exacerbate the strain on limited CBP staffing. Expanding Global 
Entry to additional airports and airport terminals will make the 
program available to even more travelers and thus promote increased 
enrollment, benefiting all passengers, the aviation industry, and CBP. 
In order to further enhance security and streamline the process, CBP 
should place Global Entry kiosks at all Canadian preclearance airports. 
In addition, we encourage CBP to intensify its work with foreign 
governments to conclude and implement agreements whereby properly 
vetted foreign citizens can enroll in Global Entry and, where 
permissible, allow U.S. citizens to enroll in their trusted traveler 
programs.
    In developing their Known Traveler program Pre3<SUP>TM</SUP>, TSA 
strategically partnered with CBP to allow members of existing 
international trusted traveler programs, Global Entry, SENTRI, and 
NEXUS, to participate. As TSA looks at expanding the population of 
eligible participants in Pre3<SUP>TM</SUP>, ACI-NA encourages TSA to 
utilize Global Entry as the primary enrollment platform. This has the 
potential to further enhance the security of Pre3<SUP>TM</SUP> while 
also improving passenger facilitation through increased Global Entry 
participation. The ability for Global Entry members to participate in 
Pre3<SUP>TM</SUP> has already resulted in an increase in Global Entry 
enrollments and provides the added benefit of reduced line waits for 
international passengers being cleared by CBP officers at U.S. and 
Canadian airports. The partnership between TSA and CBP will be 
essential in expanding current, and developing new, programs which 
utilize available data to better focus limited screening resources.
    Going forward, ACI-NA recommends:
  --Dedicated queuing lines for Pre3<SUP>TM</SUP>-eligible passengers;
  --Allowing Global Entry, NEXUS, SENTRI members, and other known 
        travelers flying on any participating airline to utilize 
        Pre3<SUP>TM</SUP>; and
  --Allowing Canadian citizens who are NEXUS card holders to 
        participate in Pre3<SUP>TM</SUP>.
    Although screening checkpoints and Federal Inspection Services 
(FIS) facilities may have to be reconfigured somewhat, these risk-based 
programs will help mitigate the need for ongoing facility modifications 
to accommodate the deployment of screening technology.
                        planning for the future
    We need to begin planning for the future today, designing a 
sustainable aviation system capable of efficiently and effectively 
processing passengers and baggage. With limited resources, risk-based 
programs are essential, and we simply cannot continue the process of 
adding security layer after security layer and installing more 
screening technology at airports after each new threat. Technology will 
always be an essential element of the aviation security system but most 
airport security checkpoints do not have space to accommodate the 
deployment of additional technology, so its application needs to be 
informed by Known Traveler programs.
    There are opportunities to further expand the level of data sharing 
between TSA and CBP. TSA screens checked baggage and could readily 
provide images to CBP so that arriving international passengers 
connecting to another domestic or international airport would not have 
to reclaim their checked baggage. Eliminating this requirement would 
free up TSA resources to focus on other areas.
                               conclusion
    Although there are aspects of the current aviation system that are 
effective, there are others which need to evolve to keep pace with the 
projected increase in the number of passengers and volume of cargo in 
the United States and abroad. The expansion of risk-based trusted 
traveler and known-shipper programs that leverage available data and 
focus limited screening resources on those travelers and cargo about 
which the least is known are essential in ensuring the long-term 
sustainability of the aviation system. Such programs allow the United 
States and other governments the ability to prioritize threats and make 
adjustments to the security posture based upon credible intelligence 
information, provide expedited processing for low-risk travelers while 
helping to ensure that limited resources are appropriately focused and 
allocated. A priority should be placed on deploying the technology 
necessary to support the enrollment of travelers and the expedited 
processing of previously vetted, low-risk passengers.
    Through continued collaboration--both government to government and 
government to industry--to expand trusted traveler programs and other 
security initiatives, we can better achieve our mutual goals of 
enhancing safety, security, and processing efficiency while minimizing 
unnecessary operational impacts.
    Thank you for the opportunity to submit this written testimony.
                                        Gregory Principato,
                                                         President.
                                 ______
                                 
  Prepared Statement of the American Public Transportation Association
                              introduction
    Madam Chairman and members of the subcommittee, thank you for this 
opportunity to submit written testimony on the fiscal year 2013 funding 
needs for public transportation security programs within the Department 
of Homeland Security. The American Public Transportation Association 
(APTA) urges Congress to significantly increase appropriations for 
transportation security programs. Past appropriations have not come 
close to the levels authorized under the Implementing Recommendations 
of the 9/11 Commission Act of 2007 (Public Law 110-53). In 2011, 
Americans took 10.4 billion trips on public transportation which was 
the second highest annual ridership since 1957. Only ridership in 2008, 
when gas rose to more than $4 a gallon, surpassed last year's rider 
totals. As transit ridership continues to grow, its security needs do 
also.
                               about apta
    The American Public Transportation Association (APTA) is a 
nonprofit, international association of nearly 1,500 public and private 
member organizations, including transit systems and commuter, intercity 
and high-speed rail operators; planning, design, construction, and 
finance firms; product and service providers; academic institutions; 
transit associations and State departments of transportation. APTA 
members serve the public interest by providing safe, efficient, and 
economical public transportation services and products. More than 90 
percent of the people using public transportation in the United States 
and Canada are served by APTA member systems. Additionally, in 
accordance with the National Infrastructure Protection Plan, APTA has 
been tasked by Department of Homeland Security to administer the on-
going activities of the Mass Transit Sector Coordinating Council.
          greater investments in transit security are required
    In 2010, an APTA survey of its transit agency members found 
security investment needs in excess of $6.4 billion nationwide. These 
are funds that our agencies simply do not have, as overall funding 
constraints have led to service cuts, personnel layoffs, and fare 
increases. This stated need contrasts the recent trend in cuts to 
transit security grant programs. We are very concerned about the recent 
decline in transit security funding where, in fiscal year 2012, we see 
an allocation of $87 million for transit security. This level is 
woefully short of the industry's capital security needs. As recently as 
fiscal year 2009, Federal funding for transit security was set at 
nearly $400 million. I urge Congress to acknowledge the risk that our 
citizens and transit systems continue to face, and restore 
appropriations for the Transit Security Grant Program (TSGP) in this 
and subsequent appropriation bills. Historically, Congress has 
permitted the Department of Homeland Security to allocate appropriated 
grant funding without specific directive. We recommend that this 
subcommittee, in its appropriating capacity, guide DHS regarding 
particular program funding allocations to ensure that public 
transportation security program needs adequately addressed. Our systems 
need the certainty of adequate funding to properly plan and implement 
large capital, surveillance, and other security projects to protect our 
systems. While there is no indication that our collective security 
concerns have diminished and the backlog of needed projects continues 
to grow, Federal security grant funds have declined precipitously.
         transit security needs are real and require attention
    As we and others have stated many times before, and as the members 
of this subcommittee well know, authoritative sources have acknowledged 
that the risk to public transportation systems is real, and it has not 
diminished:
  --The GAO released a 2002 report stating ``about one-third of 
        terrorist attacks worldwide target transportation systems, and 
        transit systems are the mode most commonly attacked.''
  --In 2007, the GAO reported to Congress that ``the characteristics of 
        some passenger rail systems--high ridership, expensive 
        infrastructure, economic importance, and location (e.g., large 
        metropolitan areas or tourist destinations)--make them 
        attractive targets for terrorists because of the potential for 
        mass casualties and economic damage and disruption.''
  --On February 29, 2008, the Office of Intelligence of the 
        Transportation Security Administration (TSA) released a report 
        concluding that public transportation in America remains 
        vulnerable to terrorist attack. The report states: ``The volume 
        of previous attacks and recent plotting against mass transit 
        systems overseas demonstrates continued strong terrorist 
        interest in targeting this sector.'' The report further states 
        that: ``Previous rail attacks in Madrid, London, and Mumbai 
        could inspire terrorists to conduct similar attacks in the 
        United States.''
  --On September 30, 2009, the Honorable Michael E. Leiter, Director, 
        National Counterterrorism Center (NCTC) testified in the Senate 
        that ``al-Qa`ida continues to pursue plans for Homeland attacks 
        and is likely focusing on prominent political, economic, and 
        infrastructure targets designed to produce mass casualties, 
        visually dramatic destruction, significant economic 
        aftershocks, and/or fear among the population. The group also 
        likely remains interested in targeting mass transit systems, 
        and other public venues, viewed as relatively soft targets as 
        evidenced by past al-Qa`ida attacks in London.''
  --The federally funded and chartered, independent Mineta 
        Transportation Institute (MTI) has collected data on worldwide 
        terror incidents and found more than 2,000 separate attacks on 
        surface transportation--1,223 involving bombs and 
        incendiaries--since 1970. These attacks caused 6,190 deaths and 
        approximately 19,000 injuries.
    This history calls for continued vigilance and continued 
investments in surface transportation security.
                    security grant program structure
    In fiscal year 2012, program changes were made in the Transit 
Security Grant Program and additional, significant, changes are 
proposed in fiscal year 2013. APTA acknowledges that there are some 
sound goals and positive policy provisions represented by these 
changes, including:
  --Peer Review.--APTA and its members already have a system in place 
        for conducting peer reviews--we look forward to working with 
        the Federal Emergency Management Agency (FEMA) to develop such 
        a program.
  --Multi-year Grant Guidance.--APTA supports the approach of a multi-
        year grant guidance--previously, the TSGP guidance changed 
        nearly every year, and APTA believes this to be one of the 
        reasons that have contributed to delays in grant performance 
        and drawdown.
    Notwithstanding these improvements to the current program, there 
are several other program changes that cause us concern and which we 
believe could thwart the progress many grantee agencies have made to 
improve the security of their systems in recent years.
Program Consolidation
    The National Preparedness Grant Program (NPGP) proposes to 
consolidate all grant programs previously categorized as preparedness 
grants into one comprehensive grant program. This is a drastic change 
that eliminates the standalone TSGP--the exclusive pool of funding for 
our Nation's public transportation systems. While this new program may 
be designed to meet the needs of the emergency management community and 
to more closely align with policy represented in the National 
Preparedness Goal, emergency preparedness and core capabilities are 
only subsets of the policy that the Transit Security Grant Program was 
intended to advance. As previously stated, transit systems and their 
assets remain high-risk terrorist targets, and investments in hardening 
and other capital security improvements specific to transit agencies do 
not appropriately fall within this broader emergency preparedness 
policy. APTA calls on Congress to authorize and preserve a sufficiently 
funded, segregated grant program for public transportation security as 
envisioned in the 9/11 Commission Act. We applaud the work of this 
subcommittee, as it recommended a separate Public Transportation 
Security Assistance grant program within the Department of Homeland 
Security fiscal year 2012 appropriations subcommittee report; we hope 
that the subcommittee will recommend the same in fiscal year 2013.
Reduced Grant Performance Period
    Of additional concern is the new 24-month period of grant 
performance for all projects proposed in the fiscal year 2012 TSGP 
Guidance, which is further contained in the proposal for the fiscal 
year 2013 NPGP. This is a reduction from the previous 3-5-year 
allowable expenditure period. APTA certainly appreciates the concerns 
regarding unexpended security grant dollars and is committed to working 
with transit agencies to carry out important security projects in a 
timely fashion. However, it is important to recognize that capital 
projects (security-related or otherwise) require multiple years to 
complete, and a reduction in the time allotted to expend funding would 
preclude many much needed capital infrastructure security projects from 
being pursued and instead compel most grant recipients to apply for 
equipment and operational grants. This is not in the best interest of 
fortifying our systems against attacks, as the majority of the security 
needs identified in the 2010 APTA member survey relate to capital 
projects. APTA recommends maintaining the 3-year expenditure window 
with the opportunity to receive 6-month extensions up to a maximum of 5 
years.
Emphasis on Operational Projects and the Top Transit Asset List
    Similarly, the fiscal year 2012 TSGP and fiscal year 2013 NPGP 
place a high emphasis on operational activities and operational 
packages (OPacks). Congress has previously set a clear priority for 
transit security capital investments when enacting the National Transit 
Systems Security Act of 2007 (title 14 of the 9/11 Commission Act). 
Additionally, the fiscal year 2012 grant guidance states that this 
year's funding priorities will be based on a pre-designated ``top 
transit asset list'' or TTAL. APTA has testified previously that 
security investment decisions should be risk-based, which is the 
underlying approach of the TTAL. However, across the entire transit 
industry, thousands of assets are not listed on the TTAL and, thus, 
would not be eligible to receive funding. While this narrower funding 
approach is based on tighter fiscal circumstances and the total Federal 
dollars available for security grants, it is also indicative of the 
inadequacy of current funding levels. The proposed approach will 
preclude important security improvements from receiving funding 
consideration. APTA recommends reauthorizing the public transportation 
security assistance provisions of the 9/11 Commission Act, and urges 
Congress to work to make adequate funding available for the program to 
meet national needs.
Inability To Directly Apply for Funding
    Finally, under the proposal, while transit agencies would be 
eligible for security funding, they would be required to apply for 
funding through their State Administrative Agency (SAA), and compete in 
this process with other State security priorities. This is a shift from 
the current program, where transit agencies are authorized to be direct 
applicants for and direct recipients of grant funds. We believe that 
under this new proposal sufficient funding would not consistently get 
to transit agencies, and in many cases the involvement of the SAA has 
the potential to slow the already lengthy grant performance process. 
Congress has repeatedly endorsed the position that transit agencies 
should be direct Federal grant recipients, as they have been through 
the Federal Transit Administration, and we urge Congress to continue 
this policy.
                               conclusion
    Madam Chairman, I thank the subcommittee for this opportunity to 
share our views on these critical homeland security issues. There is no 
greater priority for public transportation systems than the safety and 
security of our passengers and workers. I urge you not to wait for the 
``wake-up'' call of an attack on our systems to provide transit 
agencies the support they need. Transit systems across the country 
continue to stand ready, committed, and vigilant in utilizing available 
resources efficiently to protect our systems and our riders. We urge 
you to sustain the critical partnership between transit agencies, 
Congress, and the Department of Homeland Security that helps to keep 
our Nation safe and moving toward economic prosperity.
                                 ______
                                 
                 Prepared Statement of American Rivers
    On behalf of our members and supporters across the Nation, I write 
to express our concerns regarding the Federal Emergency Management 
Agency's (FEMA) proposed fiscal year 2013 budget. Specifically, we are 
concerned about the decreased funding levels for flood hazard mapping, 
the elimination of the Pre-Disaster Mitigation (PDM) program and 
funding for flood mitigation programs under the National Flood 
Insurance Program (NFIP).
    American Rivers is the leading conservation organization standing 
up for healthy rivers so communities can thrive. Rivers provide 
multiple benefits to people and our economy but when floods happen they 
put communities at risk. As we have seen over the past few years, 
floods are becoming more frequent and more severe. In 2011 alone, there 
were 58 Federal flood disaster declarations in 33 different States. The 
combined flood damages from these events are estimated at over $8 
billion and caused 113 deaths--both figures exceed 30-year averages. We 
support several of FEMA's programs that help communities to mitigate 
flood damages before they occur.
                          flood hazard mapping
    The reduction in flood mapping funds from $220 million in 2010 to 
$89 million proposed in 2013 hinders the communication of flood hazard 
risk to Americans nationwide. Flood hazard mapping is critical to all 
sectors of society and across the Nation. These maps provide valuable 
information to local public officials who are working to keep the 
public safe and to the citizens themselves who want to protect their 
families and keep them out of harm's way. In fiscal year 2012, the 
flood hazard mapping program sustained a 34-percent cut. While we 
understand these are hard fiscal times, investing in flood hazard 
mapping is a sound and important use of taxpayers' money. At a minimum, 
we recommend maintaining the fiscal year 2012 level of $97 million for 
fiscal year 2013.
                        pre-disaster mitigation
    The Pre-Disaster Mitigation program is the sister program to the 
Hazard Mitigation program as it provides funding to communities before 
a disaster hits. It is less expensive to prepare for a flood than it is 
to rebuild over and over. When communities and homeowners take steps to 
protect themselves and to reduce the impacts of flooding through 
mitigation practices such as elevating or flood-proofing their homes, 
moving out of harm's way, and investing in ``natural defenses'' they 
can save themselves and taxpayers money. Flood mitigation practices 
that reduce the loss of life and damages to properties provide $5 in 
benefits for every $1 invested.\1\ We recommend funding the PDM to 
fiscal year 2012 levels of $35.5 million in fiscal year 2013.
---------------------------------------------------------------------------
    \1\ Rose, A. et al. 2007. Benefit-Cost Analysis of FEMA Hazard 
Mitigation Grants. Natural Hazards Review 8, 97.
---------------------------------------------------------------------------
       mitigation grants of the national flood insurance program
    We applaud the administration for the proposed investment of $120 
million in flood mitigation programs under the NFIP. The financial 
impacts of floods and natural disasters make it clear that our Nation 
cannot afford to continue subsidizing development in places that are 
unsafe and it must be more strategic in response and recovery efforts 
to incorporate long-term sustainability and resilience when allocating 
resources. We support the administration's proposed fiscal year 2013 
funding of $120 million for the flood mitigation programs of the NFIP.
    We appreciate your leadership in safeguarding the American people 
from natural and unnatural hazards. As we continue to witness record 
breaking flooding, we are hopeful that the resources are in place to 
support public officials and communities alike in becoming more 
resilient to the next flood. We look forward to working with you to 
protect communities and the rivers they depend upon.
                                        James Bradley, Sr.,
                                  Director of Government Relations.
                                 ______
                                 
      Prepared Statement of the Arctic Slope Regional Corporation
                                                       May 9, 2012.
Hon. Mary L. Landrieu, 
Chairman, Subcommittee on the Department of Homeland Security,
Washington, DC.
Hon. Daniel Coats, 
Ranking Member, Subcommittee on the Department of Homeland Security,
Washington, DC.

Re: Comments From Arctic Slope Regional Corporation, Hearing on U.S. 
        Coast Guard Fiscal Year 2012 (Fiscal Year 2013) Budget Request
    Dear Chairman Landrieu and Ranking Member Coats: The Arctic Slope 
Regional Corporation (ASRC) is pleased to submit written comments for 
the record in connection with the May 9, 2012, hearing of the Committee 
on Appropriations subcommittee on Homeland Security on the important 
topic of the U.S. Coast Guard fiscal year 2013 budget request.
    ASRC is an Inupiat-owned Alaska Native regional corporation, formed 
pursuant to the Alaska Native Claims Settlement Act, 43 U.S.C. section 
1601, et seq. (ANCSA), that represents the interests of the Inupiat 
Eskimos of the Arctic Slope, with more than 11,000 shareholders. ASRC's 
congressionally mandated mission is to invest in its land base and 
business interests to provide for the well-being of our Inupiat Eskimo 
shareholders. ASRC owns approximately 5 million acres of land on the 
North Slope, including both surface and subsurface estate.
    The Honorable Senator Murkowski submitted a letter to the 
subcommittee on February 15, 2012, requesting a hearing on the Coast 
Guard's fiscal year 2013 budget request, and we thank you for honoring 
that request.
    The issue of ensuring that the Coast Guard has adequate resources 
and infrastructure in the Arctic region is critical, especially as 
there is increased interest in and use of resources in the region. We 
would like to highlight some issues of which we believe the 
subcommittee should be aware, from the perspective of an ANCSA 
corporation and our Alaska Native shareholders.
    From our observations, ``open water season'' is getting longer each 
year as sea ice melts, offering new prospects for resource exploration 
and development, tourist vessel transit, and shipping routes (both 
point-to-point transit and international) that may reshape the global 
transport system. In addition, there are significantly more 
international and domestic scientific and research activities in the 
region, driven in part by the potential for exploration and development 
of Arctic natural resources.
    This increased activity, which greatly impacts the North Slope 
region and our shareholders, also inevitably leads to more and longer 
periods of high activity, with the attendant concerns about the ability 
of the Coast Guard to ensure safety and security during these periods 
of high vessel activity. We also have concerns with respect to the 
potential impacts of high vessel activity on our seasonal subsistence 
activities and the ability of the Coast Guard to bring resources to 
bear when needed, and in a timely manner.
    In order to carry out its missions, the Coast Guard must have 
sufficient operational resources, strategically placed to respond to 
activity in the Beaufort and Chukchi Seas, and along the North Slope of 
Alaska. Air and sea logistical assets, communications infrastructure, 
access to icebreakers and facilities for support vessels, as well as 
management and security resources all will be required along our 
northern coastline. It is also critical that the location(s) of 
infrastructure and support facilities are selected appropriately. We 
believe that it is more appropriate to look to site support and 
resources at various places across the coastline, dictated by the 
local/regional needs and purposes, than to try to identify a single 
point where all such resources would be located.
    The polar regions that were previously the domain of vessel owners 
and operators are now being staked in a global race to energy 
resources. The fiscal year 2013 budget request helps the Coast Guard 
address its mission requirements, including its mission to safeguard 
the United States interests in the Arctic. It is imperative to the 
Arctic, the State of Alaska, and the United States to ensure that the 
Coast Guard has the financial resources and infrastructure to 
effectively carry out its mission. Supporting the Coast Guard in the 
Arctic must be a top priority because both United States and 
international development will take place in our own backyard. Our open 
coastline is at the frontlines of increased marine traffic and 
exploration and development activity.
    The United States is an Arctic nation. Alaska's strategic location 
provides the United States with the opportunity to become the world 
leader with regard to Arctic management, as our waters and resources 
are being promoted on the global stage. The United States must be 
poised to lead in that role. On the international stage, Arctic and 
non-Arctic nations alike are such as China, Norway, Japan, Russia, and 
Italy, in agreement with Russia, are positioning their countries for 
success with respect to Arctic resources and access to global markets. 
What the Arctic will be in 20 or 30 years is, and will continue to be, 
a critical issue for Alaska, the United States, and the world. Now is 
the time to begin planning for the long term, which necessarily 
includes ensuring a right-sized and strategically placed Coast Guard 
presence.
    Thank you for your time and consideration of this very important 
matter.
            Sincerely,
                                           Tara M. Sweeney,
                           Senior Vice President, External Affairs.
                                 ______
                                 
  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.
   federal emergency management agency's hazard mitigation and risk 
                        identification programs
    The Association of State Floodplain Managers (ASFPM)\1\ welcomes 
the opportunity to comment on the fiscal year 2013 budget request for 
the Federal Emergency Management Agency. Specifically, our testimony 
will focus on the proposed budgets for flood risk mapping ($89.3 
million), for Pre-Disaster Mitigation (PDM) ($0), for mitigation 
programs of the National Flood Insurance Program ($120 million) and for 
a new National Preparedness Grant Program (NPGP) ($1.5 billion).
---------------------------------------------------------------------------
    \1\ ASFPM and its 33 chapters represent over 14,000 State and local 
officials and other flood risk professionals--Web site: [http://
www.floods.org].
---------------------------------------------------------------------------
    The fiscal year 2013 FEMA budget request is a mixed bag for hazard 
mitigation programs, including additional significant cuts to flood 
mapping, elimination of FEMA's only all hazards Pre-Disaster Mitigation 
program, but increases in grants for some flood mitigation programs. 
Overall, however, the budget reflects a continued downward trend in the 
focus on hazard mitigation programs.
    Natural disasters in 2011 were record setting, with 14 events in 
the United States estimated to have caused over $1 billion in damage. 
Four of those were flood events only and others involved significant 
flooding. This is the continuance of a trend of increased damages 
caused by flooding that has been occurring for over a decade. Flood 
damages have jumped from $6 billion per year in the 1990s to nearly $10 
billion per year in the 2000s. Unfortunately the trend has been moving 
away from investment in hazard mitigation programs that assist 
communities to become more resilient following disasters.
Flood Hazard Mapping
    Flood hazard mapping is the foundational piece of hazard 
mitigation. Not only does it provide data for hazard mitigation plans 
and projects but it also provides data for the general public to 
understand flood risks, and information for the implementation of local 
land use requirements and building codes. With the changing nature of 
flood risks and the significant backlog of needed mapping (Some areas 
of the country still have flood maps over 30 years old and some have 
never been mapped and/or lack engineering data.), the reduction in 
flood mapping funds from $220 million in 2010 to $89 million proposed 
in 2013 will only delay our identification and understanding of the 
risk faced by many Americans. Furthermore, there are demands by the 
public and Congress that flood mapping be made more accurate especially 
in areas protected by levees. FEMA's ambitious new flood mapping 
program, Risk MAP may now be significantly less effective should the 
mapping program support not be restored to prior levels of $200 million 
or more.
    While the Association of State Floodplain Managers acknowledges all 
budgets in the Federal Government will likely be reduced to some 
extent, the disproportionate reduction in flood mapping funds makes 
little sense for a hazard that is the most frequent and one of the most 
costly in the United States. Mapping should be funded at earlier levels 
because communities need these maps to know where their risks are so 
they can take action to mitigate their risks, and thereby reduce the 
national risk.
Elimination of Pre-Disaster Mitigation
    Even more perplexing is the proposed elimination of the Pre-
Disaster Mitigation (PDM) program. This program has resulted in 
numerous successes such as over 18,000 communities having developed and 
adopted hazard mitigation plans and all-hazard ``sticks and bricks'' 
mitigation projects being implemented that have permanently reduced 
future risk by getting existing, at-risk development out of harm's way. 
It has allowed States who didn't have frequent disasters to tap into 
hazard mitigation resources to reduce their risks too. PDM is the pre-
disaster complement to the more well-known Hazard Mitigation Grant 
Program (HMGP) that is triggered only after a Federal disaster 
declaration.
    Many States have relied on PDM to support development and 
maintenance of hazard mitigation plans, so ASFPM is very concerned 
about the effect of the elimination of PDM on hazard mitigation 
planning. Approximately 20 percent of PDM funds have been used to 
support the hazard mitigation plans required by the Disaster Mitigation 
Act of 2000. These plans are required for eligibility for post-disaster 
mitigation assistance and are key to effective expenditure of 
mitigation funds. Lack of support for mitigation planning is a major 
concern, especially when it is unclear where future funds will come 
from to support communities and States in updating mitigation plans.
    PDM, which provides resources before an event happens as opposed to 
afterwards, is widely considered to be a successful program despite 
acknowledged problems with timely obligation of funds. ASFPM recommends 
that the administration could and should look to models which would 
delegate the program to States to ensure obligation of funds will 
happen much more quickly. Studies have shown that investments in FEMA's 
hazard mitigation programs yield on average $4 in benefits for every $1 
invested. For flood disasters, the ratio is $5 in benefits for every $1 
invested. Also, these programs are cost shared with States and 
communities ensuring that they, too, are investing in their future 
resilience from hazards. ASFPM recommends retention of the program at 
least at the minimal fiscal year 2012 funding level of $35.5 million.
Creation of new NPGP
    ASFPM also cautions the administration to thoughtfully proceed with 
the creation of a large multi-purpose grant program which folds 
together 16 grant programs ranging in focus from terrorism preparedness 
to natural hazard mitigation. Inclusion of mitigation as an eligible 
activity is the rationale for elimination of PDM. However, the 
``vision'' document for this program clearly shows priorities are 
focused on funding activities that are not mitigation, and under the 
proposed framework mitigation priorities will, in reality, be all but 
impossible to fund. Ultimately the National Preparedness Grant Program 
(NPGP) and National Preparedness Goal are aimed at readiness, not 
mitigation. While mitigation is a component of readiness (as it is a 
component of response and recovery) readiness is not a substitute for 
mitigation.
    ASFPM recommends that implementation of a new NPGP be delayed to 
allow for consultation with stakeholder groups. As presently 
envisioned, the program is likely to result in neglect of key functions 
of mitigation and resilience.
Increase in Funding for Mitigation Grants of the National Flood 
        Insurance Program
    ASFPM is very pleased that the administration has proposed 
increasing its investment in flood mitigation programs under the NFIP--
from a funding level of $60 million in fiscal year 2012 to proposed 
fiscal year 2013 funding of $120 million. These programs are largely, 
but not entirely, focused on properties which file repetitive flood 
loss claims. ASFPM notes that the budget assumes a streamlining of the 
Flood Mitigation Assistance Grants, the Severe Repetitive Loss program 
and the Repetitive Flood Claims program to achieve greater 
efficiencies. The greater commitment to elimination of repetitive loss 
properties from the National Flood Insurance Program is important to 
the NFIP's financial integrity.
                                           Larry A. Larson,
                                                Executive Director.
                                 ______
                                 
          Prepared Statement of the Fleet Reserve Association
                              introduction
    Madame Chairman and distinguished members of the subcommittee, the 
Fleet Reserve Association (FRA) appreciates the opportunity to present 
its recommendations on the United States Coast Guard's fiscal year 2013 
budget.
    Prior to addressing these issues, FRA wishes to thank the Congress 
for the generous pay, healthcare, and benefit enhancements enacted in 
recent years. Improved wounded warrior transition and support services 
are very important as are other benefit improvements which are 
essential to maintaining the all-volunteer force and military 
readiness.
    Ensuring Coast Guard funding parity with Department of Defense 
(DOD) personnel programs remains a high priority for FRA, and the 
association notes continuing challenges within the Coast Guard to 
adequately fund previously authorized Active and Reserve people 
programs. FRA is also deeply concerned about the impact of 
``sequestration'' (automatic cuts) mandated by the 2011 Budget Control 
Act on Coast Guard programs effective January 2013 unless Congress 
intervenes.
    It's also important to note that FRA believes that military service 
is unlike any other career or occupation, and requires servicemembers' 
compensation commensurate with the demands of service plus a robust 
benefits package and retirement system. In addition, FRA fully concurs 
with Admiral Robert Papp's State of the Coast Guard comment that, ``The 
Coast Guard's value to the Nation has never been greater.''
                       coast guard authorization
    FRA appreciates the enactment of the fiscal year 2011 Coast Guard 
Authorization Act (H.R. 3617) in the 111th Congress that addresses 
several important personnel-related issues. The association supports 
the Coast Guard Authorization Act (S. 1665), sponsored by Senator Mark 
Begich, Chairman of the Senate Oceans, Atmosphere, Fisheries and Coast 
Guard Subcommittee, that among its other provisions increases Coast 
Guard end strength to 49,350. This bill was approved by the Senate 
Commerce, Science and Transportation Committee and placed on the Senate 
legislative calendar.
    FRA also supports the Coast Guard and Maritime Transportation Act 
(H.R. 2838) sponsored by Rep. Frank A. LoBiondo, Chairman of the Coast 
Guard and Maritime Transportation Subcommittee. That legislation 
extends the U.S. Coast Guard Authorization through fiscal year 2014 and 
authorizes $8.6 billion for fiscal year 2013, and $8.7 billion for 
fiscal year 2014. The bill passed the House last year and is awaiting 
action in the Senate Commerce, Science and Transportation Committee.
    Provisions of the bill would establish greater parity with DOD for 
the Coast Guard and its personnel. During consideration of the bill, 
the House Transportation and Infrastructure Committee noted that 
Active, Reserve, and retired members of the Coast Guard and their 
dependents do not always receive the same benefits available to members 
of the other armed services. The legislation also mandates that the 
Commandant submit a report to Congress on servicemember housing. FRA 
strongly supports timely enactment of Coast Guard authorization 
legislation in each Congress and believes the legislation is 
fundamental to effective congressional budgeting and effective 
oversight of the service and its wide ranging and challenging missions.
                               healthcare
    The FRA strongly supports adequate funding for the Coast Guard 
Health Care Fund (HCF) in order to meet readiness needs, fully fund 
TRICARE, and improve access for all beneficiaries regardless of age, 
status, or location. FRA opposes the administration's proposed retiree 
TRICARE fee hikes commencing in 2013. Just last year, the National 
Defense Authorization Act (H.R. 1540) authorized a TRICARE Prime fee 
increase of 13 percent for military retirees and future adjustments are 
pegged to the Consumer Price Index (CPI) so as to not erode retired 
pay.
    Healthcare benefits are important to every segment of FRA's 
membership. The continued growth in healthcare costs is not just a 
military challenge but a challenge for the entire country. FRA believes 
that military service is a unique profession and notes minimal 
projected savings associated with DOD management efficiencies and other 
initiatives in fiscal year 2013 and beyond, while retirees are targeted 
for major fee hikes.
    Our members are also very concerned about a proposed new TRICARE-
for-Life (TFL) enrollment fee beginning in fiscal year 2013. This is 
viewed as another failure to honor commitments to those who served past 
careers in the military. These personnel pay Medicare part B premiums 
and many have not benefited from the significant pay and benefit 
enhancements enacted since 2000.
    Due to the unique range of geographic locations to which they are 
assigned, Coast Guard personnel and their families often struggle to 
find medical providers who accept TRICARE beneficiaries. While 
implementation of TRICARE Prime Remote alleviated some of these 
problems, costs associated with the TRICARE Standard benefit, and low 
reimbursement rates can make finding a healthcare provider an 
especially daunting task in many areas. And, Coast Guard personnel who 
choose to receive care at DOD military treatment facilities (MTFs) may 
be required to travel long distances for care. FRA is committed to 
helping address these challenges in order to improve healthcare access 
for all Coast Guard personnel, particularly those stationed in remote 
locations.
                              pay increase
    It's appropriate that the Coast Guard and other Armed Forces are 
excluded from the multi-year pay freeze for Federal employees announced 
by President Obama on November 29, 2010. The association strongly 
supports the proposed 1.7 percent military pay increase for 2013, based 
on Employment Cost Index (ECI) data. Congress has in recent years 
improved military compensation that, in turn, enhanced the recruitment 
and retention of quality personnel in an all-volunteer environment, 
improved retention, morale, and readiness. More than 50 percent of the 
uniformed services community is married and adequate compensation helps 
relieve stress associated with demanding operational tempos.
    FRA consistently supports pay increases that are at least equal to 
the ECI to keep pace with civilian pay. FRA urges the subcommittee to 
ensure adequate appropriations to fund the pay increase in the Coast 
Guard's budget, plus other benefit enhancements that may be authorized 
by the respective Armed Services Committees.
                                housing
    The Coast Guard currently owns 4,013 family homes, at an average 
age of 40+ years, with an extensive maintenance and recapitalization 
project backlog. These costs are compounding and funds are not 
available to keep pace with essential maintenance and replacement 
requirements. FRA supports authorization and funding of Coast Guard 
initiatives to address this situation and to improve family housing. 
DOD privatized approximately 85 percent of its homes using public-
private venture (PPV) authorities, however, the Coast Guard is unable 
to leverage the same equity due to no authorization and inadequate 
resources to do so. The result is that over 12,000 Coast Guard members 
and their families are living in aged, substandard housing that are 
expensive to maintain and have recurring and costly maintenance issues.
    The vast majority of Coast Guard personnel and their families use 
private housing and collect basic allowance for housing (BAH) usually 
based on different types of housing than the one in which they choose 
to live. (FRA supports reform of DOD housing standards that inequitably 
depress BAH rates for mid-to-senior enlisted members due to types of 
housing they choose to reside in compared to the type of housing 
associated with their pay grades which determines their BAH level.)
    The Coast Guard is conducting an assessment of its housing needs 
that includes a housing market survey to determine availability of 
rental housing in lieu of Government-owned housing and FRA understands 
that this report on housing will be available at the end of May 2012, 
and that the Coast Guard has diverted $8.8 million from other programs 
to be used for housing needs.
                               child care
    The availability and accessibility of affordable child care is a 
very important quality of life issue for Coast Guard personnel and 
their families. The Coast Guard operates nine child development centers 
(CDCs) that operate under the same standards as similar DOD facilities. 
In addition, a child care subsidy program allows members affordable 
access to private sector child care centers, and whenever possible 
access to DOD facilities.
    High-cost child care can often be attributed to the fact that most 
of the duty locations preclude access to DOD and Coast Guard CDCs. The 
Coast Guard continues to explore ways to assist with child care costs 
for members in remote, high-cost areas and FRA supports these efforts. 
Authorization and appropriations to support access to child care plus 
updates and enhancements are equally important. The FRA agrees with 
Rep. Frank LoBiondo, Chairman of the House Coast Guard and Maritime 
Subcommittee, who does not believe there is Coast Guard parity with DOD 
in terms of child care and housing.
                              end strength
    ``For the third consecutive year the Coast Guard will screen 
hundreds of E-5 through E-9 personnel to reduce its enlisted force by 
861 coastguardsmen by June 2012.\1\'' The involuntary retirement 
screening by a enlisted review board is focused of enlisted personnel 
with 20 or more years of service.
---------------------------------------------------------------------------
    \1\ Navy Times, Feb., 13, 2012, p. 32, Coasties Face Retirement 
Screening, Sam Fellman.
---------------------------------------------------------------------------
    The fiscal year 2013 Coast Guard budget request reduces Coast Guard 
end strength by 1,000. This includes the elimination of 222 positions 
from Coast Guard headquarters and reductions to the recruiting program. 
Reduced re-enlistment bonuses are also proposed.
    The association also notes that the authorized Coast Guard Reserve 
end strength is 10,000, however only 8,100 Reserve personnel are funded 
and the level has remained unchanged for a number of years. FRA is 
concerned that budget-driven, vice mission related cuts create 
inadequate end strength that further stresses Coast Guard personnel and 
their families. Repeated deployments for Active Duty personnel and 
increased reliance on Reserve personnel are associated results. 
Although the fiscal year 2013 budget mandates an authorized end 
strength reduction, there is no corresponding reduction in Coast Guard 
operational demands. End strength must be adequate to meet operational 
commitments that limit lengths of deployments and allow sufficient 
dwell time between deployments. As Admiral Papp noted in his recent 
State of the Coast Guard address, ``We will not allow our service to 
become a hollow operational force.''
                         yellow ribbon program
    The Coast Guard in 2011 established a Yellow Ribbon Program, in 
partnership with DOD, to enable more than 1,400 deploying 
coastguardsmen and their families to connect with resources before, 
during, and after deployment. Family support is critical to ensure 
there are no unnecessary family problems to distract from duties and 
demands of deployment, and adequate resources are essential to 
sustaining this important program.
                               conclusion
    Madame Chairman, the FRA appreciates the opportunity to submit its 
views for the record on pay, healthcare, and other programs important 
to Coast Guard personnel.
    The association salutes you, the ranking member, and the other 
members of this distinguished subcommittee and your staff for effective 
oversight of our Nation's all-important fifth Armed Force, and for your 
untiring commitment to the men and women serving so proudly in our 
United States Coast Guard.
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving Active Duty, Reserves, retired, and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
congressionally chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of Active Duty, but less than 30 
years for retirement purposes.
    FRA's mission is to act as the premier ``watch dog'' organization 
on Capitol Hill in maintaining and improving the quality of life for 
Sea Service personnel and their families. The association also sponsors 
a National Americanism Essay Program and other recognition and relief 
programs. In addition, the FRA Education Foundation oversees the 
association's scholarship program that presented awards totaling over 
$120,000 to deserving students last year.
    FRA sponsors the annual Coast Guard Enlisted Persons of the Year 
program and hosts the annual U.S. Coast Guard Caucus Breakfast on 
Capitol Hill each year to recognize Caucus members and increase 
awareness about the service's various missions and the work of Coast 
Guard personnel.
    The association is also a founding member and active participant in 
The Military Coalition (TMC), a 34-member consortium of military and 
veteran's organizations.
             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any Federal grant or contract during the 
current fiscal year or either of the 2 previous fiscal years.
                 Master Chief Joseph L. Barnes, USN (Ret.),
                                       National Executive Director.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    The Institute of Makers of Explosives (IME) is the safety and 
security association of the commercial explosives industry. Commercial 
explosives underpin the economy. They are essential to energy 
production, construction, demolition, and the manufacture of any metal/
mineral product. Explosives are transported and used in every State. 
The ability to manufacture, transport, distribute, and use these 
products safely and securely is critical to this industry.
    The Infrastructure Security Compliance Division (ISCD) is standing 
up two programs that affect our membership--the Chemical Facility Anti-
Terrorism Standards (CFATS) program and the recently proposed Ammonium 
Nitrate Security program (ANSP). Some of our members are regulated 
under CFATS, and all will be regulated under the ANSP.
    Ensuring the security of commercial explosives and precursor 
materials against unauthorized access and use has been a priority of 
IME members long before the events of 9/11. As proof of our success, 
less than 2 percent of destructive explosives devices used in bombings 
and attempted bombings in this country are filled with commercial 
explosives.\1\
---------------------------------------------------------------------------
    \1\ Bomb Center Data, the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF), 2006.
---------------------------------------------------------------------------
                              iscd issues
    CFATS.--Those in our industry affected by this program and been 
working hard to meet deadlines for submissions of so-called ``top-
screens'', site vulnerability assessments, and site security plans 
(SSP). Our focus has been on identifying and ensuring that we have the 
means to meet the 18 specific risk-based performance standards 
(RBSP)\2\ required for final SSP approval. While concerns were voiced 
about the lack of progress in fully implementing the CFATS program, we 
believed a major factor in the delay was the lack of permanent 
authorization for the program. We have been proactively working to 
achieve that end. In the meantime, we appreciate the efforts of the 
subcommittee to be both the appropriator and authorizer for this 
program.
---------------------------------------------------------------------------
    \2\ RBPS are particularly appropriate in a security context because 
they provide individual facilities the flexibility to address their 
unique security challenges. Using performance standards rather than 
prescriptive standards also helps to increase the overall security of 
the sector by varying the security practices used by different chemical 
facilities. Security measures that differ from facility to facility 
means that each presents a new and unique problem for an adversary to 
solve.
---------------------------------------------------------------------------
    In the midst of these efforts, it was revealed that the program 
suffers from a number of internal management issues.\3\ Nothing in the 
internal review suggests that the legislative framework establishing 
CFATS is flawed. Rather, it is DHS' failure to provide adequate 
oversight and support that have resulted in program misdirection and 
implementation failures. Frankly, we applaud ISCD's new leadership that 
identified these issues and developed a plan to address them. Clearly, 
DHS has overstepped the role and responsibility Congress gave it. The 
result of this unfocused, mission creep is wasted human and financial 
capital. ISCD was not supposed to have law-enforcement powers. ISCD was 
not supposed to support a culture of cronyism, disrespect, and failed 
leadership. ISCD was not supposed to be staffed with individuals 
without the skills necessary to run a regulatory compliance program. 
ISCD was not supposed to mandate the means to achieve compliance with 
its performance standards, as it is attempting to do with the stand-up 
of a costly, duplicative personnel surety initiative.
---------------------------------------------------------------------------
    \3\ Management memorandum to Under Secretary Rand Beers from Penny 
Anderson, Director, and David Wulf, Deputy Director, ISCD, November 11, 
2011.
---------------------------------------------------------------------------
    We understand that permanent CFATS authorization may have to wait 
the outcome of DHS' ability to address the litany of pervasive internal 
management failures. During this period of re-evaluation, we cannot 
emphasize too strongly that this is not the time to entrust ISCD to 
implement a stand-alone personnel surety program. The CFATS personal 
surety program is identified in the November 2011 ISCD management 
memorandum as the agency's third highest programmatic priority. ISCD 
has taken the unorthodox approach of attempting to institute this 
program though an information collection request (ICR), rather than 
full notice and comment rulemaking as has been the approach used to 
establish every other Federal vetting program. This request is pending 
at the Office of Management and Budget (OMB) and the Department of 
Homeland Security (DHS) has predicted that it will soon be released.
    Under CFATS, RBPS 12 establishes a four-part background check for 
all facility personnel, and as appropriate, for unescorted visitors 
with access to restricted areas. The four-part background check 
standards are consistent with the other background check programs 
administered by DHS, including measures to verify identity, to check 
criminal history, to validate legal authorization to work, and to 
identify people with terrorist ties. The latter standard is met by a 
check against the terrorist screening database administered by the 
Federal Bureau of Investigation. ISCD's approach to personnel surety 
runs counter to direction from the White House, with industry support, 
that DHS consolidate and streamline duplicative vetting programs and 
eliminate redundant background checks.\4\ As proposed, ISCD refuses to 
reciprocally recognize other, more robust Federal vetting programs as 
sufficient to meet the background check requirements of CFATS, and ISCD 
does not allow regulated facilities the option to meet its personnel 
surety standards by exercising DHS' discretionary authority to open the 
Transportation Worker Identification Credential (TWIC) program to 
employees at CFATS facilities. ISCD's program will compel facilities to 
collect personal identifying information from a myriad of non-employees 
who are granted access to restricted areas--a liability many are 
unwilling to assume. It is expected that the site-by-site registration 
and access verification procedures will unnecessarily encumber facility 
access. Acknowledging these flaws, ISCD has said that it will ``slowly 
rollout'' the personal surety program with a promise to fix problems in 
the ramp up to full implementation after OMB gives clearance--basically 
turning initial implementation into a pilot program.
---------------------------------------------------------------------------
    \4\ This initiative has as its objective leveraging existing 
Federal security background checks to implement the principle of 
``enroll once, use many'' to reuse the information on individuals 
needing multiple access privileges. Transportation Security 
Administration's Transportation and Threat and Credentialing office is 
working on this goal through its Infrastructure Modernization program.
---------------------------------------------------------------------------
    These personal surety program issues have been identified to the 
authorizing committees of the House and Senate. Correspondingly, this 
subcommittee should bar ISCD from using any funds to implement this 
program until the authorizing committees have addressed these concerns. 
Ideally, ISCD would withdraw its ICR proposal and enable chemical 
facilities to satisfy the personal surety requirements of RBPS 12 by 
accepting evidence that individuals seeking access to restricted areas 
are appropriately vetted by existing Federal background check programs 
that are at least equivalent to the CFATS standards. Additionally, 
individuals needing this access should be allowed to apply for and be 
vetted under these existing programs. These accommodations would save 
Federal and private sector resources without any diminution in 
security.
    ANSP.--ISCD is also responsible for the ANSP. The November 2011 
management memo includes sections relevant to this program. The ANSP 
program, even more than CFATS, directly affects IME members.\5\ As 
unbelievable as it may seem, ISCD has proposed to institute a separate, 
unique chain-of-custody vetting program for those handling AN.\6\ All 
of the criticisms that have been raised about the personal surety 
program under CFATS could be repeated here and more. The ANSP vetting 
proposal would require the registration and face-to-face on-line 
verification of registration of anyone with possession of AN or 
transferring AN to another individual. This regulatory interpretation 
oversteps statutory authority authorizing the ANSP.\7\ This legislation 
restricts the registration and vetting requirements to those 
transferring ownership and possession. With this understanding, 
individuals engaged in the transportation of AN would not be covered, 
nor would individuals at facilities that do not have decisionmaking 
authority to direct the commerce of this product. The House Homeland 
Security Committee has reported legislation, H.R. 3116, that would 
exempt those engaged in the transportation of AN, as the security 
vetting of those individuals is handled by the Transportation Security 
Administration, and would limit vetting under the ANSP to those who 
individuals who both possess and transfer ownership of AN. As with 
CFATS, ISCD should allow individuals who possess and transfer ownership 
of AN to satisfy the vetting requirements of the ANSP through other 
equivalent Federal security vetting programs, such as the vetting 
program administered by the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives for those that possess commercial explosives. As we 
recommended for CFATS, no new authority should be granted ISCD until 
the agency gets its internal house in order.
---------------------------------------------------------------------------
    \5\ In the 1950s, the explosives industry migrated away from 
nitroglycerin-based to AN-based explosives for safety reasons. Today 
about 99 percent of explosives are AN-based. Currently, we estimate 
that the explosives industry uses over 2 million metric tons of TGAN 
(technical grade AN) annually, 70 percent of the total AN consumed in 
the United States. Almost all TGAN is stored, transported, and used in 
bulk. The smallest unit of sale in the United States is 1-ton ``super 
sacks,'' not man-portable bags. Eighty percent of the AN received by 
our members is delivered by railcar (5 percent by barge and 15 percent 
by truck). For safety reasons, we estimate that we deliver 85 percent 
or more of AN directly to the end user where it is converted into 
explosive material. Of the 15 percent of AN prill that is manufactured 
into an explosive prior to delivery to the end user, about 90 percent 
is manufactured as ``ANFO.''
    \6\ 76 FR 46908 (August 3, 2011).
    \7\ 6 U.S.C. 488.
---------------------------------------------------------------------------
    We do agree with the Action Plan proposal to integrate into a 
single cadre ANSP and CFATS inspectors. Dual training inspectors to 
function interchangeably under both programs will optimize the use of 
these resources. We believe ISCD has the authority to do this 
administratively, though union issues may complicate the merger. 
Congress should monitor this situation.
                               conclusion
    The commercial explosives industry has a long history of attention 
to the safety and security of the products that we produce. We look for 
opportunities to partner with DHS and ISCD to address shared concerns. 
On the matter of personnel vetting in both the CFATS and ANSP programs, 
we regret that ISCD has not yet been responsive to our suggestions to 
leverage existing equivalent Federal programs to accomplish this task. 
The cost to American taxpayers, industry, and the Government to stand 
up redundant vetting programs has not been justified. Thank you for 
your attention to these concerns.
            Respectfully submitted by,
                                            Cynthia Hilton,
                                          Executive Vice President.
                                 ______
                                 
  Prepared Statement of the National Emergency Management Association
                              introduction
    Thank you for the opportunity to submit this statement for the 
record regarding the fiscal year 2012 budget for the Department of 
Homeland Security (DHS). As president of the National Emergency 
Management Association (NEMA) I represent the emergency management 
directors of all 50 States, territories, and the District of Columbia. 
Members of NEMA are responsible to the Governors for myriad 
responsibilities including emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural or terrorism-
related disasters.
                emergency management performance grants
    The highest priority for NEMA within the President's request is 
funding for the Emergency Management Performance Grants (EMPG). EMPG 
assists State and local governments in managing a variety of disasters 
and hazards providing the only source of Federal assistance to State 
and local government for all-hazards emergency management capacity 
building. Grantees utilize EMPG funds for personnel, planning, 
training, exercises, warning systems, public outreach, and other 
essential functions in establishing effective preparedness, mitigation, 
response, and recovery. This program is of considerable economic value 
to the Federal Government as all Federal funds are matched 50-50 by 
State and local governments. Such a matching requirement increases 
accountability and supplements the impact of valuable Federal dollars.
    This year, NEMA fully supports the President's requested funding 
level and House Appropriations Committee recommendation of $350 million 
for EMPG. We appreciate the resource constrained environment, but when 
compared to other grant programs, the 50-50 match allows EMPG to stand 
alone as a worthwhile investment of Federal funds. In many ways, EMPG 
offers a cost-savings by allowing States to manage disasters which 
would otherwise need to be addressed by the Federal Government.
    NEMA has taken the most significant step forward to date in 
attempting to measure the effectiveness of EMPG. For the past 2 years, 
NEMA has released ``Emergency Management Performance Grants: Providing 
Returns on a Nation's Investment.'' The report measures the 
effectiveness of funding provided EMPG in fiscal year 2010. It also 
ties individual State and local efforts into the far larger picture of 
overall preparedness by demonstrating how a truly national emergency 
management system is developed and supported.
    A copy of the report is available online at: [http://
www.nemaweb.org/
index.php?option=com_content&view=article&id=220&Itemid=402].
                    homeland security grant program
    Since the inception of the State Homeland Security Grant Program 
(SHSGP), NEMA has maintained support of these grants as critical 
resources to help State and local governments build and sustain 
capabilities to address the various threats and hazards they face. The 
time has come, however, to consider a better way forward in light of 
continuing budget cuts to these important programs. During the fiscal 
year 2012 budget discussions of last summer, the NEMA leadership 
decided on a new approach to the full suite of grants within the 
Federal Emergency Management Agency (FEMA) and the Department of 
Homeland Security (DHS). NEMA subsequently developed the Proposal for a 
Comprehensive Preparedness Grants Structure which has been previously 
submitted to your subcommittee for review.
    NEMA was pleased to see the administration also contribute to the 
dialogue of grant reform through the fiscal year 2013 budget proposal. 
While we were encouraged to see the administration's vision reflect 
many of our recommendations, NEMA strongly believes a continued 
dialogue with all stakeholders is necessary to ensure every voice is 
heard and every consideration given for the most effective approach to 
grants reform. We would suggest several aspects of the President's 
budget proposal require additional clarity and further analysis:
  --The current planning process must be upgraded to reflect the 
        maturation of our preparedness efforts in the past 10 years. A 
        truly comprehensive system must allow for each State and 
        locality to determine core capabilities, set priorities in a 
        flexible manner, and measure performance and effectiveness 
        regardless of available Federal funds.
  --Those cities traditionally categorized as ``tier 1'' in the Urban 
        Area Security Initiative (UASI) program should be directly 
        funded provided they also participate in the THIRA process and 
        comprehensive planning process. Furthermore, a process by which 
        other units of government such as transit and port authorities 
        or self-organized regions of governments such as other current 
        UASI participants can apply for funding should be outlined. 
        Giving direct funding without any requirement to work with or 
        support an overall State strategy, however, puts the State in 
        an untenable position as it continues to reward geographic 
        stovepipes and uncoordinated programs
  --The THIRA process must focus on State and local governments and 
        include consequences of loss in the analysis and provide the 
        analytical rigor for understanding and problem-solving for 
        complex issues. The system must also include the full range of 
        stakeholders including health, law enforcement, public works, 
        fire, land use, transportation, and the private sector. This 
        includes collaboration on planning, analysis, project 
        development, application review, and development of core 
        capabilities.
  --The administration's definition of ``regionalization'' in terms of 
        application review requires additional clarification. Such peer 
        review is best handled at the State level and should focus on 
        setting priorities for projects. Any national review should be 
        on the State priorities overall and not a micro review of 
        individual projects. Also, coordination of development of 
        specific national capabilities such as urban search and rescue 
        teams is necessary. NEMA addresses this issue through the 
        recommendation of a multi-disciplinary and multi-jurisdictional 
        committee comprised of stakeholders across the State to review 
        all grant applications.
      The review committee of Statewide stakeholders is critical to the 
        development of a governance structure which ensures all 
        partners and grantees to maintain a voice through a project-
        based grants process. The committee would also be responsible 
        for enabling the range of threats and hazards to be considered 
        across the full spectrum of State and local activities. Such a 
        committee promotes fairness, reduces the politicization of 
        grants, and allows a voice for every constituency.
  --Priorities and select projects for local governments, ports, and 
        other entities, or for those entities to work with each other 
        within each State and among the States on the highest value 
        projects cannot be dictated by Washington. The allocation 
        systems of the past pitted city against city and port against 
        port with very little consideration of the complex 
        relationships of our economic system. The NEMA proposal 
        recognizes and values these relationships. There must be a 
        marketplace of ideas where value is determined by collaboration 
        between applicants rather than cutthroat competition between 
        them with winners and losers.
  --NEMA suggests only a small amount of the total grant funding be 
        held by DHS for competitive pilot projects to spark innovation. 
        Competition at the project level cannot be calculated by 
        separate groups or reduced to subjective grading. Up to 5 
        percent of the funding should be utilized to support innovative 
        projects. The remainder of the funding from the investment 
        grant can then be devoted to project-based applications by 
        State and local grantees. This varies from the administration's 
        recommendation which continues to address grant funding through 
        stove-piped programs. By reducing layers of review that impede 
        the flexibility of the funding, an efficient and effective flow 
        of funding can be realized for State and local projects.
    Overall, the overarching principles and values remain at the heart 
of any grant reform. Few seem to disagree with the tenets of supporting 
PPD-8; building a culture of collaboration; the ability to be agile and 
adaptive to confront changing hazards; building and sustaining 
capabilities; encouraging innovation; providing full visibility to all 
stakeholders; and recognizing the interdependencies of our national 
systems. The importance of these principles and values highlight a 
critical point in any retrospective on homeland security grants. 
Regardless of our country's fiscal situation, physical security and 
economic security are not mutually exclusive and can be achieved with a 
more streamlined grant structure. Working with you and our stakeholder 
partners, we remain confident a prudent approach forward can be found.
                emergency management assistance compact
    We appreciate your continued support for the Emergency Management 
Assistance Compact (EMAC). NEMA continues to support a budget line item 
for EMAC for $2 million so the program may continue providing critical 
mutual aid resources across the country.
    In fiscal year 2013, specific funding for investment into EMAC is 
needed to continue to build capabilities. For example, 26 emergency 
management personnel responded to the September 11, 2001, terrorist 
attacks. Conversely, over 66,000 personnel from a variety of 
disciplines deployed through EMAC to the gulf coast in response to 
Hurricanes Katrina and Rita and 12,279 personnel to Texas and Louisiana 
during Hurricanes Gustav and Ike. The 2009 spring flooding in North 
Dakota and Minnesota resulted in States deploying equipment, sandbags, 
and 1,029 personnel to North Dakota. In all, 727 National Guard 
personnel and 302 civilians were sent to assist. Last year, over 600 
personnel were deployed in response to the floods and tornados in 
Missouri, North Dakota, Nebraska, South Dakota, Mississippi, Alabama, 
and Tennessee.
   emergency management and homeland security training and education
    Training and education opportunities stand as one of the most 
effective ways to ensure the continued professionalization of emergency 
management and homeland security personnel as well as to increase their 
abilities to best protect our Nation and communities. The two Federal 
Government programs representing the pedigree of these efforts are the 
Emergency Management Institute (EMI) and the Naval Postgraduate 
School's Center for Homeland Defense and Security (CHDS). Not only do 
these two institutions provide the ``gold standards'' within their 
respective professional education realms, they also provide leadership 
and share resources to support a collaborative effort among training 
and education efforts throughout the country.
    EMI directly supports the professional core competencies of 
emergency managers at the Federal, State, local, tribal, public, and 
private sectors. The Institute trains more than 2 million students 
annually with residential on-site programs, off-site programs in 
partnership with State and local emergency managers, and computer based 
E-learning. EMI has recently partnered with NEMA and the International 
Association of Emergency Managers to develop the National Emergency 
Management Academy. The Academy consists of five courses and provides a 
structured and progressive approach to acquire skills, knowledge, and 
abilities to meet career challenges in emergency management
    CHDS programs include a fully accredited master's degree program; 
executive education seminars for Governors, locally elected officials, 
and their senior department leaders; an Executive Leaders Program; a 
Fusion Center Leaders Program; a peer reviewed online academic journal; 
a university and agency partnership effort; and the world's largest 
online homeland security library. These endeavors by CHDS significantly 
advance the strategic and critical thinking abilities of emergency 
management and homeland security personnel in their daily 
responsibilities, policy deliberations, and relationships with senior 
leadership within their jurisdictions.
    NEMA supports the President's budget request of $17.8 million for 
EMI and the inclusion of language in the fiscal year 2013 
appropriations bill supporting the full funding of the Naval 
Postgraduate School's Center for Homeland Defense and Security (CHDS) 
by the Federal Emergency Management Agency (FEMA).
                               conclusion
    Again, I appreciate the opportunity to address these issues 
critical to the emergency management community. This subcommittee 
regularly affirms support for ensuring preparedness for our Nation's 
vulnerabilities against all-hazards. As you develop the fiscal year 
2013 budget for the Department of Homeland Security, we encourage you 
to utilize our membership as a resource and continue efforts to build a 
strong and robust emergency management baseline in our country. 
Together, we will carry-on the initiatives so thoughtfully developed by 
this subcommittee over the years. I thank you for the opportunity to 
testify on behalf of NEMA and appreciate your continued partnership.
                                            Mr. Jim Mullen,
                                                   President, NEMA.
     Director, Washington Military Department Emergency Management 
                                                          Division.
                                 ______
                                 
      Prepared Statement of the National Treasury Employees Union
    Chairman Landrieu, Ranking Member Coats, distinguished members of 
the subcommittee; thank you for the opportunity to provide this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) officers and trade enforcement 
specialists who are stationed at 331 land, sea, and air ports of entry 
(POEs) across the United States. CBP employees' mission is to protect 
the Nation's borders at the ports of entry from all threats while 
facilitating legitimate travel and trade. CBP trade compliance 
personnel enforce over 400 U.S. trade and tariff laws and regulations 
in order to ensure a fair and competitive trade environment pursuant to 
existing international agreements and treaties, as well as stemming the 
flow of illegal contraband such as child pornography, illegal arms, 
weapons of mass destruction, and laundered money. CBP is also a revenue 
collection agency, processing approximately $2 trillion of imports--28 
million trade entries a year--at the POEs and collecting more than $32 
billion in revenue for the U.S. Government in fiscal year 2010.
                   cbp staffing at the ports of entry
    There is perhaps no greater roadblock to legitimate trade and 
travel efficiency than the lack of sufficient staff at the ports. 
Understaffed ports lead to long delays in our commercial lanes as cargo 
waits to enter U.S. commerce.
    Those delays result in real losses to the U.S. economy. According 
to a draft report prepared by the Department of Commerce, border delays 
in 2008 cost the U.S. economy nearly 26,000 jobs and $6 billion in 
output, $1.4 billion in wages, and $600 million in tax revenues 
annually. According to the same report, by 2017, average wait times 
could increase to nearly 100 minutes, costing the United States more 
than 54,000 jobs and $12 billion in output, $3 billion in wages, and 
$1.2 billion in tax revenues. The cumulative loss in output due to 
border delays over the next 10 years is estimated to be $86 billion.
    More than 50 million Americans work for companies that engage in 
international trade, according to the U.S. Department of the Treasury. 
If Congress is serious about job creation, then Congress should support 
enhancing U.S. trade and travel by mitigating wait times at the ports 
and enhancing trade enforcement by increasing CBP security and 
commercial operations staffing at the air, sea, and land ports of 
entry.
    In October 2009, the Southwest Border Task Force, created by 
Homeland Security Secretary Janet Napolitano, presented the results of 
its staffing and resources review in a draft report. This draft report 
recommended that the ``Federal Government should hire more Customs [and 
Border Protection] officers.'' The report echoes the finding of the 
Border-Facilitation Working Group. (The U.S.-Mexico Border Facilitation 
Working Group was created during the bilateral meeting between 
President George W. Bush and President Felipe Calderon held in Merida 
in March 2007.) ``In order to more optimally operate the various ports 
of entry, CBP needs to increase the number of CBP officers. According 
to its own estimate, the lack of human resources only for the San 
Ysidro POE is in the `hundreds' and the CBP officer need at all ports 
of entry located along the border with Mexico is in the `thousands.''' 
(``CBP: Challenges and Opportunities,'' a memo prepared by Armand 
Peschard-Sverdrup for Mexico's Ministry of the Economy: U.S.-Mexico 
Border Facilitation Working Group, January 2008, pages 1 and 2.)
    Despite these independent studies that state that CBP is 
understaffed at ports of entry by thousands of officers, the fiscal 
year 2013 budget provides only enough personnel funding to maintain the 
current number of CBP officer, CBP agriculture specialist, and CBP 
trade operations positions.
    NTEU urges the subcommittee to increase funding to hire additional 
CBP officers and agriculture specialists to sufficiently staff existing 
booths and traffic lanes at the air, sea, and land ports of entry.
    Also of concern to NTEU in the fiscal year 2013 budget request is 
the decrease of $21 million in funding for inspectional overtime at the 
air, land, and sea ports of entry. CBP states that ``this reduction 
will not impact operational staffing.''
    Overtime is essential when staffing levels are insufficient to 
ensure that inspectional duties can be fulfilled, that officers have 
sufficient back-up and that wait times are mitigated. In CBP's own 
words, ``Overtime allows OFO to schedule its personnel to cover key 
shifts with a smaller total personnel number.'' This is one reason that 
Congress authorized a dedicated funding source to pay for overtime-- 
customs user fees, pursuant to title 19, section 58c (f) of the U.S. 
Code. CBP collects user fees to recover certain costs incurred for 
processing, among other things, air and sea passengers, and various 
private and commercial land, sea, air, and rail carriers and shipments.
    The source of these user fees are commercial vessels, commercial 
vehicles, rail cars, private aircraft, private vessels, air passengers, 
sea passengers, cruise vessel passengers, dutiable mail, customs 
brokers, and barge/bulk carriers. These fees are deposited into the 
customs user fee account. User fees are designated by statute to pay 
for services provided to the user, such as inspectional overtime for 
passenger and commercial vehicle inspection during overtime shift 
hours. In addition, APHIS user fees and immigration user fees also fund 
``fee-related'' inspection costs.
    User fees have not been increased in years and some of these user 
fees cover only a portion of recoverable fee-related costs. For 
example, CBP collects the extraordinarily low fee of $437 at arrival of 
a commercial vessel to a port to recover personnel and other costs to 
process and inspect the vessel's crew and cargo. This fee, however, is 
capped at $5,955 per calendar year; no matter how many times the 
commercial vessel enters a port that year. This fee was last raised 
from $397 to $437 in 2007, but the cap has remained at $5,955 since 
1986. In 2010, CBP collected a total of $19.9 million in commercial 
vessel user fees, but the actual cost of commercial vessel inspections 
in fiscal year 2010 was $33.6 million.
    Another example of an extraordinarily low user fee is the fee paid 
by railcar owners of $8.25 per car at arrival for processing and 
inspection, but the fee is capped at $100 per railcar per calendar 
year. In 2010, CBP collected a total of $8.6 million in rail car user 
fees, but the actual cost of rail car inspections in fiscal year 2010 
was $18.9 million. And commercial vehicles pay only $5.50 per vehicle 
at arrival for processing and inspection, but the fee is capped at $100 
per vehicle per calendar year. In 2010, CBP collected a total of $13.7 
million in commercial vehicle user fees, but the actual cost of 
commercial vehicle inspections in fiscal year 2010 was over $113.7 
million.
    According to Government Accountability Office (GAO), (GAO-12-464T, 
page 11), the air passenger immigration inspection user fee should be 
reviewed and adjusted to fully recover the cost of the air passenger 
immigration inspection activities conducted by U.S. Customs and 
Immigration (ICE) and CBP. GAO estimated that fee collections available 
to ICE and CBP to pay for costs incurred in providing inspection 
services totaled about $600 million in fiscal year 2010, however, ``air 
passenger immigration fees collections did not fully cover CBP's costs 
in FY 2009 and FY 2010.'' NTEU urges Congress to allow CBP to better 
align air passenger inspection fee revenue with the costs of providing 
immigration inspection services and adjust the fee as needed so that 
collections are aligned with total inspection costs.
    Also, according to the GAO, (GAO-12-464T, page 7), CBP has a $639.4 
million unobligated balance in its customs user fee account. These 
unobligated balances have remained in CBP's customs user fee account 
for more than 10 years. NTEU urges the subcommittee to clarify the 
purposes for which the nearly $640 million in unobligated balances in 
the customs user fee account is available. NTEU supports legislative 
changes necessary to allow CBP to use this customs user fee unobligated 
balance to fully fund inspectional overtime in fiscal year 2013 and 
recover other costs incurred for processing and inspection of 
international travelers and trade.
               trade enforcement and compliance staffing
    CBP has a dual mission of safeguarding our Nation's borders and 
ports as well as regulating and facilitating international trade. CBP 
personnel are responsible for collecting import duties and fees, and 
enforcing U.S. trade laws. In fiscal year 2010, CBP collected $32 
billion in revenue. Since CBP was established in March 2003, however, 
there has been no increase in CBP trade enforcement and compliance 
personnel and again, the fiscal year 2012 budget proposes no increase 
in FTEs for CBP trade operations personnel.
    In effect, there has been a CBP trade staffing freeze at March 2003 
levels and, as a result, CBP's revenue function has suffered. Recently, 
in response to an import specialists staffing shortage, CBP has 
implemented at certain ports a tariff sharing scheme resulting in 
certain ports being assigned only parts of the harmonized tariff 
schedule. This is a short-sighted solution that shortchanges taxpayers, 
trade compliant importers, and the Federal treasury.
    Also, the fiscal year 2013 budget requests $10 million for 
intellectual property rights (IPR) enforcement enhancement. The 
administration's request, however, includes no increase in CBP trade 
operations staff at the ports to implement this trade enforcement 
program.
    Lastly, the fiscal year 2013 budget request proposes to cut 21 
trade operations positions including 14 rulings and regulations 
staffers who are responsible for promulgating regulations and rulings, 
and providing policy and technical support to CBP, DHS, Treasury, 
Congress, and the importing community concerning the application of 
customs laws and regulations.
    NTEU urges the subcommittee not to cut CBP trade operations staff, 
but rather to increase funding to hire additional trade enforcement and 
compliance personnel, including import specialists, at the POEs to 
enhance trade revenue collection.
                     cbp career ladder pay increase
    NTEU commends the Department for increasing the journeyman pay for 
CBP officers and agriculture specialists. Many deserving CBP trade and 
security positions, however, were left out of this pay increase, which 
has significantly damaged morale.
    NTEU strongly supports extending this same career ladder increase 
to additional CBP positions, including CBP trade operations specialists 
and CBP seized property specialists. The journeyman pay level for the 
CBP technicians who perform important commercial trade and 
administration duties should also be increased from GS-7 to GS-9.
           ratio of cbp supervisors to frontline cbp officers
    CBP is continuing to increase the number of supervisors when a much 
greater need exists for new front-line hires. In terms of real numbers, 
since CBP was created, the number of new managers has increased at a 
much higher rate than the number of new front-line CBP hires. According 
to GAO, between October 2003 and February 2006, CBP increased the 
number of managers by 17 percent, but increased the number of front-
line CBP officers by only 2 percent (See GAO-06-751R, page 11).
    The tremendous increase in CBP managers and supervisors has come at 
the expense of national security preparedness and front-line positions. 
Also, these highly paid management positions are straining the CBP 
budget.
                            recommendations
    Sufficient CBP staffing must be provided to ensure security and 
mitigate prolonged wait times for both trade and travel at our Nation's 
ports of entry. Therefore, NTEU urges the subcommittee to include in 
its fiscal year 2013 DHS appropriations bill:
  --funding to significantly increase both port security and trade 
        enforcement staffing at the ports of entry; and
  --funding to extend enhanced pay and retirement recognition to 
        additional CBP personnel, including import and other commercial 
        operations specialists, CBP seized property specialists, and 
        CBP technicians.
    The more than 24,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously though 
our air, sea, and land ports. These men and women are deserving of more 
resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
subcommittee on their behalf.
                                         Colleen M. Kelley,
                                                National President.
                                 ______
                                 
Prepared Statement of the U.S. Council of the International Association 
                         of Emergency Managers
    Chairman Landrieu, Ranking Member Coats, and distinguished members 
of the subcommittee, I am Hui-Shan Walker, the emergency management 
coordinator for Hampton, Virginia. I have been a local government 
emergency manager for 12 years and before that worked for 5 years in 
the Red Cross' Disaster Services. I serve currently as the president of 
the U.S. Council of the International Association of Emergency Managers 
(IAEM-USA)\1\; and I am providing, on its behalf, this statement on 
critical budget and policy issues for the Federal Emergency Management 
Agency (FEMA).
---------------------------------------------------------------------------
    \1\ IAEM-USA is our Nation's largest association of emergency 
management professionals, with 5,000 members including emergency 
managers at the State and local government levels, tribal nations, the 
military, colleges and universities, private business, and the 
nonprofit sector. Most of our members are U.S. city and county 
emergency managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks.
---------------------------------------------------------------------------
    Regarding FEMA's fiscal year 2013 budget, IAEM-USA supports funding 
the Emergency Management Performance Grant at $350 million and the 
Emergency Management Institute at $18,305,000. IAEM-USA opposes the 
termination of the Pre-Disaster Mitigation Program. We urge rejection 
of the National Preparedness Grant Program proposal until adequate 
details are available and key local stakeholders have had input. We 
deeply appreciate the support this subcommittee has provided to the 
emergency management community over the past few years, particularly 
your support for the Emergency Management Performance Grant Program 
(EMPG).
             emergency management performance grants (empg)
    IAEM-USA respectfully urges that the subcommittee approve the 
President's request of $350 million for EMPG, but continue to reject 
combining it with other accounts. EMPG is fundamentally different than 
the post-September 11, 2001, homeland security grants because of its 50 
percent Federal and 50 percent State and local matching requirements 
and established performance measures. It also pre-dates the homeland 
security grants by over 50 years. We further request that language be 
included continuing to make it clear the funding is all hazards and can 
be used for personnel. The program was authorized at $950 million for 
fiscal year 2012 in Public Law 110-53.
    EMPG, called ``the backbone of the Nation's emergency management 
system'' in an appropriations conference report, constitutes the only 
source of direct Federal funding for State and local governments to 
provide basic emergency coordination and planning capabilities for all 
hazards including those related to homeland security. The program is 
authorized by Public Law 110-53 for the Administrator of FEMA ``to make 
grants to States to assist State, local, and tribal governments in 
preparing for all hazards, as authorized by the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (42 U.S.C. 5121 et 
seq.).'' The legislation creating EMPG is purposefully broad to allow 
State, local, and tribal jurisdictions to focus their attention on 
customizing their capabilities. Therefore, it is important that FEMA 
guidance not be written to make ``one size fits all'' but instead to 
allow each local jurisdiction maximum flexibility in meeting the 
specific capability requirements. The program supports State and local 
initiatives for planning, training, exercise, mitigation, public 
education, as well as response and recovery coordination during actual 
events. EMPG succeeds in achieving its goal. As the 2011 IAEM-USA 
survey report, ``Emergency Management Performance Grant Funds: Return 
on Investment at the Local Level,'' demonstrated, EMPG funds contribute 
to bring about coordination, integration, and collaboration within 
local level jurisdictions across the country. The report on our fifth 
annual IAEM-USA survey of EMPG is available at: [http://www.iaem.com/
documents/IAEM.EMPG.ROI.Survey.Report3.5.12.pdf]. Since all disasters 
start and end at the local level, it is vital that capacity continue to 
be built at this level.
    Funding from EMPG has always been important to local government 
emergency management offices and is even more vital during the current 
economic downturn. The programs of most of our local emergency managers 
have faced, or will be facing, budget reductions resulting in reduced 
staffing, reduced training, reduced public outreach, and reduced 
support to volunteers. Some elected officials are considering reducing 
their commitment from a full-time emergency manager to a part-time 
emergency manager. Some jurisdictions are terminating the emergency 
management position altogether and simply adding the responsibilities 
associated with emergency management functions to pre-existing 
personnel in other departments. This has the effect of actually 
reducing emergency management services--and potentially preparedness--
in many areas of the country at a time when disasters and emergencies 
threaten more people and property than ever before. EMPG funding 
frequently makes a difference as to whether or not a qualified person 
is present to perform these duties in local jurisdictions. It should be 
noted that many local emergency management programs have historically 
provided significantly more than the 50 percent match that is required 
for their EMPG allocations.
                     emergency management institute
    We respectfully urge the subcommittee to increase the funding for 
the Emergency Management Institute (EMI) located at Emmitsburg, 
Maryland, by $500,000 to $18,305,000. The additional funds will support 
continued development and delivery of the National Emergency Management 
Academy foundation classes and support the development of training at 
the specialty and executive management levels, to include the 
enhancement of the field (G) and on-campus (E) courses. These programs 
support both the introductory training and continued professional 
development of Federal, State, local, and tribal emergency managers 
across the Nation. IAEM-USA urges you to again specifically designate 
funding for EMI in your subcommittee report and to require FEMA to 
include a specific request in the budget documents.
    EMI provides vitally needed training to State, local, and tribal 
government emergency managers through on-campus classes, a curriculum 
developed for field deployment and distance learning. This ``crown 
jewel'' of emergency management training and doctrine has made progress 
over the past 2 years with the funding support of Congress in the 
update and development of critically needed programs. Sustained funding 
for the continuance of existing programs and funds to complete the much 
needed executive management series of courses are vital to supporting 
local and tribal emergency management programs. For 2011-2012 EMI had 
more than 5.5 million active students; 39,559 classroom course 
completions, and 2,275,174 independent study program outline course 
completions.
                        pre-disaster mitigation
    We urge the subcommittee to reject the proposal to terminate the 
Pre-Disaster Mitigation Program and provide a minimum of $35,500,000 as 
appropriated in fiscal year 2012. A congressionally mandated 
independent study by the Multi-Hazard Mitigation Council, a council of 
the National Institute of Building Sciences, showed that on the 
average, $1 spent by FEMA on hazard mitigation (actions to reduce 
disaster losses) provides the Nation about $4 in future benefits.
                  national preparedness grant program
    The proposed National Preparedness Grant Program (NPGP) would 
consolidate 16 homeland security grant programs into a State-centric 
block and competitive grant program. The proposal raises concerns and 
questions for those at the local level. For example, the proposal 
ignores requirements of the 9/11 Act for 80 percent of the State 
Homeland Security Grant program to support local governments, the place 
where all disasters begin and end. In addition, the proposed use of a 
threat and hazard identification and risk assessment (THIRA) does not 
describe how local government officials, local emergency managers, and 
first responders will participate effectively and efficiently in the 
THIRA process.
    In response to the proposed NPGP, 12 national organizations of 
locals including elected officials, first responders, and emergency 
managers sent a letter outlining a set of core principles to guide 
grant program reform--principles which we would urge you to consider as 
you evaluate reform proposals. This letter is available at the 
following site: [http://www.iaem.com/Committees/GovernmentAffairs/
GovtAffairs.htm#CoalitionLetter21Mar2012]. The principles are as 
follows:
  --Increased Transparency.--It must be clear and understandable to the 
        Federal Government and the public how the States are 
        distributing funds, why they are making these decisions, and 
        where the funds are going.
  --Greater Local Involvement.--Local government officials, including 
        emergency managers and emergency response officials, know best 
        the threats and vulnerabilities in their areas. The THIRA 
        process must include the input of local elected and emergency 
        response officials, and FEMA must be able to audit States by 
        comparing local risk assessments to the State level THIRA. 
        Further, local governments should have the opportunity to 
        challenge a State THIRA that inadequately reflects their needs 
        or input.
  --Flexibility With Accountability.--Any changes to the existing 
        Federal grant programs should allow Federal funding to meet 
        individual local needs, and preparedness gaps as identified at 
        the local level. Effective but sometimes less politically 
        popular programs, like mitigation, must still receive funding.
  --Protect Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should support 
        primarily local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        the vast majority of Federal homeland security grants continue 
        to fund local prevention and response activities, including 
        local emergency managers and first responders, and activities 
        that support their preparedness efforts.
  --Sustain Terrorism Prevention.--The current emphasis on supporting 
        law enforcement's terrorism prevention activities must be 
        maintained. The Federal grant funds should not be used to 
        support larger State bureaucracies at the expense of 
        operational counter terrorism preparedness, threat analysis, 
        and information-sharing activities.
  --Incentives for Innate Regionalization.--FEMA's proposal focuses on 
        States and multi-State regions (similar to the FEMA regions). 
        The homeland security grants must also support preparedness in 
        metropolitan intra-State and inter-State regions.
                      the path forward on the npgp
    The details matter and there are still too many unanswered 
questions on how the NPGP would actually work. We recommend that the 
dialogue continue with DHS/FEMA, the Congress and all relevant State 
and local stakeholders. On April 24, a letter was sent by 12 national 
organizations of locals to Secretary Napolitano and Administrator 
Fugate suggesting that the Department not rush to make major changes 
this year but let the changes being implemented in the fiscal year 2012 
budget play out and be evaluated. This would give time for the 
Department to work with key local and State stakeholders and the 
Congress in a collaborative way to develop reforms which incorporate 
the successful elements of the homeland security programs and identify 
changes which need to be made.
                               conclusion
    In conclusion, we urge the subcommittee to continue to build State 
and local emergency management capacity by funding EMPG at $350 million 
and to retain it as a separate account. We urge funding for the 
Emergency Management Institute be increased by $500,000 to $18,305,000 
and the amount be specifically mentioned in the subcommittee report. We 
urge that the Pre-Disaster Mitigation program not be terminated. We 
urge rejection of the NPGP proposal until more details are available 
and more collaboration with key stakeholders has occurred.
                                    Hui-Shan Walker, CEM ,
                                                         President.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Airports Council International-North America, Prepared Statement 
  of.............................................................   123
American Public Transportation Association, Prepared Statement of 
  the............................................................   125
American Rivers, Prepared Statement of...........................   128
Arctic Slope Regional Corporation, Prepared Statement of the.....   129
Association of State Floodplacin Managers, Inc., Prepared 
  Statement of the...............................................   130

Coats, Senator Daniel, U.S. Senator From Indiana:
    Questions Submitted by.......................................    66
    Statements of................................................ 6, 86
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Questions Submitted by......................................77, 119
    Statement of.................................................    89

Fleet Reserve Association, Prepared Statement of the.............   131

Herron, Bob, State Representative, Alaska House of 
  Representatives, Letter From...................................    35

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Question 
  Submitted by...................................................    62
Institute of Makers of Explosives, Prepared Statement of the.....   135

Landrieu, Senator Mary L., U.S. Senator From Louisiana:
    Opening Statements of........................................ 1, 83
    Prepared Statements of....................................... 5, 85
    Questions Submitted by......................................44, 115
Lautenberg, Senator Frank R., U.S. Senator From New Jersey:
    Questions Submitted by.......................................    60
    Statements of................................................ 7, 87
Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by...................................................    63

Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by.......................................   120
    Statement of.................................................    88

Napolitano, Janet, Secretary, Department of Homeland Security....     1
    Prepared Statement...........................................    11
    Statement of.................................................     8
National Emergency Management Association, Prepared Statement of 
  the............................................................   137
National Treasury Employees Union, Prepared Statement of the.....   140

Papp, Admiral Robert J., Jr., Commandant, U.S. Coast Guard, 
  Department of Homeland Security................................    83
    Prepared Statement of........................................    93
    Statement of.................................................    90

U.S. Council of the International Association of Emergency 
  Managers, Prepared Statement of the............................   143


                             SUBJECT INDEX

                              ----------                              

                     DEPARTMENT OF HOMELAND SECUITY

                                                                   Page

Additional Committee Questions...................................    44
Air Freight Security Fees........................................    42
Aircraft Recapitalization........................................    78
Airport Security Breaches........................................    60
Aviation Fee:
    Increase.....................................................    39
    Structure....................................................    41
Border Security Technology.......................................    56
Borders:
    Improving Trade Processing at Our Land.......................    45
    Securing and Managing Our....................................    17
Budget Priorities................................................14, 66
Centers of Excellence............................................    62
Coast Guard:
    Capital Investment Plan......................................    39
    Mission in Arctic Ocean......................................    37
    Personnel....................................................    37
    Polar Icebreakers............................................    50
    Research and Development.....................................    79
    Vessels......................................................    29
Compact of Free Association......................................    62
Critical Infrastructure..........................................    23
Customs and Border Patrol (CBP):
    Air and Marine...............................................    47
    Northern Border Staffing.....................................    63
    Operations, Continued Cuts to Critical.......................    57
    Wait Times...................................................    61
Cybersecurity....................................................73, 80
    Bills........................................................    26
    Education--Cyber Innovation Center...........................    45
    Increase for the Federal Network.............................    59
    Interagency Agreement........................................    22
Cyberspace, Safeguarding and Securing............................    19
Decommissioning..................................................    78
Detention Beds...................................................    58
Disaster Funding.................................................    29
Disasters, Ensuring Resilience to................................    20
Disease Outbreak, Potential Consequences of......................    40
Drug Transit Zone Mission Responsibilities.......................    69
Efficiency and Effectiveness, Maximizing.........................    12
E-Verify Extension...............................................    59
Federal:
    Emergency Management Agency (FEMA):
        Disaster:
            Assistance to Vermont................................    64
            Relief Fund..........................................    72
        Predisaster Mitigation...................................    60
    Employee Issues..............................................    64
    Flight Deck Officer (FFDO) Program...........................    52
Financial Management Controls....................................    67
Flood Plains and Map.............................................    42
Global Positioning System (GPS)..................................    61
Grant Programs Funding...........................................    27
Grants...........................................................    24
Immigrant Integration and Citizenship Grants.....................    73
Immigration Laws, Enforcing and Administering Our................    18
International Screening Programs.................................    55
Jones Act Waivers and the Strategic Petroleum Reserve............    49
Land Ports of Entry (LPOEs)......................................    46
Levees...........................................................    32
    And Dams.....................................................    80
Management Efficiencies..........................................    68
National:
    And Economic Security, Providing Essential Support to........    22
    Bio and Agro-Defense Facility (NBAF).........................    30
        Plum Island..............................................    33
    Domestic Preparedness Consortium--Competition Proposal.......    52
    Emergency Response Capabilities Report.......................    38
    Guard........................................................    54
        Support for Border Patrol................................    68
    Security Cutters (NSCs)..................................36, 77, 79
Northern Border..................................................    54
Nuclear Detection................................................    81
Office of Health Affairs (OHA)...................................    70
Oil Exploration off the Cuban Coast..............................    50
Operation Stonegarden............................................    53
Overseas Vetted Investigative Units..............................    69
Pay and Hiring...................................................    24
Plum Island National Bio and Agro-Defense Facility...............    33
Polar Icebreakers................................................    34
Public Land Laws.................................................    33
Secure Communities...............................................    57
Security, Preventing Terrorism and Enhancing.....................    14
Sequestration....................................................    44
Smuggling........................................................    62
St. Elizabeths DHS Headquarters Project..........................    67
State and Local:
    Grant Funding................................................    61
    Grants: National Preparedness Grant Program..................    72
Strategic Petroleum Reserve:
    Jones Act Waivers and the....................................    49
    Office (SPRO)................................................    43
Terrorism and Enhancing Security, Preventing.....................    14
Trade Processing at Our Land Borders, Improving..................    45
Transportation Security Administration (TSA) Advanced Imaging 
  Technolo- 
  gy.............................................................    59
U.S. Citizenship and Immigration Services (USCIS) Marriage-Based 
  Immigration....................................................    64
Unmanned Aerial Vehicles (UAVs)..................................    79
Urban Area Security Initiative (UASI) Grants.....................    60
US-VISIT:........................................................
    Delayed Fiscal Year 2011 Expenditure Plan....................    55
    Proposed Reorganization......................................    54
    Transfer of..................................................    70

                            U.S. Coast Guard

Additional Committee Questions...................................   115
Arctic Operations................................................   116
Bayonne Bridge Project...........................................   101
Budget Request, Fiscal Year 2013.................................94, 95
C-27J Aircraft...................................................   118
Critical Missions, Fulfilling....................................   102
Drug Interdiction................................................   102
Fast Response Cutters (FRCs):....................................
    Number of....................................................   113
    Production...................................................    98
Housing and Child Care Facilities................................   109
Icebreakers......................................................   103
Innovative Financing Solutions...................................   106
Military Families, Support for...................................   115
National Security Cutter (NSC):
    Cost.........................................................   114
    Possible Shared Fleet With Navy..............................    99
Panama Canal.....................................................   118
Port Clarence Loran Station......................................   120
Semi-Submersibles ``Drug Subs''..................................   118
Shore-Side Support Assets........................................   111
Unmanned Maritime Vehicles (UMVs)................................   119

                                   - 

</pre></body></html>
